No. 20-222

In the Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

JOINT APPENDIX
(VOLUME 2; PAGES 401-804)

KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel of Record
for Petitioners

THOMAS C. GOLDSTEIN
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
Counsel of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: AUGUST 21, 2020
CERTIORARI GRANTED: DECEMBER 11, 2020

TABLE OF CONTENTS

Page
VOLUME 1

Court of appeals docket entries (No. 18-3667) ................... 1
Court of appeals docket entries (No. 16-250) ..................... 5
District court docket entries (No. 10-3461) ........................ 8
Goldman Sachs 2007 Form 10-K: Conflicts Warning
(D. Ct. Dkt. No. 78-6) .................................................... 23
Goldman Sachs 2007 Annual Report: Business
Principles (D. Ct. Dkt. No. 143-16) ............................. 30
Financial Times, Markets & Investing, “Goldman’s
risk control offers right example of governance,”
Dec. 5, 2007 (D. Ct. Dkt. No. 193-20) .......................... 34
Dow Jones Business News, “13 Reasons Bush’s
Bailout Won’t Stop Recession,” Dec. 11, 2007
(D. Ct. Dkt. No. 170-24) ................................................ 37
The Wall Street Journal, “How Goldman Won Big
on Mortgage Meltdown,” Dec. 14, 2007 (front
page) (D. Ct. Hearing Ex. T) ....................................... 42
The New York Times, Off the Shelf, “Economy’s
Loss Was One Man’s Gain,” Dec. 6, 2009
(D. Ct. Hearing Ex. II) ................................................. 54
Goldman Sachs Press Release, “Goldman Sachs
Responds to The New York Times on Synthetic
Collateralized Debt Obligations,” Dec. 24, 2009
(D. Ct. Dkt. No. 143-28) ................................................ 58
The New York Times, “Banks Bundled Debt, Bet
Against It and Won,” Dec. 24, 2009 (front page)
(D. Ct. Hearing Ex. JJ)................................................. 61
Complaint, SEC v. Goldman, Sachs & Co.,
Civ. No. 10-3229 (S.D.N.Y. Apr. 16, 2010)
(D. Ct. Dkt. No. 155-3) .................................................. 74
Goldman Sachs E-mail Re: GS and Peers (After the
Bell), Apr. 16, 2010 (D. Ct. Dkt. No. 197-8) ................ 99

(I)

II
Page
SEC Litigation Release No. 21489, “Goldman, Sachs
& Co. and Fabrice Tourre,” Apr. 16, 2010
(D. Ct. Dkt. No. 155-4) ................................................ 101
Reuters, Business News, “Goldman Sachs charged
with fraud by SEC,” Apr. 16, 2010
(D. Ct. Hearing Ex. FFF) .......................................... 104
Chicago Tribune, “SEC lawsuit alleges Goldman
Sachs fraud,” Apr. 17, 2010
(D. Ct. Dkt. No. 155-6) ................................................ 113
The Associated Press, Business News, “Fraud
charge deals big blow to Goldman’s image,”
Apr. 18, 2010 (D. Ct. Dkt. No. 155-5) ........................ 116
The Wall Street Journal, “Where’s the Goldman
Sachs That I Used to Know,” Apr. 21, 2010
(D. Ct. Dkt. No. 155-7) ................................................ 122
The Wall Street Journal, “Criminal Probe Looks
Into Goldman Trading,” Apr. 30, 2010
(D. Ct. Dkt. No. 170-63) .............................................. 127
The Wall Street Journal, “How Goldman Gets Its
Premium Back,” May 21, 2010
(D. Ct. Dkt. No. 201-11) .............................................. 131
Financial Times, “US Regulators step up probe of
second Goldman mortgage deal,” June 10, 2010
(D. Ct. Hearing Ex. PPPP) ........................................ 136
Consent of Defendant Goldman, Sachs & Co., SEC
v. Goldman, Sachs & Co., Civ. No. 10-3229
(S.D.N.Y. July 14, 2010) (D. Ct. Dkt. No. 197-4) ..... 138
Consolidated class action amended complaint,
Arkansas Teacher Retirement System, et al.
v. Goldman Sachs Group, Inc., et al., Civ. No.
10-3461 (S.D.N.Y. July 25, 2011) (D. Ct. Dkt. No.
68) ................................................................................... 150

III
Page
Opinion and order granting in part and denying in
part defendants’ motion to dismiss, June 21,
2012 (D. Ct. Dkt. No. 85)............................................. 306
Memorandum and order denying defendants’
motion for reconsideration, June 23, 2014
(D. Ct. Dkt. No. 122).................................................... 339
Viniar testimony, Oct. 28, 2014
(D. Ct. Dkt. No. 197-9) ................................................ 350
Finnerty deposition testimony (excerpts), Mar. 19,
2015 (D. Ct. Dkt. No. 193-68) ..................................... 352
Porten deposition testimony (excerpts), May 1, 2015
(D. Ct. Dkt. No. 155-8) ................................................ 355
Finnerty expert report (excerpts), May 22, 2015
(D. Ct. Dkt. No. 170-10) .............................................. 366
VOLUME 2

Gompers expert report, July 2, 2015
(D. Ct. Dkt. No. 170-1) ................................................ 401
Choi expert report (excerpts), July 2, 2015
(D. Ct. Dkt. No. 170-2) ................................................ 517
Starks expert report (excerpts), July 2, 2015
(D. Ct. Dkt. No. 170-3) ................................................ 584
Finnerty rebuttal report (excerpts), Aug. 7, 2015
(D. Ct. Dkt. No. 170-11) .............................................. 637
Gompers deposition testimony (excerpts), Sept. 9,
2015 (D. Ct. Dkt. No. 155-1) ....................................... 660
Starks deposition testimony (excerpts), Sept. 22,
2015 (D. Ct. Dkt. No. 201-16) ..................................... 666
Finnerty deposition testimony (excerpts), Oct. 1,
2015 (D. Ct. Dkt. No. 193-69) ..................................... 670
Chart: Public Allegations of Goldman Sachs Client
Conflicts on 36 Dates Prior to Plaintiffs’
“Corrective Disclosure” Dates, Apr. 13, 2018
(D. Ct. Dkt. No. 193-2) ............................................... 689

IV
Page
Plaintiffs’ Analysis of Defendants’ News Articles on
the 36 Dates Purportedly Reporting on
Goldman’s Conflicts of Interest, Apr. 27, 2018
(D. Ct. Dkt. No. 201-1) ................................................ 695
Evidentiary Hearing: Finnerty direct examination
and cross examination (excerpts), July 25, 2018
(D. Ct. Dkt. No. 233).................................................... 746
Evidentiary Hearing: Gompers cross examination
(excerpts), July 25, 2018 (D. Ct. Dkt. No. 233) ........ 791
VOLUME 3 (Supplemental Joint Appendix)

CIBC World Markets, Equity Research Earnings
Update, Goldman Sachs Group, Jan. 29, 2007
(D. Ct. Dkt. No. 201-5) ................................................ 805
Merrill Lynch Company Update, Goldman Sachs
Group, Mar. 13, 2007 (D. Ct. Dkt. No. 201-6)........... 819
The Buckingham Research Group, Goldman Sachs
Rating, June 17, 2008 .................................................. 835
Merrill Lynch Company Update, Goldman Sachs
Group, July 28, 2008 (D. Ct. Dkt. No. 201-7) ........... 840
Macquarie (USA) Equities Research, Goldman
Sachs Group, Apr. 19, 2010
(D. Ct. Dkt. No. 201-12) .............................................. 852
Wells Fargo, Equity Research, The Goldman Sachs
Group, Inc., Apr. 19, 2010
(D. Ct. Dkt. No. 201-14) .............................................. 858
Citi Report, Goldman Sachs Group, Inc. (GS), May
2, 2010 (D. Ct. Dkt. No. 201-13) ................................. 865
Bernstein Research, Goldman Sachs: Management
Speaks Frankly About the Future of the Firm,
May 4, 2010 (D. Ct. Dkt. No. 201-15) ........................ 881
Plaintiffs’ class certification hearing opening
argument demonstratives, July 25, 2018
(D. Ct. Dkt. No. 215) ................................................... 891

V
Page
Finnerty direct examination demonstratives, July
25, 2018 (D. Ct. Dkt. No. 215-1) ................................. 924
Lead plaintiffs’ summary of argument in further
support of class certification, July 26, 2018
(D. Ct. Dkt. No. 215-2) ................................................ 952

VI
The following opinions and orders have been omitted in
printing the joint appendix because they appear as
appendices to the petition for certiorari as follows:
Appendix A:

Court of appeals opinion,
April 7, 2020

Appendix B:

District court opinion,
August 14, 2018

Appendix C:

Court of appeals opinion,
January 12, 2018

Appendix D:

District court opinion,
September 24, 2015

Appendix E:

Court of appeals order denying
rehearing, June 15, 2020

401
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
No. 1:10-cv-03461-PAC
ECF Case
————
In re GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
This Document Relates To: ALL ACTIONS
————
REPORT OF PAUL GOMPERS, Ph.D.
July 2, 2015
————
Table of Contents
I.

Qualifications ...............................................

1

II. Assignment and Compensation ...................

2

III. Summary of Opinions...................................

3

IV. Background ...................................................

8

A. Allegations ...............................................

8

B. Event Study Analysis .............................

11

1. Summary of My Regression Model ...

13

2. Summary of Dr. Finnerty’s Regression Models ........................................

14

V. Dr. Finnerty Fails to Establish Loss
Causation ......................................................

16

A. Goldman’s Stock Price Movements on
the 18 Alleged Misstatement Dates Do

402
Not Establish that the Alleged
Misstatements Introduced Inflation
into Goldman’s Stock Price .....................

20

B. Goldman’s Stock Price Movements on
the Alleged Corrective Disclosure Dates
Do Not Establish that the Alleged
Misstatements Introduced Inflation
into Goldman’s Stock Price .....................

23

1. An Event Study Demonstrates that
Information
About
Goldman’s
Business Conflicts and Conflicts of
Interest Related to Goldman’s CDO
and Mortgage Businesses Was
Known Well Before the First Alleged
Corrective Disclosure Date and Did
Not Affect Goldman’s Stock Price. ....

24

2. On Other Days, Prior to the Alleged
Corrective Disclosures, Allegations
of Conflicts of Interest at Goldman
Were Publicly Discussed Without a
Statistically Significant Residual
Stock Price Movement .......................

42

3. Dr. Finnerty Fails to Link the
Information Released on the Alleged
Corrective Dates to the Alleged
Misstatements ...................................

44

4. Dr. Finnerty’s Analysis of the
Alleged Corrective Disclosure Days
Does Not Establish Loss Causation ..

46

VI. Dr. Finnerty’s Damages Methodology Is
Flawed, Unreliable, and It Overstates
Damages .......................................................

66

403
A. Calculating Damages in a Securities
Class Action and Dr. Finnerty’s
Approach .................................................

67

B. Dr. Finnerty’s Damages Methodology Is
Flawed and Unreliable ...........................

68

1. Goldman’s Residual Stock Price
Movement on April 16, 2010, April
30, 2010, and June 10, 2010
Cannot Be Used to Measure
Damages Because Dr. Finnerty Fails
to Remove the Impact of NonAllegation-Related
Confounding
Information ........................................

68

2. Dr. Finnerty’s Allocation of Damages
Across the Four CDOs Is Arbitrary,
Unscientific, and Without Basis .......

72

3. Dr. Finnerty’s Damages Model Is
Also
Unreliable
Because
It
Incorrectly
Assumes
Constant
Inflation Throughout the Class
Period .................................................

74

404
I. Qualifications
1. I am the Eugene Holman Professor of Business
Administration and Faculty Chair of the M.B.A.
Elective Curriculum at the Harvard Business School.
I teach courses and conduct research in corporate
finance, the structure and governance of public
and private companies, valuation of companies,
the behavior of institutional investors, and
entrepreneurial finance and management. I teach
these courses to Ph.D., M.B.A., and Executive
Education students. In addition to my teaching
responsibilities, I am a Research Associate at the
National Bureau of Economic Research. Before joining
the Harvard faculty in 1995, I was a member of the
faculty at the University of Chicago Graduate School
of Business, where I taught entrepreneurial finance
from 1993 to 1995. I received an A.B. in Biology from
Harvard College in 1987, an M.Sc. in Economics from
Oxford University in 1989, and a Ph.D. in Business
Economics from Harvard University in 1993.
2. In my career, I have written numerous case
studies and technical notes, and published articles
in peer-reviewed finance and economics journals
on valuation, venture capital and private equity
industries, and entrepreneurial finance. Many of these
case studies, notes, and research articles have directly
examined financial and valuation issues relating to
business entities. I am the coauthor of three books:
The Venture Capital Cycle (Editions 1 and 2) published
by MIT Press, The Money of Invention published by
Harvard Business School Press, and Entrepreneurial
Finance: A Casebook published by John Wiley & Sons,
Inc. I am an Associate Editor of the Journal of
Finance, Small Business Economics, and the Journal
of Private Equity, and a referee for a number of

405
academic journals, including the Journal of Financial
Economics, the Journal of Political Economy, the
Quarterly Journal of Economics, the Review of
Financial Studies, and the Journal of Law and
Economics. I have also served on the boards of
directors of several companies, including ZEFER,
Mercanteo, and OnTheFrontier.com. In addition, I
have advised firms on fundraising, future projections,
and valuation. I have also been a member of the
advisory boards of a number of venture capital funds
where my duties included valuation of companies. My
curriculum vitae, which contains a list of my
publications from the last 10 years, is included as
Appendix A.
3. I have served as an expert in numerous cases
concerning the following topics: factors affecting public
company securities prices, the valuation of public and
private companies, whether securities traded in
efficient markets, the custom and practice of venture
capital and private equity organizations, and the
terms and conditions of employment agreements at
entrepreneurial firms, as well as multiple matters in
which I have been asked to analyze alleged damages.
Courts have cited my findings favorably in rendering
their opinions, such as in IBEW Local 90 Pension Fund
v. Deutsche Bank AG et al. and Fener v. Belo Corp. et
al. I have been qualified to serve as an expert witness
in securities and valuation cases, and to provide
testimony as to alleged damages in a variety of
industries. A list of matters in which I have testified
in the last four years is attached as Appendix B to this
report.

406
II. Assignment and Compensation
4. I have been retained by counsel for The Goldman
Sachs Group, Inc. (“Goldman”), Lloyd C. Blankfein,
David A. Viniar, and Gary D. Cohn (collectively,
“Defendants”) to review and respond to the report of
Plaintiffs’ expert, Dr. John Finnerty, dated May 22,
2015 concerning loss causation and damages
(“Finnerty Report”).1
5. I am being compensated at my standard billing
rate of $900 per hour. I have been assisted in
this matter by staff of Cornerstone Research, who
worked under my direction. I have received and
anticipate that I may receive future compensation
from Cornerstone Research that reflects, among other
things, my relationship with that firm as an expert on
this and other corporate and client matters. Neither
1

Expert Report of John D. Finnerty, Ph.D. in Support of
Loss Causation and Damages, filed May 22, 2015. Previously,
Dr. Finnerty submitted a declaration in support of Plaintiffs’
Motion for Class Certification, filed on January 30, 2015
(Declaration of John D. Finnerty, Ph.D. in Support of Lead
Plaintiff’s Motion for Class Certification, filed January 30, 2015
(“Finnerty Declaration”)). I submitted a response to the Finnerty
Declaration on April 6, 2015 (Declaration of Paul Gompers, Ph.D.,
filed April 6, 2015 (“Gompers Declaration”)). Dr. Finnerty
submitted a rebuttal declaration on May 15, 2015 (Rebuttal
Declaration of John D. Finnerty, Ph.D. in Support of Lead
Plaintiffs’ Motion for Class Certification, filed May 15, 2015
(“Finnerty Rebuttal Declaration”)). I submitted a surreply
declaration on June 23, 2015 (Reply Declaration of Paul Gompers,
Ph.D., filed June 23, 2015 (“Gompers Surreply Declaration”)).
Dr. Finnerty testified in a deposition on March 19, 2015
(Deposition of John D. Finnerty, Ph.D. on March 19, 2015
(“Finnerty Deposition”)) and I testified in a deposition on
April 30, 2015 (Deposition of Paul A. Gompers, Ph.D. on April 30,
2015 (“Gompers Deposition”)).

407
my compensation in this matter nor my compensation
from Cornerstone Research is in any way contingent
or based on the content of my opinion or the outcome
of this or any other matter.
6. A list of documents, data, and other information
that I have considered in forming the opinions set
forth in my report is attached hereto as Appendix C.
My work on this matter is ongoing. The opinions
presented in this report are a result of the information
available to me as of the report date, and I reserve the
right to revise or supplement my opinions in response
to further information or documents.
III. Summary of Opinions
7. Based on my review of Dr. Finnerty’s loss
causation and damages report, I conclude:


Dr. Finnerty fails to establish loss
causation—i.e., that the alleged misstatements directly caused Goldman’s shareholders’ economic losses, either by causing
Goldman’s stock price to increase or by
preventing Goldman’s stock price from
declining.
o Dr. Finnerty fails to show that Goldman’s
stock price was inflated (or increased)
as a result of the alleged misstatements on
the 18 misstatement days. In fact, Dr.
Finnerty concedes that Goldman’s stock
price did not increase due to the alleged
misstatements.
o Rather, under Dr. Finnerty’s theory of loss
causation, the impact of the alleged fraud
did not become evident until it was
disclosed in April and June 2010. Dr.

408
Finnerty’s assertion is flawed and
unreliable because he merely observes
residual stock price declines on those
dates and makes an unsupported
assumption that all news released on
those days constituted new allegationrelated information. Dr. Finnerty does not
distinguish between allegation and nonallegation information and does not
establish whether the alleged corrective
information was actually new to the
marketplace. Specifically:


Dr. Finnerty baselessly dismisses
compelling evidence contradicting his
assertion. I find that (a) the information regarding Goldman’s potential
conflicts of interest and Goldman’s
alleged collateralized debt obligations
(“CDO”) practices that Dr. Finnerty
claims Goldman failed to disclose to
investors was publicly known in the
marketplace prior to the first alleged
corrective disclosure on April 16, 2010;
and (b) when such information was
discussed publicly, it did not cause
Goldman’s stock price to decline.


Dr.
Finnerty’s
claim
that
Goldman’s “denials” on those days
“thwarted” any stock price effect
is without basis. For many of
those days, Dr. Finnerty does not
indicate that Goldman “denied”
wrongdoing and yet Goldman’s
residual stock price movement was
not statistically significant on those

409
days either. Dr. Finnerty also
ignores that Goldman denied
wrongdoing on April 16, 2010, one
of the days that Dr. Finnerty claims
revealed the partial truth about
Goldman’s alleged misstatements.
Dr. Finnerty further offers no
reliable methodology to distinguish
denials that were effective from
those that were not.


Dr. Finnerty fails to link the alleged
corrective information released on
the four alleged corrective disclosure
dates back to specific statements or
disclosures that Goldman allegedly
should have made to its equity
investors on the alleged misstatement
dates. Thus, Dr. Finnerty has not
established that the informationthat
was released on the alleged corrective
disclosures rendered the alleged
misstatements to be false.



In analyzing the alleged corrective
disclosure dates on which Goldman’s
residual stock price movements were
statistically significant, he fails to
account for confounding information
also released on those dates—
information that could not reasonably
have been released or predicted on the
alleged misstatement dates.


On April 16, 2010, an unusually
aggressive U.S. Securities and
Exchange Commission (“SEC”)

410
enforcement
action
Goldman was announced.



against



On April 30, 2010, there was public
discussion of a purported U.S.
Department of Justice (“DOJ”)
investigation
into
Goldman’s
“mortgage-related transactions.”



On June 10, 2010, there was public
discussion of a purported SEC
investigation into the Hudson
Mezzanine Funding 2006-1, Ltd.
(“Hudson”) CDO.

Dr. Finnerty fails to explain how
Goldman’s
residual
stock
price
movement on April 26, 2010 is
consistent with the removal of
inflation. On that day—a day that
Plaintiffs’ Complaint alleges included
the release of new information about
Goldman’s
alleged
misconduct—
Goldman’s
residual
stock
price
movement was not statistically
significant
(i.e.,
could
not
be
distinguished from random price
movements). The fact that Goldman’s
stock did not react to what, according
to Plaintiffs, was important new
information correcting the alleged
misstatements—on the only alleged
corrective disclosure date without an
announcement of a governmental
action
or
investigation—provides
further evidence that Goldman’s stock
price declines on the other three
corrective disclosure dates were caused

411
by information about governmental
enforcement actions or investigations
and not a correction of the alleged
misstatements.




Dr. Finnerty ignores that, with
regard to April 30, 2010 and June 10,
2010, there was no new information
about Goldman’s alleged misconduct
released into the marketplace on those
days, and, therefore, the alleged
misstatements could not have been
corrected on those dates.


On April 30, 2010, Dr. Finnerty
points only to a news article that
describes
a
purported
DOJ
investigation in general terms and
as related to “mortgage-related
transactions.”



On June 10, 2010, Dr. Finnerty
identifies only news of an SEC
investigation into the Hudson CDO
but he does not identify any new
information or allegations about
Goldman’s conduct with respect
to the Hudson CDO subsequent
to e-mail releases and Senate
testimony, all of which was known
prior to April 27, 2010.

Dr. Finnerty’s damages model is flawed,
unscientific, and, even assuming liability, it
overstates damages.
o Dr. Finnerty’s damages model is flawed
and overstates damages because it is
based entirely on Goldman’s residual

412
stock price movements on the three
corrective disclosure dates on which
Goldman’s residual stock price movement
was statistically significant—April 16,
2010, April 30, 2010, and June 10, 2010—
and assumes that 100 percent of
Goldman’s residual stock price movement
on each day is due to the correction of the
alleged misstatements. Dr. Finnerty
fails to exclude the effects on Goldman’s
stock price of non-allegation-related
information also released on those days.
o With respect to April 30, 2010,
Dr. Finnerty arbitrarily, and without
providing any basis, bases his damages
calculation on attributing one-third of
Goldman’s residual stock movement on
that day to the Hudson CDO, one-third to
the Anderson Mezzanine Funding 2007-1,
Ltd. (“Anderson”) CDO, and one-third to
the Timberwolf I, Ltd. (“Timberwolf”)
CDO, without making any effort to
explain why these CDO offerings are
sufficiently similar so as to deserve
identical weighting.
o With respect to April 30, 2010 and
June 10, 2010, Dr. Finnerty not only
fails to exclude the impact of nonallegation-related information released
on those days, he fails to show that
any specific new allegation-related
information about Goldman’s alleged
misconduct was introduced into the
market. Without new allegation-related
information being released, there is no

413
basis for calculation of economic losses on
these days.
o Finally, even putting aside Dr. Finnerty’s
failure to establish that some inflation
was removed from Goldman’s stock price
on the alleged corrective disclosure days,
his methodology incorrectly assumes that
any inflation attributable to a given CDO
would have been constant on a dollarsper-share basis going back to February or
June 2007 (depending on the CDO). This
approach is flawed because it assumes
that the investors would have valued
information about Goldman’s alleged
misconduct identically throughout the
three years between February 5, 2007 and
June 10, 2010 (the “Class Period”),
notwithstanding that the Class Period
included the global financial crisis and a
changing regulatory environment.
IV. Background
8. In the following section, I provide background on
Plaintiffs’ allegations (Section IV.A) and event study
analysis (Section IV.B), including a description of my
regression model (Section IV.B.1) and Dr. Finnerty’s
regression models (Section IV.B.2).
A. Allegations
9. Plaintiffs assert that Defendants made
representations about Goldman’s business practices
and management of conflicts of interest that were
allegedly false or misleading due to Goldman’s role

414
and conduct in four CDO transactions.2, 3 The four
CDOs, which closed between December 5, 2006 and
April 26, 2007, are Abacus 2007-AC1, Ltd. (“Abacus”),
Hudson, Anderson, and Timberwolf.4
10. Specifically, Plaintiffs allege that Goldman
made misrepresentations on 18 dates between
February 5, 2007 and June 10, 2010 (the “Class
Period”).5
11. Plaintiffs allege that, on five dates during the
Class Period,6 Goldman made false and misleading
statements regarding its procedures and controls
designed to identify and address conflicts of interest
with clients (“Conflict Management Statements”).7
For example, Plaintiffs allege that the following

2

Lead Plaintiffs’ Memorandum of Points and Authorities in
Support of Motion for Class Certification, In re Goldman Sachs
Group, Inc. Securities Litigation, filed January 30, 2015 (“Lead
Plaintiffs’ Memorandum”), p. 2.
3

A CDO is a security collateralized by a referenced asset or
group of assets (“reference portfolio”), such as loans, bonds, or
asset-backed securities (“ABS”), including residential mortgagebacked securities (“RMBS”).
4

Consolidated Class Action Complaint for Violations of
Federal Securities Laws, In re Goldman Sachs Group, Inc.
Securities Litigation, filed July 25, 2011 (“Complaint”), ¶¶9, 78,
164, 189, 202, 213; Lead Plaintiffs’ Memorandum, p. 2.
5

Complaint, p. 1; Finnerty Declaration, Exhibit 8.

6

Plaintiffs identify the following dates in the Complaint:
February 6, 2007, January 29, 2008, January 27, 2009,
December 24, 2009, and February 26, 2010 (Complaint,
¶¶123–124, 134–135).
7

Complaint, ¶132.

415
statements in Goldman’s annual 2006, 2007, 2008,
and 2009 SEC Form 10-Ks were false and misleading:8


“Conflicts of interest are increasing and
a failure to appropriately deal with conflicts
of interest could adversely affect our
businesses.”



“Our reputation is one of our most important
assets. As we have expanded the scope of
our businesses and our client base, we
increasingly have to address potential
conflicts of interest, including situations
where our services to a particular client or
our own proprietary investments or other
interests conflict, or are perceived to conflict,
with the interests of another client.
…
We have extensive procedures and controls
that are designed to [identify and] address
conflicts of interest, including those designed
to prevent the improper sharing of
information among our businesses. However,
appropriately [identifying and] dealing with
conflicts of interest is complex and difficult,
and our reputation could be damaged and
the willingness of clients to enter into
transactions in which such a conflict might
arise may be affected if we fail, or appear to
fail, to [identify and] deal appropriately with
conflicts of interest. In addition, potential or

8

Complaint, ¶¶134–137, 275–276, 284–287, 293–297,
302–304; see also The Goldman Sachs Group, Inc. Form 10- K,
filed February 6, 2007, January 29, 2008, January 27, 2009, and
February 26, 2010.

416
perceived conflicts could give rise to litigation
or enforcement actions.”9
12. Plaintiffs also allege that, on 17 dates,10
Goldman made false and misleading statements
regarding its business principles, including its
honesty, integrity, and commitment to putting its
clients’ interests first above all else (“Business
Principles Statements”).11 For example, Plaintiffs
allege
that
Goldman
made
the
following
12
misrepresentations in its annual reports:


“Our clients’ interests always come first. Our
experience shows that if we serve our clients
well, our own success will follow.”



“Our assets are our people, capital and
reputation. If any of these is ever diminished,
the last is the most difficult to restore. We are
dedicated to complying fully with the letter
and spirit of the laws, rules and ethical
principles that govern us. Our continued
success depends upon unswerving adherence
to this standard.”

9

Complaint, ¶134, quoting The Goldman Sachs Group, Inc.
Form 10-K, filed February 6, 2007 and January 29, 2008.
10

Plaintiffs identify the following dates in the Complaint:
February 6, 2007, February 21, 2007, March 13, 2007, June 14,
2007, November 13, 2007, December 18, 2007, January 29, 2008,
March 7, 2008, March 18, 2008, September 16, 2008, January 27,
2009, April 6, 2009, July 14, 2009, November 10, 2009, January
21, 2010, February 26, 2010, and April 7, 2010 (Complaint,
¶¶121, 127, 134, 277–306).
11

Complaint, ¶¶21–24, 149.

12

Complaint, ¶¶277, 289–290, 299–300, 305–306.

417


“Integrity and honesty are at the heart of our
business.”

13. Dr. Finnerty claims that the two categories
of alleged misstatements—that is, the Conflict
Management Statements and the Business Principles
Statements—are inextricably linked and cannot be
analyzed in isolation.13
14. Plaintiffs allege that Goldman’s Conflict
Management and Business Principles Statements
were revealed to be false and misleading on four
separate dates in 2010—April 16, April 26, April 30,
and June 10—when certain information about
Goldman’s conduct related to the four CDOs was made
public, and that this revelation caused a decline in
Goldman’s stock price.14 Moreover, Plaintiffs allege
that this revelation caused losses, claiming that
“investors purchased Goldman stock at these inflated
prices and suffered damages when the price of
Goldman stock declined upon the revelations of the
truth, in contrast to earlier misstatements.”15
15. Plaintiffs have not specified precisely what they
believe Goldman’s statements to the market should
have been on each of the 18 alleged misrepresentation
dates during the Class Period. However, Dr. Finnerty
notes five misstatements Goldman allegedly made
throughout the Class Period: “(1) the Company’s
clients’ interests always come first, (2) the Company
has extensive procedures and controls that are
designed to identify and address conflicts of interest
13

Finnerty Report, ¶20.

14

Complaint, ¶¶307–323.

15

Complaint, ¶¶329.

418
with its clients as well as among clients, (3)
reputational capital is one of its most important
assets, (4) integrity and honesty are the essence of its
business, and (5) the Company focuses on protecting
its valuable franchise.”16
16. Dr. Finnerty then adds that Goldman also
“failed to disclose that the Company, in fact, had
conflicts of interest with its clients in connection with
the synthetic CDOs Goldman structured and sold, e.g.,
Abacus 2007-AC1, Hudson 2006-1, Anderson 2007-1,
and Timberwolf 1 CDOs.”17
17. Dr. Finnerty appears to have concluded that
the corrective disclosures revealed CDO specific
misrepresentations that, in turn, rendered Goldman’s
general Business Principles Statements or Conflict
Management Statements false or misleading.
B. Event Study Analysis
18. Generally, stock prices move in response to
information about a company’s future cash flows, or

16
17

Finnerty Report, ¶43.

Finnerty Report, ¶44. In addition, without specifying
whether Goldman should have disclosed such information, Dr.
Finnerty adds that “Goldman allegedly structured and sold to
clients these synthetic CDOs, which were structured to fail, while
the Company took short positions on these CDOs, without
disclosing its short positions to Goldman’s clients. Moreover, by
engaging in the Abacus 2007-AC1 transaction in particular,
Goldman allegedly created conflicts of interest by allowing one
client, Paulson, to benefit at the expense of other clients and
issued misleading marketing and offering materials to other
clients” (Finnerty Report, ¶45).

419
the risk of these cash flows.18 In order to analyze a
company’s stock price movement, it is necessary to
consider the various factors that could have revealed
new information about these cash flows. On a given
date, a company’s stock price is affected by numerous
factors, some of which may be new company-specific
information related to the alleged misrepresentations,
but some of which may be in response to new
market developments, industry developments, or
company-specific information unrelated to the alleged
misrepresentations.19 A company’s stock price may
also move due to random fluctuations.
19. An event study is a commonly used and widely
accepted technique that, if used correctly, provides an
objective measure of whether there has been a
significant change in the price of a company’s stock
that is attributable to firm-specific news. An event
study seeks to isolate the firm-specific component of a
company’s stock price movement from movements due
to market- wide or industry-wide information.20 In an
event study, the financial economist will (a) remove
the stock price movements attributable to market and
18

See, e.g., Bodie, Z., A. Kane, and A. Marcus (2014),
Investments, Tenth Edition, New York, NY: McGraw-Hill, pp.
595–612.
19

“When the purchaser subsequently resells such shares, even
at a lower price, that lower price may reflect, not the earlier
misrepresentation, but changed economic circumstances,
changed investor expectations, new industryspecific or firmspecific facts, conditions, or other events, which taken separately
or together account for some or all of that lower price” (Dura
Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 342–343 (2005)).
20

MacKinlay, A. C. (1997), “Event Studies in Economics and
Finance,” Journal of Economic Literature, 35(1), 13–39
(“MacKinlay”), at pp. 13–16.

420
industry factors and calculate the stock’s “residual” or
“abnormal” price movement on the event date, and (b)
examine whether the residual price movement is
outside the range of typical random stock price
fluctuations observed for that stock.21 If the residual
price movement on the event date falls sufficiently
outside the range of typical random stock price
fluctuations, it is deemed to be statistically significant,
that is, unlikely to represent a random movement.22
But if the residual price movement is not statistically
distinguishable from random movements in the stock
price, it cannot be attributed to any company-specific
information announced on the event date.
20. An event study can be used to evaluate whether
an alleged misrepresentation affected a company’s
stock price by isolating the firm-specific component of
a security’s price movement from other, non-firmspecific factors such as those that impact the broad
economy or the industry as a whole.23 An event study
can be used to examine stock price movements on any
21

MacKinlay, at p. 15.

22

See, e.g., National Research Council (2000), “Reference
Manual on Scientific Evidence,” Federal Judicial Center, pp. 124,
128–129; Mitchell, M. L., and J. M. Netter (1994), “The Role of
Financial Economics in Securities Fraud Cases: Applications at
the Securities and Exchange Commission,” Business Lawyer, 49,
545–590, at p. 564, for a discussion that five percent is the typical
threshold for statistical significance. The residual stock price
movement is deemed statistically significant at the five percent
significance level if there is less than a five percent chance that
the value of the residual is actually zero. The five percent
significance level is also referred to as the “95 percent confidence
interval.” Unless otherwise specified, I use the five percent
significance level for evaluating statistical significance in this
report.
23

See, e.g., MacKinlay, at pp. 13–14.

421
date during the Class Period, including the alleged
misrepresentation dates and the alleged corrective
disclosure dates. Both Dr. Finnerty and I use event
studies to examine Goldman’s stock price movement
on days during the Class Period.
21. A standard event study approach uses a
statistical method called a regression model to
measure the changes in a company’s stock price that
may be related to company-specific information.
Market and industry indices, if properly selected,
capture the stock price movements of a broad crosssection of companies in the market as a whole and the
industry in which the company operates. Using a
regression model, a financial economist estimates
the typical relationship between movements in a
company’s stock price and movements in market and
industry indices.24 The period over which this
relationship is estimated, and over which the typical
level of daily random fluctuations in the stock price is
measured, is termed the “control period.”25 It is
important to choose a control period that is similar to,
and therefore representative of, the period during
which the event being analyzed occurred.
1. Summary of My Regression Model
22. My regression model analyzes daily pricing data
for Goldman’s stock and the factors in my model,
namely (a) the New York Stock Exchange (“NYSE”)/
American Stock Exchange (“AMEX”)/NASDAQ/
ArcaEx Composite Index (“Market Index”) provided by
24
25

MacKinlay, at p. 18.

The typical daily random fluctuation in the stock price is
measured by the volatility of residual stock price movements
during the control period.

422
the Center for Research in Security Prices (“CRSP”)
(this is a broad market index that captures companies’
stocks trading on these four U.S. stock exchanges),
and (b) a group of comparable companies (“Industry
Index”).26 In order to isolate the period of high
volatility of Goldman’s stock during the Class Period
due to the financial crisis, I performed my regression
analysis over three different sub-periods: (a) from
February 5, 2007—the start of the Class Period—to
the trading day prior to the bankruptcy of Lehman
Brothers on September 15, 2008 (“Volatility Period
A”); (b) from the bankruptcy of Lehman Brothers on
September 15, 2008 to the trading day prior to the
Federal Reserve Stress Test announcement on
February 25, 2009 (“Volatility Period B”); and (c) from
the Federal Reserve Stress Test announcement on
February 25, 2009 to the end of the Class Period on
June 10, 2010 (“Volatility Period C”).27 My regression
estimates the residual stock price movements of
26

To objectively select the appropriate Industry Index, I
considered several potential industry indices. I estimated linear,
two-factor regression models using the stock price movements of
the market index and each of 15 potential industry indices
for each of the three volatility sub-periods, and compared the
average adjusted R2 (a measure of the “fit” of a regression) for
each industry index. After evaluating the indices, I determined
that the S&P Supercomposite Investment Banking and
Brokerage Industry Index GICS Level 4—with no fewer than 11
members during the Class Period—is the Industry Index most
appropriate for my regression analysis. For additional details, see
Gompers Declaration, Appendix D.
27

I identified these sub-periods and deemed them appropriate
based on the results of a statistical test—called a Levene test. A
Levene test is a statistical test that examines whether there is a
difference in variance between data series. See, e.g., Baum, C.
(2006), An Introduction to Modern Econometrics Using Stata.
College Station, TX: Stata Press, p. 150.

423
Goldman’s stock on each day during the Class Period.
Exhibit 1 shows Goldman’s stock price movements, its
residual stock price movements, and the statistical
significance of the residuals on each day during the
class period. A detailed description of my regression
model is provided in the Gompers Declaration.28
23. In conducting an event study, I also review news
items, such as public press and equity analyst reports,
to understand what factors may have caused a
company’s stock price movements on a given day.29
Equity analysts are important market participants
who provide research reports and investment
recommendations on companies that they are
covering. Equity analysts rely on various sources of
information including company press releases,
conference calls, SEC filings, annual reports, and
interviews with company management to identify
what factors may affect, or have affected, the value of
a company. When new information is released, I
consider the reaction by analysts and discussion in
public press in my assessment of the information and
its potential impact on a company’s stock price. A
qualitative news analysis allows a researcher to
determine whether a cause-and-effect relationship
exists between certain information and stock price
movements.

28
29

Gompers Declaration, ¶¶22–24.

For each date analyzed in this report, I reviewed public press
and analyst reports from the trading day prior to the analysis
date through the trading day following the analysis date. For
alleged corrective disclosure dates, I extend my review of analyst
reports to three trading days after the analysis date.

424
2. Summary of Dr. Finnerty’s Regression
Models
24. Dr. Finnerty uses a regression model to
estimate the relationship between Goldman’s stock
price movements and movements in the market index,
the industry index, and the movements of two other
stock portfolios over the Class Period. Specifically,
Dr. Finnerty uses a modified version of the so-called
Fama-French Three-Factor Model—a regression
model commonly used in academia that examines
the relationship between companies’ stock price
movements and three factors known to be correlated
with stock price movements for all stocks.30 In his
regression analysis, Dr. Finnerty examines Goldman’s
stock price movements using four factors:


A market factor equal to the price movement
of all NYSE, AMEX, and NASDAQ stocks.31



An industry factor identified as the Standard
& Poor’s 500 Investment Banking and
Brokerage Index, excluding Goldman.32



A factor accounting for the difference in price
movements between small and big market
capitalization stocks (“SMB”).33

30

Finnerty Report, ¶52; Fama, E. F., and K. R. French (1993),
“Common Risk Factors in the Returns on Stocks and Bonds,”
Journal of Financial Economics, 33, 3–56.
31

Dr. Finnerty models Goldman’s stock price movement net of
the risk-free interest rate, and uses the market index movement
net of the risk-free interest rate (Finnerty Report, ¶52).
32

Finnerty Report, ¶61.

33

Finnerty Report, ¶52.

425


A factor accounting for the difference in price
movements between stocks with high and low
book-to-market34 ratios, commonly referred to
as value and growth stocks (“HML”).35

25. Dr. Finnerty uses the Class Period as the period
over which he estimates his regression model.36
Dr. Finnerty states that Goldman stock price’s
historical volatility—which is often used as a proxy for
the level of uncertainty of stock prices—was elevated
during the Class Period relative to the periods before
and after the Class Period.37, 38 However, he does not
address the changing stock price volatility during the
Class Period—particularly, the spike in volatility
during the financial crisis.39
26. In addition to the above model, following my
criticism of this model in the Gompers Declaration,
34

Book-to-market ratio is the ratio of a company’s book value,
based on historical cost, and market value, based on market
capitalization. Firms with a low book value relative to market
value are generally referred to as growth companies, while those
with a high book value are referred to as value companies (Bodie,
Z., A. Kane, and A. Marcus (2014), Investments, Tenth Edition,
New York, NY: McGraw Hill, pp. 112, 592–593).
35

Finnerty Report, ¶52.

36

Dr. Finnerty excluded the trading dates of alleged misrepresenations and alleged corrective disclosures from his estimation period (Finnerty Report, ¶¶57, 59).
37

A stock’s historical volatility is a measure of the variance of
the stock price movements over a specific time period. See, e.g.,
Hull, J. (2002), Options, Futures & Other Derivatives, Fifth
Edition, Upper Saddle River, NJ: Prentice Hall, pp. 239–240, 713.
38
39

Finnerty Report, ¶57.

I discuss the impact of the changing volatility in Goldman’s
stock price in Gompers Declaration, ¶¶102–106.

426
Dr. Finnerty also provides an additional set of
regression models using the same Fama-French
Three-Factor Model regression model framework but
adjusted to the changing volatility in Goldman’s stock
during the Class Period. He uses the same three
volatility periods as I describe above and estimates
three Fama-French Three-Factor Model regression
models. Dr. Finnerty also estimates damages in this
matter using this alternative set of regressions, in
addition to his original regression.40
V. Dr. Finnerty
Causation

Fails

to

Establish

Loss

27. Plaintiffs allege that Goldman made false and
misleading statements on 18 dates during the Class
Period41 and that these misrepresentations “caused
Goldman’s stock to trade at artificially inflated levels
during the Class Period.”42 It is my understanding that
Plaintiffs need to demonstrate loss causation—i.e.,
that the alleged misstatements directly caused
Goldman’s shareholders economic losses or “damages.”
I also understand that, in order to prove loss
causation, Plaintiffs must show that (a) the alleged
false and misleading statements caused Goldman’s
stock price to be inflated, and (b) Goldman’s stock
price declined in response to one or more corrective
disclosures that corrected the alleged misstatements
and thus removed prior inflation from the stock
price. Importantly, any price decline attributable
to information that is not corrective of the alleged
false and misleading statements cannot represent a
40

Finnerty Report, ¶¶169–170.

41

Finnerty Declaration, Exhibit 8.

42

Complaint, ¶29.

427
removal of inflation and therefore cannot form the
basis of economic losses to investors (i.e., basis of loss
causation).
28. Dr. Finnerty’s
claim
that
the
alleged
misstatements
regarding
Goldman’s
Business
Principles Statements and/or Conflict Management
Statements caused inflation in Goldman’s stock price
can be empirically tested using an event study of
Goldman’s stock price reaction on each of the 18
alleged misstatement dates and the four alleged
corrective disclosure dates. In order for inflation to
have been present in Goldman’s stock price during the
Class Period, the alleged misstatements must have
either (a) caused Goldman’s stock price to increase, or
(b) prevented Goldman’s stock price from reflecting
decreases (that would otherwise have occurred on
those dates) until the dates of the alleged corrective
disclosures. Dr. Finnerty has not established that
either of these two theories of inflation is true.
29.
In order to prove inflation under the first
theory—that the alleged misstatements caused
inflation by causing Goldman’s stock price to
increase—one would need to show that on alleged
misstatement dates with positive residual stock price
movements, these price movements can be directly
attributed to the alleged misstatements. However, as
I discuss below, Dr. Finnerty fails to provide any
evidence of such stock price reactions. In fact,
Dr. Finnerty concedes that the alleged misstatements
did not cause any statistically significant residual
stock price increases.43 Nevertheless, I performed my
own analysis and my event study results indicate that

43

Finnerty Report, ¶18.

428
Goldman’s stock price did not react to any of these 18
alleged misstatements.
30. Under the second theory, if the alleged
misstatements did not cause an increase in Goldman’s
stock price, then in order to demonstrate price
inflation, Plaintiffs would need to prove that the
alleged misstatements maintained Goldman’s existing
stock price—or, in other words, that the alleged
misstatements prevented Goldman’s stock price from
declining. Dr. Finnerty fails to prove this theory of
inflation as well. In order to demonstrate inflation
under this theory, it is necessary to show that
Goldman’s stock price would have decreased had
Goldman made the disclosures that Plaintiffs allege
Goldman should have made, and to show that these
disclosures would have caused a contemporaneous
decline in Goldman’s stock price. However,
Dr. Finnerty merely asserts, without providing an
adequate basis, that Goldman’s residual stock price
declines on four alleged corrective disclosure dates
represent the removal of inflation in Goldman’s stock
price. Dr. Finnerty’s blanket reliance on the stock
price declines on the alleged corrective disclosure
days is inadequate to establish that the alleged
misstatements caused Goldman’s stock price to be
inflated for the reasons described below.
31. First, when I examined numerous dates, apart
from the four alleged corrective disclosure dates
identified by Plaintiffs, on which information was
released into the marketplace alleging that Goldman
was prioritizing its own interests over those of its
clients and favoring certain clients over others (both in
general and specifically with respect to Goldman’s
CDO or mortgage practices), there was no statistically
significant reaction in Goldman’s stock price. This

429
information also included allegations that Goldman
had failed to disclose conflicts of interest to its
customers. Again, this information describes the
similar
transaction
structures
or
business
arrangements that Plaintiffs argue were allegedly
revealed to the marketplace on the alleged corrective
disclosure dates. The finding that (a) information
mirroring the alleged corrective disclosures was
released prior to the alleged corrective disclosure
dates, and (b) this information did not cause a
statistically significant residual stock price movement
in Goldman’s stock undermines Dr. Finnerty’s
assertion that the alleged misstatements caused
Goldman’s stock price declines on the four alleged
corrective disclosure dates.
32. Second, on the four alleged corrective disclosure
dates, there was confounding information released to
the marketplace that could not possibly have been
disclosed earlier in the Class Period—information
such as the inception of a new SEC enforcement action
and the rumors of a purported DOJ investigation. The
revelation that the Business Principles Statements or
Conflict Management Statements were false could not
alone have fully allowed market participants to
anticipate an SEC enforcement action or subsequent
government investigations, as Dr. Finnerty’s analysis
assumes. Dr. Finnerty fails to disentangle this
non-allegation-related information—the new SEC
enforcement action and rumors of a purported DOJ
investigation—from the information supposedly
correcting the alleged misstatements and, as such,
fails to demonstrate that the price declines on the
alleged corrective disclosure dates are attributable to
a correction of the alleged misstatements.

430
33. Third, according to Dr. Finnerty’s own model,
Goldman’s residual stock price movement on April 26,
2010 was not statistically significant.44 A statistically
insignificant residual stock price movement cannot be
reliably differentiated from no stock price movement
at all. Dr. Finnerty recognizes there is no basis to
conclude that Goldman’s investors experienced losses
linked to the alleged corrective disclosures on
that date, as he excludes the April 26, 2010 residual
stock price movement from his damages calculation.
Moreover, as described below, Plaintiffs’ Complaint
alleges that additional new information about
Goldman’s conflicts of interest was revealed on this
day, including through the release of internal
Goldman e-mails.45 Unlike the other three alleged
corrective disclosure dates, there are no alleged
new reports of governmental enforcement actions
or investigations on this date. The absence of a
statistically significant residual stock price movement
on this date thus contradicts Dr. Finnerty’s assertion
that when new reports related to the same alleged
conflicts were released on the subsequent alleged
corrective disclosure dates, the information caused
economic losses to investors. In fact, unlike April 26,
2010, the only new information on the subsequent
disclosure dates concerned the possibility of
governmental enforcement actions or investigations,
not new information about the alleged misstatements.
44

According to Dr. Finnerty’s model, Goldman’s residual stock
price movement was -1.68 percent and was not statistically
significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -1.96 percent and was not statistically significant
(Finnerty Report, Exhibit 9).
45

Complaint, ¶333.

431
34. Fourth, on April 30, 2010 and June 10, 2010,
Dr. Finnerty is unable to point to any new information
about Goldman’s alleged misconduct with respect to
conflicts of interests in its CDO business. Rather,
Dr. Finnerty refers to general information released
days, or even months, earlier. The only new
information Dr. Finnerty points to on those dates
relates to purported new investigations into Goldman
by governmental entities.
A. Goldman’s Stock Price Movements on the
18 Alleged Misstatement Dates Do Not
Establish that the Alleged Misstatements
Introduced Inflation into Goldman’s
Stock Price
35. Dr. Finnerty provides no evidence that the
alleged misstatements caused a statistically
significant reaction in Goldman’s stock price, thereby
introducing inflation into Goldman’s stock price
during the Class Period. In fact, Dr. Finnerty agrees
that it is a “fact” that the alleged misstatements did
not cause a reaction in Goldman’s stock price when
those statements were made, and instead simply
dismisses that fact as not alone sufficient to
conclude that the alleged misstatements did not cause
Goldman’s stock price to be inflated.46 Nevertheless,
I conducted my own analysis of the alleged
misstatements and evaluated whether those
statements are associated with statistically significant
increases in Goldman’s stock price and thus whether
these price movements provide potential evidence of
46

“The fact that Goldman’s stock price did not increase in a
statistically significant manner on the dates of the alleged false
statements does not necessarily mean there was no inflation on
that day from the misstatements” (Finnerty Report, ¶18).

432
stock price inflation. Based on my analysis, as
described in more detail in the Gompers Declaration
paragraphs 28–49, I determined that the information
related to the alleged misstatements released on the
18 alleged misstatement dates did not cause an
increase in Goldman’s stock price and thus the
residual stock price movements on those days do not
provide evidence of inflation.
36. I found that for 14 of these 18 misstatement
dates, Goldman’s residual stock price movements were
not statistically significant. On days on which the
residual stock price movement is not statistically
significant, one cannot conclude that Goldman’s price
reacted to any company-specific news and, by
extension, one cannot conclude that the alleged false
and misleading statements introduced inflation into
Goldman’s stock based on these price movements.47
37. On two of the alleged misstatement days—June
14, 2007 and December 18, 2007—Goldman’s residual
stock price movement was negative and statistically
significant (in other words, the stock price went down,
after controlling for market and industry movements,
notwithstanding the alleged misstatements).48 Based
47

Plaintiffs have not shown that there was negative
information on any of these dates that could have offset a stock
price increase associated with the alleged misstatements. Exhibit
4 summarizes the information released on the 14 misstatement
dates on which Goldman’s residual stock price movement was not
statistically significant.
48

According to Dr. Finnerty’s model, on June 14, 2007,
Goldman’s residual stock price movement was -3.73 percent and
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on June 14, 2007,
Goldman’s residual stock price movement was -3.80 percent and
was statistically significant (Finnerty Report, Exhibit 9).
According to Dr. Finnerty’s model, on December 18, 2007,

433
on my event study analysis, I found that there was
negative information disclosed on this day separate
from the alleged misstatements and that this
information did not obscure a price impact of the
alleged misstatements. Specifically, on June 14, 2007,
market participants discussed Goldman’s exposure
to subprime mortgages,49 while on December 18, 2007,
market participants discussed comments by
Goldman’s CFO David Viniar warning of a challenging
environment.50 Moreover, I found no market
commentary about the Conflict Management
Statements or Business Principles Statements on
these two dates. Therefore, I did not find evidence that

Goldman’s residual stock price movement was -2.08 percent and
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on December 18,
2007, Goldman’s residual stock price movement was -2.37 percent
and was statistically significant (Finnerty Report, Exhibit 9).
49

On June 12, 2007, Lehman Brothers “blew through
estimates.” As a result, many analysts expected Goldman to “do
the same” when it announced earnings on June 14, 2007
(“Goldman Net Rises; Shares Drop As Profit Growth Slows
(Update 4),” Bloomberg News, June 14, 2007). In other words,
“Lehman Brothers’ results raised expectations that [Goldman’s]
earnings didn’t meet” (“Business Week: Goldman’s Big Quarter
Leaves Street Cold,” Bloomberg News, June 15, 2007).
50

“[I]nvestors chose to focus on comments from David Viniar,
Goldman chief financial officer, indicating that if brutal
conditions [seen in the credit markets in November] continued, it
could be very difficult for Goldman to continue its recordshattering run. . . . [Mr. Viniar’s] comments helped drive
Goldman’s share down as much as 5 per cent in early New York
trading as investors began to fear that the investment bank’s
earnings had peaked, at least in the near term” (“Goldman
Encounters Hard-To-Please Investors,” Financial Times,
December 18, 2007).

434
the alleged false and misleading statements on these
dates introduced inflation into Goldman’s stock.51
38. On two alleged misstatement dates—November
13, 2007 and March 18, 2008—Goldman’s residual
stock price movement was positive and statistically
significant.52 As I described in detail in the Gompers
Class Certification Declaration, my review of the
public press and equity analyst reports indicates that
Goldman’s positive residual stock price movements on
these dates were due to positive news other than
Goldman’s Conflict Management Statements and/or
Business Principles Statements.53 On November 13,
2007, market participants attributed the stock price
increase on this day to positive news including
Goldman’s announcements that (a) despite the
market’s expectations of significant write-downs, it
would not take write-downs on its subprime mortgage
portfolio; and (b) it retained a hedged position in
subprime mortgages. On March 18, 2008, I found that
market participants attributed the stock price
increase on this day to positive news unrelated to
the alleged misstatement including (a) Goldman’s
51

Gompers Declaration, ¶30.

52

According to Dr. Finnerty’s model, on November 13, 2007,
Goldman’s residual stock price movement was 4.12 percent and
was statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on November 13,
2007, Goldman’s residual stock price movement was 3.60 percent
and was statistically significant (Finnerty Report, Exhibit 9).
According to Dr. Finnerty’s model, on March 18, 2008, Goldman’s
residual stock price movement was 3.90 percent and was
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, on March 18, 2008, Goldman’s
residual stock price movement was 3.11 percent and was
statistically significant (Finnerty Report, Exhibit 9).
53

Gompers Declaration, ¶¶31–47.

435
better-than-expected earnings announcement, and
(b) Goldman’s stronger-than-expected liquidity
position. Equity analysts also upgraded or reiterated
their highest recommendations for Goldman’s stock
based on this news. Therefore, I did not find evidence
that the alleged false and misleading statements
on these dates introduced inflation into Goldman’s
stock price.
39. In sum, there is no evidence to support the
first theory of price inflation: that the alleged
misstatements introduced inflation by causing
Goldman’s stock price to increase. Indeed,
Dr. Finnerty reaches the same conclusions.54 I now
address the alternative theory that the alleged
misstatements improperly maintained Goldman’s
existing stock price at an inflated level.
B. Goldman’s Stock Price Movements on the
Alleged Corrective Disclosure Dates Do
Not
Establish
that
the
Alleged
Misstatements Introduced Inflation into
Goldman’s Stock Price
40. Under Dr. Finnerty’s theory of loss causation,
“the impact of the alleged fraud on the price of
Goldman’s common stock did not become evident until
the fraud was disclosed in April and June 2010.”55 In
other words, the alleged misstatements supposedly
maintained Goldman’s existing stock price, whereas,
had the alleged “truth” been known, the stock price
would have declined. Dr. Finnerty’s assertion is based
entirely on Goldman’s residual stock price movements
on the four alleged corrective disclosure dates. This
54

Finnerty Report, ¶18.

55

Finnerty Report, ¶42.

436
assertion is flawed and unreliable because, as set
forth below, merely observing residual stock price
declines on those dates and improperly designating all
news as new allegation-related information—without
distinguishing between allegation and non-allegation
information and without establishing whether
the alleged corrective information was new to the
marketplace—does not establish that the alleged
misstatements inflated Goldman’s stock price for the
reasons described below.
41. First, Dr. Finnerty baselessly dismisses
evidence contradicting his assertion. Specifically, my
analysis finds that (a) information that Goldman
allegedly failed to disclose to investors was publicly
known in the marketplace prior to the first alleged
corrective disclosure on April 16, 2010; and (b) when
such information was discussed publicly, the price of
Goldman’s stock did not decline in a statistically
significant manner.
42. Second, Dr. Finnerty fails to link the alleged
corrective information directly to the alleged
misstatements and fails to disentangle the impact of
confounding non-allegation information on the
alleged corrective disclosure days, rendering his
analysis flawed and insufficient to demonstrate
loss causation. Specifically, on April 16, 2010, an
unusually aggressive SEC enforcement action against
Goldman was announced.56 Dr. Finnerty asserts
that the full residual stock price impact of this
announcement should be attributed to Goldman’s
alleged misstatements because the SEC enforcement

56

See Declaration of Stephen Choi, Ph.D., filed April 6, 2015
(“Choi Declaration”), ¶¶33–37.

437
action pertained to the Abacus CDO.57 However, as
I address below, the SEC enforcement action itself
conveyed information to the investors separate
and apart from Goldman’s allegedly undisclosed
misconduct. It is my understanding that the
remaining allegations in this case do not include an
allegation that Goldman failed to disclose an SEC
enforcement action, nor would it have been possible for
Goldman to have made such a disclosure any earlier
in the Class Period. Therefore, the stock price impact
of the SEC enforcement action itself should not be
attributed to any losses to Goldman’s equity investors
due to the alleged misstatements. In addition, on April
30, 2010 information about a purported, non-specific
DOJ investigation was released to the marketplace
and on June 10, 2010 an expanded SEC investigation
into the Hudson CDO was announced. Based on
my event study, no new information concerning
Goldman’s alleged misconduct was released into the
marketplace on either of these days, nor did Dr.
Finnerty provide evidence that any such new
information was in fact released. For the same reasons
as the SEC enforcement action, the impact of the
purported DOJ investigation and the expanded SEC
investigation into the Hudson CDO on Goldman’s
stock price should not be attributed to the alleged
misstatements.

57

Finnerty Report, ¶93.

438
1. An Event Study Demonstrates that
Information
About
Goldman’s
Business Conflicts and Conflicts of
Interest Related to Goldman’s CDO
and Mortgage Businesses Was Known
Well
Before
the
First
Alleged
Corrective Disclosure Date and Did
Not Affect Goldman’s Stock Price
43. As an initial matter, it is important to note that
large investment banks such as Goldman are exposed
to a wide variety of potential conflicts of interest, given
the nature of the diverse business lines in which they
operate and the client and counterparty relationships
they maintain in financial markets. In an article titled
“Investment Banks, Scope, and Unavoidable Conflicts
of Interest,” Erik Sirri, former Director of the Division
of Trading and Markets at the SEC,58 states, “[t]he
conflicts are a consequence of the function of
investment banks, which intermediate the interaction
between issuers and investors in capital markets.” For
any bank that chooses to offer a comprehensive set of
investment banking services, “[t]hese conflicts are
unavoidable.”59
44. A financial economist can test empirically
whether information about Goldman’s general
business conflicts or CDO-specific conflicts of interest
would have caused a decline in Goldman’s stock value
by examining Goldman’s stock price movement on
days where such information was released into the
58

Biography
of
Erik
R.
http://faculty.babson.edu/sirri/.
59

Sirri,

Babson

College,

Sirri, E. (2004), “Investment Banks, Scope, and Unavoidable
Conflicts of Interest,” Federal Reserve Bank of Atlanta Economics
Review, Fourth Quarter 2004, 23–35, at pp. 23–24.

439
marketplace. Dr. Finnerty has performed no such
analysis beyond considering the four alleged corrective
disclosure days, three of which contained confounding
information of reports of governmental enforcement
actions and/or investigation (see detailed discussion
below). I, however, empirically tested Dr. Finnerty’s
unsupported assertion that information about
conflicts of interests at Goldman, including
information that CDO investors may have been
unaware of or misled about such conflicts, would have
affected Goldman’s stock price.
45. Using an event study, I examined days during
the Class Period on which information about
Goldman’s behavior—information mirroring the
information released on the four alleged disclosure
dates but for news of governmental enforcement
actions and/or investigations—was released into the
marketplace. Specifically, my event study analyzed
public statements prior to April 16, 2010, containing
allegations that Goldman prioritized its interests over
those of its clients or prioritized the interests of one
client over those of another client.60 These statements
include (a) allegations of conflicts in Goldman’s
business lines outside the mortgage and CDO market,
such as in general proprietary trading, private equity,
and other Goldman business areas (“Business
Conflicts”); and (b) allegations of conflicts related
to the mortgage or CDO market in particular
(“Mortgage/CDO Conflicts”). The information in these
statements mirrors the information released on
the corrective disclosure dates that Plaintiffs
allege revealed the “truth” regarding the alleged
60

My event study analysis was also discussed in the Gompers
Declaration, ¶¶48–60.

440
misstatements—for example, that Goldman “plac[ed]
the Company’s interests above its own clients” and
“collaborated with a favored client” at the expense of
other clients.61
46. In conducting my event study, I employed
an objective and replicable methodology. This is
consistent with accepted practice in academic research
and is scientifically valid. The approach has been used
in peer-reviewed publications and has a known error
rate.62 I have previously employed this approach in my
own academic research and in other litigation
assignments.
47. Specifically, I searched the Factiva database’s
major business publications and newswires—a
commonly used database of public press—for articles
about Goldman that contained certain keywords. I
reviewed those articles to determine which ones
discussed a specific event or events that had been
characterized as an alleged conflict of interest, as
opposed to articles that provided general commentary
on Goldman and conflicts, discussion of potential
alleged conflicts of interest that had been avoided
due to actions taken by Goldman, or articles that
mentioned the keywords in an unrelated context. I
then performed an additional review of public press to
61
62

Complaint, QQ330–331.

“We measure the impact of an event by estimating the
abnormal return on a stock (or group of stocks) at the moment the
information about the event becomes known to the market”
(Bodie, Z., A. Kane, and A. Marcus (2014), Investments, Tenth
Edition, New York, NY: McGraw-Hill, p. 360). Other academic
studies employ ex-ante news analysis in an event study. See, e.g.,
Faccio, Mara, and David Parsley (2009), “Sudden Deaths: Taking
Stock of Geographic Ties,” Journal of Financial and Quantitative
Analysis 44(3), 683–718.

441
identify the first public statement that may have
contained these allegations. In identifying news
related to general Business Conflicts, I searched
for articles about Goldman containing the word
“conflict.” In identifying news related to Goldman’s
Mortgage/CDO Conflicts, I searched for articles about
Goldman that (a) contained the word “conflict,”
(b) contained search terms related to discussion of a
short position in mortgages, or (c) contained search
terms related to discussion of John Paulson or Paulson
and Company in conjunction with CDOs. I reviewed
these articles and other sources the articles referenced
in order to identify relevant discussion of conflicts of
interest in the mortgage and CDO markets.
48. I analyzed 34 dates on which allegations about
Goldman’s Business Conflicts or Mortgage/CDO
Conflicts were discussed prior to the first alleged
corrective disclosure on April 16, 2010.63 I found that
on each and every one of the 11 dates on which new
allegations about Goldman’s Business Conflicts were
discussed, Goldman’s residual stock price movements
were not statistically significant. Similarly, on each
and every one of the 23 dates on which allegations
about Goldman’s Mortgage/CDO Conflicts were
discussed, Goldman’s residual stock price movements
were not statistically significant. On none of those
days did I find confounding information related to SEC
or DOJ actions or investigations. In sum, when
information that Goldman allegedly misstated or
failed to disclose to investors on the alleged
misstatement dates was released to the marketplace
63

I also analyzed additional dates when the effective trading
date of an allegation was unclear, or if I found full discussion of
the facts relating to an allegation prior to the allegation itself. See
Exhibits 2 and 3.

442
prior to the alleged disclosure dates (and absent
confounding information related to SEC and DOJ
actions or investigations), one cannot conclude that
there was any effect on Goldman’s stock price. As such,
there is no basis to conclude that on future dates when
similar allegedly corrective information was released
in combination with confounding information, that
the resulting residual stock price movement is
attributable to the alleged misrepresentations as
opposed to the confounding information. Because
there is no basis to conclude that the price declines on
the future dates were in fact a correction, there is
therefore no basis on which to conclude that the
alleged misstatements introduced inflation into
Goldman’s stock price, as Dr. Finnerty claims.
a) When
Allegations
Regarding
Goldman’s Business Conflicts Were
Discussed in the Marketplace, They
Did Not Affect Goldman’s Stock
Price
49. I reviewed public press from the start of the
Class Period through April 15, 2010 to identify
statements that contained allegations of Goldman’s
Business Conflicts.64 I found 11 event dates when
Goldman’s Business Conflicts were discussed (see
Exhibit 2). This information includes public discussion
of allegations that (a) Goldman distributed different
information to, or distributed information first to, the
Company’s proprietary traders or preferred clients;
64

Exhibit 2 provides a review of the statements I identified
relating to allegations of Goldman’s Business Conflicts. The
exhibit also summarizes my responses to the “implications” noted
in the Finnerty Rebuttal Declaration Exhibit 6, which are also
discussed in V.B.1.c).

443
(b) Goldman’s investing activity, including trading
and private equity investing, led to conflicts of
interest; and (c) Goldman’s services to one client led to
conflicts of interest against another client. I also
reviewed public press and analyst reports surrounding
these dates to understand the factors potentially
impacting the stock price on each of these dates. I
found that Goldman’s residual stock price movement
on each of these 11 dates was not statistically
significant, indicating that when allegations of
Goldman’s Business Conflicts were made in the
marketplace, the allegations did not cause Goldman’s
stock price to decline.
50. First, I identified two dates that were
accompanied by public discussion of allegations that
Goldman distributed different information to, or
distributed information first to, the Company’s
proprietary traders or preferred clients. Specifically:
• On August 24, 2009, The Wall Street Journal
reported that Goldman held “trading huddles”
with top clients to provide advice on “shortterm developments” to traders that sometimes
differed from its long-term research, creating
concerns that Goldman’s publicly available
research is sometimes at odds with its
analysts’ privately held views and that this
practice “hurts other customers who aren’t
given the opportunity to trade on the
information.”65,66
65

“Goldman’s Trading Tips Reward Its Biggest Clients,” The
Wall Street Journal, August 24, 2009.
66

Goldman’s residual stock price movement on this date was 0.51 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock

444


On January 12, 2010, The New York Times
reported that Goldman disclosed in an email to
clients that its Fundamental Strategies Group
might have shared investment ideas with
Goldman’s proprietary trading desk and
certain clients before sharing those ideas with
other clients. This discussion “demonstrates
the various conflicts that Goldman and other
firms face in balancing the interest[s] of its
various clients and its own trading
operation.”67,68

51. Second, I identified four dates that were
accompanied by public discussion of allegations that
Goldman’s investing activity, including trading and
private equity investing, led to conflicts of interest. For
example:


On May 17, 2007, The Economist reported that
Goldman would likely “provide the thirdbiggest equity portion” in a bid for TXU while
it had been retained as an advisor by the other

price movement on this date was -0.31 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -0.37 percent and was not statistically significant
(Finnerty Report, Exhibit 9).
67

“Goldman Acknowledges Conflicts with Clients,” The
New York Times, January 12, 2010.
68

Goldman’s residual stock price movement on this date was 0.83 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was -0.53 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -0.35 percent and was not statistically significant
(Finnerty Report, Exhibit 9).

445
buyers; as such, the article stated, “[a]t times
it was hard to tell whether it was Goldman’s
deal or that of its clients.”69, 70


On May 13, 2009, The Wall Street Journal
reported that a “Whitehall” fund, “[o]ne of
[Goldman’s] premier real-estate funds,” was
in discussions with its lenders—including
Goldman—to restructure debt. The article
notes that “Goldman is in an especially tricky
position when acting as both a borrower and
lender to itself, critics say. Concessions
granted by Whitehall may benefit Goldman,
the lender, at the expense of Whitehall
investors, the critics add.”71,72

52. Third, I identified five dates that were
accompanied by public discussion of allegations that

69

“Merchants of Boom,” The Economist, May 17, 2007.

70

Goldman’s residual stock price movement on this date was
0.18 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was 0.07 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was 0.17 percent and was not statistically significant
(Finnerty Report, Exhibit 9).
71

“Goldman Takes Heat for Conflicts at Whitehall,” The Wall
Street Journal, May 13, 2009.
72

Goldman’s residual stock price movement on this date was 0.60 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was -1.05 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -0.98 percent and was not statistically significant
(Finnerty Report, Exhibit 9).

446
Goldman’s services to one client led to conflicts of
interest against another client. For example:


On May 6, 2007, a Sunday, an article in The
New York Times noted that Goldman, “which
has been a longtime banker” to the News
Corporation, was advising the board of Dow
Jones & Company on a bid Dow Jones had
received for an acquisition by the News
Corporation. This article asked rhetorically,
“[h]ow hard do you really think Goldman is
going to push the News Corporation,
considering that if a deal is ever struck,
Goldman will want to make Mr. Murdoch’s
company [News Corporation] a client
again?”73, 74



On June 10, 2007, a Sunday, the Financial
Times reported that minority investors in
Arcelor threatened legal action against
Goldman on the grounds that Goldman and
other banks that had provided a fairness
opinion related to Mittal’s acquisition of
Arcelor in July 2006 “have all had advisory

73

“What to Do When Rupert Calls?” The New York Times,
May 6, 2007.
74

Goldman’s residual stock price movement on May 7, 2007
was 0.13 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was -0.02 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was 0.17 percent and was not statistically significant
(Finnerty Report, Exhibit 9).

447
and/or financing mandates from either Mittal
or Arcelor during the past two years.”75, 76


On February 12, 2010, The New York Times
reported that Goldman, “a primary Airgas
adviser,” faced an alleged conflict in relation to
a takeover bid of Airgas by Air Products
because Goldman had recently served as an
adviser to Air Products.77, 78
b) Allegations of Conflicts of Interest
Related to Goldman’s CDO and
Mortgage Businesses Were Known
to Market Participants and They
Did Not Affect Goldman’s Stock
Price

75

“Arcelor Minorities Prepare for a Fight,” Financial Times,
June 10, 2007.
76

Goldman’s residual stock price movement on June 11, 2007
was 0.34 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was 0.21 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was 0.31 percent and was not statistically significant
(Finnerty Report, Exhibit 9).
77

“Air Products Revises Its Airgas Lawsuit,” The New York
Times, February 12, 2010.
78

Goldman’s residual stock price movement on this date was 0.27 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was 0.24 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was 0.02 percent and was not statistically significant
(Finnerty Report, Exhibit 9).

448
53. I reviewed public press from the start of the
Class Period through April 15, 2010 to identify
statements that contained allegations of Goldman’s
Mortgage/CDO Conflicts.79 I found that, on 23 dates,
such information was discussed in the marketplace
(see Exhibit 3). This information includes public
discussion of allegations that (a) Goldman took
positions in CDOs opposite to those taken by its
clients; (b) Goldman might have profited by selling
mortgage-backed securities and CDOs to its clients,
who lost money on these securities; and (c) CDO
investor John Paulson assisted Goldman in designing
a CDO which his firm intended to short. On several of
the 23 dates, I found items discussing issues relevant
to more than one of the above categories. In addition,
some of the articles included explicit discussion of
allegations that conflicts of interest were not disclosed
to CDO investors. I also reviewed public press and
analyst reports surrounding these dates to understand
the factors potentially impacting the stock price on
each of these dates. I found that Goldman’s residual
stock price movement on each of these 23 dates was
not statistically significant, indicating that when
allegations of Goldman’s Mortgage/CDO Conflicts
were made in the marketplace, they did not cause a
decline in Goldman’s stock price.
54. First, I identified 22 dates that were
accompanied by public discussion of allegations that

79

Exhibit 3 provides a review of the statements I identified
relating to allegations of Goldman’s Mortgage/CDO Conflicts.
The exhibit also summarizes my responses to the “implications”
noted in the Finnerty Rebuttal Declaration Exhibit 6, which are
also discussed in V.B.1.c).

449
Goldman took positions in CDOs opposite to those
taken by its clients. For example:
• On December 14, 2007, The Wall Street
Journal reported that “Goldman’s success at
wringing profits out of the subprime fiasco,
however, raises questions about how the firm
balances its responsibilities to its shareholders
and to its clients. . . . The question now being
raised: Why did Goldman continue to peddle
CDOs to customers early this year while its
own traders were betting that CDO values
would fall?”80, 81An article in the July 9, 2009
issue of Rolling Stone stated that “[Goldman]
was taking short positions in [CDOs], in
essence betting against the same crap it was
selling. Even worse, Goldman bragged about it
in public.”82, 83
80

“How Goldman Won Big on Mortgage Meltdown – A Team’s
Bearish Bets Netted Firm Billions; A Nudge from the CFO,” The
Wall Street Journal, December 14, 2007.
81

Goldman’s residual stock price movement on this date was
1.78 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was 1.39 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was 1.63 percent and was not statistically significant
(Finnerty Report, Exhibit 9).
82

“The Great American Bubble Machine,” Rolling Stone,
July 9, 2009. This article was publicly available on June 24, 2009
(“Goldman Sachs: ‘Engineering Every Major Market
Manipulation Since the Great Depression’,” Zero Hedge, June 24,
2009).
83

Goldman’s residual stock price movement on June 24, 2009
was 0.16 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock price

450
55. Second, I identified 11 dates that were
accompanied by public discussion of allegations that
Goldman might have profited by selling mortgagebacked securities and CDOs to its clients, who lost
money on these securities. For example:


On December 16, 2007, a Sunday, Reuters
reported, “Goldman will face questions on how
it once again profited when everyone else,
including clients, suffered. More than any
other firm, Goldman under Blankfein has
deployed its capital boldly, pursuing strategies
that can sometimes run contrary to what
clients are doing . . . . Another trouble spot
could be how Goldman’s underwriters issued
collateralized debt obligations . . . through
May, several months after it turned bearish on
mortgages. ‘You’ve got two departments not
communicating, which are sent out to go make
money,’ said analyst Richard Bove of Punk
Ziegel & Co. ‘One part of the firm’s
underwriting CDOs and the other is shorting
the hell out of them.’ For most firms that would
be chalked up to independence. For Goldman,
it may only convince rivals and conspiracy
theorists
that
the
firm
is
utterly
conflicted.”84, 85

movement on this date was 0.55 percent and was not statistically
significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was 0.56 percent and was not statistically significant
(Finnerty Report, Exhibit 9).
84

“Analysis-Goldman Success Brings Unwanted Attention,”
Reuters News, December 16, 2007.
85

Goldman’s residual stock price movement on December 17,
2007 was 0.38 percent and was not statistically significant

451
56. Third, I identified four dates that were
accompanied by public discussion of allegations that
CDO investor John Paulson assisted Goldman in
designing a CDO which his firm intended to short. For
example:


An October 31, 2009 article in The Wall Street
Journal reported that “[Paulson & Co.] met
with bankers at Bear Stearns, Deutsche Bank,
Goldman Sachs, and other firms to ask if they
would create [CDOs] that Paulson & Co. could
wager against. The investment banks would
sell the CDOs to clients who believed the value
of the mortgages would hold up. Mr. Paulson
would buy CDS [credit default swap] insurance
on the CDO mortgage investments—a bet that
they would fall in value. This way, Mr. Paulson
could wager against $1 billion or so of
mortgage debt in one fell swoop. Paulson & Co.
wasn’t doing anything new. A few other hedge
funds also worked with banks to short CDOs
the banks were creating. Hundreds of other
CDOs were being created at the time. Other
bankers, including those at Deutsche Bank
and Goldman Sachs, didn’t see anything wrong

(Exhibit 1). According to Dr. Finnerty’s model, Goldman’s
residual stock price movement on this date was -0.15 percent and
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, Goldman’s
residual stock price movement was 0.32 percent and was not
statistically significant (Finnerty Report, Exhibit 9).

452
with Mr. Paulson’s request and agreed to work
with his team.”86, 87


On November 3, 2009, The Greatest Trade Ever
was released. This book noted that “Paulson’s
team would pick a hundred or so mortgage
bonds for the CDOs, the bankers would keep
some of the selections and replace others.”
Although a Bear Stearns trader “worried that
Paulson would want especially ugly mortgages
for the CDOs” and “suspected that [he] would
push for combustible mortgages and debt to go
into any CDO . . . [f]or his part, Paulson [said]
that investment banks . . . didn’t need to worry
about including only risky debt for the CDOs
because ‘it was a negotiation; we threw out
some names, they threw out some names, but
the bankers ultimately picked the collateral.’”
Similarly, Mr. Paulson acknowledged that he
“‘provided the collateral’ for the CDOs . . . ‘[b]ut
the deals weren’t created for us, we just
facilitated it; we proposed recent vintages of
mortgages’ to the banks.” The book also noted
that “other bankers including . . . Goldman
Sachs, didn’t see anything wrong with

86

“Profiting from the Crash,” The Wall Street Journal, October
31, 2009.
87

Goldman’s residual stock price movement on November 2,
2009 (the next trading day) was 0.27 percent and was not
statistically significant (Exhibit 1). According to Dr. Finnerty’s
model, Goldman’s residual stock price movement on this date was
0.89 percent and was not statistically significant (Finnerty
Report, Exhibit 3). According to Dr. Finnerty’s alternative model,
Goldman’s residual stock price movement was 1.00 percent and
was not statistically significant (Finnerty Report, Exhibit 9).

453
Paulson’s request and agreed to work with his
team.”88, 89
57. In sum, my event study analysis shows that
information mirroring the information allegedly
correcting the alleged misstatements was publicly
discussed in the marketplace prior to the first alleged
corrective disclosure on April 16, 2010. In addition, my
event study also indicates that Goldman’s residual
stock price movements were not statistically
significant on any of the 34 dates on which this
information was released. Both of these findings
support the conclusion that there is no basis to
conclude that when similar information was released
on future dates (i.e., the alleged corrective disclosure
dates) in conjunction with confounding information,
that the resulting residual stock price movement
is attributable to the alleged misrepresentations.
Therefore, contrary to Dr. Finnerty’s assertion, there
is no basis to conclude that the alleged misstatements
introduced inflation into Goldman’s stock price.
c) Dr. Finnerty Incorrectly Dismisses
Evidence that the Market Knew
About the Alleged Corrective
88

Zuckerman, G. (2009), The Greatest Trade Ever: The
Behind-the-Scenes Story of How John Paulson Defied Wall Street
and Made Financial History, New York, NY: Crown Business,
pp. 179–182.
89

Goldman’s residual stock price movement on this date was
0.07 percent and was not statistically significant (Exhibit 1).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement on this date was -0.32 percent and was not
statistically significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -0.68 percent and was not statistically significant
(Finnerty Report, Exhibit 9).

454
Information Prior to the First
Alleged Corrective Disclosure and
that Such Information Did Not
Affect Goldman’s Stock Price
58. Dr. Finnerty apparently rejects the above
evidence that the market knew about the alleged
corrective information prior to the first alleged
corrective disclosure and that such information did not
affect Goldman’s stock price based on four arguments:
(a) that Goldman “denied” wrongdoing and thereby
negated a stock price movement on those dates;90 (b)
that a discrete piece of new information, not previously
disclosed, was released on April 16, 2010;91 (c) that
Plaintiffs’ allegations in this matter are not actually
alleged misstatements regarding Goldman’s Business
Principles Statements and/or Conflict Management
Statements, but alleged misstatements that Goldman
had committed fraudulent conduct;92 and (d) that
various other “implications” of the articles I cite in
the Gompers Declaration apparently distinguish
the information released on the 34 days from the
information released on the alleged corrective
disclosure dates.93 Each of Dr. Finnerty’s arguments is
either illogical or simply factually incorrect (or both).
59. First, Dr. Finnerty attempts to explain the lack
of any price impact on any of the 34 dates during the
Class Period with public allegations of Goldman’s
conflicts with its clients by arguing that Goldman
“denied” that it engaged in inappropriate conduct and
90

Finnerty Report, ¶70.

91

Finnerty Report, ¶71.

92

Finnerty Report, ¶73.

93

Finnerty Rebuttal Declaration, Exhibit 6.

455
that these denials “thwarted” any potential price
impact.94 Dr. Finnerty identifies denials on just 10 of
the 34 dates, less than 30 percent of the dates
identified in my analysis. Dr. Finnerty provides no
basis to conclude that these 10 denials somehow
“thwarted” the price impact of the reports of conflicts,
especially given that Goldman’s stock price did not
decline in response to the 24 instances of conflicts
allegations where he identified no such denial.
Moreover, Dr. Finnerty provides no methodology to
distinguish effective denials from ineffective ones, or
to explain how or why these denials precisely offset the
price impact that (supposedly) would otherwise have
occurred from the conflicts allegations.
60. Further, Dr. Finnerty’s “denial” theory does not
address, and is directly contradicted by, what took
place on April 16, 2010 (the first alleged corrective
disclosure date). In his initial declaration,
Dr. Finnerty acknowledged that Goldman publicly
denied the allegations of the SEC enforcement action
94

Finnerty Rebuttal Declaration, ¶184. In his Exhibit 6, under
the heading “Implications,” Dr. Finnerty explicitly references
denials on 10 days based on the following variants: “Goldman
Denied Anything Improper” or “Goldman Denied Any Wrong
Doing” or “Author Conveyed that Goldman Denied Any Wrong
Doing.” In addition, Dr. Finnerty asserts in Exhibit 6 the
following “Implications” on three additional days, but does not
specify whether he considers them “denials”: “Goldman
Represented that CDO Products Were Fueled by Client Demand”
or “Goldman Conveyed That Its Interests Are Aligned With
Clients” or “Goldman Affirmed Its Stock Tips Are Consistent with
Fundamental Analysis” or “Goldman Conveyed That It
Appropriately Managed Conflicts of Interest.” My opinions are
unchanged regardless of whether Dr. Finnerty has identified 10
or 13 “denials.” I also note that Dr. Finnerty has noted multiple
“implications” for certain days (Finnerty Rebuttal Declaration,
Exhibit 6).

456
that day, stating that they were “completely
unfounded.”95 Dr. Finnerty provides no explanation as
to why this denial was ineffective in “thwarting” price
impact, whereas the denials in response to 10 of the
earlier allegations of Goldman conflicts were wholly
effective. Apparently, Dr. Finnerty assumes his own
conclusion—namely, that whenever public discussions
about allegations of Goldman’s conduct are not
associated with statistically significant residual stock
price movements, Goldman’s denials “thwarted” the
effect, but on some days where Goldman’s residual
stock price reaction was statistically significant,
no such “thwarting” occurred. I thus find that
Dr. Finnerty’s “denial” theory is inconsistent and
lacks foundation.
61. Second, Dr. Finnerty argues that new
information was disclosed on April 16, 2010,
specifically that Goldman “misled investors by failing
to disclose Paulson’s role in selecting the reference
portfolio of the Abacus 2007-AC1 CDO, and the fact
that Goldman had misled ACA [Financial Guaranty
Corp.] by telling ACA that Paulson was a sponsor of
the CDO transaction and would have an equity
interest in the transaction.”96 However, contrary to
Dr. Finnerty’s assertion, information about the
allegation that Goldman had failed to disclose
Paulson’s positions in the CDO was discussed publicly
95

For example, Dr. Finnerty notes that Goldman stated that
the “SEC’s charges are completely unfounded in law and fact
and we will vigorously contest them and defend the firm and
its reputation” (Finnerty Declaration, ¶60). See also Finnerty
Rebuttal Declaration, ¶¶3, 186 (stating that April 16, 2010 was
the date that the “truth” was revealed to the market about
Goldman’s alleged conflicts).
96

Finnerty Report, ¶71.

457
as early as November 2009. For example, The Greatest
Trade Ever, a book released on November 3, 2009,
specifically noted:
But some [CDO] investors later would
complain that they wouldn’t have purchased
the CDO investments had they known that
some of the collateral behind them was
chosen by Paulson and that he would be
shorting it.97
62. Similarly, a December 6, 2009 book review in
The New York Times reported:
Mr. Paulson persuaded Goldman Sachs and
Deutsche Bank to put together securitized
collateralized debt obligations (known as
C.D.O.’s), which were filled with nasty
mortgages that he could then short. Of
course, nobody told the suckers—er,
investors—who bought those C.D.O.’s that
they were designed to help a man who wanted
the most toxic mortgages imaginable so he
could profit when they went sour.98
63. Goldman’s residual stock price movements on
November 3, 2009 and December 7, 2009, two days on
which those allegations were publicly discussed, were
not statistically significant.99

97

Zuckerman, G. (2009), The Greatest Trade Ever: The
Behind-the-Scenes Story of How John Paulson Defied Wall Street
and Made Financial History, New York, NY: Crown Business,
p. 182.
98

“Economy’s Loss Was One Man’s Gain,” The New York
Times, December 6, 2009.
99

According to Dr. Finnerty’s model, on November 3, 2009,
Goldman’s residual stock price movement was -0.32 percent and

458
64. Moreover, in paragraphs 44–45 of the Finnerty
Report, Dr. Finnerty recognizes that the purported
disclosure violation is that Goldman “failed to disclose
that the Company, in fact, had conflicts of interest
with its clients in connection with the synthetic CDOs
Goldman structured and sold, e.g., Abacus 2007-AC1,
Hudson 2006-1, Anderson 2007-1, and Timberwolf 1
CDOs.”100 Nowhere in this discussion does
Dr. Finnerty state, or even imply, that Plaintiffs’ claim
is predicated on specific information about what was
disclosed specifically to ACA about Paulson’s role in
Abacus. Dr. Finnerty provides no explanation as to
how Goldman’s alleged misconduct with respect to
ACA “corrected” alleged misstatements regarding
“conflicts of interests with its clients,” nor an
explanation as to how information about the identity
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on November 3,
2009, Goldman’s residual stock price movement was -0.68 percent
and was not statistically significant (Finnerty Report, Exhibit 9).
According to Dr. Finnerty’s model, on December 7, 2009,
Goldman’s residual stock price movement was -0.97 percent and
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on December 7,
2009, Goldman’s residual stock price movement was -1.19 percent
and was not statistically significant (Finnerty Report, Exhibit 9).
100

Finnerty Report, ¶44. In addition, without specifying
whether Goldman should have disclosed such information,
Dr. Finnerty adds that “Goldman allegedly structured and sold to
clients these synthetic CDOs, which were structured to fail, while
the Company took short positions on these CDOs, without
disclosing its short positions to Goldman’s clients. Moreover, by
engaging in the Abacus 2007-AC1 transaction in particular,
Goldman allegedly created conflicts of interest by allowing one
client, Paulson, to benefit at the expense of other clients and
issued misleading marketing and offering materials to other
clients” (Finnerty Report, ¶45).

459
of ACA as an entity that was allegedly misled was a
“corrective disclosure” of general statements about
conflicts of interest whereas information alleging that
investors were misled was not.101 As I discuss in
further detail below, Dr. Finnerty’s failure to link
alleged “corrective information” to the alleged
misstatements throughout his report renders his
analysis economically imprecise and unreliable.
65. Third, Dr. Finnerty now argues that the
information revealed on the alleged corrective
disclosure dates was not just that Goldman “may
or did not have conflicts of interest, but, instead,
that Goldman had committed fraudulent conduct,
misleading its clients and failing to disclose to its
investors that it did not effectively manage its conflicts
of interest for the Abacus 2007-AC1 transaction.”102
Again, Dr. Finnerty ignores the fact that the
allegations (a) that Goldman had conflicts of interest
with its CDO investors; and (b) that Goldman misled,
or hid those conflicts from, its CDO investors were
already known in the marketplace prior to the alleged
corrective disclosure dates. For example:


A McClatchy Washington Bureau article
published on November 1, 2009 stated:
“Despite updating its numerous disclosures to
investors in 2007, Goldman never revealed
its secret wagers . . . . Another question is
whether, by keeping the trades a secret, the
company withheld material information that

101

Finnerty Report, ¶44.

102

Finnerty Report, ¶73.

460
would enable investors to assess Goldman’s
motives for selling the bonds.”103


A McClatchy Washington Bureau article
published on December 30, 2009 reported that
it had been alleged that “Goldman inserted the
credit-default swaps into CDO deals ‘like a
Trojan Horse—secret bets that the same types
of bonds that they were selling to their clients
would in fact fail.’”104



An article in The Wall Street Journal
published on December 14, 2007 noted that
“[Goldman’s structured-products trading]
group also has another mission: If it spots
an opportunity, it can trade Goldman’s own
capital to make a profit. And when it does so,
it doesn’t necessarily have to share such
information with clients, who may be making
opposite bets.”105



A Rolling Stone article published on July 9,
2009 stated: “I ask the manager how it could
be that selling something to customers that
you’re actually betting against—particularly
when you know more about the weaknesses of
those products than the customer—doesn’t
amount to securities fraud. ‘It’s exactly

103

“How Goldman Secretly Bet on the U.S. Housing Crash,”
McClatchy Washington Bureau, November 1, 2009.
104

“Goldman’s Offshore Deals Deepened Global Financial
Crisis,” McClatchy Washington Bureau, December 30, 2009.
105

“How Goldman Won Big on Mortgage Meltdown — A
Team's Bearish Bets Netted Firm Billions; A Nudge From the
CFO,” The Wall Street Journal, December 14, 2007.

461
securities fraud,’ he says. ‘It’s the heart of
securities fraud.’”106
66. In addition to these examples, as discussed
above in paragraphs 61–62, allegations that Goldman
misled investors specifically in the Abacus CDO
transaction were also discussed in the public domain
prior to the alleged corrective disclosure dates.
Thus, Dr. Finnerty’s assertion that, prior to the first
alleged corrective disclosure, the public allegations of
Goldman’s conflicts of interest related to CDOs were
limited to the existence of such conflicts is incorrect.
Rather, those public discussions included allegations
that Goldman’s CDO investors were unaware of
these conflicts or that Goldman failed to disclose
information about these conflicts to its CDO investors.
67. Finally, in Exhibit 6 of his Rebuttal Declaration,
Dr. Finnerty identifies additional “implications” of the
articles I identified, which he presumably believes
invalidate my findings, although he does not reference
those specifically in the Finnerty Report. In addition
to his “denial” theory as discussed above, Dr. Finnerty
describes the following categories of “implications”
from the news articles: (a) that the allegations were
not directly related to the four CDOs at issue, (b) that
the article concerned the four CDOs but did not reveal
new information about the specific CDOs at issue,
and/or (c) that the article in some way conveyed that
Goldman may not have done anything wrong or

106

“The Great American Bubble Machine,” Rolling Stone, July
9, 2009. This article was publicly available on June 24, 2009
(“Goldman Sachs: ‘Engineering Every Major Market
Manipulation Since The Great Depression’,” Zero Hedge, June 24,
2009).

462
illegal.107 These additional “implications” are
irrelevant to my conclusions for the reasons set forth
below. I will address these categories of “implications”
in turns.
68. Dr. Finnerty criticizes my analysis of the 34
days with conflicts allegations and no responsive
stock price impact because “many of [the conflicts
allegations] had nothing to do with the mortgage
market or selling of CDOs.”108 Even where the
Goldman conflicts allegations concerned CDOs,
Dr. Finnerty argues that many are irrelevant because
the news was “not directly related to the four deals at
issue.”109 This criticism is baseless. Dr. Finnerty
ignores that the alleged misstatements—as stated in
the Complaint—are not specific to the four CDOs
or Goldman’s CDO practices more generally.
Dr. Finnerty assumes that the alleged general
statements regarding Business Principles and Conflict
Management could only be rendered false by
revelations about the four CDOs at issue in this case,
but that assumption is at odds with the actual
language of the alleged misstatements, which cover all
of Goldman’s many business lines. Notwithstanding
the general language of the alleged misstatements, as
discussed above, I identified 23 days during the Class
Period in which there were public allegations of
Goldman having conflicts of interest in connection
with its mortgages or CDOs practices, and determined
107

Finnerty Rebuttal Declaration, Exhibit 6. Note that on
some days Dr. Finnerty asserts more than one “implication.”
108
109

Finnerty Rebuttal Declaration, ¶184, Exhibit 6.

Dr. Finnerty argues that on 31 days the news was “Not
Directly Related to the Four Deals At Issue” (Finnerty Rebuttal
Declaration, Exhibit 6).

463
that these public allegations did not cause any stock
price impact. Dr. Finnerty does not dispute this
finding.
69. Furthermore, Dr. Finnerty attempts to explain
the lack of price impact on eight of the 34 days with
public allegations of Goldman conflicts on the grounds
that on those days “no incremental factual information
regarding the four deals was disclosed.”110 This
criticism is puzzling, because Dr. Finnerty fails
to identify any “incremental factual information
regarding the four deals” disclosed on two of the
alleged corrective disclosure dates (April 30, 2010 and
June 10, 2010). On April 30, 2010, for example, the
only new information allegedly released to investors
was a news report that the DOJ was investigating
unspecified “mortgage trading” at Goldman.111 This
news report did not allege anything new about
Goldman conflicts of interest, did not allege anything
about any specific CDO, and it did not provide any
“incremental factual information regarding the four
deals.” Dr. Finnerty provides no explanation for his
inconsistent theory that the earlier eight conflicts
allegations had no stock price impact because of an
absence of “incremental” information, whereas an
110

In Exhibit 6 of his Rebuttal Declaration, Dr. Finnerty uses
the following variants of this theory on eight days: “No
Incremental Factual Information Regarding the Four Deals was
Disclosed” or “No Incremental Factual Information Regarding
Paulson’s Involvement in the Portfolio Selection was Disclosed”
or “No Incremental Factual Information Regarding Goldman’s
Non-disclosure Regarding Paulson’s Involvement in the Portfolio
Selection was Disclosed” (Finnerty Rebuttal Declaration, Exhibit
6).
111

“Criminal Probe Looks Into Goldman Trading,” The Wall
Street Journal, April 30, 2010.

464
absence of “incremental” information on the April 30,
2010 and June 10, 2010 alleged corrective disclosure
dates did not similarly result in no stock price impact.
70. Dr. Finnerty also contends that the public
reports of Goldman’s conflicts of interest on 11 of the
34 days I identified had no price impact because the
article “conveyed that Goldman’s conduct was legal” or
“conveyed that Goldman appropriately managed
conflicts of interest.”112 As an initial matter,
Dr. Finnerty’s theory implicitly recognizes that there
were (at least) 23 days during the Class Period with
public allegations that Goldman had conflicts that
were not “legal” or not “appropriate” and that there
was no statistically significant residual stock price
movement on these days. Further, Dr. Finnerty does
not provide an accurate account of what these 11
reports supposedly “conveyed.” For example:


112

“Who Needs Wall Street?” The New York
Times
Magazine
(March
17,
2010):
Dr. Finnerty dismisses this article about
Goldman having interests adverse to its clients
as “convey[ing] that Goldman appropriately
managed conflicts of interest.” Far from

In Exhibit 6 of his Rebuttal Declaration, Dr. Finnerty
describes this theory on 11 days as follows: “Article Conveyed
that Goldman Appropriately Managed Conflicts of Interest” or
“Writer Did Not Believe Goldman Did Anything Wrong” or
“Market Participants Believed that Goldman Appropriately
Managed Conflicts of Interest” or “Article Noted That The Public
Did Not Believe Goldman Did Anything Wrong” or “Analysts
Believed Goldman Appropriately Managed Conflicts of Interest”
or “Article Conveyed That Goldman Did Not Violate Any Laws”
or “Article Conveyed that Goldman’s Conduct Was Legal” or
“Article Conveyed that Some or All of the Products and Practices
Were Not Illegal” (Finnerty Rebuttal Declaration, Exhibit 6).

465
praising Goldman, this article, after recapping
testimony that Goldman’s CEO gave to the
Financial
Crisis
Inquiry
Commission,
concluded: “[s]o much for putting the customer
first.”113, 114


“Goldman Looking at an Own Goal,” Financial
Times (March 4, 2010): Dr. Finnerty asserts
this article “convey[s] that Goldman
appropriately managed conflicts of interest.”
In fact, the article notes that one of Goldman’s
clients was “considering severing ties” with
Goldman as the result of a conflict of interest.
The article also states that “so-called Chinese
Walls” that should prevent or mitigate
conflicts are “only as sound as the integrity of
the banks that erect them.”115



“Betting Against All of Us,” The New York
Times (December 29, 2009): From an editorial
describing Goldman’s mortgages practices,
Dr. Finnerty cites a statement that “[i]t may
turn out that some or all of the products and
practices were not illegal . . . . ” That “some”
“products and practices” “may turn out” to be

113

Finnerty Rebuttal Declaration, Exhibit 6; “Who Needs Wall
Street?” The New York Times Magazine, March 17, 2010.
114

In Exhibit 6 of his Rebuttal Declaration, Dr. Finnerty
claims that I “omitted” a quote from this article about what
Goldman “epitomized” “from its founding in 1869 through recent
decades” (Finnerty Rebuttal Declaration, Exhibit 6) Dr. Finnerty
omits the next sentence: “Wall Street’s emphasis began to change
in the ‘90s, as financiers devised new securities—the more
incomprehensible, or so it seemed—the better” (“Who Needs Wall
Street?” The New York Times Magazine, March 21, 2010.)
115

Finnerty Rebuttal Declaration, Exhibit 6; “Goldman
Looking at an Own Goal,” Financial Times, March 4, 2010.

466
“not illegal,” as well as the editorial headline,
does not suggest a view that the conduct was
appropriate.116
71. Moreover, Dr. Finnerty does not address the
multiple reports on the alleged corrective disclosure
days that similarly questioned whether Goldman’s
conduct was actually illegal or inappropriate in spite
of the SEC’s enforcement action. For example, the
Washington Post described the SEC’s charges as
“flimsy,”117 while a Financial Times article noted that
“[t]he SEC is on particularly uncertain ground because
it has questioned a transaction involving professional
investors, rather than the retail clients it most often
protects. Sellers owe far fewer obligations to
sophisticated investors under US law.”118
72. In sum, Dr. Finnerty baselessly and incorrectly
dismisses evidence both that market participants
were already aware of the alleged “corrective
information” prior to the first alleged corrective
disclosure date and that such information, when
previously released, had no effect on Goldman’s stock
price. Thus, Dr. Finnerty’s analysis is incorrect and
misleading as it ignores the evidence demonstrating
that the alleged misstatements did not introduce
inflation in Goldman’s stock price.

116

Finnerty Rebuttal Declaration, Exhibit 6; “Betting Against
All of Us,” The New York Times, December 29, 2009.
117
118

“Goldman’s Non-Scandal,” Washington Post, April 20, 2010.

“SEC Engages in High Risk Game,” Financial Times, April
19, 2010.

467
2. On Other Days, Prior to the Alleged
Corrective Disclosures, Allegations
of Conflicts of Interest at Goldman
Were Publicly Discussed Without a
Statistically
Significant
Residual
Stock Price Movement
73. In addition to the 34 news days identified by my
search methodology described above, I was asked by
counsel to examine several additional days on which
allegations of conflicts of interest at Goldman were
discussed in public reports as described in Defendants’
Memorandum of Law in Opposition to Plaintiffs’
Motion for Class Certification.119 At the request of
counsel, I have reviewed two additional news
articles—published on November 11, 2008 and
November 19, 2009—and examined Goldman’s
residual stock price movements on those dates.120
Based on my regression model, I found that Goldman’s
residual stock price movement on these two dates was
not statistically significant.121 Thus, this finding
119

Defendants’ Memorandum of Law in Opposition to
Plaintiffs’ Motion for Class Certification, In re Goldman Sachs
Group, Inc. Securities Litigation, filed April 6, 2015, pp. 13–14.
120

Declaration of Jessica P. Stokes, filed April 6, 2015,
Exhibits 1 and 2: “Firm Urged Hedge Against State Bonds It
Helped Sell,” Los Angeles Times, November 11, 2008; “GS
a Short? And Five Reasons We Hate Goldman Sachs,”
MarketWatch, November 19, 2009. My search methodology relies
on the Factiva database’s major business publications and
newswires, which does not include publications by the Los
Angeles Times or MarketWatch.
121

According to Dr. Finnerty’s model, on November 11, 2008,
Goldman’s residual stock price movement was 7.25 percent
and was statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on November 11,
2008, Goldman’s residual stock price movement was 7.17 percent

468
further supports my conclusion that allegations of
conflicts of interest at Goldman were disseminated
months prior to the first alleged corrective disclosure
date, and when these allegations were publicly
discussed, they did not affect Goldman’s stock price.
74. For example, a Los Angeles Times article,
published on November 11, 2008, reported that
Goldman acted against the interests of a client by
urging investors to bet against municipal bonds issued
by the State of California, despite having been paid
millions of dollars in fees by the State to help structure
those bonds. Specifically, the article notes:
Some experts said the investment bank’s
actions, while not illegal, might be
inappropriate. “That’s not a good way to do
business,” said Geoffrey M. Heal, professor of
public policy and business responsibility at
Columbia University. “They’ve got a conflict
of interest and they’re acting against the
interests of their customers . . . . You act in
the interests of your clients. You don’t screw
them, to put it bluntly.”122
75. In addition, a MarketWatch article published on
November 19, 2009 reported allegations that Goldman
was packaging and marketing derivative securities to
and was not statistically significant (Finnerty Report, Exhibit 9).
According to Dr. Finnerty’s model, on November 19, 2009,
Goldman’s residual stock price movement was -0.28 percent and
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on November 19,
2009, Goldman’s residual stock price movement was -0.31 percent
and was not statistically significant (Finnerty Report, Exhibit 9).
122

“Firm Urged Hedge Against State Bonds It Helped Sell,”
Los Angeles Times, November 11, 2008.

469
investors while simultaneously betting against those
same products. Specifically, the article states:
Goldman was packaging and selling toxic
derivatives for hundreds of billions of dollars
to investors around the world, telling those
investors that such derivatives were safe and
smart bets. At the same time, Goldman was
out at the AIG casino not just hedging their
own exposure to the derivatives while they
were packaging them, but Goldman was
actually betting against those very products.
They were literally selling products that they
were so confident would fail that they bet tens
of billions of their own money at AIG against
those products they were telling investors
were safe. We want some perpwalks for this
obvious fraud.123
76. Moreover, the MarketWatch article, as with
others cited above, directly contradicts Dr. Finnerty’s
unsupported assertion that the information released
to the market prior to the first alleged corrective
disclosure on April 16, 2010 pertained only to whether
“Goldman may or did not have conflicts of interest”
and not to whether Goldman had committed
“fraudulent conduct.”124 In fact, the allegation that
Goldman misled its CDO investors about potential
conflicts of interest, and that this potentially could be
construed as fraudulent, was explicitly discussed in
public reports as early as 2009.

123

“GS a Short? And Five Reasons We Hate Goldman Sachs,”
MarketWatch, November 19, 2009.
124

Finnerty Report, ¶73.

470
3. Dr. Finnerty Fails to Link the
Information Released on the Alleged
Corrective Dates to the Alleged
Misstatements
77. As an initial matter, it is critical to directly link
the alleged corrective disclosures to the alleged
misstatements, that is, to specify what Goldman
allegedly should have disclosed on the alleged
misstatement dates and to show that the subsequent
revelation of that information specifically caused a
loss to Goldman’s equity investors. Dr. Finnerty fully
attributes the decline in Goldman’s stock price that
followed news of regulatory actions and investigations
concerning CDOs to the correction of the general
alleged misstatements. This approach is predicated
on the assumptions that (a) Goldman’s general
statements about firm-wide business principles and
management of conflict of interests are value-relevant
for investors in a large business organization, and
(b) that the news of government enforcement actions
or investigations concerning a handful of CDO
transactions is economically equivalent to a revelation
that the statements were false on a firm-wide
basis. Dr. Finnerty contends that “the regulatory
enforcement action by the SEC would not have been
brought if there had been no evidence of fraudulent
conduct with respect to the Abacus 2007-AC1 CDO
transaction, which revealed that Goldman had made
alleged false and misleading statements and
omissions during the Class Period.”125 Even putting
aside Dr. Finnerty’s questionable presumption that
the SEC’s filing a legal complaint is tantamount to
proof of facts, Dr. Finnerty incorrectly assumes that
125

Finnerty Report, ¶93.

471
revelations about alleged conflicts of interest in
February and June 2007 would have allowed an
investor to anticipate the regulatory enforcement
actions and investigations announced or rumored in
April and June 2010, and their effects on Goldman’s
stock price. Dr. Finnerty provides no justification for
this assumption.
78. Dr. Finnerty’s assumption that investors would
predict with 100 percent certainty that an SEC
enforcement action would occur, and that investors’
expectations as to the specifics of that enforcement
action would exactly mimic the actual SEC
enforcement action that was ultimately announced on
April 16, 2010, is contradicted by the evidence in this
matter. Specifically, as I discussed in Section V.B.1,
when information about alleged conflicts of interest
in Goldman’s CDO business—including information
that it allegedly misled its CDO investors—entered
the marketplace on numerous dates prior to the
first alleged corrective disclosure date, Goldman’s
residual stock price movements were not statistically
significant. Consistent with my finding that
Goldman’s stock price did not react when the alleged
conflicts of interest were publicly discussed prior to
April 16, 2010, Dr. Stephen Choi concludes in his
declaration that the SEC enforcement action against
Goldman was not inevitable, and indeed was not
reasonably foreseeable.126 In addition, it had several
extraordinary characteristics showing an unusually
aggressive stance by the SEC which in turn affected
Goldman’s stock price.127

126

Choi Declaration, ¶19.

127

Choi Declaration, ¶¶39–40.

472
79. As I show in the remainder of this section, an
analysis of the alleged corrective disclosure dates,
including the critical distinction between new
misstatement-related and non-misstatement-related
information, demonstrates that Dr. Finnerty’s loss
causation analysis fails to establish that Goldman’s
stock price was inflated due to the alleged
misstatements and that Goldman’s equity investors
experienced losses directly tied to the correction of
those alleged misstatements.
4. Dr. Finnerty’s Analysis of the Alleged
Corrective Disclosure Days Does Not
Establish Loss Causation
80. I analyzed the information released on each of
the four alleged corrective disclosure dates and
examined Goldman’s stock price movement on each of
these dates. Using my event study, I determined
whether Goldman’s residual stock price movement
was statistically significant and analyzed the new
information that was released on each of these dates
and whether it related to Goldman’s Conflict
Management Statements and/or Business Principles
Statements. Based on my analysis, I found that on the
four alleged corrective disclosure dates, there is no
evidence that a corrective disclosure of the Conflict
Management Statements and/or Business Principles
Statements removed inflation from Goldman’s stock
price—i.e., that there is no evidence of loss causation.
Importantly, this conclusion is also supported by my
finding (detailed in Section V.B.1 above) that the
release of information similar to the alleged corrective
disclosures—prior to the first alleged corrective

473
disclosure—did not cause a statistically significant
residual stock price decline.128
81. On April 26, 2010, my analysis (as well as that
of Dr. Finnerty) shows that Goldman’s residual stock
price movement was not statistically significant.129
Although Goldman’s residual stock prices on April 16,
2010, April 30, 2010, and June 10, 2010 were negative
and statistically significant, I found that Goldman’s
stock price was adversely affected by news other than
alleged corrections of the Conflict Management
Statements or Business Principles Statements.130
Dr. Finnerty fails to isolate and measure the impact,
if any, of corrections of the alleged misstatements
(rather than this confounding information) on
Goldman’s stock price. With regard to April 30, 2010
and June 10, 2010 in particular, Dr. Finnerty fails to
identify any new information released on those days
that corrected the alleged misstatements or omissions
he highlights in paragraphs 44–45 of the Finnerty
Report. Rather, Dr. Finnerty merely points to
allegations of misconduct that had been known for
days and sometimes months prior, and to the
announcement of purported investigations which
contained no specific information about Goldman’s
128

I note that in a different matter, Dr. Finnerty similarly
concluded that an announcement of a “change in accounting”
was “not significant and was unlikely to impact [Jennifer
Convertibles’] share price” based in part on his conclusion that
“the issues behind this accounting change had previously been
revealed with no effect on the Company’s share price” (Finnerty
Deposition Exhibit 4, “Draft Expert Report of John D. Finnerty,
Ph.D.,” In Re Jennifer Convertibles Securities Litigation, filed
June 3, 2002, ¶¶11, 29–30).
129

Finnerty Report, ¶102.

130

Gompers Declaration, ¶¶12, 62–73, 78–95.

474
alleged misconduct and therefore cannot be linked to
the alleged misstatements and omissions as outlined
by Dr. Finnerty. Thus, Dr. Finnerty both fails to
establish that Goldman’s stock price was inflated
during the Class Period and fails to establish loss
causation. I will discuss each date in chronological
order.
a) April 16, 2010
82. According to Dr. Finnerty:
[An] SEC Complaint filed on April 16, 2010
revealed that Goldman had been engaged in
fraudulent conduct in connection with the
Abacus 2007-AC1 CDO transaction, had not
adequately disclosed Paulson’s involvement
in the portfolio selection process, and
intentionally misled ACA with respect to the
Abacus 2007-AC1 CDO transaction.131
83. Goldman’s stock price decreased from a closing
price of $184.27 on April 15, 2010 to a closing price of
$160.70 on April 16, 2010, a decrease of 12.79
percent.132 After controlling for market and industry
movements, Goldman’s residual stock price movement
was -9.94 percent and was statistically significant.133

131

Finnerty Report, ¶76.

132

Finnerty Report, ¶77.

133

According to Dr. Finnerty’s model, Goldman’s residual
stock price movement was -9.27 percent and was statistically
significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -9.30 percent and was statistically significant
(Finnerty Report, Exhibit 9).

475
84. On April 16, 2010, the SEC charged Goldman
with fraud.134 The charges included information about
Mr. Paulson’s role in the transaction, such as that
“[o]n January 8, 2007, [Goldman employee Fabrice]
Tourre attended a meeting with representatives from
Paulson and ACA at Paulson’s offices in New York
City to discuss the proposed transaction.”135 In
addition, the SEC alleged that:
[Goldman’s]
marketing
materials
for
ABACUS 2007-AC1 were false and
misleading because they represented that
ACA selected the reference portfolio while
omitting any mention that Paulson, a party
with economic interests adverse to CDO
investors, played a significant role in the
selection of the reference portfolio.136
85. The SEC enforcement action itself directly
affected Goldman’s stock price, caused reputational
damage, signaled potential further government
actions against Goldman, and caused analysts to
downgrade Goldman stock or increase their risk
ratings. Market commentary on this date, described
below, is consistent with my event study discussed in
Section V.B.1, which showed that there was no impact
on Goldman’s stock price when similar allegations of
Goldman’s Business Conflicts and/or Mortgage/CDO
Conflicts were made in the marketplace.137
134

Complaint, Securities and Exchange Commission v.
Goldman Sachs & Co. and Fabrice Tourre, 10 Civ. 3229 (BJ)
(S.D.N.Y.), filed April 16, 2010 (“SEC Complaint”).
135

SEC Complaint, ¶26.

136

SEC Complaint, ¶36.

137

Market commentary on this date also discussed other new
information unrelated to Plaintiffs’ allegations, including news

476
86. I reviewed public press and analyst reports
surrounding the events of April 16, 2010 and found
that market participants attributed Goldman’s stock
price decline to the SEC’s announcement of its
enforcement action. For example:
• On April 16, 2010, Dow Jones News Service
reported, “[t]he SEC’s civil lawsuit is one of the
biggest moves by authorities in response to the
financial crisis of 2007-08, and it sent Goldman
shares sharply lower. The firm’s shares were
down about 11% recently.”138


A Deutsche Bank analyst noted on that day
that “[Deutsche Bank] expect[s] the SEC
charges today against [Goldman], possible
follow-on, and financial regulatory reform to
weigh on the stock and sector in the near term;
however, we think the loss of ~$13B in market
cap. . .is an over-reaction.”139

87. Notably, some market participants were more
concerned by the SEC’s enforcement action than by

about Goldman’s investments and business. The Financial Times
reported that Goldman’s international real estate fund,
Whitehall Street International, had dropped to $30 million in
value from an initial $1.8 billion, citing an annual report that was
sent by the fund to investors during the previous month
(“Goldman Real Estate Fund Down to $30m,” Financial Times,
April 15, 2010). The Financial Times also reported that Goldman
was hired by Demand Media Inc. to explore a 2010 IPO estimated
at $1.5 billion (“Demand Media Enlists Goldman for IPO,”
Financial Times, April 16, 2010).
138

“4th Update: SEC Charges Goldman Sachs with
Defrauding Investors,” Dow Jones News Service, April 16, 2010.
139

“SEC Charges GS,” Deutsche Bank, April 16, 2010.

477
Goldman’s alleged conduct. For example, an analyst at
Oppenheimer stated:
In our view, the violations alleged in this
complaint would normally have been viewed
as relatively minor as the counterparties
were large, sophisticated institutional parties
on both sides of the transaction that had
plenty of resources to do due diligence on the
instrument that they were buying. Moreover,
we suspect that the fact pattern alleged in the
complaint was probably widespread in the
industry.140
88. Similarly, on April 20, the same analyst
reiterated that “[i]t is not so much the facts in the
complaint that trouble us, [rather] it is the fact that
the SEC seems to be pursuing such a limited and
marginal case in a sensational and public manner.”141
A Deutsche Bank analyst noted that “given the details
of the charge, the institutional nature of the clients,
and the challenges of disclosing client information to
another client, the findings are rather inconclusive.”142
Additionally, the Washington Post also described the
SEC’s charges as “flimsy,”143 and an Argus analyst
reported that while “most legal experts agree that the
SEC’s civil fraud case against Goldman is far [from]
140

“SEC Singles Out GS for Fraud ChargeStepping to
Sidelines,” Oppenheimer, April 16, 2010.
141

“1Q Review: Life Is Not Fair,” Oppenheimer, April 20, 2010.
The analyst also characterized “the facts of the SEC complaint as
fairly weak and limited” and listed seven reasons why “the
complaint seems marginal.”
142

“Solid Quarter Overshadowed by Recent SEC Allegations,”
Deutsche Bank, April 20, 2010.
143

“Goldman’s Non-Scandal,” Washington Post, April 20, 2010.

478
being a slam dunk,” the “publicity is clearly
embarrassing for Goldman Sachs.”144
89. As discussed by Dr. Choi in his declaration, the
SEC enforcement action against Goldman had several
extraordinary characteristics showing an unusually
aggressive stance by the SEC which could be expected
to affect Goldman’s stock price irrespective of the
underlying allegations, specifically (a) the SEC did not
announce a settlement on the same day the charges
were filed; (b) the charges included violations of
Section 10(b) of the Securities Exchange Act of 1934,
Rule 10b-5 and Section 17(a)(1) of the Securities Act of
1933 (“scienter charges”); and (c) an individual,
Fabrice Tourre, was charged along with Goldman.145
Moreover, the SEC action was unusual because
it took place in a tumultuous economic and
political environment where there was considerable
uncertainty about future regulation and legislation.146
Dr. Finnerty testified at his deposition that
characteristics of the announcement of a regulatory
action, such as whether the action is settled at the
same time it is announced, can cause different stock
price impacts even when the underlying factual
allegations are the same.147
90. Following the SEC charges against Goldman,
market participants commented that there would be
increased governmental scrutiny aimed at Goldman
specifically. For example:

144

“Analyst’s Notes,” Argus, April 20, 2010.

145

Choi Declaration, ¶¶35, 39–40.

146

Choi Declaration, ¶49.

147

Finnerty Deposition, 146:24–148:13.

479








On April 16, 2010, a Barclays analyst stated,
“[t]argeting [Goldman Sachs], given the flurry
of anti-Wall Street press that has centered
around that firm offers the publicity that
the administration needs at this critical
juncture.”148
On April 19, 2010, a Wells Fargo analyst
reported that the SEC action “could embolden
other regulators (and investors) to seek
legal action against” Goldman. The analyst
“expect[ed] [that] lawmakers will use the
allegations against [Goldman] as a means to
push regulatory reform.”149
On April 20, 2010, an Oppenheimer analyst
noted that “[i]t is not so much the facts in the
complaint that trouble us, it is the fact that the
SEC seems to be pursuing a limited and
marginal case in a sensational and public
manner. No matter how strong the company’s
financial performance, it is hard to see how the
stock outperforms when one of its primary
regulators seems intent on this course of
action.”150
On April 20, 2010, a Credit Suisse analyst
wrote, “[w]e acknowledge [that] near-term
headline risk remains high and regulatory
overhang could keep a cloud over Goldman
Sachs and brokerage sector valuations. There’s
no doubt regulatory/litigation risk now

148

“Administration Steps Up Support for Bill,” Barclays
Capital, April 16, 2010.
149

“GS: Reputational Risks Increased, But Valuation Still
Attractive,” Wells Fargo, April 19, 2010.
150

“1Q Review: Life Is Not Fair,” Oppenheimer, April 20, 2010.

480
represents a greater risk to our constructive
thesis [on Goldman shares].”151


On April 21, 2010, a Societe Generale analyst
discussed the political nature of the charges
against Goldman and noted that the “current
attacks are politically driven in our view
([Goldman] was not the most active player in
MBS and synthetic CDO issuance), headlines
and legal risk could result in volatility
affecting its stock price in the near term.”152

91. Following
the
SEC
charges,
market
participants also noted that Goldman could suffer
a negative reputational effect due to the stigma
associated with being the subject of an SEC
enforcement action but did not ascribe the
reputational effects to the Conflict Management
Statements and/or Business Principles Statements.
Equity analysts also downgraded Goldman’s stock or
changed their risk ratings following the SEC charges.
For example:


On April 16, 2010, an Oppenheimer analyst
downgraded Goldman to “perform” from
“outperform,” noting that “[a]t the moment, it
looks as if the SEC is pursuing an agenda
aimed specifically at Goldman.”153



Also, on April 16, 2010, a Citigroup analyst
revised his rating for Goldman to “buy/high

151

“Strong Fundamentals–No New News on SEC Charge,”
Credit Suisse, April 20, 2010.
152

“Blow-Out Quarter Overshadowed by SEC Complaint,”
Societe Generale, April 21, 2010.
153

“SEC Singles Out GS for Fraud Charge–Stepping to
Sidelines,” Oppenheimer, April 16, 2010.

481
risk” from “buy/medium risk,” noting that
“these issues will take a while to resolve and
will add more headline risk to the story” and
that he views “[r]eputation risk [as the] biggest
issue.”154
92. Lastly, I reviewed market commentary
surrounding this date and found that none of the
commentary attributed Goldman’s stock price
movement to a revelation that Goldman’s Conflict
Management Statements or Business Principles
Statements were false. Indeed, I did not find any
mention of Goldman’s Conflict Management
Statements or Business Principles Statements at all,
in any of the analyst reports around April 16, 2010.
93. As I previously discussed, in conducting my
event study I applied an objective and replicable
methodology. In the case of public press surrounding
the alleged corrective disclosure dates, I searched
analyst reports and Factiva’s major business
publications on the trading day prior to and three
trading days after the alleged corrective disclosure
day. In the Finnerty Rebuttal Declaration,
Dr. Finnerty points to three news articles and
incorrectly contends that these articles “showed that
the revelation that Goldman had engaged in conflicts
of interest and violated is business practices in
connection with Abacus . . . had an impact on
Goldman’s stock price.”155 However, Dr. Finnerty’s ad
hoc identification of three news articles does not refute
my finding (based on a far broader review of more than
154

“Initial Thoughts on SEC Civil Lawsuit,” Citigroup, April
16, 2010.
155

Finnerty Rebuttal Declaration, ¶181. Dr. Finnerty does not
refer to these articles in the Finnerty Report.

482
2,000 press articles and 40 analyst reports) that
market commentary did not attribute any of the stock
price declines at issue to a revelation that Goldman’s
Conflicts Management or Business Principles
Statements were false. In any event, Dr. Finnerty
mischaracterizes these articles as supporting his
assertion that Goldman’s residual stock price decline
on April 16, 2010 was caused by a correction of the
alleged misstatements:

156



The Wall Street Journal article dated April 17,
2010 merely mentions the word “conflicts,” but
does not reference the Conflict Management or
Business Principles Statements, let alone
attribute any stock price decline to their
alleged falsity.156 Consistent with Dr. Choi’s
explanation for Goldman’s stock price
movement, the article states that the lawsuit
“represent[s] the government’s strongest
attack yet on . . . [pre-crisis] Wall Street deal
making,” that Goldman had “emerged as a
lightning-rod,” and that “[t]he SEC lawsuit
likely strengthens the position of President
Obama as he tries to push financial-overhaul
legislation through Congress.”



The April 18, 2010 Associated Press news
article
describes
Goldman’s
Business
Principles in the context of discussing the
potential impact of the SEC enforcement

Finnerty Rebuttal Declaration, ¶181; “U.S. Charges
Goldman Sachs with Fraud—SEC Alleges Firm Misled Investors
on Securities Linked to Subprime Mortgages; Firm Vows to Fight
the Charges,” The Wall Street Journal, April 17, 2010. I note that
Dr. Finnerty appears to cite a different version of this article.

483
action on Goldman’s image.157 Dr. Finnerty
provides no explanation for why this is the only
article he has located that mentions the
Business Principles Statements or why he has
not located any articles that mention the
Conflict Management Statements. The article
does not attribute any stock price decline to
those statements. In fact, the article described
other recent “mishaps” that had affected
Goldman’s “image” and characterized the
statement “[o]ur clients’ interests always come
first” as “a sales pitch that few Wall Street
firms always live up to.”


The Wall Street Journal column on April 21,
2010, while mentioning reputational harm,
does not attribute any stock price decline to
any of the statements at issue having been
rendered false.158 The article states that the
“SEC faces a tough task in proving” its
allegations and, consistent with Dr. Choi’s
findings, that “[g]iven the public anger at Wall
Street, and the criticism of the SEC’s failure to
regulate more effectively before the financial
crisis struck, it’s worth considering that
Goldman makes an enticing political target,
regardless of the merits of the suit.”

94. In sum, Goldman’s stock price was adversely
affected by news other than alleged corrections of
the Conflict Management Statements or Business
Principles Statements. My conclusion is based on the
157

“Fraud Charge Deals Big Blow to Goldman Sachs’ Image,”
Associated Press, April 18, 2010.
158

“Where’s the Goldman That I Used to Know?” The Wall
Street Journal, April 21, 2010.

484
totality of my analysis, including my event study
analysis explained above and my finding that the
release of information mirroring the alleged corrective
disclosures earlier in the Class Period did not cause a
negative residual stock price movement. Because
Dr. Finnerty does not attempt to disentangle the
impact of this confounding negative news on April 16,
2010, Dr. Finnerty fails to establish that the alleged
corrective disclosure caused a negative reaction in
Goldman’s stock price and thus fails to establish
(a) that Goldman’s stock price was inflated during the
Class Period, and (b) loss causation.
b) April 26, 2010
95. Dr. Finnerty states that “[o]n Saturday, April
24, 2010, the Senate Subcommittee on Investigations
announced the release of four emails, which indicated
that Goldman made money betting against the CDOs
it had sold to its clients.”159
96. Goldman’s stock price decreased from a closing
price of $157.40 on April 23, 2010 to a closing price of
$152.03 on April 26, 2010, a decrease of 3.41 percent.
After controlling for market and industry movements,
Goldman’s residual stock price movement was not
statistically significant.160 Dr. Finnerty finds a similar
159
160

Finnerty Report, ¶95.

Dr. Finnerty also notes that this residual stock price
movement is statistically significant only at the 38 percent level
and not the 5 percent level (Finnerty Declaration, ¶¶66–67).
According to Dr. Finnerty’s model, Goldman’s residual stock
price movement was -1.68 percent and was not statistically
significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -1.96 percent and was not statistically significant
(Finnerty Report, Exhibit 9).

485
result and therefore excludes the residual stock price
movement on this day from his damages analysis.161
97. Dr. Finnerty does not mention that on
Sunday, April 25, 2010, elected representatives and
government officials publicly voiced their concerns
over Goldman’s internal e-mails released the previous
day, arguing that the e-mails revealed that Goldman’s
conflicts of interest allowed it to make significant
profits to the detriment of its clients. Plaintiffs also
state that the April 26, 2010 disclosures provide
“new material information”162 relating to Goldman’s
“fraudulent conduct”163 that “further detail[ed] that
Goldman made billions by betting against the CDOs it
sold to its clients.”164 Plaintiffs similarly stated in their
Opposition to Defendants’ Motion to Dismiss that on
this day “new fraud-related material information that
further revealed previously concealed risks. . .caused
Company-specific stock declines.”165
98. Further, The Wall Street Journal reported that
e-mails were discussed by a panel of commentators on
ABC’s April 25, 2010 “This Week” program.166


“‘The CEO of Goldman is not going to win any
popularity contests when, over a period that

161

Finnerty Report, ¶107.

162

Complaint, ¶333.

163

Complaint, ¶317.

164

Complaint, ¶316.

165

Lead Plaintiffs’ Opposition to Defendants’ Motion to
Dismiss the Consolidated Complaint, In re Goldman Sachs
Group, Inc. Securities Litigation, filed November 14, 2011, p. 29.
166

“White House Official: Goldman CEO ‘Not Going to Win
Any Popularity Contests,’” The Wall Street Journal, April 25,
2010.

486
ordinary Americans’ pensions, houses et cetera
were collapsing in value, they were actually
making significant money off of it,’ Austin
Goolsbee, a member of the White House’s
Council of Economic Advisors, said on the ABC
News Program ‘This Week’ on Sunday.”


“‘These emails signify that there are all kinds
of conflicts of interest on Wall Street,’ said
Sherrod Brown, an Ohio Democrat, on ‘This
Week.’”

99. Thus, according to Plaintiffs, there was
important new information concerning Goldman’s
alleged CDO conflicts of interest released on this day.
In fact, this information contrasts with the corrective
information allegedly released on April 30, 2010,
which had reported a purported DOJ investigation
and no new information regarding alleged CDO
conflicts. Yet after controlling for market and industry
movements, both Dr. Finnerty and I determined
that Goldman’s residual stock price movement on
the associated trading day of April 26, 2010 was not
statistically significant.167 Absent a statistically
significant residual stock price movement, one cannot
conclude that the new information had any impact on
Goldman’s stock price. Dr. Finnerty offers no coherent
explanation for the lack of a statistically significant
residual stock price movement on this date.
Dr. Finnerty has previously argued, without providing
any support, that the expectation of additional
litigation stemming from the SEC’s April 16, 2010
enforcement action and some public discussion of the
“profitability of the CDO transactions to Goldman,”
167

Finnerty Deposition, 194:14–24; Finnerty Report, ¶11,
Exhibit 3.

487
could have “muted” the market’s reaction.168 Now
Dr. Finnerty claims that the market response could
have been “muted”169 by Goldman’s public statements
about its conduct and the fact that Goldman
executives would be testifying in Congress the next
day.170 In any event, Dr. Finnerty provides no support
for any of these assertions and in fact, as discussed
in Section V.B.1, Dr. Finnerty’s “denials” theory is
inconsistently applied and lacks any methodological
basis. The obvious conclusion is that there was no
stock price movement because the market did not pay
attention to the alleged misstatements. This is
entirely consistent with my finding that there likewise
was no price impact on the 34 earlier dates during the
Class Period in response to other reports of Goldman
conflicts.
100. It is also telling that, on the two subsequent
corrective disclosure dates identified by Plaintiffs
(April 30, 2010 and June 10, 2010), there were
statistically significant residual stock price declines
even though, as I discuss in detail below, no new
information about Goldman’s alleged conflicts of
interest was released on either of these dates. Instead,
what these two dates have in common is that they both
included prominent media reports about potential
governmental investigations of Goldman. For
instance, Dr. Finnerty notes that on April 30, 2010,
“the Wall Street Journal reported that US federal
prosecutors had opened a criminal investigation into
whether Goldman or its employees had committed
securities fraud in connection with its mortgage
168

Finnerty Declaration, ¶66.

169

Finnerty Report, ¶107.

170

Finnerty Report, ¶103.

488
trading.”171 Neither Dr. Finnerty nor the article
provides any information regarding the substance of
the investigation or any allegations being pursued
indeed, the article does not mention any specific CDO,
no less the four at issue here.172 Similarly, for June 10,
2010, Dr. Finnerty points to reports of an SEC
investigation into the Hudson CDO, but he does not
contend that the reports contained any new
allegations of Goldman conflicts.173 Thus, in contrast
to April 26—on which there were new allegations of
Goldman CDO conflicts, no news of government
enforcement actions, and no statistically significant
residual stock price movement —April 30 and June 10
had news of governmental actions and investigations,
no new reports of Goldman CDO conflicts, and
statistically significant residual stock price declines.
This finding further corroborates that Goldman’s
stock declines on those days were a result of news
of government enforcement activities, not new
allegations of Goldman CDO conflicts.
101. In sum, not only has Dr. Finnerty failed to
show that any correction of the alleged misstatements
caused economic losses to investors on this date, the
lack of a statistically significant residual price
movement on the only alleged corrective disclosure
date without confounding news of a governmental
enforcement action or investigation provides further
evidence that the residual stock price declines on the
171
172
173

Finnerty Declaration, ¶69.
See Gompers Declaration, ¶80.

See Finnerty Declaration, ¶77. Although Dr. Finnerty
points to e-mails released days earlier, if Dr. Finnerty is correct
that the market for Goldman Sachs stock was efficient, any
information in those emails would have affected prices days
before June 10.

489
other alleged corrective disclosure dates were not a
result of corrections of the alleged misstatements, and,
therefore, Dr. Finnerty has no basis to conclude that
the alleged misstatements introduced inflation into
Goldman’s stock price.
c) April 30, 2010
102. According to Dr. Finnerty, “[o]n Thursday,
April 29, 2010 after the market closed, The Wall Street
Journal reported that the Department of Justice
(DOJ) had opened a criminal investigation into
whether Goldman or its employees had committed
securities fraud in connection with Goldman’s
mortgage trading.”174
103. Goldman’s stock price decreased from a closing
price of $160.24 on April 29, 2010 to a closing price of
$145.20 on April 30, 2010, a decrease of 9.39 percent.
After controlling for market and industry movements,
Goldman’s residual stock price movement was -8.00
percent and was statistically significant.175
104. The information provided in The Wall Street
Journal article did not include any details about the
purported DOJ investigation. The article states that
“[t]he investigation is centered on different evidence
than the SEC’s civil case”176 but contains no
174

Finnerty Report, ¶108.

175

According to Dr. Finnerty’s model, Goldman’s residual
stock price movement was -7.75 percent and was statistically
significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -7.65 percent and was statistically significant
(Finnerty Report, Exhibit 9).
176

“Criminal Probe Looks into Goldman Trading,” The Wall
Street Journal, April 30, 2010.

490
information regarding specific allegations that the
DOJ was purportedly pursuing. The article notes that
“[i]t couldn’t be determined which Goldman deals are
being scrutinized in the criminal investigation,”177 and
does not specifically discuss the Conflict Management
Statements or Business Principles Statements.
Moreover, even Dr. Finnerty points only to general
statements associated with the purported DOJ
investigation. Dr. Finnerty states in his report that
Goldman “failed to disclose that the Company, in fact,
had conflicts of interest with its clients in connection
with the synthetic CDOs Goldman structured and
sold, e.g., Abacus 2007-AC1, Hudson 2006-1, Anderson
2007-1, and Timberwolf 1 CDOs.”178 Dr. Finnerty fails
to provide any evidence of specific news items
correcting these alleged misstatements. As discussed
above, the allegation that Goldman failed to disclose
conflicts of interests to its CDO investors—the very
information that Dr. Finnerty claims Goldman should
have disclosed—was widely discussed as early as
December 2009, without impacting Goldman’s stock
price.

177

“Criminal Probe Looks Into Goldman Trading,” The Wall
Street Journal, April 30, 2010.
178

Finnerty Report, ¶44. In addition, without specifying
whether Goldman should have disclosed such information,
Dr. Finnerty adds that “Goldman allegedly structured and sold
to clients these synthetic CDOs, which were structured to fail,
while the Company took short positions on these CDOs, without
disclosing its short positions to Goldman’s clients. Moreover, by
engaging in the Abacus 2007-AC1 transaction in particular,
Goldman allegedly created conflicts of interest by allowing one
client, Paulson, to benefit at the expense of other clients and
issued misleading marketing and offering materials to other
clients” (Finnerty Report, ¶45).

491
105. Interestingly, Dr. Finnerty analyzes news
items that were discussed a few trading days prior to
the alleged corrective disclosure of April 30, 2010,
but does not provide an economically plausible
explanation why stale news (i.e., old news) would
affect Goldman’s stock price on April 30, 2010.
Dr. Finnerty states that “as part of [his] review of the
Disclosure Date of April 30, 2010, the first trading
date after the disclosure of the DOJ investigation,
[he] also reviewed the information that was released
into the market on April 27, 2010.”179 According to
Dr. Finnerty, on April 27, 2010, a Senate hearing was
held in which “Goldman employees were questioned
regarding its fraudulent conduct in connection with
certain CDOs that Goldman structured and sold.”180
Dr. Finnerty specifically notes that “[i]n highlighting
Goldman’s fraudulent conduct, Senators referenced
the Abacus 2007-AC1, Hudson 2006-1, Timberwolf 1,
and Anderson 2007-1 CDO transactions.”181
106. It is unclear why Dr. Finnerty believes that
stale news released on April 27, 2010 would affect
Goldman’s stock price on April 30, 2010, three trading
days later. Dr. Finnerty has previously claimed that
Goldman’s stock traded in an efficient market during
the Class Period.182 In an efficient market, new
information is quickly incorporated into prices.183
Therefore, any news about Goldman’s conduct
179

Finnerty Report, ¶108.

180

Finnerty Report, ¶108.

181

Finnerty Report, ¶110.

182

Finnerty Declaration, ¶11.

183

Fama, E. F. (1970), “Efficient Capital Markets: A Review of
Theory and Empirical Work,” The Journal of Finance, 25(2), 383–
417 at p. 383.

492
released on April 27, 2010 should have been reflected
in Goldman’s stock price by the close of that trading
day. I note that Dr. Finnerty does not find a
statistically significant negative residual stock price
movement on April 27, 2010 (in fact, he finds a
positive residual stock price movement).184 Therefore,
Dr. Finnerty’s own analysis supports my finding
that when information about Goldman’s alleged
misconduct was revealed to the marketplace, absent
confounding information of governmental enforcement
actions or investigations, it did not affect Goldman’s
stock price and thus it did not cause any economic
losses to Goldman’s investors.
107. Market participants attributed Goldman’s
stock price decline on this day to (and analysts
downgraded Goldman’s stock based on) the purported
DOJ investigation, increased governmental scrutiny
against Goldman, and reputational harm—not to any
disclosure of the purported falsity of Goldman’s
Conflict Management Statements and/or Business
Principles Statements. Indeed, I did not find any
mention of Goldman’s Conflict Management
Statements and/or Business Principles Statements in
my review of the analyst reports on April 30, 2010.
108. I reviewed public press and analyst reports
surrounding The Wall Street Journal article on
April 29, 2010 and found that market participants
attributed Goldman’s stock price decline to the risks of
the purported DOJ investigation. For example:


184

Dow Jones News Service reported that
“[Goldman’s] shares continue to decline
premarket. . .after yesterday’s news broke that

Finnerty Report, Exhibit 3.

493
federal prosecutors are investigating, and
looking at criminal charges stemming from the
SEC’s civil fraud case.”185


Reuters News also reported that “Goldman
shares fell 9.4 percent on Friday after news of
a criminal examination surfaced, and after two
analysts downgraded the stock.”186

109. Market commentary indicates that the
purported DOJ investigation indicated increased
governmental scrutiny toward Goldman. For example:


A Buckingham Research analyst reported,
“[a]s a lightning rod for the industry,
[Goldman] is facing significant political
pressure. . . . [O]n top of the SEC’s civil fraud
case, there are now reports of the US
Attorney’s office beginning a criminal inquiry
into [Goldman’s] activities and, separately, 61
Congressmen wrote a letter requesting the
DOJ investigate [Goldman] as well.”187



The Financial Times quoted a former
prosecutor and SEC enforcement attorney
who discussed the political nature of these
allegations: “‘The release of the existence of
a preliminary inquiry amid the firestorm is
reckless and grossly irresponsible. The only
purpose in doing so was to stoke a political
flame. . . . There is not one scintilla of evidence

185

“Market Talk: With Another Probe, Goldman Shares
Sliding Premkt,” Dow Jones News Service, April 30, 2010.
186

“Buffett May Push, or Be Pushed, on Goldman,” Reuters
News, April 30, 2010.
187

“Downgrade to Neutral; Litigation/Political Risk Too
Difficult to Handicap,” Buckingham Research, April 30, 2010.

494
in the public domain that suggests there was
any criminality here.’”188
110. In addition, market participants commented
that the purported DOJ investigation would cause
reputational harm to Goldman. For example:


Two days after the report, on May 1, 2010,
The Wall Street Journal reported that Warren
Buffett stated, “‘[t]here’s no question that the
allegation alone causes the company to lose
reputation.’”189



On May 2, 2010, a Citigroup analyst stated
that “[r]eputational risk could damage
Goldman’s franchise – While we do not believe
at this point Goldman’s institutional client
base has altered their business practices at
this point, Goldman’s reputation is one of the
firm’s greatest assets.”190



On May 3, 2010, a Wells Fargo analyst stated
that “even the threat of criminal charges
against [Goldman] could further tarnish the
company’s reputation and ability to win client
business.”191

111. Following the news of the purported
investigation, several analysts downgraded Goldman’s
stock and/or reduced their price targets based on
188

“Goldman Faces Rising Pressure to Strike Deal,” Financial
Times, April 30, 2010.
189

“WSJ Update: Buffett Offers Spirited Defense of Goldman,”
Dow Jones News Service, May 1, 2010.
190

“Reiterate Buy – Risks Are There, But Still See Significant
Upside,” Citigroup, May 2, 2010.
191

“GS: Headline Risk Returns But We See A Way ForwardAffirming OP,” Wells Fargo, May 3, 2010.

495
information regarding the purported DOJ investigation and additional governmental scrutiny and
regulation—and did not attribute these downgrades to
the alleged falsity of Goldman’s Conflict Management
Statements and/or Business Principles Statements.
For example:


On April 30, 2010, a Buckingham Research
analyst downgraded Goldman, stating, “[r]eluctantly, and despite strong fundamentals and
an attractive valuation, we are downgrading
[Goldman] shares to Neutral from Buy given
the significant uncertainty surrounding
multiple and continued government probes of
[Goldman]’s mortgage trading & underwriting
operations.”192



On April 30, 2010, a Bank of America Merrill
Lynch analyst commented, “[w]e are lowering
our rating on [Goldman] to Neutral from Buy
and our price objective to $160 from $220. Our
downgrade is prompted by news reports filed
Thursday evening by the media including the
Wall St. Journal indicating that federal
prosecutors have opened an investigation of
[Goldman] in connection with its trading
activities, raising the possibility of criminal
charges. . . . Most such probes end
inconclusively, with no charges filed.”193



On May 1, 2010, The Wall Street Journal
reported that a Standard & Poor’s Equity
Research analyst cut his investment

192

“Downgrade to Neutral; Litigation/Political Risk Too
Difficult to Handicap,” Buckingham Research, April 30, 2010.
193

“Cutting to Neutral: Concerns Over Reports of Federal
Probe,” Bank of America Merrill Lynch, April 30, 2010.

496
recommendation on Goldman shares to “Sell”
and lowered his price target price by $40 to
$140, stating, “‘[t]hough traditionally difficult
to prove, we think the risk of a formal
securities fraud charge, on top of the SEC
fraud charge and pending legislation to
reshape the financial industry, further
muddies Goldman’s outlook.’”194
112. I reviewed market commentary surrounding
The Wall Street Journal news article and found that
none of the commentary attributed Goldman’s stock
price movement on this day to Goldman’s Conflict
Management Statements and/or Business Principles
Statements. Indeed, I did not find any mention of
Goldman’s Conflict Management Statements and/or
Business Principles Statements in my review of the
analyst reports on April 30, 2010.
113. In addition, my review did not reveal any
public discussion of, or new information regarding,
Goldman’s conduct on this date beyond the purported
investigation itself. I have thus seen no information
released on this day demonstrating that the alleged
misstatements were false or that previously
undisclosed information about Goldman’s alleged
misconduct was revealed.
114. In sum, I find that Goldman’s stock price was
adversely affected by news other than the alleged
corrections of the Conflict Management Statements or
Business Principles Statements on April 30, 2010.
This conclusion is supported by my event study
analysis explained above and my finding that the
release of information mirroring the alleged corrective
194

“U.S. Faces High Stakes in Its Probe of Goldman,” The Wall
Street Journal, May 1, 2010.

497
disclosures earlier in the Class Period did not affect
Goldman’s stock value. Because Dr. Finnerty fails to
provide any evidence of specific news items correcting
the alleged misstatements on this date and he does not
attempt to disentangle the impact of non-allegationrelated news on April 30, 2010, he fails to establish
that any corrective disclosure of the alleged
misstatements caused a negative reaction for
Goldman’s stock price and thus fails to establish
(a) that Goldman’s stock price was inflated during the
Class Period, and (b) loss causation.
d) June 10, 2010
115. Dr. Finnerty states that “[o]n Wednesday,
June 9, 2010, after the market closed, it was reported
that the Hudson 2006-1 CDO, which was sold in 2006,
was also the target of a probe by the SEC in addition
to the Abacus 2007-AC1 CDO.”195
116. Goldman’s stock price decreased from a closing
price of $136.80 on June 9, 2010 to a closing price of
$133.77 on June 10, 2010, a decrease of 2.21 percent.
After controlling for market and industry movements,
Goldman’s residual stock price movement was -4.44
percent and was statistically significant.196
117. An article in the Financial Times states:
The US Securities and Exchange Commission
has stepped up its inquiries into a complex
195
196

Finnerty Report, ¶138.

According to Dr. Finnerty’s model, Goldman’s residual
stock price movement was -4.52 percent and was statistically
significant (Finnerty Report, Exhibit 3). According to
Dr. Finnerty’s alternative model, Goldman’s residual stock price
movement was -4.64 percent and was statistically significant
(Finnerty Report, Exhibit 9).

498
mortgage-backed deal by Goldman Sachs that
was not part of the civil fraud charges filed
against the bank in April, according to people
close to the matter. . . . The inquiry into
Hudson Mezzanine is part of a wider
investigation into the CDO activities of Wall
Street banks. People close to the situation
said the probe was preliminary and there was
no certainty that it would lead to additional
actions against Goldman.197
118. The article also references discussions of
the Hudson CDO from the April 2010 Senate
Subcommittee hearing as well as e-mails released in
conjunction with the hearing and e-mails previously
released by the Senate Subcommittee, but the article
does not contain comments from either Goldman or
the SEC. Market participants attributed Goldman’s
stock price decline on this day to the additional SEC
investigation and not to Goldman’s Conflict
Management Statements and/or Business Principles
Statements. Indeed, I did not find any mention of
Goldman’s Conflict Management Statements and/or

197

“SEC Probes Second Goldman Security,” Financial Times,
June 9, 2010.

499
Business Principles Statements in my review of the
analyst reports on June 10, 2010.198, 199
198

In addition, Dr. Finnerty notes that Bloomberg News
reported that Basis Yield Alpha Fund would sue Goldman in
relation to the Timberwolf deal after the market closed on June
9, 2010 (Finnerty Declaration, ¶76); however, this information
was not new as it had already been reported by Bloomberg News
prior to market closing on this date (“Goldman Sued by Hedge
Fund Basis Over Timberwolf CDO (Update 1),” Bloomberg News,
June 9, 2010), and there was not a statistically significant
residual price decline on this date. According to Dr. Finnerty’s
model, Goldman’s residual stock price movement on June 9, 2010
was 0.71 percent and was not statistically significant (Finnerty
Report, Exhibit 3). According to Dr. Finnerty’s alternative model,
Goldman’s residual stock price movement on June 9, 2010 was
0.49 percent and was not statistically significant (Finnerty
Report, Exhibit 9). In fact, Dow Jones Business News reported
that Goldman’s stock price “showed little reaction after the
lawsuit was announced” (“2nd Update: Goldman Being Sued by
Hedge Fund over Toxic CDOs,” Dow Jones News Service, June 9,
2010). Also, on June 10, 2010, during the trading day, Reuters
News reported that Goldman president Mr. Cohn stated that
there were “‘no indications’” that Goldman was close to settling
fraud charges with the SEC (“Update 2-IOSCO-Goldman Has No
Indication of SEC Settlement,” Reuters News, June 10, 2010).
199

My event study indicates that there was other news
released on that day separate from any potential correction of the
alleged misstatements, including news about Goldman’s
investments and an analyst earnings forecast change and
downgrade unrelated to the allegations. Bloomberg News
reported that Goldman and Bank of America were reportedly
trying to sell “as much as $5 billion in debt related to the buyout
of Hilton Worldwide” (“Bank of America, Goldman Said to Offer
$5 Billion Hilton Debt,” Bloomberg News, June 10, 2010). This
news was previously reported on June 4, 2010 (“BofA, Goldman
Seek $5B Hilton Debt Sale (Bloomberg),” Real Estate Finance and
Investment, June 4, 2010). Atlantic Equities reduced EPS
estimates and price targets for Goldman based on lower
investment banking revenues due to mergers and acquisitions
resulting from deteriorating markets and increasing uncertainty

500
119. Again, Dr. Finnerty points only to general
statements associated with the SEC Hudson action.
Dr. Finnerty notes that information related to the
specific conduct at issue was released prior to June 10,
2010, but then claims that while “private litigation by
investors may have been expected, the second SEC
probe into a Goldman CDO transaction provided
significant new information regarding the severity of
Goldman’s conduct” and that the SEC probe “implied
that the issue might be beyond an ‘ethical issue.’”200
Dr. Finnerty fails to link the alleged misstatements
discussed in his report that Goldman “failed to disclose
that the Company, in fact, had conflicts of interest
with its clients in connection with the synthetic CDOs
Goldman structured and sold, e.g., Abacus 2007-AC1,
Hudson 2006-1, Anderson 2007-1 and Timberwolf 1
CDOs” 201and the alleged corrective news on this day.
Presumably, Goldman could not predict, let alone
know, whether the SEC would choose to “probe” the
Hudson CDO. Nor does Dr. Finnerty define exactly
what aspect of the “severity” of its conduct Goldman
in Europe as well as the inclusion of the previously announced
UK bonus tax (“Estimates Cut on Weak Trading Revenue & UK
Bonus Tax,” Atlantic Equities, June 10, 2010).
200
201

Finnerty Report, ¶¶139–140.

Finnerty Report, ¶44. In addition, without specifying
whether Goldman should have disclosed such information,
Dr. Finnerty adds that “Goldman allegedly structured and sold to
clients these synthetic CDOs, which were structured to fail, while
the Company took short positions on these CDOs, without
disclosing its short positions to Goldman’s clients. Moreover, by
engaging in the Abacus 2007-AC1 transaction in particular,
Goldman allegedly created conflicts of interest by allowing one
client, Paulson, to benefit at the expense of other clients and
issued misleading marketing and offering materials to other
clients” (Finnerty Report, ¶45).

501
allegedly should have disclosed. Moreover, as I have
already discussed, the allegation that Goldman failed
to disclose conflicts of interests to its CDO investors—
the very information that Dr. Finnerty claims Goldman
should have disclosed—was widely discussed as early
as December 2009, without impacting Goldman’s stock
price. Therefore, Dr. Finnerty fails to provide any
evidence of specific news items correcting these
alleged misstatements.
120. Moreover, I reviewed public press and analyst
reports surrounding the Financial Times article and
found that market participants attributed Goldman’s
stock price decline to the rumors surrounding the
second SEC investigation. For example:


On June 10, 2010, Dow Jones News Service
reported that Goldman shares were “down
3.1% at $132.60, while the [Dow Jones
Industrial Average was] up 200. Traders said
there are fresh concerns Goldman might be the
target of a second SEC probe into toxic CDOs,
and that the case isn’t close to being settled.”202



On June 10, 2010, Bloomberg News reported
that “Goldman Sachs’s stock fell as much as 4
percent today to its lowest in more than a year
after a person familiar with the matter said
the SEC is looking into the firm’s 2006 sale of
a CDO called Hudson Mezzanine.”203

202

“Market Talk: Goldman Touches 52-Week Low on Legal
Worries,” Dow Jones News Service, June 10, 2010.
203

“Goldman Sachs’s Cohn Sees ‘No Indications’ of SEC
Resolution,” Bloomberg News, June 10, 2010.

502
121. Following the release of the Financial Times
article,204 market commentary discussed the negative
impact of the purported SEC investigation on
Goldman’s stock. For example:


Reuters News quoted a Fordham University
School of Law professor and former federal
prosecutor on the additional pressure from
this SEC investigation as saying, “‘[y]ou put a
number of things together and then it becomes
harder to defend against all of them.’”
The article also stated that “[t]he myriad
investigations, coupled with the Timberwolf
[private] litigation, could create a tipping
point at which Blankfein and other Goldman
executives decide they have no choice but to
reach some sort of comprehensive settlement,
according to legal experts.”205



On June 10, 2010, a Wells Fargo analyt report
detailed concerns over Goldman given the
SEC’s investigations: “Near-term challenges
for the stock are likely to persist, but are
mitigated by three factors. 1) The possibility of
an additional SEC investigation into CDO
practices at [Goldman] was not an unlikely
occurrence, in our view, given the SEC’s
previous comments related to ongoing
investigations of CDO practices across the
industry. 2) Increased headline risk resulting
from the SEC’s additional investigation could
cause [Goldman] to think more aggressively of

204

“SEC Probes Second Goldman Security,” Financial Times,
June 9, 2010.
205

“Analysis-Update 1-SEC Presses Goldman to ‘Cry Uncle,’”
Reuters News, June 10, 2010.

503
pursuing a settlement with the SEC. 3) As we
have noted previously, we believe the SEC
could view a high-profile settlement to be in its
the [sic] best interest as it would eliminate the
possibility of an unsuccessful legal case.”206
122. I also reviewed market commentary
surrounding the Financial Times article regarding the
additional SEC charges into the Hudson CDO on this
date and found that none of the commentary
attributed Goldman’s stock price movement on this
day to Goldman’s Conflict Management Statements
and/or Business Principles Statements purportedly
being rendered false.
123. In addition, my review did not reveal any
public discussion of, or new information regarding,
Goldman’s conduct on this date beyond the
investigation itself.
124. In sum, I find that Goldman’s stock price was
adversely affected by news other than alleged
corrections of the Conflict Management Statements or
Business Principles Statements. This conclusion is
supported through my event study analysis explained
above and my finding that the release of information
mirroring the alleged corrective disclosures earlier
in the Class Period did not change the total mix of
relevant information regarding Goldman’s stock
value. Because Dr. Finnerty fails to provide any
evidence of specific news items correcting the alleged
misstatements on this date and he does not attempt to
disentangle the impact of this confounding negative
news on June 10, 2010, Dr. Finnerty fails to establish
that the alleged corrective disclosure caused a
206

“GS: Reiterating Outperform Rating Despite Near-Term
Volatility,” Wells Fargo, June 10, 2010.

504
negative reaction for Goldman’s stock price and thus
has failed to establish (a) that Goldman’s stock price
was inflated during the Class Period, and (b) loss
causation.
VI. Dr. Finnerty’s Damages Methodology Is
Flawed, Unreliable, and It Overstates
Damages
125. For all of the reasons set forth above
demonstrating that Dr. Finnerty failed to establish
loss causation, I conclude that damages are zero
in this case. Putting those issues aside, Dr. Finnerty’s
proposed methodology for measuring damages—which
is based entirely on Goldman’s stock price declines on
the alleged corrective disclosure dates—is flawed,
unreliable, and overstates damages. Dr. Finnerty fails
to exclude the impact on Goldman’s stock price of
non-allegation-related information, which cannot
form the basis of a damages calculation. In particular,
with regard to April 30, 2010 and June 10, 2010,
Dr. Finnerty is unable to point to any new information
about Goldman’s alleged misconduct. Moreover,
Dr. Finnerty’s “attribution” of damages associated
with the alleged correction on April 30, 2010 across
three CDOs is completely arbitrary, unscientific,
and without basis. Finally, Dr. Finnerty incorrectly
assumes that per-share damages “attributed” to
each of the four CDOs are a constant dollar
amount throughout the Class Period. Dr. Finnerty’s
assumption of constant damages is flawed in this
matter because the Class Period includes the time
period of the financial crisis, an event that would
have affected the value (if any) attributable to the
alleged misstatements. To the extent the alleged
misstatements had any value-relevance to investors
(which, as I show above, they did not), their impact on

505
Goldman’s stock price would likely have been different
prior to the financial crisis as compared to after.
A. Calculating Damages in a Securities Class
Action and Dr. Finnerty’s Approach
126. It is my understanding that economic damages
for an investor in securities class actions are derived
from any “inflation” in the company’s stock price
caused by the alleged fraud. Inflation at any point in
time is the difference between the observed stock price
and the hypothetical price (referred to as the “but-for”
price) that would have prevailed absent the alleged
misstatements. An investor’s damages due to the
alleged fraud are determined by the difference
between the inflation in the stock price at the time of
purchase and inflation at the time of sale, subject
to certain statutory limits. By definition, inflation
reflects only the impact of the alleged fraud and,
therefore, cannot include the impact of any
subsequent materialization of risks.
127. As discussed above, Dr. Finnerty fails to
establish loss causation in this matter—that is, Dr.
Finnerty has failed to show that during the Class
Period Goldman’s stock price was inflated as a result
of the alleged misstatements. Nevertheless, I have
been asked by counsel to assess Dr. Finnerty’s
methodology for measuring damages assuming that
Plaintiffs were able demonstrate loss causation and
show Goldman’s stock price was inflated due to the
alleged misstatements.
128. In order to measure damages and to accurately
measure inflation, Dr. Finnerty must (a) specify what
information, if any, Goldman could and should have
disclosed to the market instead of the alleged
misstatements at each point in time during the Class

506
Period; and (b) determine how the market would have
valued that alternative disclosure throughout the
Class Period. Critically, the proper “but-for” stock
price is not the stock price absent the alleged fraud on
Goldman CDO investors, as Dr. Finnerty seems to
assume, but rather the stock price absent that alleged
fraud on Goldman’s equity investors (i.e., the stock
price that would have prevailed throughout the Class
Period had Goldman disclosed the information
Plaintiffs claim it should have disclosed on each of the
alleged misstatement dates).207
129. Instead of a detailed analysis of the alleged
inflation in Goldman’s stock price during the Class
Period, Dr. Finnerty proposes a “constant dollar”
damages methodology that measures inflation as a
constant amount throughout the Class Period, based
on Goldman’s residual stock price declines on the
three of the four alleged corrective disclosure dates.
Specifically, Dr. Finnerty estimates Goldman’s
residual stock price movements on the three alleged
corrective disclosure dates and attributes the full
declines on those dates to the removal of inflation.208
Dr. Finnerty also allocates damages across the four
CDOs. Specifically, he attributes the entire residual
stock price decline on April 16, 2010 to the Abacus

207

Dr. Finnerty’s conflation of the two concepts is evident from
his statement that “the regulatory enforcement by the SEC would
not have been brought if there had been no evidence of fraudulent
conduct with respect to the Abacus 2007-AC1 CDO transaction.”
(Finnerty Report, ¶93).
208

Note that Goldman’s residual stock price movement on April
26, 2010 is not statistically significant under Dr. Finnerty’s model
nor my own. Goldman’s stock price movement on this date is not
included in Dr. Finnerty’s calculation of inflation.

507
CDO,209 the entire residual stock price decline on April
30, 2010 equally across the Timberwolf, Anderson, and
Hudson CDOs,210 and the entire residual stock price
decline on June 10, 2010 to the Hudson CDO.211
Dr. Finnerty’s damages methodology suffers from
numerous flaws and fails to accurately calculate
damages in this matter. These flaws include (a) the
failure to disentangle the effect of confounding nonallegation-related news released on the alleged
corrective disclosure dates, (b) the arbitrary and
unfounded allocation of damages across the CDOs,
and (c) the assumption that damages are a constant
per-share dollar amount throughout the entire Class
Period.
B. Dr. Finnerty’s Damages Methodology Is
Flawed and Unreliable
1. Goldman’s
Residual
Stock
Price
Movement on April 16, 2010, April 30,
2010, and June 10, 2010 Cannot Be Used
to Measure Damages Because Dr.
Finnerty Fails to Remove the Impact of
Non-Allegation- Related Confounding
Information
130. While Dr. Finnerty claims that the corrective
disclosures revealed to the market the falsity of the
alleged misrepresentations, as explained above in
Section V.B.4, there was additional confounding
information revealed to investors on the alleged
209

Finnerty Report, ¶157.

210

Finnerty Report, ¶161.

211

Finnerty Report, ¶163. I note that Plaintiffs state that the
CDOs ranged in size from $300 million (Anderson) to $2 billion
(Abacus and Hudson), and that the Timberwolf CDO was a
$1 billion CDO (Complaint, ¶¶50, 164, 202, 213).

508
corrective disclosure dates. This information—which
is separate from the underlying allegations regarding
Goldman’s Business Principles Statements and
Conflict Management Statements—included the
announcement of the SEC enforcement action and the
purported DOJ investigation as well as the prospect of
increased regulatory scrutiny. Dr. Finnerty’s failure to
disentangle the impact of these factors on Goldman’s
stock price in measuring damages renders his analysis
unreliable and overstates Plaintiffs’ damages in this
matter.
131. First, as detailed above, on April 16, 2010,
the announcement of the SEC enforcement action
against Goldman was released to the market. That
enforcement action was unusual because (a) the SEC
did not announce a settlement on the same day the
charges were filed; (b) the charges included violations
of Section 10(b) of the Securities Exchange Act of 1934,
Rule 10b-5 and Section 17(a)(1) of the Securities Act
of 1933 (“scienter charges”); and (c) an individual,
Fabrice Tourre, was charged along with Goldman.212
As previously noted, at least some securities analysts
were more concerned by the SEC’s enforcement action
than by Goldman’s alleged conduct.213 Even Dr.
Finnerty himself acknowledges that the filing of a
governmental enforcement action can have an impact
on the target company’s stock price independent of the
specific allegations contained in the filing. For
example, he admitted at his deposition that an action
can have a greater impact on a stock price if it is not

212
213

Choi Declaration, ¶¶39–40.

“SEC Singles Out GS for Fraud Charge--Stepping to
Sidelines,” Oppenheimer, April 16, 2010.

509
settled when it is announced.214 Thus, the effect on
Goldman’s stock price of the SEC enforcement action,
separate and apart from any information that it
conveyed about Goldman’s Business Principles
Statements and/or Conflict Management Statements,
must be excluded from any damages calculation.
Similarly, any effects on Goldman’s stock price of
market participants’ expectations of increased
governmental enforcement action must also be
excluded. However, Dr. Finnerty fails to disentangle
the impact of the SEC enforcement action on
Goldman’s stock price on April 16, 2010 and thus his
measurement of damages is unreliable and it
overstates damages in this matter.
132. Second, on April 30, 2010, rumors that
Goldman was the subject of a criminal investigation
by the DOJ had a negative price impact on Goldman’s
stock after The Wall Street Journal published an
article about the investigation.215 Though the article
notes that “[t]he investigation is centered on different
evidence than the SEC’s civil case,” The Wall Street
Journal did not include any details about the specific
allegations being pursued, or which Goldman deals
were being scrutinized in the purported criminal
investigation. As discussed above, the news media
credited the stock price decline on April 30, 2010 to
increased governmental scrutiny, regulatory risks,
and potential reputational harm resulting from a
potential purported DOJ investigation. My event
214
215

Finnerty Deposition, 147:16–148:13.

“Criminal Probe Looks into Goldman Trading,” The Wall
Street Journal, April 30, 2010. Note that this article was released
after market close on April 29, 2010; hence, stock price
movements are analyzed on the subsequent trading day, April 30,
2010.

510
study found no evidence of new, allegationrelated
information or a correction to the alleged
misstatements. Thus, the impact on Goldman’s stock
price of the purported DOJ investigation and its
consequences must be excluded from any damages
calculation. However, Dr. Finnerty fails to disentangle
the impact of the purported DOJ investigation on
Goldman’s stock price on April 30, 2010 and thus his
measurement of damages is unreliable and it
overstates damages in this matter.
133. Finally, on June 10, 2010, it was reported that
the SEC was expanding its investigation to include
the Hudson CDO.216 As discussed above, market
participants attributed Goldman’s stock price decline
on that day to the rumors surrounding the SEC
investigation, including the implications of a possible
settlement. My event study found no evidence of new
information regarding Goldman’s conduct on this date.
Thus, the effect on Goldman’s stock price of a potential
SEC investigation into the Hudson CDO and its
consequences must be excluded from any damages
calculation. However, Dr. Finnerty fails to disentangle
the impact of the investigation on Goldman’s stock
price on June 10, 2010 and thus his measurement of
damages is unreliable and it overstates damages in
this matter.
134. With regards to April 30, 2010 and June 10,
2010 in particular, not only does Dr. Finnerty fail to
exclude the impact of non-allegation information, he
fails to demonstrate that any new information about
Goldman’s alleged misconduct was released into the
marketplace. Indeed, all of the alleged misconduct by
Goldman that Dr. Finnerty details in his report was
216

Complaint, ¶335.

511
known to market participants by April 27, 2010—that
is, subsequent to this date, Dr. Finnerty does not
identify any additional specific alleged misconduct by
Goldman, and instead can point only to purported
regulatory investigations. Dr. Finnerty asserts that
the governmental enforcement actions conveyed the
“severity” of Goldman’s alleged misconduct without
specifying what that “severity” refers to or how it could
be quantified, or how Goldman could have reasonably
have predicted and disclosed it earlier in the Class
Period.217
135. Again, the “but-for” concept is critical.
Dr. Finnerty cannot link any information released on
April 30, 2010 and June 10, 2010 to any disclosure he
claims Goldman should have made on the alleged
misstatement dates. Recall that Dr. Finnerty states
that Goldman “failed to disclose that the Company,
in fact, had conflicts of interest with its clients
in connection with the synthetic CDOs Goldman
structured and sold, e.g., Abacus 2007-AC1, Hudson
2006-1, Anderson 2007-1 and Timberwolf 1 CDOs.”218
As I have discussed, allegations that Goldman had
conflicts of interest with its CDO investors and
allegations that it failed to disclose those conflicts to
those investors were publicly discussed as early as
2009. Goldman’s residual stock price movements were
not statistically significant on any of the days that
information was released. Furthermore, Goldman
internal e-mails were released on April 26, 2010 and
Senate testimony was released on April 27, 2010.219
According to Dr. Finnerty, the testimony mentioned
217

Finnerty Report, ¶123, 140.

218

Finnerty Report, ¶44.

219

Complaint, ¶¶333–334.

512
alleged misconduct with respect to the Hudson,
Anderson, and Timberwolf CDOs specifically, and
again Goldman’s residual stock price movement was
not statistically significant on either of those dates.220
Dr. Finnerty refers to that information in his
discussion of the alleged corrective disclosures on
April 30, 2010 and June 10, 2010, but the information
about Goldman’s conduct by that point was stale and,
in an efficient market (as Dr. Finnerty claims the
market for Goldman’s stock was), should have been
fully reflected in the price prior to April 30, 2010.
Therefore, Dr. Finnerty has not established that any
inflation, and therefore any damages, can be inferred
from the residual stock price movements on April 30,
2010 and June 10, 2010.
136. In sum, Dr. Finnerty’s damages model does not
distinguish between market participants’ knowledge
of the alleged behavior itself and knowledge of the
realization of certain government and regulatory
actions—which were discretionary, not inevitable, and
which could not possibly have been disclosed by
Goldman on the alleged misstatement dates earlier in
the Class Period. His damages model is therefore
flawed and unreliable.
2. Dr. Finnerty’s Allocation of Damages
Across the Four CDOs Is Arbitrary,
Unscientific, and Without Basis

220

According to Dr. Finnerty’s model, on April 27, 2010,
Goldman’s residual stock price movement was 3.58 percent and
was not statistically significant (Finnerty Report, Exhibit 3).
According to Dr. Finnerty’s alternative model, on April 27, 2010,
Goldman’s residual stock price movement was 3.59 percent and
was statistically significant (Finnerty Report, Exhibit 9).

513
137. Dr. Finnerty attributes the supposed
dissipation of inflation on April 30, 2010 in equal parts
to revelation of new information about each of the
Hudson, Anderson, and Timberwolf CDOs because
“that is what a reasonable investor would do given the
limited information about the three CDO transactions
available at that time.”221 Dr. Finnerty’s equal
attribution across the three CDOs is arbitrary,
unscientific, and without basis, rendering his damages
analysis fatally flawed.
138. First, the only information released into the
marketplace on April 30, 2010 was that the DOJ
was investigating Goldman “in connection with its
mortgage trading.”222 Dr. Finnerty provides no
conclusive basis for why a reasonable investor would
necessarily assume that the investigation pertained to
these three specific CDOs, let alone that they would
assume the degree to which each purportedly rendered
the Business Principles or Conflict Management
Statements false was precisely equal.223 Indeed, none
of the press articles or analyst reports cited by Dr.
Finnerty on this day identify any CDOs involved in the
investigation, or provide any description of any
conduct in a CDO.
139. Second, Dr. Finnerty assumes, without basis,
that the marginal value-relevance to Goldman’s stock
price of allegations of misconduct with respect to an
additional CDO is constant. In other words, under Dr.
221

Finnerty Report, ¶161.

222

“WSJ: Federal Criminal Probe Looks into Goldman
Trading,” Dow Jones News Service, April 29, 2010.
223

Dr. Finnerty’s only justification appears to be that the three
CDOs were mentioned during Senate testimony on April 27, 2010
(see Finnerty Report, ¶¶109–114).

514
Finnerty’s theory, learning that Goldman allegedly
engaged in unspecified misconduct with respect to two
CDOs has exactly double the value relevance of
learning that Goldman engaged in alleged misconduct
with respect to one CDO. Dr. Finnerty provides
no basis justifying this assumption. In fact, his
assumption makes no sense. The statements at issue
do not identify any particular CDO and thus,
assuming Plaintiffs’ theory of the case, would be
rendered false upon disclosure of the conflicts in
any transaction. Dr. Finnerty’s assumption that
additional allegations regarding other CDO transactions rendered the alleged misstatements more false
at an equal incremental value (and irrespective of
differences in the allegations) is illogical and has no
methodological grounding.
140. In sum, Dr. Finnerty’s methodology for
calculating damages is arbitrary, and as a result, to
the extent there are any damages at all, may overstate
damages during some parts of the Class Period and
understate damages during other parts of the Class
Period.
3. Dr. Finnerty’s Damages Model Is Also
Unreliable Because It Incorrectly
Assumes
Constant
Inflation
Throughout the Class Period
141. Even if Dr. Finnerty could rely on the stock
price declines on the alleged corrective disclosure
dates to measure inflation—which he cannot—it is
inappropriate to assume that inflation was constant
during the Class Period prior to the alleged corrective
disclosure dates.
142. As previously discussed, a proper calculation of
inflation requires determining (a) what information

515
Goldman could and should have disclosed instead of
making the alleged misstatements at each point in
time during the Class Period, and (b) how the market
would have valued that alternative disclosure. Such
an analysis would find that the value-relevance
of any information “correcting” Goldman’s alleged
statements would have changed over the Class Period,
and therefore a constant inflation as a measure of
damages is inappropriate in this case.
143. The Class Period—February 5, 2007 through
June 10, 2010—included an unprecedented financial
crisis and economic recession. This crisis likely
changed the value of the alleged misstatements over
time. For example, if Goldman had fully disclosed its
conduct in connection with the Abacus CDO shortly
after the deal closed in early 2007 and before the deal
had declined in value, this announcement would likely
have been valued very differently than a disclosure at
the end of the Class Period “given the flurry of
anti-Wall Street press that [had] centered around
[Goldman]” at that time.224 Similarly, Dr. Choi
explains that the SEC’s enforcement action was
unusually severe due to the financial crisis.225 As a
result, the market’s response to a hypothetical
disclosure of Goldman’s conduct in the CDOs before
the financial crisis would have likely been much
different than the reaction in April and June 2010,
even if the SEC had announced an enforcement action
and if losses stemming from the SEC action were
found to be attributable to the alleged misstatements
(which, as I have explained above, they were not).
Thus, Dr. Finnerty’s assumption “that the amount of
224

“Administration Steps up Support for Bill,” Barclays
Capital, April 16, 2010.
225

Choi Declaration, ¶¶19, 31.

516
the inflation per share is a constant dollar amount”
during the Class Period is unsupported and
unreliable.226
144. Finally, any alleged inflation from the alleged
misstatements would have dissipated or been removed
over the course of the Class Period by disclosures in
the public press of Goldman’s alleged conflicts of
interest (such as the articles discussed above in
Section V.B.1). In other words, even if Dr. Finnerty’s
theory were correct and investors assigned substantial
importance to Goldman’s Conflict Management
Statements and/or Business Principles Statements, as
allegations of Goldman’s purported conflicts of interest
were revealed to the market throughout the Class
Period, the market necessarily would have placed
increasingly less weight (or even entirely discounted)
those statements over time. By assuming constant
dollar inflation, Dr. Finnerty effectively assumes that
investors gave equal weight to Goldman’s statements
before and after similar allegations of Goldman’s
conduct. To the extent investors placed less weight
on Goldman’s Conflict Management Statements
and/or Business Principles Statements over time,
Dr. Finnerty’s methodology would overstate inflation
in the later portions of the Class Period.
Executed on this 2nd day of
July, 2015
Paul Gompers

226

Finnerty Deposition, 263:2–5. In his deposition, Dr. Finnerty
testified that inflation could change on the dates of alleged
misstatements or corrective disclosures (Finnerty Deposition,
264:6–14). His methodology does not allow inflation to change
based on the facts of the case.

517
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
No. 1:10-cv-03461-PAC
ECF Case
————
In re GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
This Document Relates To: ALL ACTIONS
————
REPORT OF STEPHEN CHOI, Ph.D.
July 2, 2015
————

518
Table of Contents
I.

Qualifications ...............................................

1

II. Allegations and Assignment ........................

3

III. Summary of Opinions...................................

7

IV. SEC Enforcement Actions, in and of
Themselves and Independent from the
Content of the Underlying Allegations, Can
Cause a Decline in a Defendant Company's
Stock Price ....................................................

9

V. The SEC Enforcement Action Against
Goldman on April 16, 2010, in and of Itself
and Distinct from the Content of the
Underlying Allegations, Caused a Decline
in Goldman’s Stock Price .............................

13

A. The Goldman Enforcement Action Had
Characteristics that Are Statistically
Associated with Significant Stock Price
Declines of a Magnitude Consistent
with the Decline Observed on April 16,
2010 .........................................................

16

i. Methodology .......................................

18

ii. Results................................................

20

B. The Stock Price Decline Attributable to
the Goldman Enforcement Action Was
Exacerbated Because It Was Brought in
a Tumultuous Economic, Political, and
Regulatory Environment ........................

24

519
i. The Goldman Enforcement Action
Signaled an Increased Risk of Future
Regulatory Actions and Legislative
and Regulatory Changes that Would
Have a Disproportionate Impact on
Goldman’s Business, Magnifying the
Decline in Goldman’s Stock Price .....

25

ii. The Sensational and Aggressive
Nature of the Goldman Enforcement
Action, as Noted by Equity Analysts
and Market Commentators, Caused
Uncertainty About the Effect of
Future Regulatory Action, Which
Magnified the Decline in Goldman’s
Stock Price .........................................

29

VI. The Goldman Enforcement Action and Its
Unusual
Characteristics
Were
Not
Reasonably Foreseeable ...............................

34

A. Enforcement Actions Are Unforeseeable
Due to the SEC’s Wide Discretion in
Deciding Whether to Bring an
Enforcement Action and Determining
Its Characteristics ...................................

34

B. The Defendants and the Market Could
Not Have Reasonably Foreseen the
Filing of the Goldman Enforcement
Action .......................................................

36

C. The Defendants and the Market Could
Not Have Reasonably Predicted the
Highly Unusual Characteristics of the
Goldman Enforcement Action ................

38

520
VII. The Report Alleging a DOJ Investigation
into Goldman, Which Provided No
Information
About
the
Purported
Goldman Conduct, Caused a Decline in
Goldman’s Stock Price on April 30, 2010...

39

VIII. Reports Alleging an SEC Investigation
into Goldman, as Distinct from Any
Allegations
Regarding
Goldman’s
Conduct, Caused a Decline in Goldman’s
Stock Price on June 10, 2010 .....................

44

IX. Conclusions ...................................................

47

521
***
IV. SEC Enforcement Actions, in and of
Themselves and Independent from the
Content of the Underlying Allegations, Can
Cause a Decline in a Defendant Company's
Stock Price
19. An SEC enforcement action is generally a
negative event for a firm. For instance, Karpoff et al.
(2008) report an average abnormal return for the
defendant company’s stock price of -13.1 percent for all
announcements of regulatory involvement, including
SEC
enforcement
actions,
in
financial
misrepresentation cases.15 The precise impact of an
SEC enforcement action on the defendant company’s
stock price is determined by a number of factors,
including the specific characteristics of the
enforcement action, the anticipated potential costs
including resolution costs, management distraction,
the uncertainty for employees, clients, and business
counterparties, and the regulatory or legislative
changes signaled by the enforcement action.
20. An
enforcement
action’s
specific
characteristics are important determinants of the
stock price response to an enforcement action.16 For
instance, the charges brought, the list of defendants,
and whether a settlement is announced concurrently
can all have implications for the company’s ongoing
costs which affect its stock price. The academic
literature relating to SEC enforcement actions
indicates that enforcement actions that are not
15

Karpoff, J., S. Lee, and G. Martin (2008), “The Cost to Firms
of Cooking the Books,” The Journal of Financial and Quantitative
Analysis, 43, 581-611, p. 591.
16

See the empirical results in Section V.A.

522
settled, or otherwise resolved, on the filing date of the
enforcement action (“enforcement action date”) are
accompanied by larger negative abnormal stock price
reactions. For example, Karpoff et al. (2008) document
average abnormal returns of -6.7 percent when the
enforcement action is concurrently resolved and -15.0
percent when it is not.17 Dr. Finnerty recognized
during his deposition that enforcement action
characteristics such as whether the filing of the
enforcement action is accompanied by a concurrent
settlement can, in and of themselves, lead to different
defendant company stock price reactions.18
21. Importantly, such factors are not inevitable
consequences stemming from the content of the
underlying allegations. Rather, the SEC uses its
prosecutorial discretion to determine the specific
characteristics of an enforcement action in accordance
with the signal it intends to send to the market.19 The
17

Karpoff, J., S. Lee, and G. Martin (2008), “The Cost to Firms
of Cooking the Books,” The Journal of Financial and Quantitative
Analysis, 43, 581-611, p. 591.
18

Deposition of Dr. John D. Finnerty on March 19, 2015
(“Finnerty Deposition”), 147:16-148:13.
19

“SEC Issues Report of Investigation and Statement Setting
Forth Framework for Evaluating Cooperation in Exercising
Prosecutorial Discretion,” United States Securities and Exchange
Commission, Press Release 2001-117, October 23, 2001
(http://www.sec.gov/news/headlines/prosdiscretion.htm).
In
bringing an enforcement action, the SEC often focuses on higher
profile targets that it believes have greater potential benefits for
its objectives. Former SEC Chairman Harvey Pitt wrote in a coauthored article that the SEC “generally is apt to choose the
highly visible target if it wants to achieve the greatest deterrent
effect for its enforcement efforts . . . . [T]he SEC and its
enforcement staff will often consider the public relations value of
a case in deciding whether, when and how to pursue it.” See Pitt,
H. and K. Shapiro (1990), “Securities Regulation By

523
characteristics of an enforcement action are not known
before the filing of the enforcement action and may be
influenced by factors which are independent of the
content of the underlying allegations. Consequently,
the enforcement action, in and of itself, may cause a
decline in the defendant company’s stock price.
22. An SEC enforcement action may also provide
new information to the market about shifts in the
SEC’s enforcement priorities and strategies, or signal
regulatory or legislative changes. This is particularly
true in times of regulatory turmoil when SEC actions
are likely to have a feedback effect on the regulatory
climate. For example, in the insider trading area, SEC
enforcement actions have led to a number of seminal
U.S. Supreme Court decisions that have altered the
nature of the insider trading prohibition.-20 Cox and
Thomas have written that “[t]he SEC, through its
path-breaking prosecutions on insider trading, not
only established the boundaries of insider trading
regulation, but also legitimized regulation of this

Enforcement: A Look Ahead at the Next Decade,” Yale Journal
on Regulation, 7, 149-529, p. 184. See also Dooley, M. (1999),
“Insider Trading: Comment from an Enforcement Perspective,”
Case Western Reserve Law Review, 50, 319-323, p. 323.
(“[P]ublicity and other considerations that appear likely to
advance the agency’s interests often determine its choice of an
enforcement target.”) Similarly, Kedia and Rajgopal (2011) find
that the SEC is more likely to investigate firms with higher
visibility. See Kedia, S. and S. Rajgopal (2011), “Do the SEC’s
Enforcement Preferences Affect Corporate Misconduct?” Journal
of Accounting and Economics, 51, 259-278, p. 263.
20

These cases include, for example, Dirks v. Securities and
Exchange Commission, 463 U.S. 646, 667 (U.S. Supreme Court,
1983), and United States v. O’Hagan, 521 U.S. 642, 678 (U.S.
Supreme Court, 1997).

524
phenomenon in the first place.”21 More recently, after
media attention on the issue of high frequency trading,
the SEC initiated and settled two high frequency
trading related enforcement actions in Fall 2014.22,23
Concurrent with these enforcement actions was
speculation in the market about whether the SEC
and/or the U.S. Commodity Futures Trading
Commission would move forward24 with new
rulemaking focused on high frequency trading. The
settled high frequency trading enforcement actions
signaled to the market the importance the SEC placed
on addressing high frequency trading and the
likelihood of new regulation.25 Importantly, future
21

Cox, J. and R. Thomas (2003), “SEC Enforcement
Heuristics: An Empirical Inquiry,” Duke Law Journal, 53, 737779, p. 752.
22

See Lewis, M. (2014), Flash Boys: A Wall Street Revolt, New
York, NY: WW Norton & Company.
23

Order Instituting Administrative and Cease-and-Desist
Proceedings, In the Matter of Latour Trading LLC and Nicolas
Niquet, File No. 3-16128, September 17, 2014; Order Instituting
Administrative and Cease-and-Desist Proceeding, In the Matter
of Athena Capital Research, LLC, File No. 3-16199, October 16,
2014.
24

“Securities Regulation to Watch in 2015,” Law360, January
2,
2015
(http://www.law360.com/articles/601495/securitiesregulation-to-watch-in-2015). (“Sometime in 2015, the SEC likely
will publish new proposals to require high-frequency traders to
register with regulators if they haven’t already and to put in place
risk controls around their trading algorithms to stop potentially
market-disrupting errant trades.”)
25

“Legal Update: US SEC Brings First Enforcement Action
For Market Manipulation Through High-Frequency Trading,”
Mayer
Brown,
October
23,
2014
(http://www.mayerbrown.com/US-SEC-Brings-FirstEnforcement-Action-For-Market-Manipulation-Through-HighFrequency-Trading-10-23-2014). (“The Athena case is in line with

525
regulatory and legislative developments may not be
the direct consequence of the alleged misconduct.
23. Finally, a regulatory action against a company
can generate uncertainty about the possibility of
additional regulatory action which can impact the
company’s relationship with its employees, clients,
and business counterparties.26 For instance, clients
and counterparties may become more cautious in their
dealings with the company in the presence of
regulatory scrutiny, impacting the defendant
company’s business, and potentially its stock price.
This effect is likely more prominent if the enforcement
action is highly publicized and signals to the market
that a regulator has taken an aggressive stance. Dr.
Finnerty recognizes that uncertainty generated by an
ongoing enforcement action can impact a company’s
stock price.27 Again, the SEC may choose to adopt an
aggressive stance, or single out the defendant
company, due to factors unrelated to the content of the
underlying allegations.28

the SEC’s intensified focus on HFT firms and manipulative
trading practices involving HFT. While the SEC has signaled
that there is nothing inherently wrong with HFT generally,
specific HFT strategies that resemble traditional forms of market
manipulation or that cause market disruption may be subject to
vigorous enforcement action and increased regulation.”)
26

These costs, and their impact on defendant company stock
prices, are recognized in the literature on securities class actions.
See Alexander, J. (1994), “The Value of Bad News in Securities
Class Actions,” UCLA Law Review, 41, 1421-1469, p. 1435.
27
28

Finnerty Deposition, 148:8-13.

During periods of economic and political turmoil, the SEC
has been known to focus its resources by bringing highly visible
enforcement actions in a specific area of alleged violations, or
against a particular defendant, in order to send a strong signal of

526
V. The SEC Enforcement Action Against
Goldman on April 16, 2010, in and of Itself and
Distinct from the Content of the Underlying
Allegations, Caused a Decline in Goldman’s
Stock Price
24. I have assessed the relevance of the factors
described above in evaluating the stock price impact of
the Goldman Enforcement Action. Based on prior
academic findings, my empirical analysis, and my
expertise, I find that the filing of the SEC enforcement
action against Goldman on April 16, 2010, in and of
itself and distinct from the content of the underlying
allegations, caused a decline in Goldman’s stock price.
The Goldman Enforcement Action had unusual and
severe characteristics that are associated with stock
price declines and became known to the market only
after the filing of the enforcement action. These
unusual characteristics were within the SEC’s
discretion but were not an inevitable consequence of
the underlying allegations and, thus, were not
foreseeable.
25. While Dr. Finnerty asserts that “the regulatory
enforcement action by the SEC would not have been
brought” but for evidence relating to the Abacus
CDO,29 this is not sufficient to establish that the
underlying allegations caused the decline in
deterrence to the market. For example, my research shows that
during the mid-2000s, after much media coverage of option
backdating, the SEC dramatically increased enforcement actions
involving option backdating at the expense of enforcement
against other forms of accounting violations. See Choi, S., A.
Wiechman, and A. Pritchard (2013), “Scandal Enforcement at the
SEC: The Arc of the Option Backdating Investigations,”
American Law and Economics Review, 15, 542-577, p. 542.
29

Finnerty Report, ¶ 93.

527
Goldman’s stock price on April 16, 2010. Knowledge of
the underlying allegations about the Abacus CDO
prior to April 16, 2010, for example, would not have
resulted in the same stock price decline. Indeed, Dr.
Gompers finds that allegations made prior to April 16,
2010, which were about conflicts in CDOs or mortgage
products specifically and which thus mirrored the
corrective disclosures alleged by Plaintiffs, had no
effect on Goldman’s stock price.30 Only after the SEC
filed the Goldman Enforcement Action on April 16,
2010 did the market learn of that enforcement action,
its specific characteristics, and its implications for
Goldman. If the SEC had chosen, using its discretion,
not to bring an enforcement action or to bring an
action with less severe characteristics, the price
movement on April 16, 2010 for Goldman would very
likely have been different, with possibly a smaller or
no price decline.
26. Based on an analysis of all enforcement actions
against publicly traded companies from fiscal year
2010 to fiscal year 2014, I find that enforcement
actions that share the severe characteristics of the
Goldman Enforcement Action are associated with an
average statistically significant abnormal return of 8.07 percent. In contrast, enforcement actions that did
not share the severe characteristics of the Goldman
Enforcement Action are associated with an average
abnormal return of 0.37 percent. Moreover, the
difference of -8.44 percentage points between the
average abnormal return associated with enforcement
actions with the Goldman Enforcement Action
characteristics and those without is statistically
30

Expert Report of Paul Gompers, Ph.D., filed on July 2, 2015
(“Gompers Report”), ¶¶ 53-57.

528
significant. The abnormal return on Goldman’s stock
of -9.27 percent calculated for April 16, 2010 by Dr.
Finnerty is not statistically different from the -8.07
percent average abnormal return associated with
enforcement actions that share the severe
characteristics of the Goldman Enforcement Action.31
27. At least two factors further magnified the stock
price impact associated with the filing of the Goldman
Enforcement Action beyond that associated with the
severe characteristics of the Goldman Enforcement
Action. First, the filing of the Goldman Enforcement
Action occurred in a tumultuous political and
economic environment, and therefore signaled an
increased risk of regulatory actions and legislative and
regulatory changes that would affect Goldman’s
business disproportionately. Second, the sensational
and aggressive nature of the Goldman Enforcement
Action, as noted by equity analysts and market
commentators, caused uncertainty about the effect of
additional regulatory action which could impact
Goldman’s relationship with its employees, clients,
and business counterparties.
28. Dr. Finnerty asserts that the SEC complaint
filed against Goldman on April 16, 2010 contained new
information that could have caused a decline in

31

Finnerty Report, ¶ 77.

529
Goldman’s stock price.32,33 However, Dr. Gompers finds
that allegations made prior to April 16, 2010, which
were about conflicts in CDOs or mortgage products
specifically and which thus mirrored the corrective
disclosures alleged by Plaintiffs, including some
explicitly discussing the deal at issue in the Goldman
Enforcement Action, had no effect on Goldman’s stock
price.34
29. Based on my findings, taken together with Dr.
Gompers’ conclusion that allegations made prior to
32

Finnerty Report, ¶ 71. (“In addition, new information was
disclosed on April 16, 2010 that the marketing materials and
offering documents misled investors by failing to disclose
Paulson’s role in selecting the reference portfolio of the Abacus
2007-AC1 CDO, and the fact that Goldman had misled ACA by
telling ACA that Paulson was a sponsor of the CDO transaction
and would have an equity interest in the transaction.”)
33

The SEC alleged that Goldman and Tourre engaged in
several misrepresentations: “GS&Co and Tourre knowingly or
recklessly misrepresented in the term sheet, flip book and
offering memorandum for ABACUS 2007- ACI that the reference
portfolio was selected by ACA without disclosing the significant
role in the portfolio selection process played by Paulson, a hedge
fund with financial interests in the transaction adverse to IKB,
ACA Capital and ABN. GS&Co and Tourre also knowingly or
recklessly misled ACA into believing that Paulson invested in the
equity of ABACUS 2007-ACI and, accordingly, that Paulson’s
interests in the collateral section process were closely aligned
with ACA’s when in reality their interests were sharply
conflicting.” See Complaint, Securities and Exchange
Commission v. Goldman Sachs & Co. and Fabrice Tourre, filed
on April 16, 2010, ¶ 74. Importantly, none of the
misrepresentations alleged by the SEC coincided with those at
issue in this case, nor did they refer to Goldman’s representations
regarding its management of conflicts of interest or its business
principles.
34

Gompers Report, ¶¶ 53-57.

530
April 16, 2010 mirrored the corrective disclosures
alleged by Plaintiffs yet had no effect on Goldman’s
stock price, I conclude that the filing of the Goldman
Enforcement Action — independent of the content of
the underlying allegations — was consistent with and
likely accounted for the full April 16, 2010 -9.27
percent abnormal return calculated by Dr. Finnerty.35
A. The Goldman Enforcement Action Had
Characteristics that Are Statistically
Associated with Significant Stock Price
Declines of a Magnitude Consistent with
the Decline Observed on April 16, 2010
30. The specific characteristics of an SEC
enforcement action are important determinants of the
defendant company’s stock price decline. The Goldman
Enforcement Action included severe characteristics
which were made public only at the time of the filing
of the SEC enforcement action on April 16, 2010.
These characteristics were:
a. No concurrent resolution: Most SEC
enforcement actions against publicly traded
companies settle concurrently with the filing
of charges.36 The lack of a concurrent
resolution to the charges against Goldman
implied future expected costs of dealing with
the SEC at the time of the announcement,
including potentially enhanced resolution
costs,
management
distraction,
and
35
36

Finnerty Report, ¶ 77.

For instance, in my dataset covering all SEC enforcement
actions against publicly traded companies during fiscal years
2010-2014, 93 percent of enforcement actions were settled or
otherwise resolved on the same date that the enforcement action
was announced. See Exhibit 5.

531
uncertainty among employees, customers, and
business counterparties. Furthermore, there
was uncertainty about the size and severity of
the penalties levied by the SEC, including risk
to Goldman’s broker-dealer license.37 The
public press noted that the lack of an
immediate settlement was an anomaly and
had broader implications. For instance, a
Financial Times article asserted that “[t]he
commission underscored its new aggressive
stance by filing charges rather than working
out a settlement with Goldman.”38 The
Goldman Enforcement Action was resolved on
July 15, 2010, almost three months after its
announcement.39
b. Scienter charges: The SEC brought scienterbased charges against Goldman, specifically
alleging violations of Section 10(b) of the
Securities Exchange Act of 1934 and Rule 10b5 thereunder, and Section 17(a)(1) of the
Securities Act of 1933.40 Because the
37

Section 15(b)(4)(C)-(D) of the Securities Exchange Act of
1934, 15 U.S.C. § 78a(b)(4)(C)-(D). This risk was noted by the
press. See “Denying it Misled, Goldman Fires Back; SEC Not
Saying if More Cases Likely,” The Boston Globe, April 20, 2010.
(“For Goldman, the stakes could not be higher. The worst-case
scenario would be if it were to lose its license.”)
38

“Effort to Revitalise SEC Starts to Bear Fruit,” Financial
Times, April 16, 2010.
39

“Goldman Sachs to Pay Record $550 Million to Settle SEC
Charges Related to Subprime Mortgage CDO,” United States
Securities and Exchange Commission, Press Release 2010-123,
July 15, 2010.
40

See Complaint, Securities and Exchange Commission v.
Goldman Sachs & Co. and Fabrice Tourre, filed on April 16, 2010,
¶ 6.

532
prosecution of these violations carries a higher
burden of proof, it demands that the SEC
devote more resources to the case.41,42 The
choice to pursue these scienter-based charges
against a company is a signal of a particularly
aggressive stance by the SEC. Among other
things, these charges open up the possibility of
higher penalties. This characteristic of the
Goldman Enforcement Action was not known
to the market prior to the filing of the action
on April 16, 2010.
c. Individual defendant: An individual, Mr.
Tourre, was charged along with Goldman.43
The inclusion of individuals as defendants
along with a defendant company may indicate
the SEC’s desire to make an example not only
41

Other violations require that the SEC only show negligence,
such as Sections 17(a)(2) and (3) of the Securities Act of 1933. Still
other violations do not require that the SEC demonstrate a
particular defendant state of mind, such as Sections 13(b)(2)(A)
and (B) of the Securities Exchange Act of 1934.
42

News reports took note of this characteristic of the Goldman
Enforcement Action. The Financial Times reported that “[t]he
world's most prestigious investment bank has been charged by
the Securities and Exchange Commission with intentionally
deceiving investors.” (emphasis added.) (“Goldman Scrambles to
Contain Damage,” Financial Times, April 19, 2010.) Similarly,
news reports emphasized the fact that Goldman was being
charged with fraud (as opposed to negligence): “shock news
emerged that the US Securities and Exchange Commission had
charged Goldman Sachs, the US investment bank, with fraud
related to subprime mortgages.” (“Overview: Goldman Fraud
Charges Trigger Sell-Off,” Financial Times, April 16, 2010.)
43

Numerous press articles and analyst reports noted the
inclusion of Mr. Tourre as a defendant in the Goldman
Enforcement Action. See, for instance, “SEC Shines Spotlight on
Little-Known Goldman Exec,” Reuters News, April 16, 2010.

533
of the corporate defendant but also of its
employees. This may also signal that the SEC
will take a more aggressive approach in its
enforcement, leading to potentially higher
penalties. This characteristic of the Goldman
Enforcement Action was not known to the
market prior to the filing of the action on April
16, 2010.
i. Methodology
31. I have quantified the impact of the three key
characteristics — no concurrent resolution, scienter
charges, and individual defendant — on defendant
companies’ stock prices. I used the Securities
Enforcement Empirical Database, a comprehensive
dataset on SEC enforcement actions against publicly
traded companies for the period covering October 1,
2009 to September 30, 2014 (fiscal years 2010 to
2014).44 The data was collected as part of ongoing
academic research by the Pollack Center in
collaboration with Cornerstone Research, and the
collection process was overseen by me. In addition, I
supplemented the Securities Enforcement Empirical
Database with data on enforcement actions brought
against subsidiaries of publicly traded companies

44

The Securities Enforcement Empirical Database does not
include enforcement actions brought against subsidiaries of
publicly traded companies or enforcement actions limited to
charges for delinquent filings.

534
related to the Financial Crisis.45,46 My data consists of
117 enforcement actions.
32. I have augmented the Securities Enforcement
Empirical Database with information about returns
on defendant company stocks and the broad market
during the period leading up to and immediately after
each of the 117 enforcement actions.47 Using this
dataset, I performed an event study for each of these
enforcement actions.48 My event study includes all the

45

The information presented in this report includes
enforcement actions against companies for which trading data
was available from the Center for Research in Securities Prices
(“CRSP”) for the enforcement action date, the day after, and the
250 trading days leading up to the enforcement action date. I
found only three instances for which both a civil and an
administrative action were filed against a defendant company on
the same day. In these instances, only one enforcement action
with a superset of the characteristics from both actions is
recognized in the dataset.
46

Financial Crisis related actions are as identified by the SEC
as of the filing date of this report. See “SEC Enforcement Actions
that Led to or Arose from the Financial Crisis,” United States
Securities and Exchange Commission, September 11, 2014
(http://www.sec.gov/spotlight/enf-actions-fc.shtml). Some of these
actions were already included in the Securities Enforcement
Empirical Database while others were not as they involved
charges against a subsidiary of a public company and not the
publicly traded company itself. I added these enforcement actions
as they were a priori a promising source of enforcement actions
with the Goldman Enforcement Action characteristics.
47

Company stock returns are obtained from CRSP. Market
returns are obtained from Bloomberg. All returns are dividendadjusted.
48

An event study is a procedure frequently employed by
economists to measure the effects of an economic event on the
value of firms. See MacKinlay, A. (1997), “Event Studies in

535
publicly traded companies that faced an SEC
enforcement action during fiscal years 2010 to 2014,
and all subsidiaries of publicly traded companies that
faced an SEC enforcement action related to the
Financial Crisis during the same period. In particular,
I used a regression analysis, a standard statistical
method to estimate the typical relationship between
two or more variables.
33. I use a regression analysis to estimate the
relationship between movements in a company’s stock
price and movements in the market as a whole. This
procedure allows me to identify the component of the
defendant company’s stock price movement for each
enforcement action date that is attributable to
movements in the market as a whole. Because stock
prices reflect information relevant to the market as
well as information specific to the company in
question, one must remove these movements related
to the market in order to isolate the change that is
attributable to company-specific information.49 The
Economics and Finance,” Journal of Economic Literature, 35, 1339, p. 13.
49

Industry-specific information may also move stock price and
it is advisable to account for this in an event study focusing on a
single company or class of companies. However, in cross-sectional
studies involving many companies in different industries, it is
standard practice to account only for movements in the market
as a whole because the gains from taking industry movements
into account are generally small. “Generally, the gains from
employing multifactor models for event studies are limited. The
reason for the limited gains is the empirical fact that the
marginal explanatory power of additional factors [to] the market
factor is small, and hence, there is little reduction in the variance
of the abnormal return. The variance reduction will typically be
greatest in cases where the sample firms have a common
characteristic, for example they are all members of one industry
or they are all firms concentrated in one market capitalization

536
company’s stock price movement net of the effect
attributable to movements in the market as a whole is
referred to as the abnormal return.
34. In my event study, I ran a regression of a
defendant company’s stock price returns on the
returns of the Standard & Poor’s (“S&P”) 500 Total
Return Index, a broad market index, during the 250
trading days leading up to the company’s enforcement
action date.50 I used results from this regression to
predict each company’s stock price movement on its
enforcement action date. The difference between the
observed stock price return on the enforcement action
date and the return predicted by the regression model
is the abnormal return on the date associated with the
enforcement action. While it is not possible to predict
a stock price movement ex ante, the event study
method provides a range of stock price movements
which would be consistent with movements in the
overall market in 95 percent of cases. It is only when
an observed stock price movement is outside of this
range that we say that it is statistically significant
and, thus, that we infer that company-specific news
affected the company’s stock price on that date.

group. In these cases the use of a multifactor model warrants
consideration.” See MacKinlay, A. (1997), “Event Studies in
Economics and Finance,” Journal of Economic Literature, 35, 1339, p. 18.
50

The regression model used is known as a “market model”
and its use in event studies is standard practice. The 250-day
estimation window is also commonly used. See MacKinlay, A.
(1997), “Event Studies in Economics and Finance,” Journal of
Economic Literature, 35, 13-39, pp. 17-18. As a sensitivity test, I
confirmed that the results of my event study are qualitatively
similar for a 120-day estimation window.

537
ii. Results
35. Exhibit 1 presents summary statistics for the
event study analysis. Of the 117 enforcement actions
in my dataset, 57 are accompanied by a positive
abnormal return for the company’s stock price, and 60
are accompanied by negative abnormal returns. The
abnormal returns range between -17.09 percent and
7.78 percent.
36. Exhibit 2 presents summary statistics for
enforcement actions which were not settled on the
same date as their filing, i.e., did not have a concurrent
resolution. As shown in the exhibit, these enforcement
actions have a statistically significant average
abnormal return for the company’s stock price of -3.86
percent on the enforcement action date.51,52 Similarly,
the exhibit shows that the average abnormal return of
enforcement actions filed with no concurrent
resolution is significantly more negative than the
average abnormal return for enforcement actions filed
with a concurrent resolution. Indeed, four of the six
actions in the entire 117 enforcement action dataset
51

Residual stock price movement is determined to be
statistically significant at the 5 percent level if one would expect
a result as extreme as that observed less than 1 in 20 times based
on random variation in the stock price. In what follows, I will use
the term statistically significant to mean statistically significant
at the 5 percent level. Statistical significance is measured using
a hypothesis test as described in MacKinlay, A. (1997), “Event
Studies in Economics and Finance,” Journal of Economic
Literature, 35, 13-39, p. 21.
52

The finding that enforcement actions which are not resolved
concurrently are associated with larger negative average
abnormal returns is also reported in Karpoff, J., S. Lee, and G.
Martin (2008), “The Cost to Firms of Cooking the Books,” The
Journal of Financial and Quantitative Analysis, 43, 581-611,
p. 591.

538
with the largest negative abnormal returns were filed
without a concurrent resolution.
37. Using my event study, I have calculated the
average magnitude of stock price decline for
the enforcement actions with the characteristics
identified in the Goldman Enforcement Action.
Exhibit 3 shows that the magnitude of the average
stock price decline for enforcement actions with no
concurrent resolution increases where the SEC also
brings charges against individual defendants, and
where the action includes scienter-based charges. I
find that:
a. Enforcement actions which did not have a
concurrent resolution have a statistically
significant average abnormal return for the
company’s stock price of -3.86 percent on the
enforcement action date.
b. Enforcement actions with no concurrent
resolution and charges against an individual
defendant are associated with a significant
average abnormal stock return for the
company’s stock price of -6.30 percent.
c. Enforcement actions with no concurrent
resolution and scienter-based charges — all of
which also had individual defendants — are
associated with a statistically significant
average abnormal return for the company’s
stock price of -8.07 percent.
38. Exhibit 4 presents summary statistics for the
entire population of enforcement actions which share
the three characteristics of the Goldman Enforcement
Action: no concurrent resolution, scienter charges, and
individual defendants. This subset of four actions that
have all three of these key characteristics have a

539
statistically significant negative average abnormal
return for the company’s stock price of -8.07 percent.
In comparison, the 70 actions in the database that did
not have any of the key characteristics had an average
abnormal return of 0.37 percent. The difference in
average abnormal returns of 8.44 percentage points
between those actions with all three characteristics
and those with none of the characteristics is
statistically significant.
39. While SEC enforcement actions might contain
information that could impact stock prices, the mere
fact that the SEC files an enforcement action does not
establish the validity of the allegations to any market
observer. To the extent that the SEC fully litigates
cases, it sometimes prevails and sometimes loses.53
The vast majority of cases are settled, and companies
settle with the SEC for multiple and varying reasons
that may be unrelated to the merits of the
allegations.54 Indeed, the incentives to settle are
heightened when the company is an SEC-regulated
broker-dealer and the company requires on-going

53

From October 2013 to February 2014, the SEC won 55
percent of its trials and hearings, which compared unfavorably to
its win rate over the previous three years which was above 75
percent. See “SEC Takes Steps to Stem Courtroom Defeats; Trial
Unit Is Restructured as Agency’s Win Rate Slips,” The Wall Street
Journal, February 13, 2014.
54

My dataset of SEC enforcement actions against publicly
traded companies covering SEC fiscal years 2010 to 2014 shows
that, during this period, 93 percent of enforcement actions were
settled or otherwise resolved on the same day that the
enforcement action was filed. See Exhibit 5. One reason the SEC
pursues settlements is that it frees up its scarce resources to
investigate and prosecute other violations. See “Judge Approves
SEC Settlement With SAC Capital,” Forbes, June 19, 2014.

540
cooperation with the SEC in order to conduct its
business.
40. Without any basis, Dr. Finnerty suggests that
“[w]hat a review of the 117 SEC enforcement actions
reveals is that the stock market impact of the
announcement of an SEC enforcement action depends
on the nature of the underlying behavior that is the
subject of the enforcement action.”55,56 A review of the
only four enforcement actions with the Goldman
Enforcement Action characteristics shows that
lawsuits related to the same events were filed before
the SEC action in all four cases, so that the SEC action
was not the first instance in which the behavior in

55

Finnerty Rebuttal, ¶ 192. Dr. Finnerty’s assertion is partly
based on an incorrect interpretation of the results presented in
Karpoff, J., S. Lee, and G. Martin (2008), “The Cost to Firms of
Cooking the Books,” The Journal of Financial and Quantitative
Analysis, 43, 581-611, p. 591. Dr. Finnerty cites Karpoff et al.
(2008) to support his statement that “[t]he market will react
differently according to the nature of the underlying misconduct.”
See Finnerty Rebuttal, FN 312. However, the empirical results
from Karpoff et al. (2008) used by Dr. Finnerty as support are for
trigger events and not enforcement actions. As Karpoff et al.
(2008) note, trigger events are “conspicuous announcement[s]
related to the firm that draws the SEC’s scrutiny . . . . Following
a trigger event, the SEC gathers information through an informal
inquiry that, if warranted, grows to a formal investigation.” See
Karpoff, J., S. Lee, and G. Martin (2008), “The Cost to Firms of
Cooking the Books,” The Journal of Financial and Quantitative
Analysis, 43, 581-611, pp. 587-588.
56

As noted by Dr. Finnerty, the Goldman Enforcement Action
was accompanied by this drop in Goldman’s stock price despite
Goldman stating that the “SEC’s charges are completely
unfounded in law and fact and we will vigorously contest them
and defend the firm and its reputation.” See Finnerty Report,
¶¶ 77, 86.

541
question was revealed to the market.57 Thus, the
statistically significant average abnormal returns of 8.07 percentage points associated with these four
enforcement actions is attributable to the presence of
these severe characteristics.
41. My empirical analysis shows that the Goldman
Enforcement Action characteristics, which become
known only once an enforcement action is filed, are an
important determinant of the stock price response on
the trading day of the enforcement action disclosure.
Moreover, as discussed above, these characteristics
heighten the costs a company must bear as a
consequence of the filing of an enforcement action.58
These heightened costs affect a company’s valuation
and thus provide a causal link between the
characteristics and defendant company stock price
declines. Indeed, the evidence in the academic
literature is consistent with the existence of a causal
link between the costs of resolving an enforcement
action and defendant companies’ stock price declines.59
Together, this body of evidence indicates that the
presence of the Goldman Enforcement Action
57

Class Action Complaint, Steve Silverman v. Houston
American Energy Corp, et al., filed on April 27, 2012; Class Action
Complaint, Joseph C. Hubbard v. BankAtlantic Bancorp, Inc., et
al., filed on October 29, 2007; Complaint, Kenosha Unified School
District, et al. v. Stifel, Nicolaus & Co., et al., filed on September
29, 2008; Complaint for Violation of the Federal Securities Laws,
Selma Stone, et al. v. Life Partners Holdings Inc., et al., filed on
February 3, 2011.
58
59

See my discussion in Section IV and ¶ 30 of this report.

See especially Karpoff, J., S. Lee, and G. Martin (2008), “The
Cost to Firms of Cooking the Books,” The Journal of Financial
and Quantitative Analysis, 43, 581-611, p. 591, regarding the
differential effect on stock price of the filing of enforcement
actions with and without a concurrent resolution.

542
characteristics causes
companies’ stock prices.

declines

in

defendant

42. The -8.07 percent average abnormal stock price
decline associated with enforcement actions with the
severe characteristics of the Goldman Enforcement
Action is consistent with the observed decline in
Goldman’s stock price following the Goldman
Enforcement Action of -9.27 percent, as reported by
Dr. Finnerty, as the difference between these two
numbers is not statistically significant.60 Absent these
characteristics, the expected losses to Goldman’s stock
would be far smaller, as evinced by the average
abnormal return on SEC actions containing none of
the characteristics (0.37 percent). Importantly, the
difference between enforcement actions with the
Goldman Enforcement Action characteristics and
those without is statistically significant at 8.44
percentage points.
B. The Stock Price Decline Attributable to
the Goldman Enforcement Action Was
Exacerbated Because It Was Brought in a
Tumultuous Economic, Political, and
Regulatory Environment
43. Based
on
my
experience
analyzing
enforcement actions and a review of market
commentary, I conclude that the legislative and
regulatory changes signaled by the Goldman
Enforcement Action had the potential to affect
Goldman’s business disproportionately and that the
60

The abnormal return on Goldman’s stock is reported in
Finnerty Report, ¶ 77. The abnormal return of -9.27 percent falls
within the 95 percent confidence interval surrounding the -8.07
percent average abnormal return for enforcement actions with
the characteristics of the Goldman Enforcement Action.

543
aggressive stance signaled by the SEC during a
tumultuous economic and political environment
further magnified the Goldman stock price response to
the Goldman Enforcement Action, irrespective of any
underlying allegations. The stock price decline caused
by such factors aggravated the stock price decline
associated with the severe characteristics of the
Goldman Enforcement Action.
i. The Goldman Enforcement Action
Signaled an Increased Risk of Future
Regulatory Actions and Legislative
and Regulatory Changes that Would
Have a Disproportionate Impact on
Goldman’s Business, Magnifying the
Decline in Goldman’s Stock Price
44. The Goldman Enforcement Action occurred in
a charged political setting in which there was
considerable uncertainty about future regulation and
legislation.61 The heightened concerns investors felt
upon the announcement of the Goldman Enforcement
Action
regarding
the
tightening
regulatory
environment were well-founded, since it occurred
contemporaneously with many regulatory initiatives
that were ultimately incorporated into the DoddFrank Wall Street Reform and Consumer Protection
Act (“Dodd-Frank”). Dodd-Frank was signed into law
on July 21, 2010, following a prolonged period of
intense debate “ending more than a year of wrangling

61

Changes in securities regulation typically follow financial
crises. See Banner, S. (1997), “What Causes New Securities
Regulation? 300 Years of Evidence,” Washington University Law
Quarterly, 75, 849-855.

544
over the shape of the new rules.”62 The massive 1,375
page bill was referred to as “[t]he most far reaching
Wall Street reform in history.”63 It created new layers
of regulatory oversight including the Consumer
Financial Protection Bureau. Dodd-Frank touched
many corners of the financial services industry,
including new regulation for derivatives, hedge funds,
insurance, and debit card interchange fees. According
to the Wall Street Journal, “[f]inancial titans such as
J.P. Morgan Chase & Co., Goldman Sachs Group Inc.
and Bank of America Corp. may be forced to make
changes in most parts of their business, from debit
cards to the ability to invest in hedge funds.”64 DoddFrank also included the Volcker Rule, proposed by
President Obama on January 21, 2010, which
prohibits insured depository institutions from
engaging in proprietary trading and from directly
participating in hedge funds or private equity funds.65
45. In the wake of the Financial Crisis, news of
SEC enforcement actions, particularly against a high
profile financial institution like Goldman, would
62

“Congress Passes Financial Reform Bill,” The Washington
Post, July 16, 2010.
63

“Wall Street Reform: The Dodd-Frank Act,” The White
House (http://www.whitehouse.gov/economy/middle-class/doddfrank-wall-street-reform). See also “Congress Passes Financial
Reform Bill,” The Washington Post, July 16, 2010. (“the most
ambitious overhaul of financial regulation in generations.”)
64

“Law Remakes U.S. Financial Landscape,” The Wall Street
Journal, July 16, 2010.
65

“Volcker Rule,” Federal Reserve System, 12 CFR Part 225
(http://www.federalreserve.gov/bankinforeg/volckerrule/default.htm); “The Financial Crisis: A Timeline of Events
and Policy Actions,” Federal Reserve Bank of St. Louis
(https://www.stlouisfed.org/financial-crisis/full-timeline).

545
increase the risk perceived by investors that more
aggressive and onerous legislative and regulatory
proposals would be pursued. For example, the
Financial Times reported that “the real action in
financial reform started last Friday with the fraud
lawsuit filed by the Securities and Exchange
Commission against Goldman, Sachs & Co.”66 FBR
Capital Markets removed Goldman from its FBR Top
Picks list, noting that “[w]hile Goldman has indicated
that it plans to defend itself against the SEC’s
accusations, shares will likely feel near-term pressure
from the risk of more negative headlines and the
implications of the SEC’s actions on the direction of
the financial regulatory reform in coming weeks.”67 A
UBS analyst report quoted by Dr. Finnerty notes that
the Goldman Enforcement Action could lead to “an
increase in momentum for more stringent regulatory
reform, and increased public ire against the financial
industry.”68 In fact, Davidoff et al. (2012) attribute the
decline in the Goldman stock price to the implications
of the impending regulatory changes for investment
banks by noting:
[t]he SEC’s complaint is likely to be a
watershed event for the investment banking
industry. . . . [T]he complaint reflects farreaching structural changes in investment
banks. The changes predate the financial
crisis, and they are likely to result in further
66

“Wall Street Beware: The Lawyers Are Coming,” Financial
Times, April 18, 2010.
67

“Near-Term Headwinds From SEC Charges – Removing
from FBR Top Picks List,” FBR Capital Markets, April 19, 2010,
p. 1.
68

“SEC Charges Goldman with Fraud,” UBS Investment
Research, April 16, 2010, p. 1.

546
significant upheavals in the banking
industry. The political and regulatory
response to this change will affect the path of
future upheavals, and, hence, will have a
profound impact upon the future evolution of
the investment-banking sector. The $10
billion capital market reaction to the SEC’s
complaint [against Goldman] reflects this
impact.69
46. The perception that the Goldman Enforcement
Action would influence the outcome of the ongoing
regulatory overhaul of the financial sector as a whole
was also noted by members of Congress. In a letter
addressed to SEC Chairman Mary Schapiro,
Representative Darrell Issa and seven of his
colleagues noted that “[t]he Goldman litigation – filed
by the Commission on Friday, April 16, 2010 – has
been widely cited by Democrats in support of the
financial regulatory legislation currently before the
United States Senate.”70 Representative Barney
Frank, one of the main sponsors of Dodd-Frank,
reacted to news of the Goldman Enforcement Action
saying it “reinforces the need for much of what we
were doing.”71
69

Davidoff, S., A. Morrison, and W. Wilhelm (2012), “The SEC
v. Goldman Sachs: Reputation, Trust, and Fiduciary Duties in
Investment Banking,” The Journal of Corporation Law, 37, 529553, p. 531.
70

“Letter Addressed To SEC Chairman Mary Schapiro,”
United States Congress House of Representatives Committee On
Oversight
&
Government
Reform,
April
20,
2010
(http://oversight.house.gov/wp-content/uploads/2012/01/4-232010issalettertoseciginvestigation.pdf).
71

“Rep. Frank: Goldman Charges Improve Chances For
Regulatory Reform,” TheHill, April 19, 2010.

547
47. Consistent with the market recognizing a
signal of increased risk of future regulation, analyst
reports following the Goldman Enforcement Action
showed that the market was expecting legislators and
regulators to respond by advancing significant
changes in financial regulation that would affect
Goldman disproportionately. Specifically, analysts
noted that Goldman was particularly vulnerable to
possible future regulation of proprietary and
derivatives trading. According to Buckingham
Research:
[t]o us, the only negative coming out of this
quarter is the remaining uncertainty around
the SEC fraud allegations and, more
importantly, the negative implications of
potentially harsher regulation around
derivatives, proprietary trading, etc. This is
clearly a bigger issue for GS than its peers,
with the highest percentage of revenue from
trading among the large banks (60%-70% of
revenue).72
Similarly, an analyst report from Citigroup noted that
“[w]e
estimate
impact
to
Goldman
from
implementation of the Volcker rule could eliminate
between ~$3.5-4.0 bil of annual revenue” and
“Goldman’s revenue mix is more heavily weighted to
derivatives than peers.”73 Argus noted that “any new
restrictions on proprietary trading could have a bigger
impact on Goldman’s revenue and earnings than at
72

“1Q10: Fixed Income & Lower Comp Drive EPS Upside;
Raising 2010 EPS,” The Buckingham Research Group, April 20,
2010, p. 3.
73

“Reiterate Buy – Risks Are There, But Still See Significant
Upside,” Citigroup, May 2, 2010, pp. 3, 6.

548
more diversified firms.”74 Indeed, Fortune magazine
asked, “[w]ill the Volcker Rule crush Goldman
Sachs?”75
48. In addition to the increased risk of legislative
and regulatory change, the Goldman Enforcement
Action drew attention from other enforcement
agencies and private litigators, signaling an increased
likelihood of future litigation against Goldman given
the prevailing political environment. For example, a
Wells Fargo analyst report highlighted the increased
regulatory scrutiny arising from the enforcement
action by noting:
[t]he SEC’s lawsuit could embolden other
regulators (and investors) to seek legal action
against GS. We believe the nature of the
SEC’s lawsuit against GS in the current
political environment across the globe could
result in additional legal actions being taken
against GS by other regulators. Over the
weekend, Bloomberg News reported that both
the U.K.’s Financial Service Authority (FSA)
and Germany’s financial regulator [have]
both been asked by their respective heads of
state to review the SEC’s complaint for
possible legal action related to this
transaction.76
An Oppenheimer analyst report highlighted that the
Goldman Enforcement Action signaled the importance
74

“Goldman Sachs Group Inc,” Argus, April 20, 2010, p. 3.

75

“Will the Volcker Rule Crush Goldman Sachs?” Fortune,
December 9, 2013.
76

“GS: Reputational Risks Increased, But Valuation Still
Attractive,” Wells Fargo, April 19, 2010, p. 127.

549
of public sentiment as a driver of future litigation,
concluding that “GS is probably vulnerable to more
charges and outsized fines.”77 Dr. Finnerty
acknowledges that the possibility of future litigation
was a relevant factor in explaining the decline in
Goldman’s stock price, quoting a UBS analyst report
saying that “we see the potential for other litigation
(shareholder suits, NY AG . . . ).”78 Similarly, the
Financial Times noted that the Goldman Enforcement
Action “opens the litigation floodgates for more suits
based on subprime mortgage fraud, and smart
investors know it.”79
49. The uncommon and aggressive nature of the
Goldman Enforcement Action increased the risk of
future regulations that would have a disproportionate
impact on Goldman compared to its peers. Further, in
the context of the prevailing political environment, the
enforcement action also increased the likelihood of
potential regulatory and private litigation against
Goldman. These factors caused a decline in Goldman’s
stock price, in addition to the stock price decline
associated with the severe characteristics of the
Goldman Enforcement Action.

77

“SEC Singles out GS for Fraud Charge - Stepping to
Sidelines,” Oppenheimer & Co., April 16, 2010, p. 1.
78

Finnerty Report, ¶ 83; “SEC Charges Goldman with Fraud,”
UBS Investment Research, April 16, 2010, p. 1.
79

“Wall Street Beware: The Lawyers Are Coming,” Financial
Times, April 18, 2010.

550
ii. The Sensational and Aggressive
Nature of the Goldman Enforcement
Action, as Noted by Equity Analysts
and Market Commentators, Caused
Uncertainty About the Effect of Future
Regulatory Action, Which Magnified
the Decline in Goldman’s Stock Price
50. A number of academics and commentators
have noted the pressure faced by the SEC to bring
highly visible enforcement actions in times of
economic and political turmoil. According to Correia
(2014):
[t]he importance of the Securities and
Exchange Commission (SEC) is widely
recognized by the media, and its enforcement
activities are under increased scrutiny
following the recent wave of corporate
scandals; such as Enron, Global Crossing,
Halliburton, Harken, Arthur Andersen,
Fannie Mae, Freddie Mac, Providian, and
Bernard Madoff Investment Securities, to
name just a few.80
Similarly, Heese (2014) notes that “[t]he Securities
and Exchange Commission’s (SEC) enforcement
actions have been subject to increased scrutiny” in the
wake of the scandals surrounding the frauds
committed by Bernard Madoff and Allen Stanford.81

80

Correia, M. (2014), “Political Connections and SEC
Enforcement,” Journal of Accounting and Economics, 57, 241262, p. 241.
81

Heese, J. (2014), “Government Preferences and SEC
Enforcement,” Harvard Business School Accounting &
Management Unit Working Paper No. 15-054, p. 2.

551
51. During periods of economic and political
turmoil, the SEC has been known to focus its resources
by bringing highly visible enforcement actions in a
specific area of alleged violations, or against a
particular defendant, in order to send a strong signal
of deterrence to the market. For example, my research
shows that during the mid-2000s, after much media
coverage of option backdating, the SEC dramatically
increased enforcement actions involving option
backdating at the expense of enforcement against
other forms of accounting violations.82
52. The SEC brought an enforcement action
against Goldman in the wake of the Financial Crisis
that the Wall Street Journal referred to as “one of the
biggest moves by authorities in response to the
financial crisis of 2007-08.”83 The Goldman
Enforcement Action was announced in a wellpublicized phone interview and press conference, both
held during trading hours. Robert Khuzami,
Enforcement Director at the SEC held the phone call
with reporters to discuss the SEC’s enforcement action
against Goldman and, shortly thereafter, gave a press
conference at the 22nd annual Corporate Law
Institute in New Orleans.84 The phone call and press
conference received widespread coverage in the

82

Choi, S., A. Wiechman, and A. Pritchard (2013), “Scandal
Enforcement at the SEC: The Arc of the Option Backdating
Investigations,” American Law and Economics Review, 15, 542577, pp. 542, 546.
83

“Goldman Charges Roil Markets,” The Wall Street Journal,
April 16, 2010.
84

“SEC Khuzami Explains Why Paulson Wasn’t Charged,”
The Wall Street Journal, April 16, 2010.

552
media.85 Some SEC officials expressed misgivings
about the possibility of holding a high profile press
conference for the Goldman Enforcement Action,
calling it a “double-edged sword” and noting that “we
could be accused of hyping it if we did a press
conference.”86
53. Releasing relevant news about a company
during trading hours, as was done in the case of the
Goldman Enforcement Action, can result in increased
volatility of the defendant company’s stock.87 Indeed,
85

The phone call and press conference were cited in numerous
press articles from sources such as The Chicago Tribune, Fortune,
The New York Times, and The Wall Street Journal. The press
conference was also covered by television news outlets such as
CNN. See “SEC Accuses Goldman Sachs of Fraud in CDO, or
‘Toxic Asset,’ Case,” The Chicago Tribune, April 16, 2010
(http://newsblogs.chicagotribune.com/marksjarvis_on_money/20
10/04/sec-accuses-goldman-sachs-in-cdo-or-toxic-assetcase.html); “SEC Charges Goldman Sachs With Fraud,” Fortune,
April 16, 2010; “S.E.C. Accuses Goldman of Fraud in Housing
Deal,” The New York Times, April 17, 2010; “SEC Khuzami
Explains Why Paulson Wasn’t Charged,” The Wall Street
Journal, April 16, 2010; “SEC Director Talks Tough About
Goldman,”
CNNMoney,
April
16,
2010
(http://money.cnn.com/video/news/2010/04/16/n_Goldman_SEC_l
awsuit_Khuzami.cnnmoney/).
86

“Report of Investigation: Allegations of Improper
Coordination Between the SEC and Other Governmental Entities
Concerning the SEC’s Enforcement Action Against Goldman
Sachs & Co.,” United States Securities and Exchange Commission
Office of Inspector General, September 30, 2010 (“OIG Report”),
pp. 51-52 (https://www.sec.gov/foia/docs/oig-534.pdf).
87

French, K. and R. Roll (1986) “Stock Return Variances: The
Arrival of Information and the Reaction of Traders,” Journal of
Financial Economics, 17, 5-26; Francis, J., D. Pagach, and J.
Stephan (1992) “The Stock Market Response to Earnings
Announcements Released during Trading versus Nontrading
Periods,” Journal of Accounting Research, 30, 165-184.

553
this decision was examined by SEC’s Office of the
Inspector General (“OIG”), an independent office
within the SEC that conducts, supervises, and
coordinates audits and investigations of the programs
and operations of the SEC.88,89 The OIG’s report noted
the concern raised by an employee of the New York
Stock Exchange with the intra-day release of the
Goldman Enforcement Action and its “volatility effect
on the price of Goldman’s stock and . . . the broader
market impact from an SEC action against a major
company in the financial industry.”90 Kenneth Lench,
Chief of the Structured and New Products Unit in the
Division of Enforcement at the SEC (the “Division”),
“testified that, after the SEC filed against Goldman, a
senior officer in the Office of Compliance Inspections
and Examinations called Lench and ‘sensitized’ Lench
to the issue of filing during trading hours. . . . Lench
testified that this senior officer wanted ‘consideration
to be given in high-profile market-moving types of
cases, potentially to file it outside of trading hours
because of the impact [the Goldman action] had on the
market that day.’”91

88

In conducting its investigation of the Goldman Enforcement
Action, “[t]he OIG . . . obtained and searched over 3.4 million emails . . . . took the sworn testimony of 32 witnesses and
interviewed five other individuals with knowledge of facts or
circumstances surrounding the SEC’s investigation of Goldman,
the SEC’s filing of its complaint against Goldman, and/or the
SEC’s settlement with Goldman.” See OIG Report, p. 2.
89

“The Office of Inspector General (OIG),” U.S. Securities and
Exchange
Commission,
accessed
June
29,
2015
(http://www.sec.gov/about/offices/inspector_general.shtml).
90

OIG Report, p. 66.

91

OIG Report, pp. 5, 68.

554
54. Market analysts noted the sensational nature
of the Goldman Enforcement Action. A Barclays
analyst stated, “[t]argeting GS, given the flurry of
anti-Wall Street press that has centered around that
firm offers the publicity that the administration needs
at this critical juncture.”92 A Societe Generale analyst
report made a similar point, noting that “current
attacks are politically driven in our view (GS was not
the most active player in MBS and synthetic CDO
issuance).”93
55. A number of analysts noted that the SEC
enforcement action was disproportionate in relation to
the allegations. For example, an Oppenheimer analyst
report noted:
[i]t is not the facts of the case as presented in
the SEC’s complaint that disturb us so much
as the sensational and aggressive language
that the SEC used in its complaint . . . .
Goldman is singled out. It is almost as if the
SEC wanted to embarrass Goldman and
make it [a] lightening [sic] rod for lawsuits
and negative publicity. . . . [I]t is just not a
good thing to have one of your primary
regulators with an apparent agenda to
pursue.94
Similarly, according to Keefe, Bruyette & Woods, “[a]s
long as the SEC’s civil lawsuit lingers, a DOJ criminal
probe is underway, and GS remains the lightening
92

“Administration Steps Up Support for Bill,” Barclays
Capital, April 16, 2010, p. 1.
93

“Blow-Out Quarter Overshadowed by SEC Complaint,”
Societe Generale, April 21, 2010, p. 1.
94

“1Q Review: Life is Not Fair,” Oppenheimer & Co., April 20,
2010, pp. 2-3.

555
[sic] rod for populist and congressional anger against
Wall Street, it will be difficult for GS’s stock to come
close to recognizing its inherent value, in our view.”95
Commentators in the public press also noted the
disproportionate nature of the Goldman Enforcement
Action: “[u]nless the SEC is sitting on more evidence
than it has laid out so far, the charge sheet looks
flimsy.”96 The Wall Street Journal noted that “[g]iven
the public anger at Wall Street, and the criticism of
the SEC’s failure to regulate more effectively before
the financial crisis struck, it’s worth considering that
Goldman makes an enticing political target,
regardless of the merits of the suit.”97
56. A highly visible enforcement action in which a
company’s primary regulator signals an aggressive
stance, as was the case in the Goldman Enforcement
Action, can cause uncertainty about the effect of
additional regulatory action. This uncertainty can
impact a defendant’s relationship with its employees,
clients, and business counterparties. This can occur
even if the allegations in question were previously
disclosed, meaning that the impact of the filing of an
enforcement action itself, as distinct from the
underlying allegations, can cause a stock price decline.
This signal, apart from heightening the possibility of
increased regulation (as described above), can also
increase perceived uncertainty regarding what
consequences might follow from increased regulatory
95

“Stepping Aside: Lower GS To Market Perform Until The
Storm Clouds Clear,” Keefe, Bruyette & Woods, May 3, 2010,
p. 1.
96

“In SEC vs. Goldman, Who’s Really At Fault?” The
Washington Post, April 21, 2010.
97

“Where’s the Goldman That I Used to Know?” The Wall
Street Journal, April 21, 2010.

556
attention. The negative effect that the uncertainty
generated by legal action can have on a defendant
company’s shares has been studied in the context of
securities class actions. For instance, Alexander
(1994) writes that “[t]he existence of a securities class
action lawsuit can itself affect the value of the firm’s
shares.”98 Dr. Finnerty recognizes the impact that
uncertainty generated by an ongoing enforcement
action can have on a company’s stock price.99 This
effect is likely more prominent if the enforcement
action brought by the SEC is highly publicized and
sends a strong signal to the market, as was the case
with the Goldman Enforcement Action. These factors
caused a decline in Goldman’s stock price, which
magnified the stock price decline associated with the
severe characteristics of the Goldman Enforcement
Action.
VI. The Goldman Enforcement Action and Its
Unusual
Characteristics
Were
Not
Reasonably Foreseeable
57. SEC enforcement actions are, by their nature,
unpredictable. The SEC enjoys wide-ranging
prosecutorial discretion, and may use this discretion
to determine whether to bring suit, which charges to
pursue, and whether to provide the defendant with
opportunities to settle. The Goldman Enforcement
Action was also brought in the wake of the Financial
Crisis, with characteristics which were unusual and
unforeseeable to the Defendants and the market.
Thus, neither investors nor the Defendants could have
reasonably predicted the filing of the Goldman
98

Alexander, J. (1994) “The Value of Bad News in Securities
Class Actions,” UCLA Law Review, 41, 1421-1469, p. 1435.
99

Finnerty Deposition, 148:8-13.

557
Enforcement Action, its specific characteristics, and
the subsequent decline in Goldman’s stock price at any
time during the Class Period.
***
Moreover, only 15 cases (or 12.82 percent) involved
scienter charges. Similarly, individuals were charged
only in 40 of these cases (or 34.19 percent). Of the 117
cases, only four cases (or 3.42 percent) have all three
key characteristics identified in the Goldman
Enforcement Action. 116 These figures, in addition to
the response by analysts and market commentators to
the SEC’s enforcement action, as I discuss in Section
V.B.ii, underscore the exceptional and unforeseeable
nature of the Goldman Enforcement Action and
further support the conclusion that the Defendants
and the market could not have reasonably expected
that the Goldman Enforcement Action would be filed
and could not have predicted the specific
characteristics of the Goldman Enforcement Action.
VII. The Report Alleging a DOJ Investigation
into Goldman, Which Provided No
Information About the Purported Goldman
Conduct, Caused a Decline in Goldman’s
Stock Price on April 30, 2010
66. According to Dr. Finnerty, the abnormal price
decline for Goldman’s stock on Friday, April 30, 2010
was “-7.75%, which is statistically significant at the
1% level.”117 Furthermore, Dr. Finnerty claims that
“the abnormal return of -7.75% on Goldman’s common
stock on April 30, 2010 is attributable to the corrective
116

See Exhibit 4.

117

Finnerty Report, ¶ 124.

558
information” revealed by the publication of news in the
Wall Street Journal of a possible DOJ criminal
investigation into Goldman.118
67. Specifically, the Wall Street Journal reported
that “[f]ederal prosecutors are conducting a criminal
investigation into whether Goldman Sachs Group Inc.
or its employees committed securities fraud in
connection with its mortgage trading.”119 While the
purported investigation “stemmed from a referral
from the Securities and Exchange Commission . . . . ,
[i]t couldn’t be determined which Goldman deals are
being scrutinized in the criminal investigation.”120
Plaintiffs do not allege that the purported DOJ
investigation of Goldman resulted in any charges
being filed.
68. As acknowledged by Plaintiffs’ expert, the
report provided no specifics about the purported
investigation.121 Moreover, it contained no new
allegations of undisclosed conflicts. As such, the report
could not have revealed any information to the market
regarding Goldman’s conflicts of interest. Therefore,
there is no basis for allocating the stock price decline
on this date to inferences made by investors about the
existence and severity of Goldman’s conflicts of

118

Finnerty Report, ¶ 137.

119

“Criminal Probe Looks Into Goldman Trading,” The Wall
Street Journal, April 30, 2010. The investigation was not
acknowledged by the DOJ or Goldman.
120

“Criminal Probe Looks Into Goldman Trading,” The Wall
Street Journal, April 30, 2010.
121

Finnerty Deposition, 244:16-245:3.

559
interest in the Hudson 2006-1, Timberwolf I, and
Anderson 2007-1 CDOs, as Dr. Finnerty has done.122
69. As part of his review of the alleged April 30,
2010 disclosure date, Dr. Finnerty reviews
information released to the market on April 27,
2010.123 Specifically, Dr. Finnerty notes that:
[o]n Tuesday, April 27, 2010, the Senate’s
Permanent Subcommittee on Investigations
held a hearing . . . to examine the role that
Goldman played in the credit crisis,
particularly in connection with sub-prime
mortgage securitization. . . . [T]he
Subcommittee claimed that Goldman devised
a series of transactions (and not just a single
CDO transaction) to profit from the collapse
of the home mortgage market.124
However, Dr. Finnerty does not provide an
explanation for why information disseminated three
trading days earlier would have affected Goldman’s
stock price on April 30, 2010.
70. Criminal prosecutions of corporate defendants
by the DOJ can have serious consequences. For
instance, the DOJ’s successful indictment and
conviction of Arthur Andersen in 2002 put one of the
nation’s “Big 5” accounting firms out of business and
resulted in the loss of tens of thousands of jobs.125
Indeed, the Wall Street Journal article underscored
the unusual severity of criminal charges in noting that
122

Finnerty Report, Exhibit 7.

123

Finnerty Report, ¶ 108.

124

Finnerty Report, ¶ 109.

125

Debold, D. and K. Barry (2008), “Consistency in NPAs and
DPAs,” Federal Sentencing Reporter, 20, 331-333, p. 331.

560
“in the more than two-century history of the U.S.
financial markets, no major financial firm has
survived criminal charges.”126 At the time,
prosecutions of corporations were rare, as the DOJ
often opted for deferred prosecution agreements.127
Nevertheless, even deferred prosecution agreements
can entail significant costs for a company. For
example, in February 2009, the Swiss bank UBS AG
entered into a deferred prosecution agreement with
the DOJ, in which it agreed to pay $780 million in
fines, penalties, and interest.128
71. Equity analysts and press covering Goldman
noted the severe consequences that criminal charges
could have for Goldman. A Citigroup analyst report,
also cited by Dr. Finnerty, described the substantive
risks associated with the purported DOJ investigation
against Goldman by noting that “[i]f a securities firm
were convicted of criminal fraud, then it could lose its
license as a primary treasury dealer; broker dealer
licenses to sell securities could also be revoked.”129 In
a similar vein, a Washington Post article stated that
“[t]he Justice Department usually investigates highprofile cases of securities fraud, but the threshold for
126

“Criminal Probe Looks Into Goldman Trading,” The Wall
Street Journal, April 30, 2010.
127

Greenblum, B. (2005), “What Happens to a Prosecution
Deferred? Judicial Oversight of Corporate Deferred Prosecution
Agreements,” Columbia Law Review, 105, 1863-1904, pp. 18631864.
128

Nanda, V. (2010), “Corporate Criminal Liability in the
United States: Is a New Approach Warranted?” The American
Journal of Comparative Law, 58, 605-630, p. 606.
129

“Reiterate Buy – Risks Are There, But Still See Significant
Upside,” Citigroup, May 2, 2010, p. 9. Cited in Finnerty Report,
¶ 130.

561
criminal prosecution is significantly higher than that
of civil cases . . . It is rare for the government to indict
a company, and even the threat of criminal
prosecution can doom a business.”130
72. An important factor influencing Goldman’s
stock price decline was the repercussions that the
report of a purported DOJ investigation could have on
the ongoing political debate regarding the regulation
of the financial industry. A Standard & Poor’s report,
also cited by Dr. Finnerty, underlined the importance
of the interaction between the report of an
investigation and the current political climate, noting
that “the risk of a formal securities fraud charge, on
top of the SEC fraud charge and pending legislation to
reshape the financial industry, further muddies
Goldman’s outlook.”131 Similarly, a former SEC
enforcement attorney interpreted the report of the
purported DOJ investigation in the context of the
ongoing political situation, saying that “[t]he release
of the existence of a preliminary inquiry amid the
firestorm is reckless and grossly irresponsible. The
only purpose of doing so was to stoke a political
flame.”132
73. Despite the lack of mention of any new
allegations in the report of the purported DOJ
investigation, the impact of the alleged criminal
investigation and its possible severe repercussions
130

“Goldman Case Sent To Justice; SEC Refers Its Findings
Indictment of a Firm Would Be Unusual,” The Washington Post,
April 30, 2010. Cited in Finnerty Report, ¶ 118.
131

“Goldman Shares Slide on Criminal-probe Concerns,”
Bloomberg News, April 30, 2010. Cited in Finnerty Report, ¶ 127.
132

“Goldman Faces Rising Pressure To Strike Deal,” Financial
Times, April 30, 2010.

562
were highlighted by the actions taken by some
analysts in lowering their outlook for Goldman’s stock.
Bank of America Merrill Lynch reported on April 30,
2010:
[w]e are lowering our rating on GS to Neutral
from Buy and our price objective to $160 from
$220. Our downgrade is prompted by news
reports filed Thursday evening by the media
including the Wall St. Journal indicating that
federal prosecutors have opened an
investigation of GS in connection with its
trading activities, raising the possibility of
criminal charges.133
The Buckingham Research Group explained its
downgrade of Goldman stock by stating:
[r]eluctantly,
and
despite
strong
fundamentals and an attractive valuation, we
are downgrading GS shares to Neutral from
Buy given the significant uncertainty
surrounding
multiple
and
continued
government probes of GS’s mortgage trading
& underwriting operations.134
74. The report of a purported DOJ investigation
had an effect on Goldman’s stock price for several
reasons. The increase in the perceived likelihood of
criminal charges, however small, would have had a
negative impact on Goldman’s stock price given the
133

“Cutting to Neutral: Concerns Over Reports Of Federal
Probe,” Bank of America Merrill Lynch, April 30, 2010, p. 1. Cited
in Finnerty Report, ¶ 126.
134

“Downgrade To Neutral; Litigation/Political Risk Too
Difficult To Handicap,” The Buckingham Research Group, April
30, 2010, p. 1. Cited in Finnerty Report, ¶ 128.

563
severe potential consequences. Moreover, the
purported DOJ investigation signaled wider
governmental resolve to target Goldman and an
increased risk of shifts in regulation with a
disproportionate impact on Goldman’s business.
Finally, market participants, upon learning of the
purported DOJ investigation, would have anticipated
a drain on Goldman’s resources and a major
distraction for its executives.
75. Because the Wall Street Journal report on the
alleged DOJ investigation provided no information
about the purported Goldman conduct, any
consequent stock price decline could not have been a
result of the revelation of new information about
Goldman’s alleged conflicts of interest to the market
through the Wall Street Journal report, as alleged by
Plaintiffs. In particular, Dr. Finnerty’s attribution of
the entire abnormal return to new “corrective
information” specific to the Hudson 2006-1,
Timberwolf I, and Anderson 2007-1 CDOs is
baseless.135 My review of market commentary together
with my analysis of the potential consequences of
criminal charges lead me to conclude that the report of
a DOJ criminal investigation, in and of itself and
irrespective of any underlying allegations, caused
Goldman’s stock price to decline on April 30, 2010.
Moreover, the repercussions that the report of a
135

Finnerty Report, ¶¶ 135-137, Exhibit 7. (“The DOJ’s
criminal investigation was, in fact, a direct consequence of
Goldman’s alleged fraudulent conduct in connection with certain
CDOs. . . . The news about the DOJ’s criminal investigation
provided significant new information about the severity of
Goldman’s conflicts of interest and violations of its business
principles in contrast to its false and misleading statements
during the Class Period.”)

564
purported DOJ investigation could have on the
ongoing political debate regarding the regulation of
the financial industry heightened Goldman’s stock
price decline.
VIII. Reports Alleging an SEC Investigation into
Goldman, as Distinct from Any Allegations
Regarding Goldman’s Conduct, Caused a
Decline in Goldman’s Stock Price on June
10, 2010
76. According to Dr. Finnerty, “[o]n Thursday,
June 10, 2010, Goldman’s common stock price
decreased 2.21% from $136.80 to $133.77. . . . [T]he
abnormal return on June 10, 2010 is - 4.52%, which is
statistically significant at the 5% level.”136
Furthermore, Dr. Finnerty claims that the reports of
an SEC investigation “disclosed to market
participants the severity of Goldman’s conduct and
revealed that Goldman had been engaged in
undisclosed conflicts of interest and violated its
business principles in direct contrast to the false and
misleading statements during the Class Period.”137
However, Dr. Gompers has shown that no new
information about Goldman’s conduct was revealed to
the market on this date.138 Therefore, there is no basis
for attributing the abnormal return on June 10, 2010
to the alleged existence and severity of Goldman’s
conflicts of interest in the Hudson 2006-1 CDO.
77. As Dr. Finnerty reports, “[o]n Wednesday,
June 9, 2010, after the market closed, it was reported
that the Hudson 2006-1 CDO, which was sold in 2006,
136

Finnerty Report, ¶ 141.

137

Finnerty Report, ¶ 147.

138

Gompers Report, ¶ 123.

565
was also the target of a probe by the SEC.”139
Specifically, a Financial Times article reported:
[t]he
US
Securities
and
Exchange
Commission has stepped up its inquiries into
a complex mortgage-backed deal by Goldman
Sachs that was not part of the civil fraud
charges filed against the bank in April. . . .
SEC interest in Hudson Mezzanine Funding,
a $2bn collaterised debt obligation, comes
amid settlement talks with Goldman over
accusations that the bank defrauded
investors in Abacus, a similar CDO.140
Plaintiffs do not allege that the SEC’s investigation of
the Hudson CDO resulted in an enforcement action.
78. A Wells Fargo analyst report pointed to the
reports of a second SEC investigation as the
cause of this stock price decline, saying that “[m]edia
reports of a second SEC investigation into CDO
marketing practices at GS (specifically a 2006 CDO
called Hudson Mezzanine) pushed GS shares down as
much as 4 percent today.”141 Goldman’s stock price
would have reacted to the announcement of an
additional SEC investigation for reasons already
discussed above. Complying with the SEC’s demands
for cooperation in the investigation and preparing a
defense against possible charges consume a company’s
resources and are a distraction to management. As
noted by Karpoff et al. (2008), “[s]hare values can
139

Finnerty Report, ¶ 138.

140

“SEC Probes Second Goldman Security,” Financial Times,
June 9, 2010.
141

“GS: Reiterating Outperform Rating Despite Near-Term
Volatility,” Wells Fargo, June 10, 2010, p. 1.

566
decrease as investors anticipate that the targeted firm
will receive non-monetary sanctions or will have to pay
fines, penalties, and court settlements related to the
charges.”142 The same authors also note that “the firm
can suffer real losses as managers are required to
divert resources to the investigation and away from
company business.”143 A mutual fund executive
speaking about SEC investigations reported that
“[w]hen a sweep occurs, you’re talking about days or
weeks, not minutes. It’s a major drain on the resources
of the firm.”144
79. Academic studies show that disclosures of SEC
investigations result in a decline in defendant
company stock prices. For instance, Feroz et al. (1991)
find that disclosures of SEC investigations regarding
financial reporting violations are associated with
average two-day abnormal returns of -7.5 percent.145
These same authors attempt to “isolate the
investigation effect” by “focus[ing] on the cumulative
returns for the 20 firms that had previously disclosed
the disputed accounting. The cumulative abnormal
return for days { -1, 0} for these 20 firms is - 6.0

142

Karpoff, J., S. Lee, and G. Martin (2008), “The Cost to
Firms of Cooking the Books,” Journal of Financial and
Quantitative Analysis, 43, 581-611, p. 594.
143

Karpoff, J., S. Lee, and G. Martin (2008), “The Cost to
Firms of Cooking the Books,” Journal of Financial and
Quantitative Analysis, 43, 581-611, p. 599.
144

“Managers Hit by High Cost of SEC Probes,” Pensions &
Investments, October 18, 2004.
145

Feroz, E., K. Park, and V. Pastena (1991), “The Financial
and Market Effects of the SEC’s Accounting and Auditing
Enforcement Releases,” Journal of Accounting Research, 29, 107142, p. 123.

567
percent.”146 Looking at initial reports of SEC
investigations, Choi et al. (2013) report abnormal
returns for an event window centered on the event
date ranging from -6.5 percent to 0.1 percent,
depending on the type of violation involved
(accounting or option backdating) and the time period
considered.147
80. The implications of the reported investigation
for future regulatory and legislative activity were
likely an important additional contributor to
Goldman’s stock price decline on this date. The reports
of the SEC investigation against Goldman, the first
regulatory investigation pertaining to the Hudson
CDO, marked the third report of regulatory action
against Goldman following the Goldman Enforcement
Action and the report of a purported DOJ
investigation. Similar to the enforcement action, the
SEC investigation signaled additional risk of future
regulations which would have a disproportionate
impact on Goldman compared to its peers. The
investigation of a new CDO transaction implied a
wider scope of expected additional civil and regulatory
actions against Goldman which would have caused a
decline in the Goldman stock price. While this
investigation did not lead to an SEC enforcement
146

Feroz, E., K. Park, and V. Pastena (1991), “The Financial
and Market Effects of the SEC’s Accounting and Auditing
Enforcement Releases,” Journal of Accounting Research, 29, 107142, p. 124.
147

The event window spans from the day before the first public
disclosure of the SEC investigation to the day after the disclosure.
See Choi, S., A. Wiechman, and A. Pritchard (2013), “Scandal
Enforcement at the SEC: The Arc of the Option Backdating
Investigations,” American Law and Economics Review, 15, 542577, pp. 553-554.

568
action, such enforcement activity can increase the
risks and uncertainty that a company faces and which
its employees, clients, and business counterparties
perceive, and the exposure of the company to
potentially severe penalties.
81. Dr. Gompers has shown that reports of an SEC
investigation into Goldman on June 10, 2010
contained no new allegations about Goldman’s
conduct. Therefore, any consequent stock price decline
could not have been a result of the revelation of new
information about Goldman’s alleged conflicts of
interest to the market, as alleged by Plaintiffs.
Instead, the reports of an SEC investigation, in and of
themselves and irrespective of any underlying
allegations, caused a decline in Goldman’s stock price
on June 10, 2010. Furthermore, the implications of the
reports of a new SEC investigation for future
regulations and litigation heightened the impact on
Goldman’s stock price. The stock price decline on June
10, 2010 is consistent with the negative impact I would
expect from the publication of news of an SEC
investigation related to the Hudson CDO and the
resulting risks and potential costs that would flow
from this regulatory activity.
IX. Conclusions
82. Based on my work on this matter, I have
reached the following conclusions:
a. The filing of the Goldman Enforcement Action,
in and of itself and distinct from the content of
the underlying allegations, caused a decline in
the Goldman stock price. The Goldman
Enforcement Action had severe characteristics
which are associated with price declines. In
addition, the Goldman Enforcement Action

569
signaled an increased risk of future regulatory
actions and legislative and regulatory changes
which would have a disproportionate impact
on Goldman compared to its peers. Further,
the sensational and aggressive nature of the
Goldman Enforcement Action, as noted by
equity analysts and market commentators,
caused uncertainty about the effect of
additional regulatory action which could
impact Goldman’s relationship with its
employees, clients, and business counterparties. These additional factors magnified the
stock price decline associated with the severe
characteristics of the Goldman Enforcement
Action. Based on my findings, and
Dr. Gompers’ finding that allegations made
prior to April 16, 2010 which mirrored the
corrective disclosures alleged by Plaintiffs had
no effect on Goldman’s stock price, I conclude
that the Goldman Enforcement Action —
independent of the content of the underlying
allegations — likely accounted for the full
April 16, 2010 -9.27 percent abnormal return
calculated by Dr. Finnerty.
b. The Goldman Enforcement Action and its
unusual characteristics were not reasonably
foreseeable for the Defendants and the market
because of the wide discretion the SEC enjoys
in deciding whether to bring an enforcement
action and in determining its characteristics,
and because the presence of the Goldman
Enforcement
Action
characteristics
is
extraordinary. Thus, neither investors nor the
Defendants could have reasonably predicted
the filing of the Goldman Enforcement Action,

570
its specific characteristics, and the subsequent
decline in Goldman’s stock price.
c. The news report alleging a DOJ criminal
investigation against Goldman, irrespective of
any underlying allegations, caused a decline in
Goldman’s stock price on April 30, 2010. The
report of the alleged DOJ investigation
provided no information about the purported
Goldman conduct. Therefore, any consequent
stock price decline cannot be attributed to the
revelation of new information about Goldman’s
alleged conflicts of interest.
d. The news reports alleging an SEC
investigation into Goldman, irrespective of any
underlying allegations, caused a decline in
Goldman’s stock price on June 10, 2010. The
reports of the SEC investigation on this date
against Goldman — the first regulatory
investigation pertaining to the Hudson CDO,
but the third report of regulatory action
against Goldman within the span of two
months — resulted in additional risk of future
regulations
which
would
have
a
disproportionate
impact
on
Goldman
compared to its peers. The investigation of a
new CDO transaction increased the risks,
uncertainty, and exposure of the company to
potentially severe penalties resulting in a
decline in Goldman’s stock price. Furthermore,
given that Dr. Gompers has shown that the
reports of the SEC investigation into Goldman
on June 10, 2010 contained no new allegations
about Goldman’s conduct, any consequent
stock price decline could not have been a result
of the revelation of new information about

571
Goldman’s alleged conflicts of interest to the
market.

572
EXHIBIT 1
Summary Statistics for Defendant Company
Abnormal Returns [1]
Fiscal Year 2010 – 2014 [2]
Statistic
Number of Actions
Number of Actions with
Negative Abnormal
Returns
Minimum
Maximum
Average [4]

Abnormal Returns [3]
117

60
-17.09%
7.78%
-0.06%

Source: Bloomberg; CRSP; Factiva; http://www.sec.
gov; Securities Enforcement Empirical Database
Note:
[1]
The dataset includes enforcement actions filed
against publicly traded companies for which stock
price data covering the enforcement action filing date
and the preceding 250 trading days is available from
CRSP. Enforcement actions against subsidiaries of
publicly traded companies are also included for cases
classified by the SEC as arising from the Financial
Crisis. The Goldman Sachs Group, Inc. enforcement
action filed on April 16, 2010 is excluded. There are
three instances in which both a civil and an
administrative action were filed against a defendant
company on the same day. In these instances, only one
enforcement action with a superset of the
characteristics from both actions is recognized in the
dataset.
[2]
The SEC’s fiscal year ends on September 30
(Fiscal Year 2014 ended on September 30, 2014).

573
[3]
Abnormal returns are calculated using an event
study methodology based on a one factor market
model. The model uses the S&P 500 Total Return
Index as the market portfolio and a 250 trading day
estimation window, which excludes any trading days
on which other enforcement actions against the
defendant company were filed. Abnormal returns are
calculated for the enforcement action filing date in
actions in which the enforcement action was
announced before the end of trading hours and for the
following trading day in actions in which the
announcement came after market close.
[4]
The average is not significant at the 5% level.

574
EXHIBIT 2
Summary Statistics for
Defendant Company Abnormal Returns: [1]
No Concurrent Resolution [2]
Fiscal Year 2010 – 2014 [3]

Statistic
Number of
Actions
Number of
Actions with
Negative
Abnormal
Returns
Minimum
Maximum
Average [5]
Difference in
Averages [5]

Abnormal
Returns: No
Concurrent
Resolution [4]

Abnormal
Returns:
Concurrent
Resolution [4]

8

109

6

54

-17.09%
1.36%
-3.86%*

-8.64%
7.78%
0.22%

-4.08%*

Source: Bloomberg; CRSP; Factiva; http://www.sec.
gov; Securities Enforcement Empirical Database
Note:
[1]
The dataset includes enforcement actions filed
against publicly traded companies for which stock
price data covering the enforcement action filing date
and the preceding 250 trading days is available from
CRSP. Enforcement actions against subsidiaries of
publicly traded companies are also included for cases
classified by the SEC as arising from the Financial

575
Crisis. The Goldman Sachs Group, Inc. enforcement
action filed on April 16, 2010 is excluded. There are
three instances in which both a civil and an
administrative action were filed against a defendant
company on the same day. In these instances, only one
enforcement action with a superset of the
characteristics from both actions is recognized in the
dataset.
[2]
Enforcement actions where the settlement
between the SEC and the defendant was not disclosed
on the same date that the enforcement action was
filed.
[3]
The SEC’s fiscal year ends on September 30
(Fiscal Year 2014 ended on September 30, 2014).
[4]
Abnormal returns are calculated using an event
study methodology based on a one factor market
model. The model uses the S&P 500 Total Return
Index as the market portfolio and a 250 trading day
estimation window, which excludes any trading days
on which other enforcement actions against the
defendant company were filed. Abnormal returns are
calculated for the enforcement action filing date in
actions in which the enforcement action was
announced before the end of trading hours and for the
following trading day in actions in which the
announcement came after market close.
[5]
An asterisk (*) indicates significance at the 5%
level.

576
EXHIBIT 3
Summary Statistics for
Defendant Company Abnormal Returns: [1]
Compounding Impact of Enforcement Action
Characteristics
Fiscal Year 2010 – 2014 [2]

Enforcement Action
Characteristic

Additional Enforcement
Action Characteristics
Individual
Defendants
Indiviand
dual
Scienter Scienter
DefenCharges Charges
[4] [5]
dants [4]
[5]

No
Concurrent
Resolution
[3]
Number of
Cases
Average
Abnormal
Return [6]

8

-3.86%

5

-6.30%

4

-8.07%

4

-8.07%

Source: Bloomberg; CRSP; Factiva; http://www.sec.
gov; Securities Enforcement Empirical Database
Note:
[1]
The dataset includes enforcement actions filed
against publicly traded companies for which stock
price data covering the enforcement action filing date
and the preceding 250 trading days is available from

577
CRSP. Enforcement actions against subsidiaries of
publicly traded companies are also included for cases
classified by the SEC as arising from the Financial
Crisis. The Goldman Sachs Group, Inc. enforcement
action filed on April 16, 2010 is excluded. There are
three instances in which both a civil and an
administrative action were filed against a defendant
company on the same day. In these instances, only one
enforcement action with a superset of the
characteristics from both actions is recognized in the
dataset.
[2]
The SEC’s fiscal year ends on September 30
(Fiscal Year 2014 ended on September 30, 2014).
[3]
Enforcement actions where the settlement
between the SEC and the defendant was not disclosed
on the same date that the enforcement action was
filed.
[4]
Enforcement actions where allegations were
also brought against an individual from the defendant
company for related conduct on the same date that the
enforcement action against the defendant company
was filed.
[5]
Enforcement actions where charges include
violations of Section 10(b) of the Securities Exchange
Act of 1934, Rule 10b-5 and/or Section 17(a)(1) of the
Securities Act of 1933.
[6]
Abnormal returns are calculated using an event
study methodology based on a one factor market
model. The model uses the S&P 500 Total Return
Index as the market portfolio and a 250 trading day
estimation window, which excludes any trading days
on which other enforcement actions against the
defendant company were filed. Abnormal returns are
calculated for the enforcement action filing date in

578
actions in which the enforcement action was
announced before the end of trading hours and for the
following trading day in actions in which the
announcement came after market close. An asterisk
(*) indicates significance at the 5% level.

579
EXHIBIT 4
Summary Statistics for
Defendant Company Abnormal Returns: [1]
No Concurrent Resolution, Scienter Charges,
and Individual Defendants [2]
Fiscal Year 2010 – 2014 [3]

Statistic
Number of
Actions
Number of
Actions with
Negative
Abnormal
Returns
Minimum
Maximum
Average [6]
Difference in
Averages [6]

Abnormal
Returns: No
Concurrent
Resolution,
Scienter
Charges, and
Individual
Defendants [4]

Abnormal
Returns:
Concurrent
Resolution, No
Scienter
Charges, and
No Individual
Defendants [4]
[5]

4

70

4

32

-17.09%
-3.34%
-8.07%

-8.64%
6.67%
0.37%
-8.44%

Source: Bloomberg; CRSP; Factiva ; http://www.sec.
gov; Securities Enforcement Empirical Database
Note:
[1]
The dataset includes enforcement actions filed
against publicly traded companies for which stock

580
price data covering the enforcement action filing date
and the preceding 250 trading days is available from
CRSP. Enforcement actions against subsidiaries of
publicly traded companies are also included for cases
classified by the SEC as arising from the Financial
Crisis. The Goldman Sachs Group, Inc. enforcement
action filed on April 16, 2010 is excluded. There are
three instances in which both a civil and an
administrative action were filed against a defendant
company on the same day. In these instances, only one
enforcement action with a superset of the
characteristics from both actions is recognized in the
dataset.
[2]
Enforcement actions with no concurrent
resolution,
scienter
charges,
and
individual
defendants. That is, enforcement actions where the
settlement between the SEC and the defendant was
not disclosed on the same date that the enforcement
action was filed, charges include violations of Section
10(b) of the Securities Exchange Act of 1934, Rule 10b5 and/or Section 17(a)(1) of the Securities Act of 1933,
and allegations were also brought against an
individual from the defendant company for related
conduct on the same date that the enforcement action
against the defendant company was filed.
[3]
The SEC's fiscal year ends on September 30
(Fiscal Year 2014 ended on September 30, 2014).
[4]
Abnormal returns are calculated using an event
study methodology based on a one factor market
model. The model uses the S&P 500 Total Return
Index as the market portfolio and a 250 trading day
estimation window, which excludes any trading days
on which other enforcement actions against the
defendant company were filed. Abnormal returns are

581
calculated for the enforcement action filing date in
actions in which the enforcement action was
announced before the end of trading hours and for the
following trading day in actions in which the
announcement came after market close.
[5]
Enforcement
actions
with
concurrent
resolutions, no scienter charges, and no individual
defendants. That is, enforcement actions where the
settlement between the SEC and the defendant was
disclosed on the same date that the enforcement action
was filed, charges do not include violations of Section
10(b) of the Securities Exchange Act of 1934, Rule 10b5 and/or Section 17(a)(1) of the Securities Act of 1933,
and allegations were not brought against an
individual from the defendant company for related
conduct on the same date that the enforcement action
against the defendant company was filed.
[6]
An asterisk (*) indicates significance at the 5%
level.

582
EXHIBIT 5
Distribution of SEC Enforcement Actions
By Enforcement Action Characteristic [1]
Fiscal Year 2010 – 2014 [2]

Enforcement
Action
Characteristic
No Concurrent Resolution [3]
Scienter
Charges [4]
Individual
Defendants [5]
Any Characteristic

Enforcement
Actions With
Characteristic
Percentage of
Total
NumActions
ber

Enforcement
Actions Without
Characteristic
Percentage of
Total
NumActions
ber

8

6.84%

109

93.16%

15

12.82%

102

87.18%

40

34.19%

77

65.81%

47

40.17%

70

59.83%

Source:
CRSP;
http://www.sec.gov;
Enforcement Empirical Database

Securities

Note:
[1]
The dataset includes enforcement actions filed
against publicly traded companies for which stock
price data covering the enforcement action filing date
and the preceding 250 trading days is available from
CRSP. Enforcement actions against subsidiaries of
publicly traded companies are also included for cases
classified by the SEC as arising from the Financial
Crisis. The Goldman Sachs Group, Inc. enforcement
action filed on April 16, 2010 is excluded. There are
three instances in which both a civil and an
administrative action were filed against a defendant

583
company on the same day. In these instances, only one
enforcement action with a superset of the
characteristics from both actions is recognized in the
dataset.
[2]
The SEC’s fiscal year ends on September 30
(Fiscal Year 2014 ended on September 30, 2014).
[3]
Enforcement actions where the settlement
between the SEC and the defendant was not disclosed
on the same date that the enforcement action was
filed.
[4]
Enforcement actions where charges include
violations of Section 10(b) of the Securities Exchange
Act of 1934, Rule 10b-5 and/or Section 17(a)(1) of the
Securities Act of 1933.
[5]
Enforcement actions where allegations were
also brought against an individual from the defendant
company for related conduct on the same date that the
enforcement action against the defendant company
was filed.

584
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
No. 1:10-cv-03461-PAC
ECF Case
————
In re GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
This Document Relates To: ALL ACTIONS
————
REPORT OF LAURA T. STARKS, Ph.D.
July 2, 2015
————

585
Table of Contents
I.

Qualifications ...............................................

1

II. Allegations, assignment, and compensation..

4

III. Summary of opinions....................................

6

IV. The equity investment decision-making
process and the types of information that
investors consider in making equity
investments ..................................................

7

V. The statements at issue are general
statements regarding Goldman’s business
principles and management of conflicts of
interest ..........................................................

10

VI. General
statements
in
company
communications regarding a company’s
business principles, the importance of its
reputation and client franchise, and those
regarding a company’s management of
conflicts of interest do not affect the value
of a company’s stock, and therefore do not
contain information that can be used in
investment decision-making ........................

16

VII. My analysis of analyst reports that
included discussions of Goldman Sachs
during the Class Period shows that the
Business Principles Statements and
Conflict Controls Statements were not
discussed by analysts, which further
reflects that they did not contain
information that could be used in an
investment decision-making process ...........

22

586
A. Analysts did not address the Business
Principles Statements or Conflict
Controls Statements prior to the alleged
corrective disclosure dates ......................

26

B. Analysts did not address the Business
Principles Statements or Conflict
Controls Statements on or after the
alleged corrective disclosure dates .........

30

VIII. Conclusion ...................................................

41

587
* * *
V. The statements at issue are general
statements regarding Goldman’s business
principles and management of conflicts of
interest
27. Plaintiffs allege that Defendants made two
categories of misstatements: their statements
about business principles (“Business Principles
Statements”) and their statements about conflict
controls (“Conflict Controls Statements”).20
28. The Business Principles Statements involve
statements regarding Goldman’s business principles,
and statements about the importance of Goldman’s
reputation and the importance and quality of its client
franchise. The statements in this category are
predominantly from Goldman’s SEC Form 10-K
(“Form 10-K”) filings, Goldman’s annual reports, or
public conference calls. Exhibit 4 provides examples of
the Business Principles Statements.
29. The Business Principles Statements include
certain of Goldman’s 14 business principles contained
in the firm’s annual report to shareholders during the
Class Period and provided to Goldman’s employees.
Specifically, these statements are:

20



“Our clients’ interests always come first. Our
experience shows that if we serve our clients
well, our own success will follow.”



“Our assets are our people, capital and
reputation. If any of these is ever diminished,

See, e.g., Complaint, ¶¶ 13–15, 18, 21–22, 24–25, 27, 116,
120–121, 127, 134–136, 140–141, 154, 271–275, 277, 279–287,
289, 291–297, 299, 301–303, 305, 327. Emphasis omitted.

588
the last is the most difficult to restore. We are
dedicated to complying fully with the letter
and spirit of the laws, rules and ethical
principles that govern us. Our continued
success depends upon unswerving adherence
to this standard.”


“Integrity and honesty are at the heart of our
business.”21

30. Statements of a company’s business principles
communicate
to
key
stakeholders—including
customers, employees, and investors—the principles,
standards, values, and goals of the organization as
aspired to by the company’s founders and top
management.22 Such statements are typically widely
circulated and discussed, with the goal of having their
meaning understood, shared, and internalized by the
company’s stakeholders, in particular, its employees.23
These types of aspirational statements are used for a
variety of purposes, including creation and promotion
of organizational culture, employee motivation, and
corporate brand formation.24 These types of
21

Complaint, ¶¶ 24, 154, 277, 289, 299, 305. Emphasis
omitted.
22

See, e.g., “Mission and Vision Statements,” (http://www.bain
.com/publications/articles/management-tools-mission-andvision-statements.aspx).
23

See, e.g., Bauer, T., M. Carpenter, and B. Erdogan (2010),
“Developing Mission, Vision, and Values,” in Management
Principles, pp. 167–170; Collins, J. C., and J. I. Porras (1996),
“Building Your Company’s Vision,” Harvard Business Review,
September–October, pp. 65–77, at pp. 66–68; “Mission and Vision
Statements,” (http://www.bain.com/publications/articles/manage
ment-tools-mission-and-vision-statements.aspx).
24

See, e.g., Bauer, T., M. Carpenter, and B. Erdogan (2010),
“Developing Mission, Vision, and Values,” in Management

589
statements are also commonly used in company
communications across a wide range of industries (as
I discuss in more detail in Section VI below).
31. As shown in Exhibit 4, these statements were
included in Goldman’s annual reports to investors
during the Class Period. The history of these 14
business principles shows that they were designed
specifically to provide employees of Goldman with an
understanding of what are considered to be the firm’s
core values. According to one author, they were first
written in the late 1970s, when Goldman Sachs was
operated as a private partnership, and they were
attached to the company’s annual review and sent to
every employee’s home.25 I understand that the 14
business principles are generally provided to all
Goldman employees during new employee orientation
and are included on Goldman’s website.26

Principles, pp. 167–170; Collins, J. C., and J. I. Porras (1996),
“Building Your Company’s Vision,” Harvard Business Review,
September–October, pp. 65–77, at pp. 66–77; “Mission and Vision
Statements,” (http://www.bain.com/publications/articles/manage
ment-tools-mission-and-vision-statements.aspx).
25

Ellis, C. D. (2009), The Partnership: The Making of Goldman
Sachs, New York, NY: Penguin Books (“Ellis (2009)”), pp. 184–
185. According to Ellis (2009), including the principles in the
company’s annual review is a practice that has continued.
26

See, e.g., “Why Goldman Sachs? – Training and Orientation,”
(http://www.goldmansachs.com/careers/why-goldmansachs/training-and-orientation/training-and-orientation-mainpage.html); “Business Principles and Standards – Goldman
Sachs Business Principles,” (http://www.goldmansachs.com/whowe-are/business-standards/business-principles/index.html). The
14 business principles are the same as the set originally drafted
except for minor changes in wording. See Ellis (2009), p. 185. See
also Deposition of Fabrice Tourre, November 13, 2014, 381:2–
382:9; Deposition of George Maltezos, October 29, 2014, 247:19–

590
32. Based on my experience and understanding,
due to the aspirational nature of a company’s business
principles and their prevalence in company
communications, investors cannot view these
statements as guarantees that all of the company’s
employees would uphold these principles at all times.
33. The Business Principles Statements also
include certain statements in (i) Goldman’s Form 10Ks, (ii) Goldman earnings conference calls and
investor conferences, (iii) a January 21, 2010 Goldman
press release, and (iv) a November 8, 2009 Sunday
Times article.27 These statements include:
• “Our reputation is one of our most important
assets.”28


“We believe our willingness and ability to take
risk
to
facilitate
client
transactions
distinguishes us from many of our competitors
and substantially enhances our client
relationships.”29



“I am pleased to report record results for the
first quarter. . . . Most importantly, our performance reflects the depth of our client franchise
and the diversity of our business mix.”30

248:6; Deposition of Scott Wisenbaker, October 10, 2013, 49:20–
50:6.
27

See, e.g., Exhibit 4.

28

See, e.g., Complaint, ¶¶ 154, 272, 284. Emphasis omitted.

29

See, e.g., Complaint, ¶¶ 154, 271, 283, 293, 302. Emphasis
omitted.
30

See, e.g., Complaint, ¶ 279. See also Goldman Sachs Q1 2007
Earnings Conference Call Transcript, March 13, 2007.

591


“What drove performance was the quality of
our client franchise.”31

34. These types of statements about the importance
of a company’s reputation, and importance or quality
of its clients or client franchise, are so general in
nature that they have no substantive content from the
perspective of an investor. In fact, company
statements about the importance of the company’s
reputation and clients are truisms and especially
so for companies in the services sector and for
companies that have well-recognized brand names.
Consequently, such statements do not provide
information pertinent to a company’s valuation or
financial performance. In my experience, the notion
that companies value their reputations is a given,
irrespective of company statements on that topic. I
discuss the pervasiveness of these statements among
companies in more detail in Section VI below.
35. The second category of misstatements alleged
by Plaintiffs involves statements regarding Goldman’s
management of conflicts of interest or the Conflict
Controls Statements.32 Exhibit 5 provides examples of
the Conflict Controls Statements. Almost all of these
statements are from the “Risk Factors” section of
Goldman’s Form 10-Ks and include the following:


31
32

“Conflicts of interest are increasing and a
failure to appropriately deal with conflicts of
interest could adversely affect our businesses.
Our reputation is one of our most important
assets. As we have expanded the scope of our

See, e.g., Complaint, ¶¶ 154, 281. Emphasis omitted.

See, e.g., Complaint, ¶¶ 18, 25, 134–136, 272, 284, 294, 303.
See also Exhibit 5.

592
businesses and our client base, we increasingly
have to address potential conflicts of interest,
including situations where our services to a
particular client or our own proprietary
investments or other interests conflict, or are
perceived to conflict, with the interests of
another client . . . .”
“We have extensive procedures and controls
that are designed to address conflicts of
interest, including those designed to prevent
the improper sharing of information among
our businesses. However, appropriately
identifying and dealing with conflicts of
interest is complex and difficult, and our
reputation could be damaged and the
willingness of clients to enter into transactions
in which such a conflict might arise may be
affected if we fail, or appear to fail, to identify
and deal appropriately with conflicts of
interest. In addition, potential or perceived
conflicts could give rise to litigation or
enforcement actions.”33
36. Financial institutions, which include a variety
of business operations from trading to investment
banking, can be exposed to a number of business
conflicts. For example, investment banks might advise
multiple clients in the same sector, or investment
banking clients might seek to enter into transactions
with other firms with which the investment bank has
a relationship. With respect to trading, a bank might
act as a middleman between counterparties looking to
33

Complaint, ¶¶ 134–135, 272, 284, 294, 303 (emphasis
omitted); The Goldman Sachs Group, Inc. Form 10-K for the fiscal
year ended November 30, 2007 (“Goldman 2007 Form 10-K”), p. 28.

593
trade or might act in a proprietary role. In my
experience, the risks that arise from potential conflicts
of interest in this industry are well known to investors,
having been pointed out and written about for
decades.34
37. The general statements at issue in this action
are statements that Goldman Sachs made about the
entirety of its business, and, in my experience, no
reasonable investor could read these types of general
statements as suggesting that inconsistent behavior
within any particular business line or specific
transaction within the larger entity would negate
these general statements for the larger entity.
Goldman Sachs is a large financial services firm with
different divisions, sources of revenues, thousands of
clients, and thousands of employees. For example, in
the fiscal year ended December 2009, Goldman had
net revenues of $45.2 billion, with $871 billion in
assets under management and over 32,000 employees
worldwide.35 At the end of its fiscal year 2009,
Goldman had three principal business segments:
Investment Banking, Trading and Principal
Investments, and Asset Management and Securities
Services.36 The size and scope of Goldman’s activities
34

Wolfson, N. (1976), Conflicts of Interest: Investment
Banking, New York, NY: The Twentieth Century Fund, Inc.
35

The Goldman Sachs Group, Inc. Form 10-K for the fiscal
year ended December 31, 2009 (“Goldman 2009 Form 10-K”),
pp. 3, 12, 14.
36

Goldman 2009 Form 10-K, pp. 1, 5. In its 2010 Form 10-K,
issued in 2011, Goldman started reporting four business
segments: Investment Banking, Investing and Lending,
Institutional Client Services, and Investment Management. See
The Goldman Sachs Group, Inc. Form 10-K for the fiscal year
ended December 31, 2010, p. 1.

594
within its Trading and Principal Investments
segment—Goldman’s largest revenue-generating
business segment in fiscal year 2009—are sweeping.
For example, in its 2009 Form 10-K, Goldman reported
$34.4 billion in net revenues from its Trading and
Principal Investments segment—which amounted to
approximately 76 percent of Goldman’s net revenues
in fiscal year 2009—and described the company’s
activities in this segment as follows:37
“We facilitate client transactions with a
diverse group of corporations, financial
institutions, investment funds, governments
and individuals through market making in,
trading of and investing in fixed income and
equity products, currencies, commodities and
derivatives on these products. We also take
proprietary positions on certain of these
products. In addition, we engage in marketmaking activities on equities and options
exchanges, and we clear client transactions
on major stock, options and futures
exchanges worldwide. In connection with our
merchant banking and other investing
activities, we make principal investments
directly and through funds that we raise and
manage.”38
38. In addition, these Conflict Controls Statements
are provided in a section titled “Risk Factors” in
Goldman’s Form 10-Ks filed with the SEC. Statements
37

Goldman 2009 Form 10-K, p. 3. Dividing $34.4 billion of net
revenues from the Trading and Principal Investments business
segment by Goldman’s total net revenues of $45.2 billion yields
approximately 76 percent.
38

Goldman 2009 Form 10-K, p. 55.

595
in the Risk Factors section of Form 10-Ks are designed
to provide “information about the most significant
risks that apply to the company or to its securities.”39
As such, these and other statements in the Risk
Factors sections of Form 10-Ks are there to warn
investors about significant risks that could have an
adverse impact on the company and cannot reasonably
be interpreted by investors as guarantees that the
risks will not occur. Indeed, the statements at issue
also include the following language providing further
warning to investors:
“However, appropriately identifying and
dealing with conflicts of interest is complex
and difficult, and our reputation could be
damaged and the willingness of clients to
enter into transactions in which such a
conflict might arise may be affected if we
fail, or appear to fail, to identify and deal
appropriately with conflicts of interest. In
addition, potential or perceived conflicts could
give rise to litigation or enforcement
actions.”40
39. These types of general statements regarding the
risks of conflicts and the company’s intended approach
to the management of conflicts are commonly found in
the Form 10-K filings of financial services companies.
I discuss the pervasiveness of these statements in
more detail in Section VI below.
39

“How to Read a 10-K,” (http://www.sec.gov/answers/reada
10k.htm). The SEC made Risk Factors section a requirement in
2005. See, e.g., “Report on Review of Disclosure Requirements in
Regulation S-K,” (https://www.sec.gov/news/studies/2013/reg-skdisclosure-requirements-review.pdf).
40

Goldman 2007 Form 10-K, p. 28.

596
40. As I also discuss in more detail below, I am not
aware of any type of investor that could reasonably
consider these types of statements as containing
information that could be pertinent to their
investment decision-making process.
VI. General
statements
in
company
communications regarding a company’s
business principles, the importance of its
reputation and client franchise, and those
regarding a company’s management of
conflicts of interest do not affect the value of
a company’s stock, and therefore do not
contain information that can be used in
investment decision-making
41. Based on my education, academic research on
investments, and years of investment management
experience, equity investors do not consider general
statements included in company communications
on broad topics, such as the Business Principles
Statements and Conflict Controls Statements at issue
in this case, to provide pertinent information for their
investment decision-making process. Such general
statements do not provide information that bears
on a company’s future financial performance or
value. Statements such as the Business Principles
Statements and Conflict Controls Statements are also
too general to convey anything precise or meaningful,
cannot be viewed by investors as assurances of a
particular outcome and, in some cases, are nothing
more than truisms. Even one of the Lead Plaintiffs
described the statements at issue as “fairly generic.”41

41

See, e.g., Deposition of H. Craig Slaughter, March 12, 2015,
11:2–11:12, 261:18–262:20; Complaint, Introduction.

597
42. For example, companies are naturally
concerned with establishing a good reputation and
protecting it. As such, company statements about the
importance of reputation—such as “reputation is
one of our most important assets”—are truisms for
all companies regardless of whether a company
publicly makes such general statements in its
communications. I would expect that companies other
than Goldman would have also made similar
statements regarding the importance of their
reputations. Indeed, I identified a number of these
statements in public communications by companies in
a variety of industries. For example:


American Express Company 2008 Form 10-K:
“Our brand and reputation are key assets of
our Company.”42



The Boeing Company 2009 Annual Report:
“Our . . . reputation and experience are among
this company’s strongest advantages.”43



The Coca-Cola Company 2008 Form 10-K: “If
we are unable to maintain our brand image
and corporate reputation, our business may
suffer. Our success depends on our ability to
maintain brand image for our existing
products and effectively build up brand image
for new products and brand extensions.”44

42

American Express Company Form 10-K for the fiscal year
ended December 31, 2008, p. 73.
43

The Boeing Company Annual Report for the fiscal year
ended December 31, 2009, p. 5.
44

The Coca-Cola Company Form 10-K for the fiscal year ended
December 31, 2008, p. 18.

598


FedEx Corporation 2009 Form 10-K: “Our
businesses depend on our strong reputation
and the value of the FedEx brand.”45



Morgan Stanley 2006 Form 10-K: “Our
reputation is one of our most important
assets.”46



Target Corporation 2009 Form 10-K: “Our
continued success is substantially dependent
on . . . the reputation we have built over many
years . . ..”47

• UBS AG 2009 Annual Report: “Our reputation
is our most valuable asset . . ..”48
43. Further, in my experience, investors are aware
of companies’ general concern regarding harm to their
reputation and the impact it could have on their
business, regardless of whether the companies have
made statements to that effect. Inclusion of a
statement about the importance of a company’s
reputation in an annual report or in an executive’s
comments on the firm therefore would not convey new
or substantive information to which an investor could
react. In addition, in my experience, the term
“reputational harm” is commonly used by companies
and understood by investors to describe potential
or actual damage to a corporate brand due to the
45

FedEx Corporation Form 10-K for the fiscal year ended May
31, 2009, p. 82.
46

Morgan Stanley Form 10-K for the fiscal year ended
November 30, 2006, p. 20.
47

Target Corporation Form 10-K for the fiscal year ended
January 30, 2010, p. 4.
48

UBS AG Annual Report for the fiscal year ended December
31, 2009, p. 11.

599
corporation’s association with a negative event or
news story. This term is used irrespective of whether
the company has made prior statements about the
importance of its reputation.
44. The general statements at issue in this matter
are pervasive in company communications, and given
their lack of specific information, in my experience,
investors do not identify differentiable content in
these statements on which to base investment
decisions, or rely on them at all during the investment
decision-making process. In Exhibits 6 and 7, I present
numerous examples of these statements.
45. Specifically, in Exhibit 6, I provide a list of
statements similar to the Business Principles
Statements made by various companies during the
Class Period. To determine how common it is for
companies to include these types of statements in
company communications, I looked at statements in
publicly available documents of the three largest
constituent firms in each of the S&P 500 Sector
Indices, as well as statements in publicly available
documents of the companies in indices analyzed by Dr.
Finnerty (i.e., The Bear Stearns Companies, Inc., The
Charles Schwab Corporation, Citigroup Inc., E*Trade
Financial Corporation, JPMorgan Chase & Co.,
Lehman Brothers Holdings Inc., Merrill Lynch &
Company, Inc., and Morgan Stanley).49 I found that

49

The sectors covered by the S&P 500 Sector Indices are:
Consumer Discretionary, Consumer Staples, Energy, Financials,
Health Care, Industrials, Materials, Technology, and Utilities.
Dr. Finnerty examines two indices, including the S&P 500
Investment Banking & Brokerage Sub Industry Index and what
Dr. Finnerty deems “Goldman’s Core Competitors” as identified
in Goldman’s 2008 proxy statement dated March 7, 2008. See

600
every company I examined made public statements
analogous to the Business Principles Statements. For
example:


3M Company Code of Conduct: “3M’s excellent
reputation defines who we are as a company.
At the same time it strengthens our
competitive position in the global marketplace.
It is imperative that each of us remains fully
committed to upholding and advancing 3M’s
reputation, in every decision we make, and in
every action we take . . . . Our personal
integrity, our shared values and our ethical
business practices form the basis of 3M’s
reputation around the world.”50



Apple Inc. 2010 Form 10-K: “Apple’s success is
based on creating innovative, high-quality
products and services and on demonstrating
integrity in every business interaction. Apple’s
principles of business conduct define the way
we do business worldwide. These principles
are:


Honesty. Demonstrate honesty and high
ethical standards in all business dealings.



Respect. Treat customers, suppliers,
employees, and others with respect and
courtesy.

Declaration of John D. Finnerty, Ph.D., filed January 30, 2015
(“Finnerty Class Cert Declaration”), Appendix C-1.
50

“Our Code of Conduct: Being 3M,” (http://solutions.3m.
com/wps/portal/3M/en_US/businessconduct/bcmain/policy/princi
ples/).

601


Confidentiality. Protect the confidentiality
of Apple’s information and the information
of our customers, suppliers and employees.



Compliance.
Ensure
that
business
decisions comply with all applicable laws
and regulations.”51



The Dow Chemical Company 2009 Annual
Report: “At Dow, we believe our success
depends on maintaining the highest ethical
and moral standards everywhere we operate.
That focus on integrity starts at the top.”52



The Walt Disney Company Standards of
Business Conduct: “One of our greatest assets
is our reputation. We’re known for operating
with high ethical standards everywhere we do
business.”53

46. In addition, in Exhibit 7, I provide a list of
statements similar to the Conflict Controls
Statements made by companies in the same sector as
Goldman during the Class Period. Specifically, I
looked at statements in publicly available documents
of companies in indices analyzed by Dr. Finnerty.54 I
found that every company I examined made public
statements analogous to the Conflict Controls
Statements. For example:
51

Apple Inc. Form 10-K for the fiscal year ended September
25, 2010, Exhibit 14.1.
52

The Dow Chemical Company Annual Report for the fiscal
year ended December 31, 2009, p. 9.
53

“The Walt Disney Company and Affiliated Companies
Standards of Business Conduct,” (http://cdn.media.ir.thewalt
disneycompany.com/forms/DIS-SBC-CM.pdf).
54

See Finnerty Class Cert Declaration, Appendix C-1.

602

55



JPMorgan Chase & Co. 2006 Form 10-K: “If
JPMorgan Chase does not successfully handle
issues that may arise in the conduct of its
business and operations, its reputation could
be damaged which could in turn negatively
affect its business. The Firm’s ability to attract
and retain customers and transact with its
counterparties could be adversely affected to
the extent its reputation is damaged. The
failure of the Firm to deal, or to appear to fail
to deal, with various issues that could give rise
to reputational risk could cause harm to the
Firm and its business prospects. These
include, but are not limited to, appropriately
dealing with potential conflicts of interest,
legal and regulatory requirements, ethical
issues, money-laundering, privacy, recordkeeping, sales and trading practices, and the
proper identification of the legal, reputational,
credit, liquidity and market risks inherent in
its products.”55



JPMorgan Chase & Co. 2007 Form 10-K: “The
Firm could suffer significant reputational
harm if the Firm acts when it has, or is thought
to have, conflicts of interest. . . . Management
of potential conflicts of interest has become
increasingly complex as the Firm expands its
activities among its numerous transactions,
obligations, holdings and clients. Therefore,
there can be no assurance that conflicts of

JPMorgan Chase & Co. Form 10-K for the fiscal year ended
December 31, 2006, p. 5.

603
interest will not arise in the future that could
cause material harm to the Firm.”56


Merrill Lynch & Company, Inc. 2008 Form 10K: “Our ability to attract and retain clients and
employees could be adversely impacted to the
extent our reputation is damaged. Our actual
or perceived failure to address various issues
could give rise to reputational risk that could
harm us or our business prospects. These
issues include but are not limited to,
appropriately addressing potential conflicts of
interest; legal and regulatory requirements;
ethical issues; money-laundering; privacy;
properly maintaining customer and associate
personal information; record keeping; sales
and trading practices; and the proper
identification of the legal, reputational, credit,
liquidity and market risks inherent in our
products.”57



Merrill Lynch & Company, Inc. 2010 Form 10K: “We could suffer significant reputational
harm if we fail to properly identify and manage
potential conflicts of interest. Management of
potential conflicts of interests has become
increasingly complex as we expand our
business activities through more numerous
transactions, obligations and interests with
and among our clients. The failure to
adequately address, or the perceived failure to
adequately address, conflicts of interest could

56

JPMorgan Chase & Co. Form 10-K for the fiscal year ended
December 31, 2007, pp. 5–6.
57

Merrill Lynch & Company, Inc. Form 10-K for the fiscal year
ended December 26, 2008, p. 12.

604
affect the willingness of clients to deal with us,
or give rise to litigation or enforcement actions,
which could adversely affect our businesses.”58


Morgan Stanley 2007 Form 10-K: “Our
reputation is one of our most important assets.
As we have expanded the scope of our
businesses and our client base, we increasingly
have to address potential conflicts of interest.
. . . We have procedures and controls that are
designed to address various conflicts of
interest. However, identifying and managing
potential conflicts of interest can be complex
and difficult and our reputation could be
damaged if we fail, or appear to fail, to deal
appropriately with conflicts of interest. . . .
[P]otential or perceived conflicts could give rise
to litigation or enforcement actions.”59

47. The statements I identify in Exhibits 6 and 7,
like the statements at issue in this case, are general in
nature, and, in my experience, do not provide any
specific information that an investor—regardless of
investor type—could reasonably use in making an
investment decision. In addition, the prevalence of
these kinds of general statements in company
communications is indicative of their lack of
information content for investors in determining the
future financial performance or value of a company.
Based on my knowledge and experience of the
investment decision-making process, the Business
Principles Statements or Conflict Controls Statements
58

Merrill Lynch & Company, Inc. Form 10-K for the fiscal year
ended December 31, 2010, p. 17.
59

Morgan Stanley Form 10-K for the fiscal year ended
November 30, 2007, p. 18.

605
and analogous statements made by other companies
do not contain information pertinent to the investment
decision-making process and I would not expect
investors to rely on them.
VII. My analysis of analyst reports that
included discussions of Goldman Sachs
during the Class Period shows that the
Business
Principles
Statements
and
Conflict Controls Statements were not
discussed by analysts, which further
reflects that they did not contain
information that could be used in an
investment decision-making process
48. Equity analysts are widely known as
information intermediaries between companies and
investors, delivering significant information from the
companies to investors as well as expanding on this
information. Further, sell-side analysts are paid by
investors (either directly or indirectly) to be their
information intermediaries. Thus, the content of
analysts’ reports provides a useful measure of the
information that investors would deem most
significant to the investment decision-making process.
For a company that is broadly followed by analysts,
such as Goldman Sachs, important events and
statements made by management that analysts (and,
by implication, investors) believe to be significant to
the future of a firm are usually included in analyst
reports. I understand that Dr. Finnerty has similarly
recognized that information that is most significant to
investors is typically captured in analyst reports.60
Thus, reviewing analyst reports published during the
60

Deposition of John D. Finnerty, March 19, 2015, 101:3–
102:20.

606
Class Period allows me to assess the types of
information most significant to investors at the time.
In particular, a review of analyst reports during the
Class Period provides a method to examine whether
the Business Principles Statements and Conflict
Controls Statements were among the issues that
analysts and investors considered significant in this
time frame.
49. Based on professional standards and common
industry practices, in the process of evaluating a stock
and making investment recommendations, analysts
are required to engage in rigorous analysis and
identify and utilize various sources of information. For
instance, in the United States, the Financial Industry
Regulatory Authority (“FINRA”)—an independent
self-regulatory organization—oversees the securities
industry, including the activity of equity analysts in
brokerage firms.61 According to FINRA rules, “[a]n
associated person who is primarily responsible for the
preparation of the substance of a research report or
whose name appears on a research report” must pass
the Series 86/87 Research Analyst Examination and
register as a research analyst with FINRA.62 This
61

“About
FINRA,”
(http://www.finra.org/about);
“SelfRegulatory Organization Rulemaking,” (http://www.sec.gov/
rules/sro.shtml).
62

“Research Analyst Qualification Exam (Series 86/87)
Content Outline,” (http://www finra.org/sites/default/files/Indus
try/p006473.pdf); “Qualifications Frequently Asked Questions
(FAQ) – Research Analysts,” (http://www.finra.org/Industry/
Compliance/Registration/QualificationsExams/Qualifications/fa
q/p011105). Analysts who have passed the Chartered Financial
Analyst Level I and Level II exams may request an exemption
from the FINRA Series 86 Research Analyst Exam (Part 1:
Analysis). See “Qualifications Frequently Asked Questions (FAQ)
– Research Analysts,” (http://www.finra.org/Industry/Compli

607
exam covers a wide variety of topics regarding
analysts’ critical job functions of information
gathering and data collection, analysis, modeling
and valuation, preparation of research reports, and
dissemination of information. In particular, FINRA
identifies an important aspect of the analysts’ duties
as assessing “the relevance and importance of the
information gathered to identify the drivers that
influence the performance of the industry and/or the
subject company.”63
50. Analysts often hold the Chartered Financial
Analyst (“CFA”) credential, which refers to a
standardized and widely recognized curriculum and
testing regimen “connecting academic theory with
current practice and ethical and professional
standards to provide a strong foundation of
advanced investment analysis and real-world portfolio
management skills.”64 In addition to the technical and
quantitative demands of the CFA credential, analysts
with CFA designations are also required to follow the
guidelines and best practices identified in the CFA
Institute’s Ethical and Professional Standards and
ance/Registration/QualificationsExams/Qualifications/faq/p0111
05).
63

“Research Analyst Qualification Exam (Series 86/87)
Content Outline,” (http://www finra.org/sites/default/files/Indus
try/p006473.pdf).
64

“CFA® Program,” (http://www.cfainstitute.org/programs/cfa
program/Pages/index.aspx). To become a CFA charterholder, one
must pass a series of formal, standardized tests—referred to as
Level I, Level II, and Level III—as well as have a minimum of
four years of “qualified work experience in investment decision
making,” and “[a]gree to follow the CFA Institute Code of Ethics
and Standards of Professional Conduct.” See “Become a CFA
Charterholder,” (http://www.cfainstitute.org/programs/cfaprogra
m/charterholder/Pages/index.aspx).

608
Quantitative Methods on investment analysis and
to support their investment analysis and
recommendations by appropriate research and
investigation.65
51. Academic research into analyst reports has also
shown what analysts rely upon and what their reports
contain. Previts et al. (1994) conducted a content
analysis of analyst reports and found that income
statement and performance-related discussions
dominated analysts’ reports.66 The authors also
examined the nonfinancial information in the analyst
reports and found that market share, competitive
position,
industry
and
economic
conditions,
competitors’ capabilities, products, the nature and
recent history of the company, its products, product
pricing, customers, suppliers, industry, the national
and international economy, and the company’s
competitive position were included among the subjects
covered in the analyst reports.67 Further, the authors
found that analysts considered and discussed the
quality of company management and strategy:
“Analysts also extensively disclose and evaluate
corporate and management strategy (revenue growth,
cost management, marketing strategy, competitive
65

CFA Institute (2007), Ethical and Professional Standards
and Quantitative Methods, Boston, MA: Pearson Custom
Publishing, pp. 79–88.
66

Previts, G. J., R. J. Bricker, T. R. Robinson, and S. J. Young
(1994), “A Content Analysis of Sell-Side Financial Analyst
Company Reports,” Accounting Horizons, Vol. 8, No. 2, pp. 55–70,
at p. 59.
67

Previts, G. J., R. J. Bricker, T. R. Robinson, and S. J. Young
(1994), “A Content Analysis of Sell-Side Financial Analyst
Company Reports,” Accounting Horizons, Vol. 8, No. 2, pp. 55–70,
at p. 65.

609
positioning, etc.).”68 Another content analysis study of
analyst reports concluded that the central themes of
analyst reports can be categorized as growth,
management and strategy, profitability, financial
position and market conditions.69
52. I undertook an examination of analyst reports
during the Class Period to understand the issues of
importance to analysts during this period. In doing so,
I have used 880 reports on Goldman that were
previously employed in connection with the expert
report that Charles Porten (“Mr. Porten”) submitted
during the class certification stage of this matter.70 I
68

Previts, G. J., R. J. Bricker, T. R. Robinson, and S. J. Young
(1994), “A Content Analysis of Sell-Side Financial Analyst
Company Reports,” Accounting Horizons, Vol. 8, No. 2, pp. 55–70,
at p. 65.
69

Breton, G., and R. J. Taffler (2001), “Accounting Information
and Analyst Stock Recommendation Decisions: A Content
Analysis Approach,” Accounting and Business Research, Vol. 31,
No. 2, pp. 91–101, at p. 95.
70

Declaration of Charles Porten, CFA, filed on April 6, 2015
(“Porten Declaration”), pp. 9–10. The time frame covered by the
analyst reports is the beginning of the Class Period (February 5,
2007) through two weeks after the end of the Class Period (i.e.,
through and including June 24, 2010). Mr. Porten’s declaration
identified 884 reports, rather than 880; however, I identified
three reports relating to other companies and another report that
was duplicative of a report already included in the set of analyst
reports. I excluded these reports, namely: “Q1/08 in Line.
Analyzing Potential December Performance Fees,” RBC Capital
Markets, November 9, 2007, “Union Pacific Corp.: 3Q Earnings –
on Track,” Bank of America Merrill Lynch, October 22, 2009,
“Union Pacific Corp.: 4Q Beats, Volumes Weak But FCF Solid,”
Bank of America Merrill Lynch, January 21, 2010, and “Goldman
Sachs Group: Ceasing Coverage,” Macquarie, June 9, 2010. See
Porten Declaration, Exhibit 3. A complete list of the analyst
reports I reviewed is provided in Exhibit 3.

610
have reviewed and checked the methodology used to
identify these reports and find this collection
methodology to be reliable.71
53. In my examination, I found that, consistent with
my experience and with the academic literature, the
analyst reports on Goldman during the relevant time
period focused on all or parts of the main themes
detailed above: growth, management and strategy,
71

The 880 analyst reports were compiled based on reports that
were available through two publicly available databases
commonly used by academics and the investment community:
S&P Capital IQ and Thomson Reuters. I also understand that Mr.
Porten made a request to Goldman Sachs to provide any
additional reports it possessed, and those analyst reports were
also included. Contributors that published only a single report
during the roughly three-and-a-half-year Class Period as well as
the contributors that published quantitative or technical reports
(i.e., reports devoid of commentary on company performance or
investment recommendations) were excluded. The excluded
contributors are: Abaxbank, AIG, Ativo Research, Black Box
Investing, Inc., Bloom, Corporate Technology Information
Services, Inc., Covalence SA, Datamonitor, Disclosure Insight,
Inc., Dolmen Securities, Dnb Markets, Fact Set, Financiele
Diensten Amsterdam, Fitch Ratings, Ford Equity Research, Inc.,
Global Markets Direct, Globaldata, Governancemetrics
International, Hi Investment & Securities, Howe Barnes Hoefer
and Arnett Inc., IBISWorld, Institutional Shareholder Services,
Market Edge, Marketline, Medtrack Research, Nab Sydney,
National Australia Bank Limited, New Constructs LLC, News
Bites Pty Limited, Nomura Securities, Optionsmart.com, Plunkett
Research, Pricetarget Research, Inc., Rapid Ratings, Reese Group
LLC, RiskMetrics Group, S&P Equity Research, Sadif-Investment
Analytics S.A., Stock Traders Daily, Susquehanna Financial
Group, Tabb Group, Inc., Taurus Investment & Securities Co.,
Thomson Reuters (Stock Activity Reports and Thomson
StreetEvents), Trucost Plc, Unicredit Research, Validea,
Valuengine, Inc., W Ratings Corporation, Wall Street Strategies,
Wall Street Transcript, Weiss Ratings, Inc., and Zacks Investment
Research. See Porten Declaration, pp. 9–10.

611
profitability, financial position, and market
conditions. Beyond examining the information
indicated to be important to analysts, I also considered
whether the alleged misstatements were included as
part of this information. If analysts had found the
Business Principles Statements or Conflict Controls
Statements important to their analysis of Goldman’s
stock, I would expect to observe at least some analyst
discussion related to these statements during the
Class Period.
54. I found that during the Class Period prior to the
alleged corrective disclosure dates, the analysts
reporting on Goldman’s stock did not mention or refer
to the statements identified as misstatements by
Plaintiffs (i.e., Business Principles Statements or
Conflict Controls Statements). This further supports
my opinion that these types of statements did not
contain pertinent information that could be used in
an investment decision-making process when
determining Goldman’s financial performance or the
valuation of its stock.
55. I also found that on or around the time of the
four alleged corrective disclosure dates and until the
end of the Class Period, analysts again focused on all
or part of the major themes, consistent with my
experience and academic findings. Further, analysts
did not refer to or mention the Business Principles
Statements or Conflict Controls Statements. If
analysts had found the Business Principles
Statements or Conflict Controls Statements to be
information that was important to their analysis, and
if they had incorporated this information into their
evaluations of Goldman’s stock, I would have expected
to find some analyst discussion related to these
statements when the misstatements were allegedly

612
corrected. However, I found that these analyst reports
discussed the SEC enforcement action and other
enforcement activities, including their potential
outcome and their anticipated effects on Goldman’s
businesses. The analyst reports did not attribute the
enforcement activities to the statements at issue in
this litigation, and the statements at issue were not
addressed in any of the analyst reports in this time
frame. This further supports my opinion that the
statements at issue in this matter did not contain
information that could be pertinent to an investment
decision-making process or to Goldman’s future
financial performance and value.
A. Analysts did not address the Business
Principles
Statements
or
Conflict
Controls Statements prior to the alleged
corrective disclosure dates
56. The Cornerstone Research team, under my
direction, and I reviewed in their entirety 813 analyst
reports on Goldman issued between February 7, 2007
and April 15, 2010.72 If the Business Principles
Statements or Conflict Controls Statements were
important or pertinent to the analysts’ evaluation of
Goldman’s stock during this time frame, I would have
expected to find at least some analyst discussion that
mentions these statements. I found none.

72

Plaintiffs allege that on April 16, 2010, April 26, 2010, April
30, 2010, and June 10, 2010, the Business Principles Statements
and Conflict Controls Statements were revealed to be false. See
Complaint, ¶¶ 2, 5, 6, 147, 333–335. In this section, I discuss the
analyst reports on Goldman published from February 5, 2007
through April 15, 2010. I discuss the analyst reports issued on or
after April 16, 2010 in Section VII.B.

613
57. Instead I found that, consistent with the types
of information that analysts and equity investors
typically consider, when evaluating Goldman’s stock,
analysts discussed information and matters pertinent
to the company’s future financial performance and
valuation of its stock. That is, consistent with previous
academic research and my experience, analysts
focused on the themes of growth, management and
strategy, profitability, financial position, and market
conditions. I found frequent analyst discussion of
Goldman’s performance in each of these areas. For
example, following Goldman’s better-than-expected
first quarter 2007 earnings results, analysts
commented specifically on the company’s growth,
positioning in sector, profitability, management and
strategy, as follows:

73



“Results were again better than forecast.
Positioning and profitability—ROE [return on
equity] and profit margins—are best in class,
that’s driving double-digit book value growth
and supporting our recommendation of the
stock.”73 (Credit Suisse, March 13, 2007)



“[Goldman] set another record with its firstquarter results. What’s more, it was no single
business within [Goldman] that contributed to
its outperformance, rather, it was every
business that delivered a staggering 38% ROE
and $3.2 billion in net income. As if that wasn’t
enough, [Goldman] increased its market share
of global announced M&A deals to 40% up from
33% for most of last year. So [Goldman] is
basically in almost 1 out of every 2 deals that

“Goldman Sachs Group, Inc.: First Impressions,” Credit
Suisse, March 13, 2007.

614
is announced world-wide and CFO David
Viniar said that the company’s backlog has not
been better since 2000, the last record set.”74
(CIBC World Markets, March 13, 2007)


“Qualitatively, we believe [Goldman] deserves
a premium multiple versus its broker peers
given its: Premier investment banking
franchise; Impressive (but underappreciated)
asset management and securities services
segment; Extremely profitable (and growing)
trading and principal investments business;
Solid operating leverage; Best positioned
global franchise; and Flexibility in capital
management (generating a best-in-class
ROE).”75 (Bear Stearns & Co., March 13, 2007)

58. I also found that analysts had widespread
discussions of Goldman’s competitive positioning and
market conditions and their impacts on Goldman’s
future business prospects. For example:


“In our mind, these results are, without
question, strong and should be a standout
relative to peers and reflective of the scale
and scope of this global platform across
geographies (50% of revenues this quarter
were international), businesses and product,
and the company can and will weather ‘storms’

74

“Goldman Sachs Group: ‘Catch Me If You Can’: GS 1Q07
Results Sets New Bar for Peers,” CIBC World Markets, March 13,
2007.
75

“The Goldman Sachs Group, Inc.: Another Strong Quarter
- - 1Q07 Results,” Bear Stearns & Co., March 13, 2007.

615
in relatively good shape.”76 (Keefe, Bruyette &
Woods, March 14, 2007)


“[Goldman] remains best positioned among
the brokers given its business mix (more of
what’s growing and less of what’s slowing),
geographic footprint, backlog of principal
investments, and strong risk culture. . . . While
the stock is not cheap, we think investors will
want to own the best of the breed in broker
land in terms of mix and risk mgmt, and
Goldman’s ROEs should remain at a healthy
premium versus the group, so we reiterate our
Buy rating.”77 (UBS Securities, November 5,
2007)



“Best-positioned global player in high-margin
investment banking businesses, in our view,
with a well-diversified mix of businesses
(across products and geographies), including
size and breadth of fixed income sales and
trading businesses. We believe valuation
already discounts the company’s premium
franchise value and the current capital
markets environment.”78 (Bank of America,
September 10, 2008)



“We reaffirm our Accumulate rating and $170
price target on [Goldman] given our view that

76

“Goldman Sachs Group, Inc.: GS: Record Revenues and
Broad Business Mix Drive GS’s Record 1Q EPS,” Keefe, Bruyette
& Woods, March 14, 2007.
77

“Goldman Sachs: It’s Good to Be Goldman,” UBS Securities,
November 5, 2007.
78

“The Goldman Sachs Group, Inc.: Wash, Rinse, Repeat.
Cutting Numbers Again on Cyclical Challenges; Maintain
Neutral,” Bank of America, September 10, 2008.

616
the company is the most levered to the
improving capital markets environment and is
well positioned to gain market share globally
across most business lines.”79 (Buckingham
Research Group, June 19, 2009)
59. In addition, in the Goldman analyst reports, I
found that analysts discussed prospects for the
financial services industry as a whole, including
trends in regulatory oversight on financial services
companies. In particular, with the onset of the
financial crisis, in 2008 and later, the analysts had
extended discussions on the expected impact of the
evolving U.S. subprime mortgage crisis on the sector.
For example:


79

“Bear Stearns, Goldman Sachs, Lehman
Brothers and Morgan Stanley are expected
to report their Q1 ’08 earning results in midMarch. As in H2 ’07, Fixed Income Sale &
Trading [sic] results will be the center of
investor concern this quarter. Market
conditions remained challenging through
February as troubles spread through a variety
of areas within the fixed income market. We
saw deterioration in the leveraged lending and
commercial real estate markets as well as
problems in auction rate securities and further
SIV [structured investment vehicle] defaults.
These setbacks should lead to further
writedowns from the group this quarter. . . .
We are lowering Q1 ’08 EPS estimates for . . .

“Securities Brokers: 2Q09 Preview: Capital Markets Trends
Positive; Non-Operating Items Negative,” The Buckingham
Research Group, June 19, 2009.

617
[Goldman] to $3.03 from $5.46 . . . .”80
(Bernstein Research, February 22, 2008)


“Business in a word has been ‘lousy’ in the
third fiscal quarter (ended August 31). There
has been no vitality in the investment banking
sector. Trading activity has suffered in
virtually every area. Private equity activity
has been weak. The credit derivatives market
has slowed. Prime brokerage is not doing well.
Retail commissions are suffering. Plus, and
most importantly for Goldman, the equity
markets have done poorly. This hurts every
aspect of the business. This is because even
though Goldman is a diversified firm, its main
business continues to be equity related
activities. This includes underwriting, trading,
and proprietary investments. While I continue
to believe that there is simply no better firm on
the street than this one, even this one cannot
escape the problems in its key markets.”81
(Ladenburg Thalmann, September 9, 2008)



“We are updating estimates based on trends
quarter-to-date for 4Q09 and our recently
completed fixed income trading outlook for
2010 . . . . Our analysis points to a substantial
decline in FICC [fixed income, currencies, and
commodities] trading in 4Q09, and then we are
looking for industry fixed income trading to
fall 15-20% in 2010. We expect 2011 revenues
to also be under pressure due to the impact of

80

“U.S. Securities Industry: Lowering Q1
Forecasts,” Bernstein Research, February 22, 2008.
81

“Goldman Sachs (GS):
Thalmann, September 9, 2008.

Tough

Times,”

2008

EPS

Ladenburg

618
regulatory reform, which we see negatively
impacting FICC revenue growth by 5-10% in
2011. . . . We are reducing our 4Q09 estimate
for [Goldman] by $0.25 to $5.25 (vs. consensus
of $5.34) as more conservative revenue
estimates are offset by lower [compensation]
expense.”82
(Citigroup
Global
Markets,
January 7, 2010)


“Facing the threat of the ‘Volcker Rule,’ higher
Basel III capital charges, lower leverage,
mandated liquidity pools, a new financial
responsibility fee and new resolution
authorities for the US systemic regulator,
many investors are understandably reluctant
to invest in capital markets focused banks
and bank holding companies. Indeed, the
uncertainty associated with these issues has
weighed especially on the valuation of shares
of Goldman Sachs, which arguably has the
most to lose in any regulatory scenario that
would materially alter the business model of
Wall Street’s large institutional firms.”83
(Bernstein Research, March 10, 2010)

60. In sum, my analysis of analyst research reports
on Goldman’s stock prior to the alleged corrective
disclosure dates (i.e., from February 5, 2007 through
April 15, 2010) shows no indication that analysts
considered or relied on the Business Principles
Statements or Conflict Controls Statements in their
82

“U.S. Banks: GS, MS, JPM, BAC Estimate Changes,”
Citigroup Global Markets, January 7, 2010.
83

“Goldman Sachs: Regulation and Its Discontents –
Evaluating Fundamentals Under a New Regime,” Bernstein
Research, March 10, 2010.

619
evaluations of Goldman’s stock over this time
period. Instead, I found that the analysts considered
and relied on the themes consistent with the
prior academic research, and did not include any
discussions of the Business Principles Statements or
Conflict Controls Statements. That analysts did not
address these general statements about business
principles or conflicts controls further confirms my
opinion that these types of statements do not contain
information that could be pertinent to an investment
decision-making process.
B. Analysts did not address the Business
Principles
Statements
or
Conflict
Controls Statements on or after the
alleged corrective disclosure dates
61. Plaintiffs identify four dates—April 16, 2010,
April 26, 2010, April 30, 2010, and June 10, 2010—on
which they allege the Business Principles Statements
and Conflict Controls Statements were revealed to be
false.84 If the Business Principles Statements or
Conflict Controls Statements had been important to
analysts in their considerations of Goldman’s stock as
an investment, I would expect to observe analyst
discussions concerning these statements on or shortly
after the days the alleged corrections were made.
While I will specifically discuss analyst commentary
on and one week after each of Plaintiffs’ alleged
corrective disclosure dates, I found that the
statements at issue were not mentioned or referred to
in any of the analyst reports issued between April 16,
2010 (i.e., the first alleged corrective disclosure date)
and June 24, 2010 (i.e., two weeks after the end of the

84

Complaint, ¶¶ 2, 5, 6, 147, 333–335.

620
Class Period).85 I found that analyst reports discussed
the SEC enforcement action and other enforcement
activities in this time frame, including their potential
outcome and potential effects on Goldman’s
businesses, but did not attribute the enforcement
activities to the statements at issue in this litigation.
Analysts’ discussion of potential effects of the
SEC enforcement action in particular included
observations regarding reputational risks to Goldman.
However, none of the analysts’ comments (including
those discussing reputational risks) referenced
the statements at issue. Moreover, the analysts’
discussions on potential reputational risks stemming
from the SEC enforcement action were not based on
the alleged misstatements and in fact could have been
made regardless of whether the Business Principles
Statements and Conflict Controls Statements
had even been included in Defendants’ public
communications. Further, I find no indication that the
analysts’ discussions on potential reputational risks
were linked to the alleged misstatements.
1. April 16, 2010
62. Plaintiffs allege that the filing of securities
fraud charges against Goldman by the SEC on
April 16, 2010 “revealed that Goldman’s [sic] had
collaborated with a favored client to design a portfolio
of securities that would decline in value, and sold this
toxic portfolio to other Goldman clients.”86

85

The Cornerstone Research team, under my direction, and I
reviewed in their entirety 67 analyst reports on Goldman issued
between April 16, 2010 and June 24, 2010 (two weeks after the
end of the Class Period).
86

Complaint, ¶ 331.

621
63. In Exhibit 8, I provide selected excerpts that
reflect the main issues the analysts discussed in the
39 analyst reports published between April 16, 2010
and April 23, 2010 (i.e., the date of the first alleged
corrective disclosure date and one week thereafter). If
the analysts related the filing of the SEC fraud
charges against Goldman to the alleged falsity of the
Business Principles Statements or Conflict Controls
Statements, and if the statements at issue were
pertinent to an investment decision-making process,
I would expect that at a minimum those analysts
would have provided even a mention of the
Business Principles Statements or Conflict Controls
Statements. I found no such mentions or discussions
in any of the 39 analyst reports regardless of
whether the analysts revised their estimates or
recommendations.
64. I found that analysts again focused on the
themes research has shown are commonly included
in analyst reports: growth, management and
strategy, profitability, financial position, and market
conditions.87 The analysts discussed the SEC’s
securities fraud charges and their implications in the
context of these themes. Analysts also approached the
SEC’s charges from several different perspectives.
Some discussed the impact of the SEC enforcement
action on Goldman, including its reputation and its
business prospects while others discussed the impact
87

See ¶ 51 above. See also Previts, G. J., R. J. Bricker, T. R.
Robinson, and S. J. Young (1994), “A Content Analysis of SellSide Financial Analyst Company Reports,” Accounting Horizons,
Vol. 8, No. 2, pp. 55–70; Breton, G., and R. J. Taffler (2001),
“Accounting Information and Analyst Stock Recommendation
Decisions: A Content Analysis Approach,” Accounting and
Business Research, Vol. 31, No. 2, pp. 91–101.

622
of the SEC enforcement action on the financial
services sector as a whole and commented on what this
action could mean regarding the regulation of the
sector. Some examples follow:


“The SEC alleges that Goldman structured a
synthetic collateralized debt obligation (CDO)
structure that was based on subprime
mortgage securities that Goldman marketed
as being selected by an independent manager
. . . This action is a civil complaint, not a
criminal complaint, implying that downside is
a large monetary fine . . . Marketing/Disclosure
Issue with Limited Read Through . . . This is
the first time the SEC has brought a complaint
alleging fraud on the part of a broker dealer
in marketing investments on subprime
mortgages . . . [T]wo key issues for Goldman in
our view is [sic] reputational risk, and possible
follow on lawsuits related to this action . . .
Raising Risk Rating to High, Maintain Buy:
On a fundamental basis, we continue to see
very strong upside in the stock, but these
issues will take a while to resolve and will add
more headline risk to the story . . . . We view
[Goldman] as a well managed franchise and
believe its strong capital base and leading
global position in investment banking, capital
markets, trading, private equity and asset
management offer equity investors a unique
opportunity to gain exposure to long-term
global economic expansion . . . . Despite the
challenges facing the industry, we view
Goldman’s business model as sound and see
the firm winning considerable market share as

623
we exit the current down cycle.”88 (Citigroup
Global Markets, April 16, 2010)


“[T]he SEC charges . . . against [Goldman],
possible follow-on, and financial regulatory
reform [will] weigh on the stock and sector in
the near term; however, we think the loss of
~$13B in market cap . . . is an over-reaction,
our long-term view remains unchanged, and
we maintain our Buy rating, based on what we
see as attractive valuation, relative strong
positioning, and improving capital markets
trends.”89 (Deutsche Bank Securities, April 16,
2010)



“Typically, reputational damage, particularly
in the institutional context, is a paper tiger.
However, in this case, the response by the
media and Washington has been so severe,
that we believe management will want their
day in court to prove the firm’s innocence. As a
result, we may not see the typical settlement
but a trial. As for the direct financial impact,
the worst-case scenario is probably $1.10/sh or
6% of our 2010 estimate.”90 (Macquarie, April
19, 2010)



“We are maintaining our Outperform
recommendation on [Goldman] . . . due to: 1)
manageable financial impact if [Goldman]
loses the case . . . 2) [Goldman’s] share price

88

“Goldman Sachs Group, Inc.: Initial Thoughts on SEC Civil
Lawsuit,” Citigroup Global Markets, April 16, 2010.
89

“Goldman Sachs: SEC Charges GS,” Deutsche Bank
Securities, April 16, 2010.
90

“Goldman Sachs Group: Our Thoughts on the SEC’s Fraud
Claim,” Macquarie, April 19, 2010.

624
decline . . . appears outsized relative to the
‘likely worst case’ financial cost, suggesting
attractive return potential vs. its peers, 3) the
possibility the case may be settled at a
materially lower cost . . . and 4) our belief that
[Goldman’s] business opportunities will not
suffer meaningful detriment from the lawsuit.
We have not adjusted our EPS estimates for
2010 or 2011 . . . . [W]e believe those seeking
greater regulation of the financial services
sector – and the largest most diversified banks
in particular – could use the SEC’s allegations
as a catalyst for more stringent regulation of
the banks and capital markets activities. This
could have a negative effect on future revenue
generation capabilities for these institutions.”91 (Wells Fargo Securities, April 19, 2010)
65. The analyst discussion of the SEC’s securities
fraud charges against Goldman included some
references to terms such as “reputation” or the “client
franchise.”92 However, I found no indication that these
references related to the earlier general statements
at issue in this matter (i.e., Business Principles
Statements and Conflict Controls Statements).
Neither did I find any indication in analysts’
discussions that, in relation to the SEC enforcement
91

“The Goldman Sachs Group, Inc.: GS: Reputational Risks
Increased, But Valuation Still Attractive,” Wells Fargo Securities,
April 19, 2010.
92

See, e.g., “Goldman Sachs Group, Inc.: Initial Thoughts on
SEC Civil Lawsuit,” Citigroup Global Markets, April 16, 2010;
“Goldman Sachs Group: Our Thoughts on the SEC’s Fraud
Claim,” Macquarie, April 19, 2010; “Goldman Sachs: Solid
Quarter Overshadowed by Recent SEC Allegations,” Deutsche
Bank Securities, April 20, 2010.

625
action, analysts concluded that the earlier general
statements in this matter had been shown to be false.
66. Analysts also discussed Goldman’s strong
fundamentals, especially given the company’s
announcement on April 20, 2010 of its first quarter
2010 earnings, which exceeded analyst forecasts.
Some analysts commented that the strong results
were overshadowed by the SEC enforcement action.
For example:


“Goldman posted a tremendous quarter. . . .
Were it not for the SEC fraud complaint . . . we
think the stock would be materially higher
. . . .”93 (Oppenheimer & Co., April 20, 2010)



“[Goldman] continues to report strong currentperiod earnings, giving us confidence in 2010
earnings power. On the basis of 2010 ROE
(now 17%), the shares are not expensive at 1.3x
P/B. That said, we believe that the overhang of
the SEC charges and possible further
investigations both in the US and abroad are
now overhangs.”94 (Barclays Capital, April 21,
2010)



“[Goldman] had a strong Q1, posting $3.3bn
net profit on $12.8bn net revenues mainly
driven by trading ($10.2bn). The firm had a
record quarter in FICC ($7.4bn net revenues
i.e. + 90% qoq / + 14% yoy) on strong client
flows in credit, rates and forex. . . . The firm
achieved a 20% ROE with a 15.0% T1 ratio.

93

“Goldman Sachs Group: 1Q Review: Life is Not Fair,”
Oppenheimer & Co., April 20, 2010.
94

“Goldman Sachs Group Inc.: Strong Revs and Comp Ratio
Drive Beat,” Barclays Capital, April 21, 2010.

626
Results were overshadowed by the SEC
complaint and FSA [U.K. Financial Services
Authority] decision to initiate a formal
investigation.”95 (Societe Generale, April 21,
2010)
67. In sum, I found no reference to the Business
Principles Statements or Conflict Controls Statements
in any of these analyst reports. This further confirms
that analysts did not view the statements as
containing information pertinent to an investment
decision-making process or that the statements had
any bearing on any movements in Goldman’s stock
price on or around April 16, 2010. None of the analysts’
reports referenced the statements at issue. Moreover,
the analysts’ discussions on potential reputational
risks stemming from the SEC enforcement action
could have been stated regardless of whether the
Business Principles Statements and Conflict Controls
Statements had ever been made. In addition, I found
no indication that the analysts’ references to terms
such as “reputation” or the “client franchise” were in
any way references to the earlier general statements,
or to any conclusion that the earlier statements had
now been rendered false.
2. April 26, 2010
68. Plaintiffs allege that Goldman internal emails
released by the Senate Subcommittee on April 26,
2010 revealed “Goldman’s practice of betting against
the very securities it sold to its clients.”96

95

“Goldman Sachs: Blow-out Quarter Overshadowed by SEC
Complaint,” Societe Generale, April 21, 2010.
96

Complaint, ¶ 333.

627
69. I provide in Exhibit 9 selected excerpts from the
analyst reports published between April 26, 2010 and
April 29, 2010 that reflect the main issues the analysts
discussed.97 I identified and reviewed two analyst
reports (a Bank of America Merrill Lynch report
issued on April 26, 2010 and a Deutsche Bank
Securities report issued on April 26, 2010), neither
of which included revisions to the analysts’
recommendations.98 I found that the Deutsche Bank
Securities report, which was an industry report, did
not mention the email release at all.99 I found that the
Bank of America Merrill Lynch report discussed the
Senate Subcommittee release of Goldman internal
emails as well as Goldman’s own separate release of
emails.100
70. I found no reference to the Business Principles
Statements or Conflict Controls Statements in either
of these analyst reports. This further confirms that
analysts did not view the statements as containing
information pertinent to an investment decisionmaking process and that the statements had no
bearing on any movements in Goldman’s stock price
on or around April 26, 2010.

97

I limit the period after the April 26, 2010 alleged corrective
disclosure date to April 29, 2010 instead of a week after because
the next alleged corrective disclosure date is April 30, 2010.
98

“Goldman Sachs Group: GS Publishes New ‘07-08 MBS
E-mail, Data,” Bank of America Merrill Lynch, April 26, 2010;
“1Q Capital Market Trends: Stacking Up the Brokers and
Universal Banks,” Deutsche Bank Securities, April 26, 2010.
99

“1Q Capital Market Trends: Stacking Up the Brokers and
Universal Banks,” Deutsche Bank Securities, April 26, 2010.
100

“Goldman Sachs Group: GS Publishes New ‘07-08 MBS
E-mail, Data,” Bank of America Merrill Lynch, April 26, 2010.

628
3. April 30, 2010
71. Plaintiffs identify a Wall Street Journal article
published on April 30, 2010 that reported Goldman as
“the subject of a criminal investigation by the
Department of Justice” as “disclosure of . . . new
material information.”101
72. I provide in Exhibit 10 selected excerpts that
reflect the main issues the analysts discussed in the
11 analyst reports published between April 30, 2010
and May 7, 2010 (i.e., the date of the April 30, 2010
alleged corrective disclosure and one week thereafter).
If the analysts changed their opinions of Goldman’s
stock based on a potential U.S. Department of Justice
(“DOJ”) investigation because they realized that the
Business Principles Statements and Conflict Controls
Statements were false (i.e., if the statements at issue
were pertinent to the investment decision-making
process), I would expect that at a minimum those
analysts would provide discussions about the
Business Principles Statements and Conflict Controls
Statements or at least make some references to the
original statements having been allegedly misleading.
I found no such discussion in any of the 11 analyst
reports regardless of whether the analysts revised
their estimates or recommendations.
73. Again, the analysts focused on the common
themes I discussed in paragraph 51 above and
considered how a potential DOJ investigation could
affect Goldman in the context of these themes. In
particular, analysts commented on the reputational
and headline risks to Goldman stemming from a
potential DOJ investigation and the negative
101

Complaint, ¶ 334.

629
sentiment against Wall Street, and how these risks
could affect Goldman’s revenue and profitability
prospects, as well as those of the industry. They also
discussed the uncertainty about future regulation and
civil and criminal litigation against Goldman in light
of a potential DOJ investigation and the ongoing SEC
enforcement action. Some examples follow:

102



“We are lowering our rating on [Goldman] to
Neutral from Buy and our price objective to
$160 from $220. Our downgrade is prompted
by news reports filed Thursday evening by
the media including the Wall St. Journal
indicating that federal prosecutors have
opened an investigation of [Goldman] in
connection with its trading activities, raising
the possibility of criminal charges. . . . Most
such probes end inconclusively, with no
charges filed; and we continue to believe that
[Goldman] has long-term earnings power
beyond what is discounted in the share price.
. . . [Goldman] is arguably the most respected
inv. bank. . . .”102 (Bank of America Merrill
Lynch, April 30, 2010)



“Reluctantly, and despite strong fundamentals
and an attractive valuation, we are
downgrading [Goldman] shares to Neutral
from Buy given the significant uncertainty
surrounding
multiple
and
continued
government probes of [Goldman’s] mortgage
trading & underwriting operations. . . . There
is no doubt that [Goldman] has a top tier global

“Goldman Sachs: Cutting to Neutral: Concerns Over
Reports of Federal Probe,” Bank of America Merrill Lynch, April
30, 2010.

630
investment banking franchise with a history
and culture of strong risk management and
execution. . . . As a lightning rod for the
industry, [Goldman] is facing significant
political pressure.”103 (Buckingham Research,
April 30, 2010)


“Litigation remains a significant overhang on
stock [sic], but we continue to believe that
[Goldman] has among the most robust risk
[management] processes on the street and are
assigning a low probability of adverse outcome
from lawsuits beyond a monetary fine in our
target price. . . . Reputational risk could
damage Goldman’s franchise – While we do not
believe at this point Goldman’s institutional
client base has altered their business practices
at this point, Goldman’s reputation is one of
the firm’s greatest assets. To the extent clients
lose faith and either reduce or eliminate their
interactions with Goldman, it could have
significant detrimental effect across all of the
firm’s businesses.”104 (Citigroup Global
Markets, May 2, 2010)



“Admittedly, Goldman Sachs has incurred
reputation damage and may suffer client
fallout due to [the SEC action and DOJ
investigation concerning the Abacus CDO
transaction] - it is arguably difficult for a

103

“Goldman Sachs (GS): Downgrade to Neutral;
Litigation/Political Risk Too Difficult to Handicap,” Buckingham
Research, April 30, 2010.
104

“Goldman Sachs Group, Inc.: Reiterate Buy – Risks Are
There, But Still See Significant Upside,” Citigroup Global
Markets, May 2, 2010.

631
portfolio manager to buy or own [Goldman] in
an ERISA portfolio, a separately managed
account or in a mutual fund due to the current
public outrage against the firm. . . . However,
Goldman Sachs remains the world’s leading
M&A house . . ., the second largest equity
underwriter . . ., and the leading global fixed
income franchise that we believe will continue
to book solid trading performance through
2010. . . . There is substantial uncertainty
about future regulation, civil litigation and
client reputation concerning [Goldman’s]
stock, but Goldman remains Goldman, the
premier investment bank and trading house in
the world. We continue to believe the headlines
that pressure the stock provides a buying
opportunity for investors.”105 (Bernstein
Research, May 4, 2010)
74. I found no reference to the Business Principles
Statements or Conflict Controls Statements being
misleading in any of these analyst reports. Where
analysts have addressed reputation, it has only been
from the perspective of the truism that reputation is
important in this industry. The fact that Goldman’s
Business Principles also include this truism only
reflects that Goldman and the analysts recognize that
reputation is important in the industry. The lack of
discussion about the Business Principles Statements
or Conflict Controls Statements further indicates that
analysts did not view these statements as containing
information pertinent to an investment decisionmaking process and that the statements had no
105

“Goldman Sachs: Management Speaks Frankly About the
Future of the Firm,” Bernstein Research, May 4, 2010.

632
bearing on any movements in Goldman’s stock price
on or around April 30, 2010.
4. June 10, 2010
75. Plaintiffs identify reports on June 10, 2010 “that
the SEC was investigating whether in connection with
the Hudson CDO, Goldman profited by ridding itself
of mortgage backed securities and related CDO’s [sic]
on Goldman’s books that it knew were going to decline
by selling these securities to Goldman’s clients who
suffered billions in losses” as “disclosure of . . .new
material information.”106
76. I provide in Exhibit 11 selected excerpts that
reflect the main issues the analysts discussed in the
five analyst reports published between June 10, 2010
and June 17, 2010 (i.e., the date of the final alleged
corrective disclosure date and one week thereafter).107
If the analysts were concerned about the additional
SEC investigation because they realized that the
Business Principles Statements and Conflict Controls
Statements were false (i.e., if the statements at issue
were pertinent to the investment decision-making
process), I would expect that those analysts would
provide some type of discussion of the Business
Principles Statements and Conflict Controls
Statements. I found no such discussion in any of the
five analyst reports regardless of whether the analysts
revised their estimates or recommendations.

106
107

Complaint, ¶ 335.

One of these analyst reports was an announcement that the
firm was ceasing coverage of Goldman Sachs because the
research analyst assigned to cover the company had left the firm.
See “Goldman Sachs Group: Ceasing Coverage,” Macquarie, June
10, 2010.

633
77. Again, the analyst reports during this time
period focused on the common themes such as
expectations about revenues, profitability, Goldman’s
competitive position, and overall market conditions,
particularly the difficulties for the entire sector.108
Some analysts mentioned or discussed the headline
risks resulting from the additional SEC investigation
and its possible impact on those themes. Some
discussed the longer-term prospects for Goldman
despite near-term volatility, while others commented
on the difficult operating environment and the decline
in Goldman’s revenues. Some examples follow:

108
109



“Estimates cut on weak trading revenue [and]
UK bonus tax . . . The Q2 trading environment
is looking increasingly difficult. We have cut
our estimate of trading revenues . . .
Deteriorating
markets
and
increasing
uncertainty in Europe have also had a
meaningful impact on M&A and underwriting
activities.”109 (Atlantic Equities, June 10, 2010)



“Reiterating Outperform Rating Despite NearTerm Volatility . . . Reports of a second SEC
investigation caused [Goldman] to set a new
52-week low. . . .[Goldman] appears to have
been able to maintain its standing with clients
in the major investment banking categories.
. . . [Goldman’s] reduced competition, minimal
consumer exposure, and historically superior
risk control are currently overshadowed by
legal risks that remain uncertain. Longer-term
investors could benefit from the removal of

See ¶ 51 above.

“Goldman Sachs: Estimates Cut on Weak Trading Revenue
& UK Bonus Tax,” Atlantic Equities, June 10, 2010.

634
these risks, thereby resulting in premium
share price performance versus peers over
time.”110 (Wells Fargo Securities, June 10,
2010)


“Given the continued difficult operating
environment, we reduce our second quarter
estimate for [Goldman]. The drivers of our
estimate reduction are fairly broad-based:
weaker trading results, lower investment
banking revenues and less in the way of
principal investment gains. . . . Best-in-class
franchise with solid market positioning across
myriad businesses and strong balance sheet
. . . All in all, we believe opportunity for market
share stability/growth should help sustain
earnings and book value growth over the
course of the cycle. There’s no doubt
regulatory/litigation risk now represents a
greater risk to our constructive thesis.”111
(Credit Suisse, June 17, 2010)

78. Because I found no reference to the Business
Principles Statements or Conflict Controls Statements
in any of these analyst reports, I further conclude that
analysts did not view the statements as containing
information pertinent to an investment decisionmaking process and that the statements had no
bearing on any movements in Goldman’s stock price
on or around June 10, 2010.

110

“The Goldman Sachs Group, Inc.: GS: Reiterating
Outperform Rating Despite Near-Term Volatility,” Wells Fargo
Securities, June 10, 2010.
111

“Goldman Sachs Group, Inc.: Reducing Estimates on
Challenging Market Conditions,” Credit Suisse, June 17, 2010.

635
79. In sum, I found that the statements at issue
were not addressed in any of the analyst reports issued
at or around the time of the alleged corrective
disclosures. I found that, in this time frame, analyst
reports discussed the SEC enforcement action and
other enforcement activities, including their potential
outcome and potential effects on Goldman’s
businesses, but did not attribute the enforcement
activities as having any connection to the statements
at issue in this litigation. None of the analysts
referenced or linked their discussions or conclusions to
the statements at issue. This further confirms that the
Business Principles Statements and Conflict Controls
Statements, which were general in nature and typical
of statements made by companies in the financial
services and other sectors, contained no information
that could be utilized in an investment decisionmaking process.
VIII. Conclusion
80. The statements at issue in this matter are too
general to convey anything precise or meaningful,
cannot be viewed as assurances of a particular
outcome by investors and, in some cases, are nothing
more than truisms. Further, general statements of the
type at issue in this matter are commonly included in
company communications to investors, do not provide
information on the company’s future financial
performance and value, and based on my experience
and understanding, are not pertinent to investors in
making investment decisions. My analysis of analyst
reports on Goldman shows that analysts did not
discuss or mention the statements at issue in this
matter and there was no analyst discussion that
related the accuracy of the statements at issue to the
valuation or financial prospects of Goldman during the

636
Class Period. These findings further support that the
statements at issue could not have been utilized for
investment decision-making during the Class Period.

637
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
No. 1:10-cv-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
CLASS ACTION
JURY TRIAL DEMANDED
ECF CASE
————
REBUTTAL EXPERT REPORT OF
JOHN D. FINNERTY, Ph.D.
IN SUPPORT OF LOSS CAUSATION
AND DAMAGES
————

638
Table of Contents
I. Qualifications and Assignment .....................

1

II. Summary of Opinions ...................................

2

III. Background ...................................................

4

IV. Response to Dr. Gompers’s Criticisms
Regarding the Loss Causation Analysis
Conducted in the Finnerty Loss Causation
Report ............................................................

6

A. Dr. Gompers Incorrectly Contends that
I Failed to Establish Loss Causation .....

7

B. Dr. Gompers Incorrectly Concludes that
Information
Regarding
Goldman’s
Conflicts of Interest and Business
Principles Was Already Disclosed Prior
to the First Disclosure Date ...................

9

C. Two Additional News Articles Dr.
Gompers Reviewed Do Not Convey
Relevant Information ..............................

15

D. Dr. Gompers Incorrectly Argues that I
Did Not Link the Information Released
on the Alleged Corrective Disclosure
Dates to the Alleged Misstatements ......

18

E. Dr. Gompers Incorrectly Criticizes My
Loss Causation Analysis on the
Corrective Disclosure Dates ...................

20

i. April 16, 2010.....................................

22

ii. April 26, 2010.....................................

26

iii. April 30, 2010.....................................

27

iv. June 10, 2010 .....................................

28

639
V. Response to Dr. Gompers’s Criticisms
Regarding the Damages and Inflation per
Share Calculation Presented in the
Finnerty Loss Causation Report ..................

29

A. Damages Calculation in a Securities
Class Action .............................................

30

B. Dr. Gompers Criticises My Damages
Calculation Methodology with No Basis

32

VI. Response to Dr. Choi’s Opinions ..................

37

A. April 16, 2010 ..........................................

37

i. Dr. Choi’s Opinion Based on the
Academic Research Is Unfounded
Because His Research Sample is Not
Comparable to the SEC Enforcement
Action Announced on April 16, 2010

39

a. Dr. Choi Mistakenly Compares
Irrelevant SEC Enforcement
Actions to the SEC Enforcement
Action
Against
Goldman
Announced on April 16, 2010 .......

39

b. Dr. Choi Unscientifically Uses a
Simple Average of the Residual
Returns on the Four Companies’
Stocks and Attempts to Use This
Simple Average to Explain
Goldman’s Residual Return on
April 16, 2010 ...............................

41

ii. Dr. Choi Speculates Without Any
Basis that the Economic, Political,
and
Regulatory
Environment
Potentially
Contributed
to
Goldman’s Stock Price Decline..........

43

640
iii. Dr. Choi’s Arguments Regarding
Foreseeability and Predictability of
the SEC Enforcement Action ............

46

B. April 30, 2010 ..........................................

47

C. June 10, 2010 ..........................................

47

VII. Response to Dr. Starks’s Opinions ...............

49

641
I, John D. Finnerty, declare pursuant to 28 U.S.C.
§ 1746, as follows:
I. Qualifications and Assignment
1. I previously submitted an expert report in
support of loss causation and damages in connection
with this matter on May 22, 2015 (the “Finnerty Loss
Causation Report”).1 The scope of my assignment, my
qualifications, and other details related to my work in
this matter are set forth in the Finnerty Loss
Causation Report. Attached as Appendix A is an
updated copy of my current resume, which lists all
publications I have written or co-authored and
includes a brief description of my trial and deposition
testimony within at least the past four years.
AlixPartners continues to be compensated at a rate of
$1,020 per hour for my work on this matter. My
compensation is not contingent on my findings or on
the outcome of this matter. I have been assisted in the
preparation of this expert report by AlixPartners’s
staff working under my direction and supervision.
2. Labaton Sucharow LLP and Robbins Geller
Rudman & Dowd LLP, co-counsel for the Plaintiffs in
this matter (collectively “Counsel”), have asked me to
review and respond to the opinions proffered in the
Report of Paul A. Gompers, Ph.D., dated July 2, 2015
(the “Gompers Report”), the Report of Stephen Choi,
Ph.D., dated July 2, 2015 (the “Choi Report”), and the

1

I continue to use the same terms that were defined in the
Finnerty Loss Causation Report in this rebuttal report without
defining these terms again in the text of this report. I also
submitted a rebuttal declaration in support of Lead Plaintiffs’
motion for class certification on May 15, 2015 (the “Finnerty
Rebuttal Declaration”).

642
Report of Laura T. Starks, Ph.D., dated July 2, 2015
(the “Starks Report”).2
II. Summary of Opinions
3. I have reached the following opinions, after
conducting appropriate studies, the results of
which are described in the Finnerty Loss Causation
Report and which are augmented in this rebuttal
report:
a) The statistically significant abnormal returns
on Goldman’s common stock on April 16, 2010,
April 30, 2010, and June 10, 2010 were not due
to any macroeconomic factors, industry-specific
factors, or non-fraud-related Goldman news,
but were substantially caused by a series of
revelations concerning Goldman’s alleged
fraudulent conduct related to the management
of its Conflicts of Interest and its Business
Principles;3
b) Dr. Gompers incorrectly criticizes that I failed
to establish either of the following two
2

I have also reviewed the Defendants’ expert declarations
previously submitted in connection with Lead Plaintiffs’ motion
for class certification - Declaration of Paul A. Gompers, Ph.D.,
dated April 6, 2015 (the “Gompers Declaration”), the Declaration
of Stephen Choi, Ph.D., dated April 6, 2015 (the “Choi
Declaration”), and the Declaration of Charles Porten, CFA, dated
April 6, 2015 (the “Porten Declaration”).
3

The abnormal returns on Goldman’s common stock on April
16, 2010, April 30, 2010, and June 10, 2010 are -9.27%, -7.75%,
and -4.52%, respectively, which are all statistically significant at
the 5% level. Dr. Gompers’s regression model he presented in the
Gompers Declaration yields similar results, where the abnormal
returns on these dates according to his model are -9.94%, -8.00%,
and -4.44%, respectively.

643
conditions in order to establish the presence of
inflation in Goldman’s stock price during the
Class Period: the alleged misstatements must
have either (a) caused Goldman’s stock price to
increase or (b) prevented Goldman’s stock price
from decreasing until the dates of the alleged
corrective disclosure. Dr. Gompers’s criticism is
baseless because Plaintiffs allege that the
misleading statements omitted economically
significant information about Goldman’s failure
to follow its stated Conflicts of Interest
management practices and abide by its
Business Principles and that when this
previously concealed information was properly
disclosed to investors, Goldman’s common stock
price declined causing investors to experience
losses. The statistically significant negative
market impact of the corrective disclosures of
the alleged fraud on the Disclosure Dates and
my event study demonstrate that the alleged
misstatements
and
omissions
inflated
Goldman’s stock price by preventing it from
declining if the information had been fully
disclosed;
c) Dr. Gompers incorrectly asserts that the
information disclosed in connection with the
SEC regulatory enforcement action announced
on April 16, 2010, the DOJ criminal
investigation disclosed on April 30, 2010, and
the second SEC investigation announced on
June 10, 2010 was not related to the allegations
in this matter; he attempts to characterize this
information simply as “confounding news.”
However, in this matter, the Plaintiffs allege
that Goldman failed to disclose its misconduct,

644
which violated its Conflicts of Interest and
Business Principles statements in relation to
the four CDOs at issue in this matter, and that
the regulatory enforcement actions announced
on the Disclosure Dates revealed the scope of
Goldman’s misconduct and the alleged
misstatements and omissions. Therefore, the
news concerning the regulatory enforcement
actions on the Disclosure Dates cannot be
characterized as “confounding news” but,
instead, is directly related to the allegations in
this matter, as stated in the Complaint;
d) Dr. Gompers concludes that the exact
information that was allegedly concealed
concerning Goldman’s Conflicts of Interest and
Business
Principles
misstatements
and
omissions was already disclosed to the market
prior to the first corrective Disclosure Date. He
is incorrect. The information disclosed on the
corrective Disclosure Dates was significant new
information. The news articles he reviewed that
were published on 34 separate dates did not
disclose the same information that was
disclosed on any of the Disclosure Dates;
e) Dr. Gompers baselessly concludes that
Goldman’s stock price movements on the
corrective Disclosure Dates was due to news
other than the news in relation to Goldman’s
Conflicts of Interest and Business Principles
statements and omissions. He fails to show that
the significant negative impact on Goldman’s
stock price on each of the three corrective
Disclosure Dates was due to any information
unrelated to Goldman’s alleged misstatements
and omissions;

645
f) I stand by my conclusion stated in the Finnerty
Loss Causation Report that Goldman’s common
stock price was artificially inflated during the
Class Period prior to the first Disclosure Date
and also between the succeeding two Disclosure
Dates. Goldman’s fraudulent conduct and the
severity of such conduct in connection with its
alleged misstatements and omissions regarding
its Conflicts of Interest management and its
Business Principles was not revealed to the
market until the SEC enforcement was publicly
announced on April 16, 2010, the DOJ criminal
investigation was publicly announced on April
30, 2010, and the second SEC investigation was
publicly announced on June 10, 2010.
Therefore, Goldman’s stock price declines on
April 16, 2010, April 30, 2010, and June 10,
2010 were all proximately caused by the
corrective disclosures related to the allegations
in this matter;
g) Dr. Gompers concludes that damages are zero
in this case without performing any appropriate
economic analysis to measure the damages.
Thus, his opinion as to the amount of damages
is baseless, unscientific, and not supported;
h) I stand by my conclusion stated in the Finnerty
Loss Causation Report that the amount of
damages suffered by purchasers of shares of
Goldman’s common stock during the Class
Period as a result of the disclosure of the truth
about Goldman’s fraudulent conduct on April
16, 2010, April 30, 2010, and June 10, 2010 is,
in total, up to $35.70 per share, depending on
when the shares were bought and sold during
the Class Period or sold thereafter;

646
i) Dr. Choi opines that the SEC enforcement
action, the DOJ criminal investigation, and the
second SEC investigation each had a market
impact independent of the nature of the
misconduct that had given rise to the regulatory
enforcement actions. However he does not
perform any appropriate loss causation
analysis. He performed no analysis whatsoever
to determine the impact of Goldman’s
underlying misconduct alleged in the SEC
Complaint in connection with the Abacus 2007AC1 CDO, the DOJ criminal investigation, or
the second SEC investigation. He simply relies
on Dr. Gompers’s unsupported conclusion that
the negative market reactions on the corrective
Disclosure Dates were unrelated to the alleged
fraud because the information “mirroring” the
information disclosed on the corrective
Disclosure Dates had previously not had a
statistically significant impact on Goldman’s
stock price. Thus, Dr. Choi’s opinion is baseless,
unscientific, and unsupported;
j) Dr. Choi also bases his erroneous conclusion
concerning the stock market impact on April 16,
2010 on a sample of only four enforcement
actions in his limited research study. The four
enforcement actions in his sample are not
comparable to the SEC enforcement action
against Goldman, and his sample size is too
small to yield any meaningful conclusions.
Therefore, the purported results of his flawed
study are irrelevant;
k) Dr. Starks opines that corporate statements,
such as statements regarding a company’s
business principles and the importance of its

647
reputation and its client relationships, do not
provide information concerning the company’s
future financial performance and its value and
therefore are not the types of statements that
investors find to be pertinent when making
investment decisions. However, she fails to
consider the fact that once investors learn of a
company’s violation of its business principles or
its mismanagement of its conflicts of interest,
which has involved engaging in allegedly
fraudulent activity, those investors would be
likely to utilize this information in making their
investment decisions, and, in particular, in
assessing the riskiness of investing in the
company’s securities; and
l) Dr. Starks considers only direct quotations or
attributions that explicitly referred to
Goldman’s Conflicts of Interest statements or
Business Principles statements in her
document search process. She fails to look for
references to the same subject matter of the
alleged misstatements and omissions, or
references that paraphrase Defendants’
misleading statements. Thus, her analysis of
securities analysts’ reports is flawed, and the
conclusions she draws based on this analysis
are unreliable and irrelevant.
4. A list of the materials I have considered in this
matter not previously cited in the Finnerty
Loss Causation Report nor listed in Appendix B of the
Finnerty Loss Causation Report is provided in
Appendix B to this report.

648
III. Background
5. The Complaint alleges that, throughout the
Class Period, Defendants made a series of misleading
statements and omissions regarding Goldman’s
management of its conflicts of interest with its clients
(“Conflicts of Interest”) and behaved in a manner
inconsistent with its business principles (including
their importance to maintaining Goldman’s reputation
and its client relationships and to the continued
success of its business) (“Business Principles”), which
are contained in its financial reports, annual reports
to shareholders, investor conference calls, and other
public announcements.
* * *
98. While Goldman’s common stock was trading
between $115.01 and $192.28 during the one-year
period before April 16, 2010, the common stocks of the
four companies in Dr. Choi’s analysis were trading
between $2.03 and $5.74, $0.24 and $0.71, $3.25 and
$16.32, and $28.60 and $49.60, respectively, during
the one-year period before the respective dates when
the news about the SEC enforcement actions was
announced. I provide the allegations and the stock
prices of the four companies in detail in Exhibit 1.

649
b. Dr. Choi Unscientifically Uses a
Simple Average of the Residual
Returns on the Four Companies’
Stocks and Attempts to Use This
Simple
Average
to
Explain
Goldman’s Residual Return on April
16, 2010
99. First of all, Dr. Choi’s use of the results from
his event study to explain the abnormal return on
Goldman’s stock on April 16, 2010 is flawed and
unscientific. The methodology that Dr. Choi adopts for
his event study is, in fact, inconsistent with Dr.
Gompers’s event study. Dr. Gompers describes in the
Gompers Report how a standard event study utilizes a
regression model to “measure the changes in a
company’s stock price that may be related to companyspecific information.”87 Dr. Gompers specifically
explains that “[m]arket and industry indices, if
properly selected, capture the stock price movements
of a broad cross-section of companies in the market as
a whole and the industry in which the company
operates.”88 While Dr. Gompers selects the
NYSE/AMEX/NASDAQ/ArcaEx Composite Index as
broad market index and a group of comparable
companies as the industry index, Dr. Choi simply uses
the Standard & Poor’s 500 Total Return Index without
any industry adjustment to capture the broad crosssection market movements in his regression
analysis.89
100. Putting aside Dr. Choi’s use of the residual
returns from his unreliable regression model, Dr. Choi
87

Gompers Report, ¶ 21.

88

Gompers Report, ¶ 21.

89

Gompers Report, ¶ 22 and Choi Report, ¶ 34.

650
calculates a simple average stock price abnormal
return of -8.07% based on the four residual returns,
which fall within a wide range from -3.34% to -17.09%.
He then conveniently claims that this average -8.07%
abnormal stock price return is “consistent” with
Goldman’s -9.27% abnormal return on April 16,
2010.90
101. Dr. Choi’s comparison is unscientific because
it is based on four SEC enforcement actions that are
not comparable to the Goldman’s enforcement action
and because the companies in these four enforcement
actions are not comparable to Goldman in terms of
industry, business, or market capitalization.
102. Additionally, the four firms in the sample
that Dr. Choi selects that purportedly have
enforcement actions similar to Goldman’s enforcement
action are not only dissimilar from Goldman, but
dissimilar to each other. The wildly different sizes of
the stock price drops associated with these four
enforcement actions (ranging from -3% to -17%), which
under Dr. Choi’s assumption should be the same given
that they all have the same “enforcement features,”
only demonstrate that the amount of a stock price drop
is determined by the nature of the allegations and the
specific business and industry of the issuer rather
than the “fact” of an enforcement action in the
abstract. Thus, Dr. Choi’s argument has no basis and
is undermined by his own evidence. Furthermore,
having only four firms in the sample does not provide
a sufficient sample size to lead to a reliable average
that can be meaningfully applied to this case,
especially given the extreme variance in outcomes.

90

Choi Report, ¶ 42.

651
103. Moreover, Dr. Choi calculates the stock
residual returns based on a regression model that is
different from my regression model and lacks any
industry adjustment, which reinforces my point that
he is not justified in arguing that there is any
“consistency” between the abnormal returns from his
model and from my model.
104. In sum, Dr. Choi’s review of the 117 SEC
enforcement actions merely reveals that the impact of
the announcement of an SEC enforcement action on a
company’s stock price depends on the nature of the
underlying behavior that is the subject of the
enforcement action. Ultimately, the severity of the
underlying improper behavior would determine the
magnitude of the impact of the announcement of an
SEC enforcement action on a company’s stock price.
Dr. Choi ignores this important effect of regulatory
enforcement actions.91
ii. Dr. Choi Speculates Without Any
Basis that the Economic, Political,
and
Regulatory
Environment
Potentially
Contributed
to
Goldman’s Stock Price Decline
105. Dr. Choi asserts that the SEC enforcement
action against Goldman occurred “in a charged
political setting in which there was considerable
uncertainty about future regulation and legislation.”92
Dr. Choi continues to argue that the SEC enforcement
91

The market will react differently according to the nature of
the underlying misconduct. See, e.g., Jonathan M. Karpoff, D.
Scott Lee, and Gerald S. Martin, “The Cost to Firms of Cooking
the Books,” Journal of Financial and Quantitative Analysis, 43,
September 2008, Table 5.
92

Choi Report, ¶ 44.

652
action against Goldman “would increase the risk
perceived by investors that more aggressive and
onerous legislative and regulatory proposals would be
pursued.”93
* * *
130. Dr. Starks fails to consider securities
analysts’ discussions of Goldman’s management of
Conflicts of Interest and Business Principles unless
the discussions related to the alleged misstatements
explicitly refer to Goldman’s management of Conflicts
of Interest and Business Principles in the context of the
Company’s 10-K reports or conference calls.
131. To begin, as set forth in ¶ 22 of this report, the
corrective disclosures revealed to the market the
details of Goldman’s misconduct and the severity of its
Conflicts of Interest regardless of whether the actual
text of the Conflicts of Interest policies or Business
Principles was referenced. Moreover, she ignores
contemporaneous market commentary in media
sources as widely read and prominent as The Wall
Street Journal and the Associated Press, as well as
securities analysts’ reports, which showed that the
revelation that Goldman had failed to manage its
Conflicts of Interest and violated its Business
Principles in connection with Abacus, as detailed in
the SEC lawsuit, and the resulting reputational harm
(therefore affecting its client relationships and its
business) that followed that revelation, was important
and thus relevant to investors’ valuation of Goldman’s
stock – i.e., it had a statistically significant impact
on Goldman’s stock price. Examples of such

93

Choi Report, ¶ 45.

653
contemporaneous market commentary and securities
analysts’ comments follow:


Associated Press, “Fraud Charge Deals Big Blow To
Goldman’s Image,” April 18, 2010.
While Goldman Sachs contends with the
government’s civil fraud charges, an equally
serious problem looms: a damaged reputation
that may cost it clients . . . .
In its corporate profile, the company says
its culture distinguishes it from other
firms and “helps to make us a magnet for
talent.” That culture is summed up in the
firm’s “14 Business Principles,” which
preach an almost militant philosophy of
putting the client before the firm.
Now, it’s that very philosophy that has
been questioned by the government.
(Emphasis added.)



The Wall Street Journal, “Common Sense: Where’s
the Goldman Sachs I Used to Know?,” April 21,
2010.
“Surreal” was the word Goldman Sachs
Group’s Fabrice Tourre used to describe a
meeting in which the firm of hedge-fund
billionaire John Paulson discussed with an
investor a portfolio of mortgage-backed
securities it eventually planned to short. That
Goldman Sachs, a name once synonymous
with professionalism and integrity, now
stands accused by the Securities and
Exchange Commission of fraud also might be
deemed surreal.

654
It’s hard to imagine the damage that
these developments have done already to
Goldman
Sachs’s
reputation.
The
company has always maintained a
public position that the business of
investment banking depends on trust,
integrity and putting clients’ interests
first. (Emphasis added.)
Whether those clients remain loyal to
Goldman, and whether the firm can attract
new ones, remain to be seen. Investors’
reaction to the news was swift and negative:
Goldman shares closed down 13% Friday
after the SEC filed its suit.


The Wall Street Journal, “Goldman Sachs Charged
With Fraud – SEC Alleges Firm Misled Investors
on Securities Linked to Subprime Mortgages;
Major Escalation in Showdown With Wall Street,”
April 17, 2010.
Goldman Sachs Group Inc. – one of the few
Wall Street titans to thrive during the
financial crisis – was charged with deceiving
clients by selling them mortgage securities
secretly designed by a hedge-fund firm run by
John Paulson, who made a killing betting on
the housing market’s collapse.
“The product was new and complex, but
the deception and conflicts are old and
simple,” said Robert Khuzami, the SEC’s
enforcement chief. (Emphasis added.)



CitiQroup Global Markets, “Goldman Sachs Group,
Inc. (GS) Initial Thoughts On SEC Civil Lawsuit,”
April 16, 2010.

655
The [SEC] complaint alleges that Goldman
failed to disclose to investors that a major
hedge fund (Paulson & Co. Inc.) played a role
in the portfolio selection process and had
taken a short position against the bonds
referenced in the CDO . . . . Also, the SEC
alleges that Goldman misled ACA into
believing that Paulson was investing in the
CDO equity and therefore shared a long
interest with the CDO investors.
The two key issues for Goldman in our
view is reputational risk, and possible
follow on lawsuits related to this action.
The SEC’s complaint refers to only one
CDO structure, and the issue is whether
this was an isolated incident or not.
Reputation risk is biggest issue in our
view, and we do not view this as a ‘life
threatening issue,’ but clearly seems like
a ‘black eye’ for Goldman. (Emphasis
added.)


Bank of America Merrill Lynch, “Goldman Sachs
Group – Sec case seems limited, but reputational
fallout worrisome,” April 16, 2010.
SEC brings a civil fraud case relating to
alleged misrepresentation in a CDO. SEC
case alleges a GS Vice Pres. structured a CDO
and misrepresented to buyers that the
reference collateral had been independently
selected, when in fact, it is alleged, it was
selected by a hedge fund seeking a way to
short subprime.
This is a serious charge, but so far it is a
one-off, it is civil rather than criminal, and

656
the individual charged is at a relatively low
level in the firm . . . But there is
considerable uncertainty. On the other
hand, it’s not clear whether there are
more such cases; nor whether the SEC
might refer the case to the DOJ for
criminal charges; nor how serious the
reputational effects might be for GS . . . .
[T]he reputational damage could be
considerably greater, unless it becomes
clear that there are no other such cases
against the firm and that no more
individuals are charged. (Emphasis
added.)


Macquarie (USA) Equities Research, “Goldman
Sachs Group – Our Thoughts on the SEC’s Fraud
Claim,” April 16, 2010.
On Friday, the SEC accused Goldman of
fraud associated with a synthetic CDO . . . .
After reviewing the allegations and
Goldman’s response, we are not yet willing to
assign probabilities on the chance of a
conviction. Proof of intent to deceive is key,
and we are not convinced that the emails
establish this. Also key is what the original
long investors knew or didn’t know about the
selection process . . . .
Typically,
reputational
damage,
particularly in the institutional context,
is a paper tiger. However, in this case, the
response by the media and Washington
has been so severe, that we believe
management will want their day in court
to prove the firm’s innocence. As a result,

657
we may not see the typical settlement but a
trial . . . As for reputation, Goldman
clients are “eyes-wide-open.” (Emphasis
added.)


Wells Fargo Securities Equity Research, “The
Goldman Sachs Group, Inc. – GS: Reputational
Risks Increased, But Valuation Still Attractive,”
April 19, 2010.
GS has begun to tell its side of the story,
possibility reducing the concerns surrounding
the SEC’s allegations. Following the SEC’s
filing of its lawsuit, GS has issued public
documents detailing its belief that its actions
with respect to the ABACUS 2007-AC1
synthetic CDO were ‘entirely appropriate’,
and that it intends to defend itself vigorously.
We believe GS’ strong stance could be
successful in reducing the fear surrounding
the SEC’s allegations - and also starts to
rebuild the reputational damage from
the recent headlines . . . .
GS released a document April 18 stating its
position on the SEC’s lawsuit, clarifying
comments made in the aftermath of the SEC’s
announcement of the lawsuit. In sum, we
believe GS’ contentions suggest it is willing to
take its chance in court, if necessary, to clear
its name and attempt to revive its
reputation . . . .
The SEC’s action could lead potential
clients seek counterparties and agents
other than GS as a means of protesting
GS’ alleged behavior . . . . We believe that
if GS is not implicated in other, similar legal

658
actions the “reputational damage” is
manageable. Additional legal actions
against the company could further harm
its reputation and ability to gain
business, in our view. (Emphasis added.)


Credit Suisse, “Goldman Sachs Group, Inc. –
Strong Fundamentals—No New News on SEC
Charge,” April 20, 2010.
On Friday, the Securities and Exchange
Commission (SEC) filed securities fraud
charges against Goldman and one of its
employees
for
making
material
misstatements and omissions in connection
with a $1 billion synthetic collateralized debt
obligation
(ABACUS)
that
Goldman
underwrote . . . . More worrisome to us is
the potential longer-term impact on the
firm’s client franchise, human capital
and reputation.
We acknowledge near-term headline risk
remains high and regulatory overhang could
keep a cloud over Goldman Sachs and
brokerage sector valuations. There’s no
doubt regulatory/litigation risk now
represents a greater risk to our
constructive thesis on GS shares.
(Emphasis added.)

132. I therefore find Dr. Starks’s methodology to
be deeply flawed and wholly unreliable, because of its
unreasonably narrow scope.
133. In sum, Dr. Starks’s conclusions are limited
to her review of various securities analysts’ reports.
She disregards the information regarding the
reactions of market participants to the corrective

659
disclosures related to the alleged fraud appearing in
other media sources, such as The Wall Street Journal.
As noted above, these reactions demonstrate that
market commentators did understand that the
information disclosure in connection with the SEC
enforcement action involving Goldman on April 16,
2010, the information disclosure in connection with
the pending DOJ criminal investigation of Goldman on
April 30, 2010, and the information disclosure in
connection with the second SEC investigation
concerning Goldman’s CDO transaction on June 10,
2010 did constitute corrective disclosures of Goldman’s
allegedly misleading statements and omissions
concerning its Conflicts of Interest misconduct and its
Business Principles.
I declare under penalty of perjury that the foregoing
is true and correct to the best of my knowledge.
Executed: August 7, 2015
/s/ John D. Finnerty
John D. Finnerty, Ph.D.

660
[1] **CONFIDENTIAL **
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File
No 1:10-CV-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
September 9, 2015
10:03 a.m.
————
Videotaped Deposition of PAUL A. GOMPERS,
Ph.D., taken by Plaintiffs, pursuant to Notice, held at
the offices of Labaton Sucharow LLP, 140 Broadway,
New York, New York, before Todd DeSimone, a
Registered Professional Reporter and Notary Public of
the State of New York.
————
[2] APPEARANCES
LABATON SUCHAROW LLP
140 Broadway
34th Floor
New York, New York 10005
Attorneys for Plaintiffs
BY: MICHAEL H. ROGERS, ESQ.
mrogers@labaton.com

661
ROBBINS GELLER RUDMAN & DOWD, LLP
655 West Broadway
Suite 1900
San Diego, California 92101
Attorneys for Plaintiffs
BY: ROBERT R. HENSSLER, JR., ESQ.
bhenssler@rgrdlaw.com
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, New York 10004-2498
Attorneys for Defendants
BY: DAVID M.J. REIN, ESQ.
reind@sullcrom.com
ALSO PRESENT:
DEVERELL WRITE: Videographer
[3] THE VIDEOGRAPHER: We are on the record.
Please note that the microphones are sensitive and
may pick up whispering and private conversations.
My name is Deverell Write representing Veritext
Legal Solutions. Today’s date is September 9th, 2015.
The time on the video monitor is approximately
10:03 a.m.
The caption of this case, In Re Goldman Sachs
Group, Inc. Securities Litigation. This case is filed in
the U.S. District Court for the Southern District of
New York, case number 1:10-CV-03461. The name of
the witness is Professor Paul A. Gompers. At this time
will counsel please state their appearances.
MR. REIN: David Rein, Sullivan & Cromwell LLP,
for defendants and the witness.

662
MR.
ROGERS: Michael
Rogers,
Sucharow LLP, for plaintiffs and the class.

Labaton

MR. HENSSLER: Bobby Henssler [4] from Robbins
Geller Rudman & Dowd for the plaintiffs and the class.
* * *
[4] PAUL A. GOMPERS, Ph.D., called as a witness,
having been first duly affirmed, was examined and
testified as follows:
EXAMINATION BY MR. HENSSLER:
Q. Good morning, Professor Gompers. Please state
your full name for the record.
A. Paul Alan Gompers.
Q. And your current home address?
A. 71 Prospect Park, Newton, Massachusetts
02460.
Q. That’s your home address?
A.

Yes.

Q. Business address?
A. Harvard Business School, Baker Library 263,
Boston, Massachusetts 02163.
Q. And you have been deposed before, correct, sir?
A.

Yes,

Q. About how many times?
[5] A. Over the last 14 years, 40, 50 I guess,
something of that order.
Q. So you understand how a deposition works?
MR. REIN:

I object to the form.

663
A. I’ve been in depositions and understand the
process.
Q. That there is a court reporter typing everything
that you and I say and you are agreeing to answer my
questions truthfully?
A.

Yes.

Q. And you are going to do that, you are going to
tell the truth today?
A. I will.
Q. You understand you have just sworn an oath to
do that?
MR. REIN:

I object to the form.

A. I have affirmed an oath.
Q. You understand you have just affirmed an oath
to tell the truth?
A. I do.
* * *
[98] Q. I’m asking a different question, and maybe I
wasn’t precise. I’m asking not a question about your
loss causation, just a question about timing and news
disclosure, okay? Do you understand?
A. Okay.
Q. So let me try to ask a more precise question.
April 16th, 2010 was the first time that investors
learned that Goldman Sachs had intentionally misled
ACA into believing that Paulson was long equity?
MR. REIN:

I object to the form.

A. It’s my understanding that the first time it was
revealed to have been alleged that Goldman Sachs

664
misled ACA was in the complaint. So that is my [99]
understanding.
So my understanding is that particular piece of
information is alleged and for the first time revealed
in the complaint.
MR. HENSSLER: It is about 12. If there is a time
that you guys need to break for lunch, we never talked
about that.
THE WITNESS: I could use a break to go to the
bathroom. I don’t know when lunch is coming in.
MR. HENSSLER:
record.

Let’s take a quick break. Off the

THE VIDEOGRAPHER: The time on the video
monitor is 11:58 a.m. We are off the record. This ends
media one.
(Recess taken.)
THE VIDEOGRAPHER: We are back on the
record. The time on the video monitor is 12:05 p.m.
This starts media number two.
BY MR. HENSSLER:
Q. Welcome back, Professor [100] Gompers. You
understand that you are still under oath?
A. I do.
Q. The SEC complaint that we were just looking
at, Choi Exhibit 4, it reveals both Goldman’s behavior
in misleading ACA that Paulson was long, and the fact
that Goldman’s primary regulator, the SEC, had found
that behavior objectionable. correct?
MR. REIN:

I object to the form.

665
A. I understand that this is an adversarial
document. It is a complaint that alleges certain
behavior and it is an action brought against Goldman
Sachs.
In reviewing, you know, the thousands of news
stories and the dozens of analyst reports, what’s
interesting is that many of the market commentators
talk about the flimsy nature of the report, that others
had more egregious actions than Goldman Sachs, that
the SEC might have difficulty in prosecuting this, that
these charges were a context of the charged [101]
political environment against the financial sector after
the financial crisis.
So I understand there’s lots of allegations in this
complaint. We have talked about them. The important
thing to think about is how this — what elements of
this are corrective of the general statements, and in
particular as well what could Goldman have said that
would have been corrected at various points in time.
I talk in my report, it would be impossible for
Goldman Sachs in 2007, 2008, 2009, to say the SEC is
going to pursue an action against us.
The important part of loss causation, the important
part of estimating damages is to understand what
information is corrective of the alleged misstatements.
Q. And we’ve read your report, so we understand
that that’s your position in your report. I’m trying to
ask a different question here. And let me try to
rephrase it.
* * *

666
[1]** CONFIDENTIAL**
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File
No. 1:10-CV-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
September 22, 2015
9:05 a.m.
————
Videotaped Deposition of LAURA T. STARKS,
Ph.D., taken by Plaintiffs, pursuant to Notice, held at
the offices of Labaton Sucharow LLP, 140 Broadway,
New York, New York, before Todd DeSimone, a
Registered Professional Reporter and Notary Public of
the State of New York.
* * *
[390] And I still believe that today. It doesn’t refer to
the conflict of interest statements.
Q. Okay. You can put that aside.
MR. ROGERS: I would like to mark as Starks 5 a
Bernstein Research report, May 4th, 2010, titled
Goldman Sachs: Management Speaks Frankly About
The Future Of The Firm.
(Starks Exhibit 5 marked for identification.)
(Witness perusing document.)
Q. If you could turn to page 79. Do you see that?

667
And just for context, the first sentence under
Investment Conclusion, and a quotation, says
“Goldman Sachs shares plummeted on Friday on press
reports that the U.S. Justice Department was
reviewing Goldman’s MBS business in light of
allegations made by the SEC concerning the Abacus
CDO deal.”
Do you see that?
A. I do.
* * *
[393] Q. You remember that there were Senate
investigations of certain companies, correct?
A.

Yes.

Q. And there were SEC investigations of certain
companies?
A.

Yes.

Q. Is it your opinion as you sit here today that the
public was outraged that the Senate was investigating
some banks?
MR. WALKER:

Objection to the form.

A. So the public outrage would have been against
the underlying actions that were alleged to have
happened. I didn’t intend to mean that it was just
because of the U.S. Justice Department.
Q. So it is the conduct alleged that caused the
outrage, correct?
MR. WALKER:
A.

Objection to the form.

Correct. Assuming there was public outrage.
* * *

668
[395] Q.

And what do you think he is saying?

MR. WALKER: Objection to the form.
A. Well, I think he is saying that Goldman Sachs has
incurred reputation damage, and then he is going on to
talk about a portfolio manager buying or owning
Goldman because of the public outrage. I don’t think he
is saying the reputation damage is coming from the
public outrage.
Q. But the client fallout was caused by public
outrage?
MR. WALKER: Objection to the form.
A. Well, it’s not exactly clear what he is -- he is
talking about a portfolio manager having difficulty
buying or owning Goldman in these kind of portfolios
due to the current public outrage. I mean, we are just
parsing this sentence differently.
Q. And a manager having difficulty [396] buying or
owning Goldman, would that have an impact on
Goldman’s stock price?
MR. WALKER: Objection to the form, foundation.
A. There could be an effect on Goldman’s stock price
if there’s a large selloff.
Q. And that would have a negative impact on their
stock price, correct?
MR. WALKER: Objection.
A. It could have a negative, but that’s not something
I’m here to testify about.
Q. No, you are here to testify on your expertise
reading analyst reports.

669
So I’m just asking you, is it your understanding of this
report that the public outrage against Goldman Sachs as
you just said could have a negative effect on its stock
price?
MR. WALKER: Objection to form, foundation.
* * *

670
[1]** CONFIDENTIAL **
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File No. 1:10-cv-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
This Document Relates To: ALL ACTIONS
Videotaped Deposition of
JOHN D. FINNERTY, Ph.D.
New York, New York
October 1, 2015
————
Reported by: Bonnie Pruszynski, RMR, RPR, CLR Job
No. 97628
* * *
[166] By June 10th, now we are at the third
announcement, and there has been some prior
announcement on Hudson, there has been all the
disclosure on Abacus, so the incremental effect is less
than what the de novo effect would have been if the
first disclosure occurred on Hudson prior to the
Abacus disclosure.
Q. A couple of minutes ago you listed for me a long
list of things about the Hudson CDO that you were
saying should have been revealed in order to remove
the artificial inflation from the stock. Do you
remember that?
A.

Yes, I do.

671
Q. Which of the four corrective disclosure dates
revealed all of that information?
MR. HENSSLER:
scope.

Objection, form, outside the

A. The information was partially revealed April
30th and partially revealed June 10th, 2010, on
Hudson.
Q. So, you think all of the [167] information that
you just described to me was revealed on April 30th
and June 10th, 2010?
MR. HENSSLER:

Misstates testimony.

A. With regard to Hudson, but as I have also
testified, there was prior information on April 16th
about Goldman’s failure to manage its conflicts of
interest and its failure to abide by its business
principles in the Abacus transaction, which was a very
similar transaction to Hudson. They were both
mortgage-backed synthetic CDOs.
So, the first transaction is more of a surprise than
the second, because the first one reveals for the first
time that the company is -- that Goldman is failing to
manage its conflicts of interest and to abide by its
business principles, and that’s Abacus. Then you have
a series of disclosures around April 26th, April 30th,
that in fact there is a greater number of CDOs involved
that similarly involve allegations of fraud, perhaps
criminal, criminal fraud.
[168] Then you have the details of the Hudson
transaction coming out in the June -- June 10th, and
in particular, another SEC action that suggests the
severity of those. So, some of those -- I guess the
Hudson details had probably been out by April 30th,
but what investors didn’t know prior to June 10th was

672
the fact that the SEC had reviewed the information
and was going to investigate Goldman for that
transaction as well for possible fraud.
Q. Did any of the information about Hudson come
out before April 16th, 2010, that you described to me?
MR. HENSSLER:

Objection, form.

A. It didn’t come into the public domain. I think
investors in that transaction may have known -somebody had to alert the SEC. And so, it’s possible
that prior to April 16th, someone might have alerted
the SEC.
But there is no -- I haven’t seen any public
announcement of the conflict of interest, the lack of
alignment of interest, [169] the disclosure of the 2
million short, and the misrepresentation to clients
about the sourcing of the assets. I don’t believe any of
that was disclosed about Hudson prior to April 16th.
In fact, I don’t think it was disclosed prior to the
e-mails that were released by Senator Levin on the
evening of the -- April 26th. Those e-mails did contain
at least some of that information.
Q.

And when was the rest revealed?

A.

June 10th.

And also, they just -- you can’t -- you can’t really
separate the conduct from the charge. So, what’s really
important on June 10th is not just the disclosure of the
details, but it’s the connection between the -- the
charge and the conduct, and what’s really at issue, and
the important point about the announcement on the
10th is that the SEC, Goldman’s primary securities
regulator, has found sufficiently troubling aspects of
that transaction that it’s going to investigate

673
Goldman, Goldman’s behavior in that one also for
possible securities fraud.
[170] Q. Did the market know before April 16th,
2010, that Paulson & Co. assisted Goldman Sachs in
designing a CDO that Paulson intended to short?
MR. HENSSLER:

Objection, form.

A. Yes. I think some people in the market did know
that.
Q. Is there some differences for purposes of your
analysis whether some people in the market knew it
or the market more generally knew this?
A. You could -- I think you could even say the
market generally knew it. There were news articles
that reported that Paulson had gone short and that he
had used various dealers to assist him, Goldman Sachs
and Deutsche Bank in particular, but perhaps others,
and that he had -- in doing that, had convinced some
dealers to help him form the portfolios of underlying
assets in a way that would facilitate his short. That
was known.
Q. And it was known to the market before April
16th, 2010, that Paulson intended to bet against the
CDO?
[171] A. Yes.
MR. HENSSLER:
A.

Objection to form.

Yes, I believe it was known.

Q. To bet that it would fall in value, that the CDO
would fall in value?
MR. HENSSLER:
A.

Yes.

Objection, form.

674
Q. Was it also known to the market that Goldman
Sachs would sell the CDO to clients who believed the
value of the mortgages would hold up? Was that
known before April 16th, 2010?
MR. HENSSLER:

Objection, form.

A. It was known that Goldman Sachs as a
securities dealer would sell a full range of securities to
investors, who presumably bought them because they
thought they would hold their value or increase in
value. So that was just a part of Goldman’s normal
business, would be to do that, and investors would be
aware of that, including CDOs and other mortgagebacked product.
Q. Including with respect to this Paulson CDO in
particular?
[172] MR. HENSSLER: Objection, form.
Q.

Was that known before April 16th, 2010?

MR. HENSSLER:

Objection to form.

A. Yes. I think it was known that if Goldman had
created the security, it would act as agent, and it
would sell it to people who wanted -- investors who
wanted to invest in the product, at the same time that
Paulson would go short. Goldman is a middleman, so
a securities dealer functions as a middleman, and it
was known that Goldman was an important
middleman in that market, that as part of its normal
market-making function, would be selling to both
buyers and sellers. The would set up a balanced book.
That was known.
Q. Was it known to the market before April 16th,
2010, that this CDO was a billion dollar wager by
Paulson against mortgage debt?

675
MR. HENSSLER:
A.

Objection, form.

Before April 16?

[173] Q. Yes.
A. It wouldn’t be known generally into the -- I’m
sorry. April 16, 2010. Yes, it would be known as of the
date the security was issued that it was -- that it was
a security of a type where longs -- you would have
longs investing who believed it would go up, and you
could have shorts -- you would have shorts,
presumably, who would believe that the price would go
down. In that segment of the market, those CDOs were
structured so that it provided the opportunity for
certain investors who were long and certain investors
who were short to engage in those transactions, and it
was understood the dealers would often take one side
or the other for their own accounts.
Q. But was it understood before April 16, 2010,
that the CDO was a billion dollar wager by Paulson
against mortgage debt?
MR. HENSSLER:

Objection to form.
* * *

[206] Q. Okay. So, if my count is right -- and again,
I’m not asking you to recount my count. But if my
count is right, that’s 21 of the dates out of the 34 where
there is no denial; right?
MR. HENSSLER:

Objection, form.

A.

Yes, there is no direct denial.

Q.

Okay.

A. There could be other information in there that
in effect has a similar -- a similar result, but there are
only 13 apparently, I will accept your count, where

676
there is an explicit expressed denial in the body of the
article.
Q. Did you find any -- and you have used the term
“direct denial.” Did you find any indirect or other kinds
of denials for the remaining 21?
MR. HENSSLER:

Objection, form.

A. I would have to review the 23 again. I don’t
commit all of these things, did not commit all of these
to memory. There [207] could be others where they are
describing standard procedures or something like -- in
some form like that, where in effect it’s an indirect
denial. I don’t remember anywhere that happened, but
to give you an absolute answer, I would have to go back
and confirm that.
Q. Well, you went through a process of looking for
denials, I take it, in preparing this implications list?
A.

I did.

MR. HENSSLER:

Objection, form.

Q. Did you spot any other denials that you have
left out of this?
A. There were no other explicit denials that I have
left out.
Q. Did you find any implicit denials that you have
not included here?
MR. HENSSLER:

Objection, form.

A. I just answered the question. I said if you want
me to go back and look, I would be happy to do that.
Q.

And I’m asking you —

A. I don’t remember any now. I don’t [208]
remember any now, but as I also testified, I haven’t

677
committed all 34 of these to memory. If you would like
me to go back and look through the 23, I would be
happy to do it.
Q. I’m asking if there is something you recall
leaving out.
MR. HENSSLER:

David, he has testified —

MR. REIN: You don’t need to -- you may object. I
don’t need your speech.
MR. HENSSLER: I’m doing that. If want to ask
him about this, put the articles in front of him. He said
he would be happy to do the analysis for you.
MR. REIN: You can state your objection. We don’t
need a speech.
Q. I’m simply asking, do you remember leaving out
any kind of denial?
MR. HENSSLER:

Same objection, form.

A. I think this is the third time I have answered
the question. I don’t recall whether there are any
indirect denials. If [209] you would like me to look at
the articles, I would be delighted to do so.
Q.

I’m simply asking whether you recall.

A. And I answered -- I’m not being argumentative.
I have answered the question three times. If you want
to put the articles in front of me, I would be happy to
look at each of them and give you a more fulsome
answer.
* * *
[226] Q. Well, did Dr. Gompers come up with this
denial theory?

678
A. Dr. Gompers ignored the denials. In effect, he is
assuming it’s zero. So, he ignored a critically
important factor, which has biased his study. He
should have -- he ignored it, and he should have taken
it into account. Absolutely should have.
Q. But he didn’t come up with this theory that the
denials thwarted the stock price impact, did he? That
was you.
MR. HENSSLER:

Objection to form.

A. There is no theory involved in it, this is fact.
Goldman Sachs issued 13 denials. This is a source of
bias in his study. He ignored this factor, and as a
result, it renders his study unreliable.
Q. And where are you getting your denial theory
from?
A. It’s not a denial theory. It’s the fact that
Goldman Sachs issued these denials. [227] Goldman
Sachs pointedly denied the accusations in 13 of these
articles. I read the language. I can interpret the
language. I can see what the accuser said. I can see
what Goldman Sachs said. And I will tell you anybody
who thinks that the effect of these is zero is sadly
mistaken.
And you don’t need a Ph.D. in finance to see that.
Any securities analyst will tell you that. And you could
read it in the securities analyst reports, where they
say -- they will have a quotation or some reference to
something, then they say, “Goldman denied it,” or
“Goldman’s spokesman denied it.” Clearly, the
analysts think that is important. Clearly, they are
giving it some weight. I don’t know whether it’s zero
weight, I don’t know whether it’s 50 percent, I don’t

679
know whether it’s 100 percent, but they are giving it
some weight, and your expert gave it none.
Q. And if the analysts pick up on the denial and
give that weight, is that what to you shows that it was
important to investors?
[228] MR. HENSSLER: Objection, asked and
answered, misstates testimony.
A. It shows that there is an offset which your
expert failed to take into account, and it could imply
the information was significant. It could very well. If
there is a material reaction and then the denial
counteracts that, there could in fact be material
information that is issued. Nevertheless, the market
reaction to the entire body of information shows up as
being statistically insignificant because of the offset.
Q. And if the analyst mentioned the denial, is that
to you a reflection of its importance to investors?
MR. HENSSLER:

Objection, form.

A. It’s an indication that investors would regard
the denial as significant. Yes, it’s meaningful. If they
chose to mention it, yes, they recognized its
importance.
Q. Okay. Now, you understand that when the SEC
filed its complaint on April 16th, 2010, Goldman Sachs
issued a [229] denial; right?
A.

Yes, they did.

Q. And is it your opinion this denial was
ineffective?
A.

It was what?

Q.

Ineffective.

680
A. Yes. The market had a net drop, so there may
have been some effect, but overall, it was ineffective.
Q.

Did it have any effect?

A.

It could have had some effect.

Q.

Did you do anything to measure that?

A. I’m being conservative in favor of the
defendants by assuming it had a zero effect. I’m
measuring the effect of the stock price drop net of
market industry factors, but I didn’t adjust for the
possible effect of Goldman’s denial.
Q. As an empirical matter, how would one go about
doing that if you chose to?
A. I don’t know. Since the effect -- since the
announcements are occurring simultaneously, I don’t
think you could do [230] it. You would have to have
enough space between the original article and the
denial, have the market settle out, so that you could
then measure the two -- two separate announcements.
Q. Is the only way to determine whether the denial
was effective to look after the fact to see whether or
not the stock price moved in a statistically significant
manner?
A.

That is part of it.

Q.

What is the other part of it?

A. Well, you look at whether the -- the
circumstance surrounding the announcement, and the
nature of the denial. So, if -- if the announcement is
being made by a firm’s primary securities regulator,
and that regulator is saying that the securities firm
has engaged in certain forms of improper behavior,
and as a result, we, the regulator, are instituting an
enforcement action, in that case, I think it’s

681
extraordinarily unlikely that anybody -- any security
firm’s denial is going to be effective enough to [231]
thwart that fully. There may be some little, some
partial offset, but that will give the -- that will give the
disclosure a lot of credibility, which will outweigh
whatever impact the denial might have.
Q. So, if it’s a regulator making the allegation as
opposed to a media article, let’s say, does that mean to
you that the denial will be ineffective?
A If the regulator -- and I think the market
attaches credibility to regulators’ enforcement actions,
because they believe that regulators don’t institute
enforcement actions unless they genuinely believe
that there is misbehavior or improper actions. That
will have a lot more credibility than a newspaper
article. So, if the securities firm is denying what’s in
an enforcements action, I think the effect is going to be
less than if they are denying something that happens
to be an accusation in a newspaper article, because the
regulatory action, that announcement will have a lot
more credibility typically than a [232] newspaper
article.
Q

And what do you base this opinion on?

A I base it on the observed effect of these
announcements. When enforcement actions are
announced, they are almost always met with a strong
negative reaction. On the other hand, if one looks at
newspaper articles with some sort of an accusation
and it’s followed by the company’s denial, very often
they are not statistically significant. It’s the credibility
of the source.
Q If a regulator makes an accusation, can a denial
ever be effective?

682
A It depends upon the nature of the accusation, it
depends upon the nature of the denial. It’s possible.
Q Can a denial ever exacerbate a stock price
decrease rather than mitigate it?
A I don’t see how.
Q

You don’t think it ever could?

A I’m not saying I don’t think it ever could. I’m
having difficulty thinking how that could happen, how
your denial [233] could -- I think the denial in all
likelihood would just be ignored. It would only be if the
denial somehow included information that suggested
that the behavior was actually worse than it was. I
suppose it’s possible it could if it -- it could have a
counterproductive effect if the market concluded that
in fact there was a lot more credibility associated with
the -- with the denial.
Q And how would you go about determining
whether that occurred?
A Looking at the nature of the denial.
Q

Would you also look at the stock price effect?

A No. I’d base it on the nature of the denial and
what the securities analysts said. Are the securities
analysts saying that the denial made it worse, or are
the securities analysts reflecting -- perhaps reflecting
the denial as a factor that would reduce the impact?
* * *
[242] MR. HENSSLER: Please don’t interrupt.
A Then there is an incremental effect. So the
market is going to react to the content. But if you take
the -- and allow for whatever the content of that
information is, and then factor in the incremental

683
value of the SEC enforcement action, then that -- that
will suggest a more serious behavior. I did a study
some years ago looking at settlements and did the
same kind of analysis, and when I included
enforcement actions as a separate explanatory
variable, it was statistically significant. There is an
incremental effect from having the government,
whether it’s DOJ or SEC, institute some sort of
government regulatory action. There is an
incremental impact because of the seriousness that is
signaled by the fact you have that government action.
Q What was the name of that study? Title, I should
say.
A I don’t remember the title of the [243] article.
Q

Where did you publish it?

A I published an article around that time in
Hastings Business Law Review, and I am not
remembering whether I actually included the
regression model in that or not. I know I used the
regression model in various presentations. I would
have to -- I would have to go back and look and see.
But it was in connection with that, with the
preparation of that article, and as I say, I don’t -- I just
don’t remember whether I included that regression
analysis in the article or not. I think I did, but I have
to go back. It was a few years ago, so I would have to
go back and refresh my recollection.
Q You mentioned a DOJ investigation, so if -would a DOJ criminal investigation have more
severity than an SEC civil enforcement action?
MR. HENSSLER:

Objection, form.

A I would expect that it would. I don’t recall
whether I tested specifically [244] for that, but I would

684
expect that it would, because generally, criminal,
criminal behavior is regarded as more serious,
particularly where you have a corporation that is
charged -- a criminal charge against a corporation is,
is -- would indicate a more serious level of
misbehavior.
Q So, had the Abacus lawsuit on April 16th been
in the form of a Department of Justice criminal
complaint, would you expect a larger stock decline
than occurred with an SEC enforcement action?
MR. HENSSLER: Objection, form. Outside the
scope of his opinions. You can answer.
A Yes, because I think that would have had a
bigger adverse effect on Goldman’s business. There
are institutions that don’t want to do business with
you if you are the subject of an enforcement action.
There are others that will not do business with you if
they think that you are possibly guilty of a crime. It
will impair your business. I [245] mean, generally, a
criminal investigation will have a bigger impact than
a civil suit. I think there is plenty of academic research
on that point.
Q Now, we spoke earlier about Goldman Sachs’
business principles. Do you recall that?
A Yes.
Q Do any of those business principles refer to
CDOs?
A You are referring to the business principles as
stated on their website or in their annual report?
Q

Yes, I am.

A I don’t believe they refer to CDOs specifically.
* * *

685
[306] Another approach, which probably is an easier
approach, is the impact on the -- it’s on settlements as
opposed to the filings. But there is the study I testified
about earlier where one could get a set of data, and
look at those cases in which there is an SEC
enforcement action or DOJ investigation, and perform
an event study with a sample of announcements, some
of which involve enforcement actions, some of which
involve DOJ investigations, some on of which involve
the announcement of an SEC probe, and then use -you probably would use dummy variables to figure out
-- to measure the incremental impact of that
announcement, that regulatory announcement.
That would be -- that would be a way of trying to
allocate the damages on April 16th, April 30th, or June
10th between the content and the enforcement action,
just basically breaking the two components. I think
that would be the best that one could do, because in
my view, the two are inextricably tied, for the reasons
I have [307] testified about.
Q Thus in your report, you have not presented any
attempt to measure this incremental impact?
A I have not, because, as I have testified, I believe
that they are inextricably tied, because the charge is
tied to the content. The charge is based on the content.
If Goldman hadn’t done what it’s alleged to have done,
there wouldn’t have been an SEC enforcement action,
there wouldn’t have been a DOJ probe, and there
wouldn’t have been an SEC probe into Hudson
Q Now, we have talked earlier today about there
being two types of challenged statements here, the
business principles and the conflicts controls
statements.
A Yes.

686
Q Does your methodology have any way of
distinguishing between damages caused by one or the
other class of alleged misstatements?
A As I have testified this morning, there is no
objective way that I am aware of [308] or that I found
from looking at analyst reports, or in the literature, of
objectively distinguishing the effect of the two.
The complaint concerns behavior, improper
behavior regarding clients, and the improper behavior
was both a violation of Goldman’s conflicts of interest
management statements and a violation of its
business principle statements, as a result of -- and
every element of that, every one of those
misstatements and omissions involves that. As a
result, there is no objective way of separating the
effect, as you have asked, and when I reviewed the
analyst reports, I didn’t see a single analyst report
where the analyst even tried to do that. They didn’t
make even an effort. It just doesn’t make any sense.
Q

They didn’t make an effort to do what?

A They didn’t make an effort to try to separate the
impact of the violations of the management of conflicts
of interest statements from the business principle
statements.
[309] Q There were analyst reports that said that
both sets of statements were violated?
MR. HENSSLER:
testimony.

Objection,

form,

misstates

A The analyst reports talked about the behavior,
the improper behavior, and the SEC enforcement
action, and the consequences of it. They talked about
both of the elements.

687
I don’t know that the analysts mentioned business
principle statements or conflicts of interest
management statements. Certainly, there were
articles in the press that did. But they talked about
the behavior itself. They talked about the effect of the
misbehavior on Goldman’s reputational capital. The
fact that Goldman had always prided itself on being
able to manage conflicts, and here Goldman’s got a
black eye.
* * *

688

This page intentionally left blank.

9

2007

6

DEC

2007

5

DEC

2007

3

DEC

2007

11

JUNE

2007

17

MAY

2007

7

MAY

2007

³+DVDQ\RQHRQ:DOO6WUHHWIRXQGLWRGGWKDW*ROGPDQ6DFKVZKLFKKDVEHHQD
ORQJWLPHEDQNHUWR0U0XUGRFK¶VFRPSDQ\WKH1HZV&RUSRUDWLRQLVQRZ
UHSUHVHQWLQJ'RZ-RQHV"+RZKDUGGR\RXUHDOO\WKLQN*ROGPDQLVJRLQJWR
SXVKWKH1HZV&RUSRUDWLRQFRQVLGHULQJWKDWLIDGHDOLVHYHUVWUXFN*ROGPDQ
ZLOOZDQWWRPDNH0U0XUGRFK¶VFRPSDQ\DFOLHQWDJDLQ"´

7KH1HZ<RUN
7LPHV
³:KDWWR'R
:KHQ5XSHUW
&DOOV"´

³>$UFHORU@PLQRULW\LQYHVWRUV  DUHWKUHDWHQLQJOHJDODFWLRQ   
7KH\DUJXHWKDWWKHEDQNVWKDWSURYLGHGWKHIDLUQHVVRSLQLRQ>LQFOXGLQJ
*ROGPDQ6DFKV@KDYHDOOKDGDGYLVRU\DQGRUILQDQFLQJPDQGDWHVIURP
HLWKHU0LWWDORU$UFHORUGXULQJWKHSDVWWZR\HDUV´

³'DYLG9LQLDU*ROGPDQ¶VFKLHIILQDQFLDORIILFHUJDWKHUHGDJURXSRIWUDGLQJ
KHDGV  DWWKHHQGRIODVW\HDUWRGLVFXVVZKHWKHUWKHEDQNZDVRYHUH[SRVHGWRWKH
)LQDQFLDO7LPHV ZHDN86KRXVLQJPDUNHW    >*ROGPDQ6DFK¶V@OHDGHUVDVWXWHO\GHFLGHG
³*ROGPDQ¶V WRKHGJHLWVPRUWJDJHERRN    7ZRFRPPHQWDWRUVKDYHQRZ  DFFXVH>G@
*ORU\0D\%H *ROGPDQRIEHKDYLQJXQHWKLFDOO\DQGSHUKDSVRIEUHDNLQJWKHODZ   
6KRUW/LYHG´ >*ROGPDQ6DFKV@RIWHQIDFHVDFFXVDWLRQVRIFRQIOLFWVRILQWHUHVW RYHULWV
RYHUODSSLQJUROHVEXWLWEUXVKHVWKHPRIIE\VD\LQJWKDWLWVMRELVWRµPDQDJH
FRQIOLFWV¶  2QHGD\KRZHYHUWKLVEDODQFLQJDFWZLOOEORZXSLQLWVIDFH´

)LQDQFLDO7LPHV
³*ROGPDQ¶V ³$WRQHHQGRIWKHVSHFWUXP*ROGPDQ6DFKVVDLOVVXEOLPHO\RQFKXUQLQJRXW
5LVN&RQWURO HYHULPSURYLQJHDUQLQJVILJXUHVZKLOHRIIVHWWLQJORVVHVRQLWVH[SRVXUHWRWKH
2IIHUV5LJKW VXESULPHPDUNHWZLWKYDVWSURILWVRQVKRUWSRVLWLRQVLQPRUWJDJHV   
([DPSOHRI <HWWKH\RIIHUJHQXLQHV\QHUJLHVDOEHLWZLWK SRWHQWLDOFRQIOLFWVRILQWHUHVW´
*RYHUQDQFH´

³>$@V*ROGPDQZDVSHGGOLQJ&02¶VLWZDVDOVRVKRUWLQJWKHMXQNRQDWLWDQLF
VFDOHWKURXJKLQGH[VDOHV²VKRZLQJKRZKRUULEOHDSURGXFWLWEHOLHYHGLW
7KH1HZ<RUN
ZDVVHOOLQJ    >7@KHUHFHQWXQKDSSLQHVVDERXWPRUWJDJHVDQG*ROGPDQ¶V
7LPHV
FRQQHFWLRQZLWKWKHPDUHQRWH[DPSOHVRIVWHUOLQJFRQGXFW,WLVEDGHQRXJK
³7KH/RQJ
WRKDYHEHHQVHOOLQJWKLVVWXII,WLVIDUZRUVHZKHQWKHVHOOHUVZHUHLQ
DQG6KRUWRI,W
HIIHFWVLPXOWDQHRXVO\VKRUWLQJWKHVWXIIWKH\ZHUHVHOOLQJRUPDNLQJVLPLODU
DW*ROGPDQ
EHWV   0D\EHLW¶VWLPHIRUDQLQYHVWLJDWLRQRIMXVWZKDW:DOO6WUHHWDQG
6DFKV´
*ROGPDQGLGWRPDNHPRQH\DVWKH\  VRPHWLPHVZHUHVHHPLQJO\RQERWK
VLGHVRIWKHGHDO´

)LQDQFLDO7LPHV
³$UFHORU
0LQRULWLHV
3UHSDUHIRU
D)LJKW´

³>$@FWLQJ DVDSULQFLSDOKDVDJDLQEHFRPHDELJVRXUFHRI  FRQWURYHUV\
DVEDQNVWU\WRQHJRWLDWHWKHEOXUU\OLQHEHWZHHQDGYLVLQJFOLHQWVOHQGLQJWRWKHP
7KH(FRQRPLVW
DQGSRXULQJWKHLURZQPRQH\LQWRGHDOV   7KLV\HDU*ROGPDQ6DFKVVHW
³0HUFKDQWV
LWVHOIWKHWDVNRIUDLVLQJDPDPPRWKELOOLRQIRULWVODWHVWSULYDWHHTXLW\
RI%RRP´
YHQWXUH   %HLQJRQHRIWKHZRUOG¶VELJJHVWSULYDWHHTXLW\IXQGVDVZHOO
DVRQHRIWKHELJJHVWDGYLVHUVWRWKHPFRXOGFDXVHVHULRXVFRQIOLFWVRILQWHUHVWV´

³:KHQ'DQLHO/RHE¶VELOOLRQ1HZ<RUNKHGJHIXQG>ERXJKW@DVWDNHLQ
3RJR3URGXFLQJ&RLWUHOLHGRQLWVSULPHEURNHUDJHPDUJLQDFFRXQWDW*ROGPDQ
/RHEWKHQGHPDQGHGERDUGVHDWV  >DQG@3RJR¶V ERDUGRIGLUHFWRUV  KLUH>G@
*ROGPDQWRGHIHQGLWVHOIIURP/RHE2GGFRLQFLGHQFHQRGRXEW²H[FHSWWKDWLW
KDSSHQHGEHIRUH   ,VLWNRVKHUIRURQHSDUWRI*ROGPDQWRKHOSDERDUGIHQGRII
DGYDQFHVPDGHE\DKHGJHIXQGWKDWDQRWKHUSDUWRI*ROGPDQLVDLGLQJ"´

)RUEHV
³&DQGOH
%XUQLQJDW
%RWK(QGV´

* For news published between 4pm and midnight on a trading day, or for news not published on a trading day, the date assigned is the next trading day.















MARCH

'DWH

3XEOLF$OOHJDWLRQVRI*ROGPDQ6DFKV&OLHQW&RQIOLFWV
Case 1:10-cv-03461-PAC
Document 193-2 Filed 04/13/18 Page 2 of 7
2Q'DWHV3ULRUWR3ODLQWLIIV¶³&RUUHFWLYH'LVFORVXUH´'DWHV
6RXUFH
$UWLFOH([FHUSW (PSKDVLV$GGHG

A-2952

689

27

DEC

2007

24

DEC

2007

17

DEC

2007

14

DEC

2007

11

DEC

2008

11

NOV

2008

14

JAN

2007

³1HZ<RUN$WWRUQH\*HQHUDO$QGUHZ&XRPRKDVDOUHDG\VXESRHQDHG:DOO
6WUHHW1H[W&RQJUHVVWKH6(&DQGRWKHUVWDWHUHJXODWRUVZLOOGHPDQG
DQVZHUVVXFKDVZK\ZDV*ROGPDQVKRUWLQJWKH6,9VWKH\ZHUHVHOOLQJ
PDQ\RIZKLFKTXLFNO\ZHQWLQWRGHIDXOW" :KDWGLGWKH\IDLOWRGLVFORVH"
6RXQGVOLNHDPDVVLYHFRQIOLFWRILQWHUHVW ZLWKPDMRUOLDELOLWLHV´

³7KHELJJHVWRIWKHELJQDPHVZHUHDPRQJWKHPRVWDJJUHVVLYHLQEHWUD\LQJ
WKHLUFOLHQWV¶WUXVWDV,VHHLW  *ROGPDQ6DFKV>@Z>DV@ DJJUHVVLYHO\
VKRUWLQJWKHYHU\VDPHVRUWRI>PRUWJDJHUHODWHG@SURGXFWVWKH\ZHUH
XQGHUZULWLQJ    >6@HOOLQJ VKRUWWKHVDPHVHFXULWLHV RUYHU\VLPLODURQHV
WKDWWKH\ZHUHSHGGOLQJWRWKHFOLHQWVLVH[WUHPHO\KDUGWRUHFRQFLOHZLWK
EDVLFIDLUQHVV´
³*ROGPDQ6DFKVPDGHPRQH\XQGHUZULWLQJPRUWJDJHEDVHGFROODWHUDOL]HG
ERQGREOLJDWLRQV &'2V WKHQPDGHPRUHPRQH\VHOOLQJWKHPVKRUW
%ORJJHUVDUHKRWO\GHEDWLQJWKHSURSULHW\RIEHWWLQJDJDLQVWDILQDQFLDO
SURGXFWZKLOHVLPXOWDQHRXVO\SHUVXDGLQJLQVWLWXWLRQDOLQYHVWRUVWREX\LW´

7KH1HZ<RUN
7LPHV
³7DWWHUHG
6WDQGDUGRI
'XW\RQ
:DOO6WUHHW´
'RZ-RQHV
&DSLWDO0DUNHWV
5HSRUW³:KHQ
,W&RPHVWR
*ROGPDQ
,QYHVWRUV$UJXH
:LWK6XFFHVV´

/RV$QJHOHV
7LPHV
³)LUP8UJHG
+HGJH$JDLQVW
6WDWH%RQGV,W
+HOSHG6HOO´

³6RPHH[SHUWVVDLG>*ROGPDQ6DFKV¶@DFWLRQZKLOHQRWLOOHJDOPLJKWEH
LQDSSURSULDWHµ7KDW¶VQRWDJRRGZD\WRGREXVLQHVV¶  
µ7KH\¶YHJRWDFRQIOLFWRILQWHUHVWDQGWKH\¶UHDFWLQJDJDLQVWWKHLQWHUHVWV
RIWKHLUFXVWRPHUV   <RXDFWLQWKHLQWHUHVWVRI\RXUFOLHQWV<RXGRQ¶W
VFUHZWKHPWRSXWLWEOXQWO\¶´

7KH:DOO ³7DNHWKH6HSWHPEHUWUDQVDFWLRQLQZKLFK0RWRUROD,QFDFTXLUHG
6WUHHW-RXUQDO 6\PERO7HFKQRORJLHV,QF   *ROGPDQ6DFKVFRXQVHOHGWKHELJFHOOXODU
³7UDGLQJLQ SKRQHFRPSDQ\RQWKHELOOLRQGHDOILOLQJVLQGLFDWH*ROGPDQDOVRZDV
'HDO6WRFNV DELJDFFXPXODWRURI6\PERO¶VVWRFNLQWKHILQDOTXDUWHUEHIRUHWKH
7ULJJHUV
WUDQVDFWLRQ¶VDQQRXQFHPHQW   'LG*ROGPDQDORQJWLPHDGYLVHUWR
/RRNDW
0RWRURODNQRZDERXWWKHWDONVZKHQLWERXJKWWKHVWRFN"  *ROGPDQ
%DQNV´
VD\VLWUHYLHZHGWKHWUDGLQJDWWKHWLPHDQGIRXQGQRWKLQJLPSURSHU´

³*ROGPDQLVH[SHFWHGWRUHSRUW  ELOOLRQVRIJDLQVIURPEHWVDJDLQVWWKH
VXESULPHPRUWJDJHPDUNHW   *ROGPDQZLOOIDFHTXHVWLRQVRQKRZLW
RQFHDJDLQSURILWHGZKHQHYHU\RQHHOVHLQFOXGLQJFOLHQWVVXIIHUHG   
*ROGPDQ  SXUVX>HG@VWUDWHJLHVWKDWFDQVRPHWLPHVUXQFRQWUDU\WR
ZKDWFOLHQWVDUHGRLQJ    $QRWKHUWURXEOHVSRWFRXOGEHKRZ*ROGPDQ¶V
XQGHUZULWHUVLVVXHGFROODWHUDOL]HGGHEWREOLJDWLRQV   µ2QHSDUWRIWKH
ILUP¶VXQGHUZULWLQJ&'2VDQGWKHRWKHULVVKRUWLQJWKHKHOORXWRIWKHP¶´

5HXWHUV
³*ROGPDQ
6XFFHVV
%ULQJV
8QZDQWHG
$WWHQWLRQ´

7KH:DOO
³*ROGPDQ¶VVXFFHVVDWZULQJLQJSURILWVRXWRIWKHVXESULPHILDVFRKRZHYHU
6WUHHW-RXUQDO
UDLVHVTXHVWLRQVDERXWKRZWKHILUPEDODQFHVLWVUHVSRQVLELOLWLHVWRLWV
³+RZ*ROGPDQ
VKDUHKROGHUVDQGWRLWVFOLHQWV   :K\GLG*ROGPDQFRQWLQXHWRSHGGOH
:RQ%LJRQ
&'2VWRFXVWRPHUVHDUO\WKLV\HDUZKLOHLWVRZQWUDGHUVZHUHEHWWLQJWKDW
0RUWJDJH
&'2YDOXHVZRXOGIDOO"´
0HOWGRZQ´

'RZ-RQHV
%XVLQHVV1HZV
³5HDVRQV
:K\%XVK¶V
0RUWJDJH
%DLORXW:RQ¶W
6WRSD
5HFHVVLRQ´

* For news published between 4pm and midnight on a trading day, or for news not published on a trading day, the date assigned is the next trading day.





!:~~_,r--:,~

~ ---.---


~s-=









'DWH

3XEOLF$OOHJDWLRQVRI*ROGPDQ6DFKV&OLHQW&RQIOLFWV
Case 1:10-cv-03461-PAC
Document 193-2 Filed 04/13/18 Page 3 of 7
2Q'DWHV3ULRUWR3ODLQWLIIV¶³&RUUHFWLYH'LVFORVXUH´'DWHV
6RXUFH
$UWLFOH([FHUSW (PSKDVLV$GGHG

A-2953

690

13

2009

2

NOV

2009

2

NOV

2009

24

AUG

2009

4

AUG

2009

17

JULY

2009

24

JUNE

2009

MAY

³>(@YHQ DVLWZDV>VHOOLQJ&'2VDQGPRUWJDJHEDFNHGVHFXULWLHV@LWZDV
WDNLQJVKRUWSRVLWLRQVLQWKHVDPHPDUNHWLQHVVHQFHEHWWLQJDJDLQVWWKH
VDPHFUDSLWZDVVHOOLQJ(YHQZRUVH*ROGPDQEUDJJHGDERXWLWLQ
SXEOLF   ,QRWKHUZRUGVWKHPRUWJDJHVLWZDVVHOOLQJZHUHIRUFKXPSV
7KHUHDOPRQH\ZDVLQEHWWLQJDJDLQVWWKRVHVDPHPRUWJDJHV µ,W¶V
H[DFWO\VHFXULWLHVIUDXG¶KHVD\Vµ,W¶VWKHKHDUWRIVHFXULWLHVIUDXG¶´

0F&ODWFK\ ³,QDQG*ROGPDQ6DFKV*URXSSHGGOHGPRUHWKDQELOOLRQLQ
VHFXULWLHVEDFNHGE\DWOHDVWULVN\KRPHPRUWJDJHVEXWQHYHUWROG
:DVKLQJWRQ
WKHEX\HUVLWZDVVHFUHWO\EHWWLQJWKDWDVKDUSGURSLQ86KRXVLQJSULFHV
%XUHDX
³+RZ*ROGPDQ ZRXOGVHQGWKHYDOXHRIWKRVHVHFXULWLHVSOXPPHWLQJ   >$@ILYHPRQWK
6HFUHWO\%HW
0F&ODWFK\LQYHVWLJDWLRQKDVIRXQGWKDW*ROGPDQ¶VIDLOXUHWRGLVFORVHWKDWLW
RQWKH86
PDGHVHFUHWH[RWLFEHWVRQDQLPPLQHQWKRXVLQJFUDVKPD\KDYHYLRODWHG
+RXVLQJ&UDVK´ VHFXULWLHVODZV´

³>0U3DXOVRQ@PHWZLWK  *ROGPDQ6DFKVDQGRWKHUILUPVWRDVNLIWKH\
ZRXOGFUHDWHVHFXULWLHV²SDFNDJHVRIPRUWJDJHVFDOOHGFROODWHUDOL]HGGHEW
7KH:DOO
REOLJDWLRQVRU&'2V²WKDW3DXOVRQ &RFRXOGZDJHUDJDLQVW   
6WUHHW-RXUQDO
'HXWVFKH%DQNDQG*ROGPDQ6DFKV>@GLGQ¶WVHHDQ\WKLQJZURQJZLWK0U
³3URILWLQJ
3DXOVRQ¶VUHTXHVWDQGDJUHHGWRZRUNZLWKKLVWHDP   >6HQLRU%HDU
IURPWKH
6WHDUQVWUDGHU@0U(LFKHOVDLGKHIHOWLWZRXOGORRNLPSURSHUIRUKLVILUP
&UDVK´
µ2QWKHRQHKDQGZH¶GEHVHOOLQJWKHGHDOV¶WRLQYHVWRUVZLWKRXWWHOOLQJ
WKHPWKDWDEHDULVKKHGJHIXQGZDVWKHLPSHWXVIRUWKHWUDQVDFWLRQ¶´

7KH:DOO
6WUHHW-RXUQDO ³(YHU\ZHHN*ROGPDQDQDO\VWVRIIHUVWRFNWLSVDWDJDWKHULQJWKHILUPFDOOVD
³*ROGPDQ¶V µWUDGLQJKXGGOH¶%XWIHZRIWKHWKRXVDQGVRIFOLHQWVZKRUHFHLYH
7UDGLQJ7LSV *ROGPDQ¶VZULWWHQUHVHDUFKUHSRUWVHYHUKHDUDERXWWKH
5HZDUG,WV UHFRPPHQGDWLRQV   6RPHRIWKHLUUHFRPPHQGDWLRQVGLIIHUIURPUDWLQJV
SULQWHGLQ*ROGPDQ¶VZLGHO\FLUFXODWHGUHVHDUFKUHSRUWV´
%LJJHVW
&OLHQWV´

,QYHVWRU¶V
%XVLQHVV'DLO\
³%DQNLQJ
³>*ROGPDQ@ PDGHPRQH\IRU\HDUVLVVXLQJDQGXQGHUZULWLQJPRUWJDJH
*LDQW6WDQGV
EDFNHGVHFXULWLHV     7KHQLWIDPRXVO\PDGHPRQH\E\VHOOLQJWKHPVKRUW
7DOO$PLG
HVVHQWLDOO\FRUUHFWO\EHWWLQJWKDWWKHPDUNHWZRXOGFROODSVH´
:UHFNDJHRI
)LQDQFLDO
,QGXVWU\´

³*ROGPDQ¶VUROHLQWKHILQDQFLDOL]DWLRQRI$PHULFDZDVVLPLODUWRWKDWRI
7KH1HZ<RUN RWKHUSOD\HUVH[FHSWIRURQHWKLQJ*ROGPDQGLGQ¶WEHOLHYHLWVRZQK\SH
2WKHUEDQNVLQYHVWHGKHDYLO\LQWKHVDPHWR[LFZDVWHWKH\ZHUHVHOOLQJWR
7LPHV
WKHSXEOLFDWODUJH*ROGPDQIDPRXVO\PDGHDORWRIPRQH\VHOOLQJ
³7KH-R\
VHFXULWLHVEDFNHGE\VXESULPHPRUWJDJHV²WKHQPDGHDORWPRUHPRQH\E\
RI6DFKV´
VHOOLQJPRUWJDJHEDFNHGVHFXULWLHVVKRUWMXVWEHIRUHWKHLUYDOXHFUDVKHG´

5ROOLQJ6WRQH
³7KH*UHDW
$PHULFDQ
%XEEOH
0DFKLQH´

7KH:DOO
³2QHRI*ROGPDQ6DFKV*URXS,QF¶VSUHPLHUUHDOHVWDWHIXQGV>:KLWHKDOO@
6WUHHW-RXUQDO
LVLQGLVFXVVLRQVZLWKLWVOHQGHUVWRUHVWUXFWXUHGHEW RQVRPHRILWVELJJHVW
³*ROGPDQ
LQYHVWPHQWV    7KHZULQNOH2QHRIWKHPDLQOHQGHUVRQWKRVHGHDOVLV
7DNHV+HDW
*ROGPDQ6DFKV    &RQFHVVLRQVJUDQWHGE\:KLWHKDOOPD\EHQHILW
IRU&RQIOLFWV
*ROGPDQWKHOHQGHUDWWKHH[SHQVHRI:KLWHKDOOLQYHVWRUV    ´
DW:KLWHKDOO´

* For news published between 4pm and midnight on a trading day, or for news not published on a trading day, the date assigned is the next trading day.

E

D











'DWH

3XEOLF$OOHJDWLRQVRI*ROGPDQ6DFKV&OLHQW&RQIOLFWV
Case 1:10-cv-03461-PAC
Document 193-2 Filed 04/13/18 Page 4 of 7
2Q'DWHV3ULRUWR3ODLQWLIIV¶³&RUUHFWLYH'LVFORVXUH´'DWHV
6RXUFH
$UWLFOH([FHUSW (PSKDVLV$GGHG

A-2954

691

3

2009

29

DEC

2009

24

DEC

2009

24

DEC

2009

7

DEC

2009

19

NOV

2009

³0U3DXOVRQSHUVXDGHG*ROGPDQ6DFKVDQG'HXWVFKH%DQNWRSXWWRJHWKHU
   &'2¶V>@ZKLFKZHUHILOOHGZLWKQDVW\PRUWJDJHVWKDWKHFRXOGWKHQ
VKRUW2IFRXUVHQRERG\WROGWKHVXFNHUV²HULQYHVWRUV²ZKRERXJKWWKRVH
&'2¶VWKDWWKH\ZHUHGHVLJQHGWRKHOSDPDQZKRZDQWHGWKHPRVWWR[LF
PRUWJDJHVLPDJLQDEOHVRKHFRXOGSURILWZKHQWKH\ZHQWVRXU´

7KH1HZ<RUN
7LPHV
³(FRQRP\¶V
/RVV:DV2QH
0DQ¶V*DLQ´

³&RQJUHVVWKH>6(&@DQG>),15$@  DUHQRZH[DPLQLQJKRZWKH&'2V
ZHUHGHYLVHGDQGDSSHDUWREHORRNLQJDWZKHWKHUWKHILUPV>LQFOXGLQJ
*ROGPDQ6DFKV@YLRODWHGVHFXULWLHVODZVRUUXOHVJRYHUQLQJIDLUGHDOLQJLQDQ\
VKRUWVDOHV2QHDVSHFWRIWKHLQYHVWLJDWLRQFHQWHUVRQZKHWKHUWKHILUPV
SXUSRVHO\KHOSVHOHFWULVN\&'2V´

³'XULQJWKHEXEEOH*ROGPDQ6DFKVDQGRWKHUILQDQFLDOILUPVFUHDWHGFRPSOLFDWHG
PRUWJDJHUHODWHGLQYHVWPHQWVVROGWKHPWRFOLHQWVDQGWKHQSODFHGEHWVWKDWWKRVH
LQYHVWPHQWVZRXOGGHFOLQHLQYDOXH   $FFRUGLQJWRLQGXVWU\H[SHUWVLQWHUYLHZHG
WKHVHEHWVSXWWKHILUPV¶LQWHUHVWVFOHDUO\DWRGGVZLWKWKHLUFOLHQWV¶LQWHUHVWV   
'LG*ROGPDQDQGRWKHUILUPVFUHDWHVHFXULWLHVWKDWZHUHERXQGWRIDLOLQRUGHUWR
XSWKHRGGVWKDWLWVFRQWUDU\EHWVZRXOGSD\RII"6RPHRIWKHVHFXULWLHVZHUHVR
SURQHWRIDLOXUHWKDWWKH\VRXUHGZLWKLQPRQWKVRIEHLQJFUHDWHG´

'RZ-RQHV
1HZV6HUYLFH
³&RQJUHVV
5HJXODWRUV
3URELQJ
&UHDWLRQ8VH
RI&'2V²
1<7´
7KH1HZ<RUN
7LPHV
³%HWWLQJ
$JDLQVW
$OORI8V´

³*ROGPDQ DQGRWKHUILUPVHYHQWXDOO\XVHGWKH &'2¶VWRSODFHXQXVXDOO\ODUJH
QHJDWLYH EHWVWKDWZHUHQRWPDLQO\IRUKHGJLQJSXUSRVHVDQGLQYHVWRUVDQGLQGXVWU\
H[SHUWVVD\WKDW SXWWKHILUPVDWRGGVZLWKWKHLURZQFOLHQWV¶LQWHUHVWV´
7KH1HZ<RUN ³*ROGPDQNHSWDVLJQLILFDQWDPRXQWRIWKHILQDQFLDOEHWVDJDLQVWVHFXULWLHVLQ
+XGVRQVRLWZRXOGSURILWLIWKH\IDLOHG    $*ROGPDQVDOHVPDQLQYROYHGLQ
7LPHV
+XGVRQVDLGWKHGHDOZDVRQHRIWKHHDUOLHVWLQZKLFKRXWVLGHLQYHVWRUVUDLVHG
³%DQNV
TXHVWLRQVDERXW*ROGPDQ¶VLQFHQWLYHVµ+HUHZHDUHVHOOLQJWKLVEXWZHWKLQNWKH
%XQGOHG'HEW PDUNHWLVJRLQJWKHRWKHUZD\¶    ´
%HW$JDLQVW
,WDQG:RQ´ ³+RZWKHVHGLVDVWURXVO\SHUIRUPLQJVHFXULWLHVZHUHGHYLVHGLVQRZWKH VXEMHFWRI
VFUXWLQ\E\  &RQJUHVV>DQG@WKH>6(&@    >ZKLFK@DSSHDUWR EHORRNLQJDW
ZKHWKHUVHFXULWLHVODZVRUUXOHVRIIDLUGHDOLQJZHUHYLRODWHGE\ILUPVWKDWFUHDWHG
DQGVROGWKHVHPRUWJDJHOLQNHGGHEWLQVWUXPHQWVDQGWKHQEHWDJDLQVWWKHFOLHQWV
ZKRSXUFKDVHGWKHP    ´

³*ROGPDQZDVSDFNDJLQJDQGVHOOLQJWR[LFGHULYDWLYHVIRUKXQGUHGVRI
ELOOLRQVRIGROODUVWRLQYHVWRUVDURXQGWKHZRUOGWHOOLQJWKRVHLQYHVWRUVWKDW
VXFKGHULYDWLYHVZHUHVDIHDQGVPDUWEHWV$WWKHVDPHWLPH   *ROGPDQ
ZDVDFWXDOO\EHWWLQJDJDLQVWWKRVHYHU\SURGXFWV 7KH\ZHUHOLWHUDOO\VHOOLQJ
SURGXFWVWKDWWKH\ZHUHVRFRQILGHQWZRXOGIDLOWKDWWKH\EHWWHQVRIELOOLRQV
RIGROODUVRIWKHLURZQPRQH\  DJDLQVWWKRVHSURGXFWVWKH\ZHUHWHOOLQJ
LQYHVWRUVZHUHVDIH:HZDQWVRPHSHUSZDONV IRUWKLVREYLRXVIUDXG´

0DUNHW:DWFK
³*6D6KRUW"
$QG)LYH
5HDVRQV:H
+DWH*ROGPDQ
6DFKV´

³3DXOVRQ¶VWHDPZRXOGSLFNDKXQGUHGRUVRPRUWJDJHERQGVIRUWKH&'2V
   >$@VHQLRU%HDU6WHDUQVWUDGHU  ZRUULHGWKDW3DXOVRQZRXOGZDQW
HVSHFLDOO\XJO\PRUWJDJHVIRUWKH&'2V    >2@WKHU EDQNHUVLQFOXGLQJ
*UHJRU\
=XFNHUPDQ   *ROGPDQ6DFKVGLGQ¶WVHHDQ\WKLQJZURQJZLWK3DXOVRQ¶VUHTXHVWDQG
³7KH*UHDWHVW DJUHHGWRZRUNZLWKKLVWHDP   >6@RPH LQYHVWRUVODWHUZRXOGFRPSODLQ
7UDGH(YHU´ WKDWWKH\ZRXOGQ¶WKDYHSXUFKDVHGWKH&'2LQYHVWPHQWVKDGWKH\NQRZQ
WKDWVRPHRIWKHFROODWHUDOEHKLQGWKHPZDVFKRVHQE\3DXOVRQDQGWKDWKH
ZRXOGEHVKRUWLQJLW´

* For news published between 4pm and midnight on a trading day, or for news not published on a trading day, the date assigned is the next trading day.



E

D







NOV

'DWH

3XEOLF$OOHJDWLRQVRI*ROGPDQ6DFKV&OLHQW&RQIOLFWV
Case 1:10-cv-03461-PAC
Document 193-2 Filed 04/13/18 Page 5 of 7
2Q'DWHV3ULRUWR3ODLQWLIIV¶³&RUUHFWLYH'LVFORVXUH´'DWHV
6RXUFH
$UWLFOH([FHUSW (PSKDVLV$GGHG

A-2955

692

2010

14

JAN

2010

13

JAN

2010

13

'RZ-RQHV
&DSLWDO0DUNHWV
³>)LQDQFLDO&ULVLV,QTXLU\&RPPLWWHHKHDG3KLO$QJHOLGHV@
5HSRUW
DVNHG%ODQNIHLQ ZKHWKHUDSUDFWLFHRIEHWWLQJDJDLQVWVRPHRIWKHVXESULPH
³*ROGPDQ
PRUWJDJHVHFXULWLHV*ROGPDQZDVVHOOLQJWRLQYHVWRUVZDVDFRQIOLFWRI
&KLHI7HVWLILHV
LQWHUHVW+HUHSOLHGWKDW*ROGPDQGLGQ¶WKDYHDOHJDOREOLJDWLRQWRGLVFORVH
7KDW+H6XSSRUWV
ZKHQLWZDVEHWWLQJDJDLQVWWKHVHFXULWLHVLWZDVVHOOLQJ´
)LGXFLDU\
6WDQGDUG´
* For news published between 4pm and midnight on a trading day, or for news not published on a trading day, the date assigned is the next trading day.

D

:.::.::=.::..-=-

-·----~-

E

D

JAN

2010

12

JAN

2010

11

³>:6-FRPPHQWHUV@ZRQGHULI%ODQNIHLQ GDUHVWRXFKRQ*ROGPDQ6DFKV¶
'RZ-RQHV VDFUHGEXVLQHVVSULQFLSOHV    $QJHOLGHV>&KDLUPDQRIWKH)LQDQFLDO&ULVLV
1HZV6HUYLFH ,QTXLU\&RPPLVVLRQ@LVWDONLQJDERXWKRZ*ROGPDQZRUNVERWKVLGHVRIDQ\
³/LYH
WUDGH 1RZ%ODQNIHLQ ZLOOKDYHWRH[SODLQZKDWDEURNHUDFWXDOO\GRHV
%ORJJLQJ
7RREDGµPDUNHWPDNLQJ¶ZRQ¶WEHXQGHUVWRRGE\PRVWIRONVZDWFKLQJ
WKH)LQDQFLDO WRGD\¶VVKRZ+H¶VJLYLQJLWWKHFROOHJHWU\²EXWLW¶VKDUGWRORYHDQ\
&ULVLV,QTXLU\´ µPLGGOHPDQ¶²HVSHFLDOO\ZKHQWKHPLGGOHPDQLVRULJLQDWLQJWKH SURGXFW
VHOOLQJWKHSURGXFWDQGWKHQIUHHO\VKRUWLQJWKHSURGXFW´

³)RU\HDUV:DOO6WUHHWZKLVSHUHGWKDW *ROGPDQ6DFKVSURILWHGKDQGVRPHO\
E\WUDGLQJDKHDGRI²RUHYHQDJDLQVW²LWVRZQFOLHQWV    /DVWPRQWKWKH
>6(&@DQG&RQJUHVVEHJDQLQYHVWLJDWLQJKRZ*ROGPDQDQGRWKHUILUPVKDG
FUHDWHG  &'2¶V>@WKDWZHUHVROGWRLQYHVWRUVDWWKHVDPHWLPHWKDWWKH
EDQNVKDGSULYDWHO\EHWDJDLQVWWKHLQVWUXPHQWV6RPHRIWKHVH&'2¶V
ODWHUIHOOLQYDOXHFUHDWLQJORVVHVIRUWKRVHFOLHQWVZKRERXJKWWKHP²DQG
SURILWVIRU*ROGPDQ´
7KH1HZ<RUN
7LPHV
³$W*ROGPDQ
(0DLO
0HVVDJH/D\V
%DUH&RQIOLFWV
LQ7UDGLQJ´



³$VHQLRU*ROGPDQ6DFKVH[HFXWLYHVHQWDQHPDLOPHVVDJHWRFOLHQWVRQ
7XHVGD\GLVFORVLQJWKDWWKHILUP¶V)XQGDPHQWDO6WUDWHJLHV*URXSPD\KDYH
VKDUHGLQYHVWPHQWLGHDVZLWKWKHILUP¶VSURSULHWDU\WUDGLQJJURXSRUVRPH
FOLHQWVEHIRUHVKDULQJWKHPZLWKRWKHUV7KHHPDLO  GHPRQVWUDWHVWKH
YDULRXVFRQIOLFWVWKDW*ROGPDQDQGRWKHUILUPVIDFHLQEDODQFLQJWKHLQWHUHVWVRI
LWVYDULRXVFOLHQWVDQGLWVRZQWUDGLQJRSHUDWLRQ    *ROGPDQDQGRWKHUILUPV
KDVFRPHXQGHUFULWLFLVPIRUWUDGLQJDKHDGRIRUDWRGGVZLWKLWVRZQFOLHQWV´

7KH1HZ<RUN
7LPHV
³*ROGPDQ
$FNQRZOHGJHV
&RQIOLFWV
:LWK&OLHQWV´



JAN

³0U%ODQNIHLQ\RXUILUPDQGRWKHUV FUHDWHGDQGVROG EXQGOHVRIPRUWJDJHV
NQRZQDVFROODWHUDOL]HGGHEWREOLJDWLRQVWKDWLWVLPXOWDQHRXVO\VROGVKRUW RU
EHWDJDLQVW 7KHVH&'2¶VWXUQHGRXWWREHEDGLQYHVWPHQWVIRUWKHSHRSOH
ZKRERXJKWWKHPEXW>WKH@VKRUWEHWVSDLGRIIIRU*ROGPDQ6DFKV   
&RXOG\RXH[SODLQKRZ *ROGPDQEHWDJDLQVWWKHVH&'2¶VZKLOH
VLPXOWDQHRXVO\WU\LQJWRSHUVXDGHUDWLQJVDJHQFLHVDQGLQYHVWRUVWKDWWKH\
ZHUHJRRGLQYHVWPHQWV"´

7KH1HZ<RUN
7LPHV
³:KDWWKH
)LQDQFLDO
&ULVLV
&RPPLVVLRQ
6KRXOG$VN´

30



³*ROGPDQ¶VZDJHUVDJDLQVWPRUWJDJHVHFXULWLHV  DUHQRZWKHVXEMHFWRI
DQLQTXLU\E\WKH>6(&@    *ROGPDQ¶V&D\PDQVGHDOVZHUH ULGGOHGZLWK
SRWHQWLDOFRQIOLFWVRILQWHUHVW ZKLFK*ROGPDQGLVFORVHGGHHSLQ
SURVSHFWXVHV     *ROGPDQLQVHUWHGWKHFUHGLWGHIDXOWVZDSVLQWR&'2
GHDOVµOLNHD7URMDQ+RUVH²VHFUHWEHWVWKDWWKHVDPHW\SHVRIERQGVWKDW
WKH\ZHUHVHOOLQJWRWKHLUFOLHQWVZRXOGLQIDFWIDLO¶´

0F&ODWFK\
:DVKLQJWRQ
%XUHDX
DEC
³*ROGPDQ¶V
2IIVKRUH'HDOV
'HHSHQHG
2009
*OREDO)LQDQFLDO
&ULVLV´

'DWH

3XEOLF$OOHJDWLRQVRI*ROGPDQ6DFKV&OLHQW&RQIOLFWV
Case 1:10-cv-03461-PAC
Document 193-2 Filed 04/13/18 Page 6 of 7
2Q'DWHV3ULRUWR3ODLQWLIIV¶³&RUUHFWLYH'LVFORVXUH´'DWHV
6RXUFH
$UWLFOH([FHUSW (PSKDVLV$GGHG

A-2956

693

14

2010

17

MAR

2010

10

MAR

2010

5

MAR

2010

12

FEB

2010

8

FEB

2010

3

FEB

³$LU3URGXFWVFRQWHQGVWKDW$LUJDV¶VDWWHPSW  WREDU&UDYDWK IURPDGYLVLQJ
RQWKHWDNHRYHUELGLVDµGLVLQJHQXRXV¶FKHDSVKRW $LUJDVKDVVDLGIRUPRQWKV
WKDW&UDYDWK   KDVFRQILGHQWLDOLQIRUPDWLRQWKDWLWWKHQXVHGWRKHOSDULYDO 
  $LU3URGXFWVFRQWHQGVWKDWDSULPDU\$LUJDVDGYLVHU*ROGPDQ6DFKV
IDFHVMXVWDVPXFKRIDSUREOHP*ROGPDQDGYLVHG$LU3URGXFWVRQSRWHQWLDO
GHDOPDNLQJRSSRUWXQLWLHVDQGGHIHQVHVDVUHFHQWO\DV2FWREHU    ´

³7KHFULWLFLVPRIFUHGLWGHIDXOWVZDSVVWHPVLQSDUWIURPWKHPXOWLSOHDQGDWWLPHV
VHHPLQJO\ FRQIOLFWHGUROHVWKDWLQYHVWPHQWEDQNVOLNH*ROGPDQ6DFKVRIWHQSOD\
LQWKHPDUNHWV    *ROGPDQDQGRWKHUVKHOSHGWKH*UHHNJRYHUQPHQWOHJDOO\
PDVNLWVGHEWV     %XWMXVWDVWKHWUXHH[WHQWRI*UHHFHGHEWVEHJDQWRZRUU\
LQYHVWRUV*ROGPDQSXWRQDQRWKHUKDW   >,@WVHQWFOLHQWVDSDJHSULPHURQ
FUHGLWGHIDXOWVZDSV  >ZKLFK@HQDEOH>@LQYHVWRUVWR  EHWDJDLQVWFHUWDLQ
ERUURZHUV   *ROGPDQIROORZHGXSZLWKLWV$XJXVWUHSRUW  ZKLFKVDLG   
µ%X\&'6RIGHYHORSHGVRYHUHLJQV   ¶´

³$VNHGDERXWPRUWJDJHVHFXULWLHVWKDW*ROGPDQERWKVROGWRFOLHQWVDQGEHW
DJDLQVW%ODQNIHLQZKLOHH[SUHVVLQJUHJUHWIRUZKDWKHDGPLWWHGZDV
LPSURSHUEHKDYLRUDGGHGµ,QRXUPDUNHWPDNLQJIXQFWLRQZHDUHD
SULQFLSDO:HUHSUHVHQWWKHRWKHUVLGHRIZKDWSHRSOHZDQWWRGR¶´

7KH1HZ<RUN
7LPHV
³&DOOV
,QFUHDVHIRU
&UDFNGRZQRQ
'HULYDWLYHV´
7KH1HZ<RUN
7LPHV
0DJD]LQH
³:KR1HHGV
:DOO6WUHHW"´

)LQDQFLDO7LPHV ³7KH*OD]HUIDPLO\>RZQHUVRI0DQFKHVWHU8QLWHG)RRWEDOO&OXE@ DUH
FRQVLGHULQJVHYHULQJWLHVZLWK*ROGPDQ6DFKVDIWHU-LP2¶1HLOOWKHEDQN¶V
³*ROGPDQ
/RRNLQJDW FKLHIHFRQRPLVWZDVUHYHDOHGDVDPHPEHURIDFRQVRUWLXPORRNLQJWREX\
DQ2ZQ*RDO´ WKHIRRWEDOOFOXE´

7KH1HZ<RUN
7LPHV
³$LU3URGXFWV
5HYLVHV,WV
$LUJDV
/DZVXLW´

7KH1HZ<RUN
7LPHV
³7HVW\&RQIOLFW
³0U(JRO >RI*ROGPDQ6DFKV@ VWUXFWXUHGDJURXSRIGHDOV²NQRZQDV
:LWK*ROGPDQ
$EDFXV²VRWKDW*ROGPDQFRXOGEHQHILWIURPDKRXVLQJFROODSVH´
+HOSHG3XVK
$,*WR
3UHFLSLFH´

)LQDQFLDO7LPHV
³6(&$VNV ³,Q'HFHPEHUWKH6(&VHQWVXESRHQDVWREDQNVLQFOXGLQJ   *ROGPDQ
3DXOVRQ+HGJH 6DFKV     7KH6(&LVH[DPLQLQJZKHWKHUWKHEDQNVWRRNQHJDWLYH
SRVLWLRQVRQ>&'2V@DWWKHVDPHWLPHWKH\PDUNHWHGWKHPWRLQYHVWRUV´
)XQGIRU
,QIRUPDWLRQ´

)LQDQFLDO7LPHV
³:DOO6WUHHW ³>7KH)LQDQFLDO&ULVLV,QTXLU\&RPPLWWHH@DFFXVHG0U %ODQNIHLQ   
%DQNHUVRQ
RIDFRQIOLFWRILQWHUHVWLQVHFXULWLVLQJ PRUWJDJHEDFNHGVHFXULWLHVDWWKH
'HIHQVLYHLQ
VDPHWLPHDVWDNLQJDWUDGLQJSRVLWLRQDJDLQVWWKHP´
2010
*ULOOLQJ2YHU
)LQDQFLDO&ULVLV´

JAN

* For news published between 4pm and midnight on a trading day, or for news not published on a trading day, the date assigned is the next trading day.













E

'DWH

3XEOLF$OOHJDWLRQVRI*ROGPDQ6DFKV&OLHQW&RQIOLFWV
Case 1:10-cv-03461-PAC
Document 193-2 Filed 04/13/18 Page 7 of 7
2Q'DWHV3ULRUWR3ODLQWLIIV¶³&RUUHFWLYH'LVFORVXUH´'DWHV
6RXUFH
$UWLFOH([FHUSW (PSKDVLV$GGHG

A-2957

694

695
A-3146

696
A-3147

697
A-3148

698
A-3149

699
A-3150

700
A-3151

701
A-3152

702
A-3153

703
A-3154

704
A-3155

705
A-3156

706
A-3157

707
A-3158

708
A-3159

709
A-3160

710
A-3161

711
A-3162

712
A-3163

713
A-3164

714
A-3165

715
A-3166

716
A-3167

717
A-3168

718
A-3169

719
A-3170

720
A-3171

721
A-3172

722
A-3173

723
A-3174

724
A-3175

725
A-3176

726
A-3177

727
A-3178

728
A-3179

729
A-3180

730
A-3181

731
A-3182

732
A-3183

733
A-3184

734
A-3185

735
A-3186

736
A-3187

737
A-3188

738
A-3189

739
A-3190

740
A-3191

741
A-3192

742
A-3193

743
A-3194

744
A-3195

745
A-3196

746
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
10 Civ. 03461 PAC
————
IN RE: GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION,
Plaintiffs,
v.
GOLDMAN SACHS GROUP, INC.,
Defendants.
————
July 25, 2018
10:00 a.m.
————
Before:
HON. PAUL A. CROTTY,
District Judge
————
APPEARANCES
LABATON SUCHAROW, LLP
Attorneys for plaintiffs
BY:

THOMAS A. DUBBS, Esq.
JAMES W. JOHNSON, Esq.
LAWRENCE A. SUCHAROW, Esq.
JEFFREY A. DUBBIN
- and -

747
ROBBINS GELLER RUDMAN & DOWD, LLP
(San Diego)
BY:

ROBERT R. HENSSLER, JR.
JONAH H. GOLDSTEIN
SPENCER A. BURKHOLZ, Esq.
Of counsel

SULLIVAN & CROMWELL, LLP (NYC)
Attorneys for defendants
BY:

ROBERT J. GIUFFRA, JR., Esq.
RICHARD H. KLAPPER, Esq.
DAVID MAXWELL REIN, Esq.
JACOB E. COHEN, Esq.
BENJAMIN R. WALKER, Esq.
JULIA A. MALKINA, Esq.
* * *

[154] THE COURT:

Dr. Finnerty.

MR. HENSSLER: For the record, Bobby Henssler
from Robbins Geller.
JOHN D. FINNERTY, called as a witness by the
plaintiffs, having been duly sworn, testified as follows:
THE COURT:

Go ahead, Mr. Henssler.

DIRECT EXAMINATION BY MR. HENSSLER:
Q. Dr. Finnerty, there should be a copy of what has
been marked as Exhibit 113 in front of you. Do you
have that?
A. I do.
MR. HENSSLER: I have also given a copy to the
court and defense counsel.

748
BY MR. HENSSLER:
Q. What is Exhibit 113, Dr. Finnerty?
A. 113 is a set of Power Point demonstratives that
I have prepared to assist the court in following my
testimony this afternoon.
Q. Could you please tell the court about your
educational background.
A. I have undergraduate degrees in mathematics
and economics, and I have a master’s degree in
economics from Cambridge University in the United
Kingdom. I also have a Ph.D in operations research
from the Naval Postgraduate School.
[155] Q. Would you also tell the court about your
professional experience.
A. Yes. There are really two strands, and I will
start with the business experience.
When I finished my doctorate, I joined Morgan
Stanley as an associate in its corporate finance
department. I worked for 20 years either in
investment banking or with an affiliate of an
investment bank. So after Morgan Stanley I went to
Lazard.
I then joined — I formed a thrift called College
Savings Bank which invented a product which I
co-invented to help people save for their college
education, and I designed the inflation hedging
strategy for that product.
I then went back to investment banking. I worked
for McFarland Dewey and then Houlihan Lokey
Howard & Zukin.

749
In 1997 I joined PricewaterhouseCoopers in their
financial advisory services practice, where I worked
primarily in litigation support.
I left in 2001 when the accounting firms got out of
the consulting businesses and joined Analysis Group.
In 2003, I form my own consulting firm, which I sold
to Alix Partners in 2013 and became a managing
director. I retired at the very end of 2016 as a
managing director, and today I am an academic
affiliate with Alix Partners.
In addition, starting in 1987, I began teaching at
[156] Fordham University. I joined the full-time
faculty in 1989. I received tenure in 1991. And for
three years in the — within the last decade or so, I was
the founding director of the Masters of Science in
Quantitative Finance Program. So today I am an
academic affiliate at Alix Partners, doing primarily
litigation and valuation work, and also a full professor
at Fordham University, teaching finance.
Q. Are you currently teaching?
A. Yes. I am on faculty. The school year is over, and
I’m on sabbatical until the fall of 2019, but I’m on the
faculty.
Q. Dr. Finnerty, have you previously been retained
as a expert witness in financial economics?
A.

Yes.

Q. About how many times?
A.

More than 300.

Q. And about how many times have you offered
expert testimony in the area of financial economics?
A. Oh, between 175 and 200 times.

750
Q. Let’s get right to your analysis.
Dr. Finnerty, did you review Dr. Gompers’ reports?
A.

Yes.

Q. And starting with this next slide, slide 8, does
this summarize your analysis of Dr. Gompers’s
opinions?
A.

Yes.

Q. What did your analysis of Dr. Gompers’s
articles and [157] opinions show?
A. My opinion is that none of Dr. Gompers’s 34
dates — I realize there are two other dates as a result
of defendants’ counsel giving Professor Gompers some
additional news, so his testimony talked about 36
dates, which is the reason why there appears to be a
discrepancy between my slide 8 and his testimony. But
whether it is 34 dates or 36 dates, my conclusion, after
analyzing each of them carefully and looking at all of
the information surrounding those, as well as within
those news announcements, is that they were not
corrected disclosures. Most of the articles only raised
the possibility of conflicts of interest. Dr. Gompers
failed to consider confounding information.
Q. Can I stop you right there? What is confounding
information?
A. Confounding
information
is
additional
information that would be material or significant to
investors that is different from the critical information
that one is analyzing.
Q. What else did your analysis of Dr. Gompers’
articles find?
A. Almost all of the articles contained denials by
Goldman. I know there was some testimony that one

751
of my reports identified 13 denials. There were 13
direct denials, but there are — actually 35 of the 40
articles have denials either by Goldman or someone
speaking on behalf of Goldman or a writer of the
article. So it’s really 35 out of 40, which is 88 percent
of [158] the articles, and the other five really had
nothing to do with the conflicts of interest that are at
issue in this case.
I find also that almost all of the articles contained
market commentary that Goldman’s conduct was legal
and/or appropriate.
And finally I, after analyzing the April 16 SEC
enforcement action, concluded that the SEC lawsuit
and the subsequent investigations that are at issue did
reveal new information that Goldman violated its
business principles and conflict policies as alleged in
the complaint.
Q. And when you were asked at your deposition
about the number of denials, you explained to defense
counsel that there is a difference between an indirect
denial and a direct denial. Can you explain for the
court what you mean by that?
A. Yes. The direct denials were articles such as one
that contained a comment by Louis van Praag — I
think it is Louis van Praag — that was cited in the
opening by Mr. Goldstein where he says, There were
no conflicts, so it is a direct denial. There are many,
many articles in which representatives of Goldman or
other parties say things like, We shorted securities as
part of our normal underwriting. We bought and sold
CDOs because we were providing liquidity to the
market. We were buying and selling these securities
because we were acting as market-maker. There are
comments like David Viniar’s comment that they can’t

752
avoid conflicts of interest; they have [159] to manage
them.
So Goldman in many cases were making statements
to the effect they had done nothing wrong; and, in my
mind, if you tell the world you have done nothing
wrong, you are in effect denying that you have in fact
done something wrong. And so when you include
those, as well as the denials by other parties, 35 of the
40 articles have denials in them.
Q. Directing your attention to slide 9, what are you
showing the court with slide 9?
A. Slide 9 is the first of a series of six slides in
which I provide my opinion with regard to six specific
articles that are at issue in this case in which I
highlight in the box towards the top of the slide at least
part of what Professor Gompers highlights as the
corrective disclosure, and below that I have a series of
bullet points that explain why I believe that they were
not corrective disclosure, and if I found a particularly
appropriate quotation, I then would highlight — did
highlight it at the bottom of the slide in its own box.
Q. So these next six slides are examples of your
analysis of Dr. Gompers’ articles?
A. That’s correct.
Q. What does your analysis of this December 6,
2007, Financial Times article show?
A. This article, my analysis leads me to conclude
that, first [160] of all, the article did not disclose the
fact that Goldman had failed to manage its conflicts of
interest effectively and had violated its business
principles, risking damage to its reputation.

753
Secondly, the article raised the possibility of
conflicts of interest but didn’t describe an actual
conflict like those in the CDOs that are at issue in this
case. In the article Goldman explicitly denied
wrongdoing, and the author also stated that he did not
believe that Goldman had done anything wrong, and I
cited this quotation in particular, a quote, “But there
is no evidence that Goldman did wrong by issues
Mr. Hatzius’s research or conversing with Mr. Paulson
about financial conditions, if it actually did the latter.
I do not believe that Goldman broke insider trading
laws. It would be stupid to risk its reputation in this
way, and it is anything but stupid.”
Q. Let’s look at your next example, Dr. Finnerty.
Directing your attention to the next slide, which is
slide 10. Is this another example of an article that you
analyzed from Dr. Gompers?
A.

Yes.

Q. What did your analysis of this show?
A. The article did not disclose the fact that
Goldman had failed to manage its conflicts of interest
and it violated its business principles, risking damage
to its reputation. It [161] again raised the possibility
of conflicts.
And I note also that Goldman had previously
explicitly denied any wrongdoing in its sale of CDOs
in articles published December 3, 2007 in the New
York Times; December 5, 2007, in the Financial Times;
and December 6, 2007, in the Financial Times. And
certainly an efficient market would be fully aware of
those denials and would take those into account in
interpreting this additional article and assessing
whether it involved significant new information.

754
Q. And you highlighted the words “sounds like”
here, right?
A. That is correct. “Sounds like a massive conflict
of interest.” It’s a possibility of a conflict.
Q. And let’s look at your next slide, Dr. Finnerty,
which is slide 11, for the record. This is a December
14, 2007 Wall Street Journal article I think
Dr. Gompers testified about earlier.
What does your analysis of this article show,
Dr. Finnerty?
A. This article shows that Goldman, again, did not
disclose the fact that it had failed to manage its
conflicts of interest, and it violated its business
principles, risking damage to its reputation. The
article, for example, talks about raising questions
about certain behavior, talks about the structured
products group executing winning trades, and it also
points out that when Goldman is trading for its own
account it [162] doesn’t necessarily have to share that
information with others. The article merely raises the
possibility of conflicts of interest, indicated that
Goldman appropriately managed its conflicts of
interest, which is a theme that runs through many of
the 40 articles that are cited by the defendants and, as
with the previous slide, Goldman’s prior denials that
they disclosed everything and managed any potential
conflicts and done nothing wrong were already in the
marketplace.
Q. And why is that important in your analysis,
Dr. Finnerty, that the prior denials were already in
the marketplace?
A. It is important because in an efficient market,
any investor, any reader of the article is going to have

755
that information available, and he or she will use that
information or bear that in mind when assessing the
significance of what’s in the article. And if someone is
repeatedly saying they did everything right and why
they did it right by hedging their risks, providing
liquidity to investors, managing its conflicts of interest
and so on, it is going to make it more difficult for
someone to question whether that entity has
misbehaved, unless there is very specific evidence as
to what the misbehavior was.
Q. Directing your attention to the next slide,
Dr. Finnerty, which is slide 12, November 2, 2009, I
think this is The Greatest Trade Ever book that
Dr. Finnerty (sic) testified about earlier.
[163] Did you analyze that book?
A. I did. I read the excerpt that pertains to
Mr. Paulson, which part of which is cited here.
Q. What did your analysis show, Dr. Finnerty?
A. The book did not disclose the fact that Goldman
had failed to manage its conflicts of interest and it
violated its business principles, risking damage to its
reputation. The book contained a mix of information,
including Paulson’s denials. Paulson is quoted as
saying, “We didn’t create any securities. It was
negotiation. We threw out some names. They threw
out some. But the bankers ultimately picked the
collateral.” It appears as though Mr. Paulson certainly
had a hand in that. The author of the book conveyed
that Goldman denied any wrongdoing, and there were
two articles that were published the very same day,
one entitled “Profiting from the Crash in the Wall
Street Journal. The other entitled “How Goldman
Secretly Bet on the U.S. Housing Crash,” that was
published by the McClatchy Washington Bureau in

756
which Goldman Sachs explicitly denied any
wrongdoing for the very same sort of behavior which
is described in this excerpt from The Greatest Trade
Ever. The excerpt in fact really suggested that all of
the relevant trading that was done by Goldman was
really done in their role as a market-maker supplying
liquidity to the marketplace. That’s a very favorable
activity. There was just an article yesterday in the
Wall Street Journal about declining [164] liquidity in
the bond market. If a broker-dealer is providing
liquidity, that is something that is viewed very much
as a positive in the marketplace.
Q. Let’s go to your next example, Dr. Finnerty,
slide 13, which is the December 5, 2009, New York
Times book review of The Greatest Trade Ever. Did you
analyze the Times book review?
A. I did.
Q. What did your analysis show?
A. First of all, I just comment on the quotation.
Both Goldman Sachs and Deutsche Bank are quoted
or cited as firms that had approved of what
Mr. Paulson wanted to do. So it is indicating pretty
clearly by name there is at least one other major
broker-dealer that had approved a similar strategy or
the same strategy. I find that the article did not
disclose the fact that Goldman had failed to manage
its conflicts of interest and had violated its business
principles, risking damage to its reputation. The news
in the article was really old news. It is a book review
of The Greatest Trade Ever.
Q. Why is that relevant now, Dr. Finnerty,
whether the news was old news?

757
A. In an efficient market, the market will not react
to a statistically significant degree to old news. It will
already be fully incorporated into the share price.
And lastly, the article focused on Paulson, rather
[165] than Goldman, and it doesn’t contain any
discussion of the structure of ABACUS, which is really
what is at issue in the conflict of interest, the fact that
the ABACUS CDO was structured in a way that
benefited Paulson at the expense of ACA and the two
main investors, IKB and ABN Amro.
Q. Directing your attention to slide 14,
Dr. Finnerty, I think it is the last of your examples.
This is the December 24, 2009, New York Times article
that we have heard a bunch about already today from
defendants’ experts. Did you analyze this article?
A. I did.
Q. What did your analysis of the Christmas Eve ‘09
New York Times article show?
A. The article talks about authorities appear to be
looking at whether securities laws were broken. So
this article, again, may really raise the possibility of
conflicts of interest or other sorts of misbehavior. The
article did not disclose the fact that Goldman had
failed to manage its conflicts of interest and it violated
its business principles, risking damage to its
reputation. The article, like many others, indicated
that Goldman had appropriately managed its
potential conflicts of interest, and the article included
direct denial by Goldman.
I cite down below a relevant quotation to support
that. “Goldman and other Wall Street firms maintain
there is [166] nothing improper about synthetic CDOs.
Mr. DuVally,” who was a Goldman spokesman, “said

758
many of the CDOs created by Wall Street were made
to satisfy client demand,” again indicating there is
nothing wrong with it, with the fact they were created
in response to client demand to benefit the clients. And
it states that “clients knew Goldman might be betting
against mortgages linked to the securities.” This is
also a theme that comes out in many of the disclosures
Goldman saying or Goldman reps saying investors
were alerted and warned that Goldman Sachs would
trick a trade against them, and said that they were
advised that Goldman was placing large bets against
these particular securities.
Q. Dr. Finnerty, we just went through six
examples of your analysis of Dr. Gompers’ articles and
the defendants’ additional articles. Did you analyze all
of their articles?
A.

Yes, I did.

Q. Did any of the either Dr. Gompers’ articles or
the defense counsel’s additional articles, did any of
those disclose that Goldman had in fact failed to
manage its conflicts and it violated its business
principles policies?
A.

No, they did not.

Q. Okay. Directing your attention to the next slide,
Dr. Finnerty, we are up to 15.
Dr. Finnerty, what are you showing the court with
slide 15?
[167] A. Slide 15 shows examples of market
commentary confirming that Dr. Gompers’ 34 dates
evidence did not disclose Goldman severe conflicts and
did not have an impact on Goldman’s reputation.
These really indicate that the investors and securities
analysts in the marketplace had in fact read what

759
Goldman had written in its 10-Ks and annual reports
about its conflict of interest policies and its adherence
to its business principles and the value of its
reputation, and that those repeated 18 affirmative
statements and the repeated denials are in fact
reflective of — the benefit of those to Goldman here
are reflected in these comments, these very favorable
comments from securities analysts, and I have just
given three of what would be many possible examples
of that.
Q. Could you tell us about the one in the middle,
the Merrill Lynch analyst report from March 13, 2007?
The heading of the article is “Conflict Management
Skill Maximizes Franchise Value.” What is franchise
value?
A. Franchise value is the value of the equity, the
value of the company. And the argument in — that the
analyst from Merrill Lynch is making in this
particular analyst report is that Goldman Sachs’s skill
in managing conflicts is something that has
contributed to the value of Goldman Sachs’s
enterprise. There is value — and that value is being
perceived in the marketplace. That ties back directly
to the allegations in this case because the conflict of
interest [168] management was in fact very important
in the minds of investors. It was part of the overall risk
management. Goldman at the time was really
perceived in the market as a firm that was skilled at
managing all of its risks, including the risk of a conflict
violation. And the article says, you will note,
“consistency with this conflict management with
which the” — “the consistency with which the firm has
avoided crossing the line and damaging its reputation
is such that it must be doing something right. The
conflict management process is clearly taken

760
extremely seriously . . . It is viewed as not just a byproduct, but a key pillar of the firm’s franchise
business.” This ties directly to the business principle
statements, that clients come first and the conflict of
management statements that they can’t avoid these
conflicts, they manage them.
It goes on to say, “The process is highly structured
and rigorous. 20 percent of the conflicts end up at the
top of the firm,” which is actually pretty incredible,
and it would signal to the market this is so important
that the CEO, CFO, and COO are going to be involved
in 20 percent of these conflict management decisions.
And then it concludes by saying “Goldman manages
conflicts, rather than simply avoiding them,” which
also ties to statements Goldman made in its 10-Ks and
annual reports and statements made a number of
times by David Viniar, and it does [169] so in order to
maximize the value of its franchise.” This activity
enhanced the value of Goldman Sachs in the
marketplace.
Q. In your analysis of these reports, and you said
there were others like this, did these analyst reports
show that the market believed the Goldman Sachs
denials that you were talking about earlier?
A.

Yes.

Q. Just one more question on this slide. The
Merrill Lynch report from July 28, 2008, so now it is
over a year later than the last one you talked about,
the last section you bolded states “the absence of major
conflicts problems.”
Why did you bold that passage, Dr. Finnerty?
A. I bolded that because the four CDO transactions
that are at issue in this case had all closed, so all the

761
selling activity and alleged conflicts had already
occurred. Hudson closed in December of ‘06, ABACUS
closed in April of ‘07, and Timberwolf and Anderson
closed in March of ‘06. So all four of those transactions
had all closed more than a year prior to the statement,
and yet the Merrill Lynch analyst is saying that there
is an absence of any major conflicts.
Q. I want to move on to the next slide, Dr.
Finnerty. This is slide 16, for the record.
Can you explain for the court the difference between
an effective denial and an ineffective denial?
[170] A. Yes. The basic difference is whether the
denial is credible or not, and I have highlighted what
I mean by that in the body of the text.
Goldman’s denials prior to April 16, 2010, and its
denial on April 16, 2010, about which there was
testimony a few moments ago, they are fundamentally
different. Before the SEC lawsuit, when Goldman
issued its denials and testified in the 40 news articles
cited by Professor Gompers, 35 of them are
accompanied by denials. Those denials, coupled with
the 18 affirmative statements about the conflicts of
interest management policies, the adherence to
business principles, and the importance of Goldman’s
reputation, all of which are alleged in the complaint,
before the SEC lawsuit is filed, when Goldman issued
its denials, those denials were credible because there
was no evidence that Goldman had really done
anything wrong.
Once the SEC complaint was filed, now you had
SEC, the major regulator of Goldman Sachs, laying
out in a very detailed, 22-page complaint exactly
what it had found wrong. And included in there
were new information about the nature of the

762
misrepresentations to ACA about Paulson’s supposed
long position which in fact was a very large short
position. There were more than a dozen e-mails. It
made very clear that what Goldman was saying and
people were saying internally was very different from
what they were telling IKB, ABN Amro, and ACA.
[171] And the complaint also makes clear, really for
the first time, that at the time the ABACUS
transaction
closed,
Goldman
had
in
fact
misrepresented to IKB and ACA Holding, the parent
of ACA, that took a 909-million-dollar long position in
CDSs on that transaction, that Goldman had
misrepresented Paulson’s role and, as a result, had
defrauded them, allegedly defrauded them.
[172] BY MR. HENSSLER:
Q. One more question before we move on to your
analysis of Dr. Choi’s opinions.
Are you familiar with what has previously been
marked as the Johnson Declaration Exhibit 15 to
plaintiff’s April 27, 2018 briefs? And, for the record
and for the Court, that’s Exhibit 73 to today’s
Plaintiff’s Exhibits.
Are you familiar with that exhibit?
A.

Yes.

Q. And did you review what’s been referred to as
Johnson Exhibit 15?
A.

Yes.

Q. And what’s your opinion of Johnson Exhibit 15?
A. Johnson Exhibit 15 is consistent with the
analysis I did, but Mr. Johnson has a much more
detailed analysis of the articles and has a different
way of identifying the set of reasons why those various

763
articles were not corrected disclosures and, in
particular, Johnson Exhibit 15 distinguishes, very
clearly, between Goldman denials, whether they’re
direct or indirect denials on the one hand, and denials
by third-parties on the other. And, it also has a more
detailed discussion of possible conflicts as opposed to
real conflicts and it is a different way of looking at
those articles and classifying the reasons why they’re
not corrective disclosures. And, quite frankly, he did a
more thorough and [173] better job than I did. His
results are more consistent with mine but his analysis
is better.
Q. A couple more questions about Dr. Gompers,
actually.
After having analyzed Dr. Gompers’ reports and the
additional articles that defense counsel submitted in
this case, do you have an opinion regarding whether
defendants have demonstrated a lack of price impact?
A. I do.
Q. And what is your opinion?
A. My opinion is that the defendants have not
demonstrated the lack of price impact.
Q. Did you review Dr. Choi’s reports?
A. I did.
Q. And does this section of Exhibit 113 summarize
your analysis of Dr. Choi’s opinions?
A.

Yes.

Q. Can you explain for the Court what you are
summarizing on Slide 18?
A. My opinion is that the statistically significant
stock price declines in Goldman stock following the

764
announcements of the SEC ABACUS fraud lawsuit on
April 16, 2010, the DOJ criminal investigation on
April 29th, 2010, and the SEC Hudson investigation
on June 9th, 2010, do demonstrate stock price impact
from the misrepresentations that are pled in the
complaint.
[174] Dr. Choi and Dr. Gompers mischaracterize the
SEC complaint in the DOJ and SEC investigations as
confounding information. They’re not confounding
information, those are disclosure documents. They
disclose, and in the case of the SEC enforcement action
on April 16th, 2010, they disclose, in remarkable
detail, exactly what Goldman did wrong. It is very
much part of the corrective disclosure. So, it is not
confounding news, it is corrective disclosure.
My analysis demonstrates that the description of
Goldman’s conduct embodied in those three regulatory
actions is inextricably tied to the actions themselves.
To put it at a very simple level, if you were telling my
students what the take-away is, is you can’t have a
fraud charge without the fraud — without the
behavior — and particularly, the SEC enforcement
action does lay out the behavior that is the basis for
the fraud charge.
And, in fact, again with particular reference to the
April 16th, SEC enforcement action, that document
describes the precise conduct, that is the subject of the
alleged misstatements and omissions regarding
Goldman’s conflicts of interest and business principles
that are laid out in the complaint in this matter.
And, lastly, the news concerning the regulatory
enforcement actions just can’t be characterized as
confounding news because it is — the information in

765
those actions is [175] directly related to the allegations
in this matter.
Q. Based on your analysis, should there be any
disaggregation analysis in this case?
A. One could do a disaggregation analysis. I don’t
think there should be because the enforcement
actions, themselves, are, as I said, the announcement
of those is inextricably tied to the information and vice
versa. One could do a disaggregation. For example, as
Professor Choi mentioned, there is literature, the
Karpov, et al., paper is quite good that describes
methodology for characterizing and quantifying the
fines and penalties and direct legal costs. Karpov, et
al., also have some additional analysis of the effect, for
example, of when you have contemporaneous
settlement with the enforcement action. So, one could
do that analysis.
Secondly, as I testified in my deposition or one of my
depositions, one could also look at those SEC
enforcement actions, identify those that are really
pretty sparse, and I think Professor Choi found he
found six out of 70 that really didn’t have any detail,
or I guess it was no new news I think is what he
testified. So, one could disaggregate. As I say, I don’t
— it is my opinion that I don’t think one should, but if
the Court wants me to do that, I’m going do it.
Q. And why should you not here?
A. I think it is because the enforcement action is,
as I have testified, those announcements are
themselves part of the [176] corrective disclosure.
Q. Thank you. We have got about 10 minutes left,
let’s summarize slide 19 for the Court.

766
A. Slide 19 has my assessment of the flaws in Dr.
Choi’s analysis. As I pointed out in two of my reports,
the sample size of four is too small to draw any
meaningful conclusions, and if one looks at the
abnormal returns you can see that they’re widely
dispersed. Dr. Choi didn’t look at the substance of each
of those four to try to figure out how much of those
returns was attributable to the information that was
disclosed but it just defies logic that this kind of
variation, from 3 percent to 17 percent, is random
noise. It’s not random noise. There are fundamental
differences. Three of these actions involved accounting
issues. The Stifel Nicolaus case involved suitability,
those are different from Goldman. I was the SEC’s
economist in the Stifel case and looked at the other
three I can tell you that they’re very different.
Next, Professor Choi’s two-sample t-test is
improper. He doesn’t have two samples. He has one
sample and he has a discrete item that is specific,
minus 9.27 percent, which is specific to this case. You
can’t run a two-sample t-test when you don’t have two
samples.
Also, because the data are highly skewed — you can
see that in the table — you can’t assume the normal
distribution so you can’t run a standard t-test either.
And [177] the federal manual on statistical evidence
makes clear you can’t run a t-test on a small sample if
you don’t have normal data. So, you can’t run a
standard t-test either.
Dr. Choi ignored his own prior research recognizing
that the announcement of enforcement action
inherently conveys information about the underlying
conduct so it is a disclosure document.

767
And, lastly, he ignored market commentary linking
the SEC fraud lawsuit to the alleged false statements
about conflicts of interest and business principles.
Q. To sum it up, in analyzing Dr. Choi’s reports, do
you have an opinion regarding whether defendants,
through Dr. Choi, have demonstrated the lack of price
impact?
A. I do.
Q. What is your opinion?
A. That they have not.
Q. Let’s skip ahead, one more about Dr. Choi,
actually. Could you quickly summarize slide 20?
A. Dr. Choi has some qualitative analysis on the
April 16th date. Just common sense would tell you if
you have got a minus 9.27 percent drop and the
average for the others is minus 8, you have to do
something to try to explain why the actual minus 9.27
percent drop is typical of the 8, and he has some
qualitative analysis to try to explain why, even though
it is 9 and bigger than the average, it is really no
different [178] economically.
He also has some qualitative analysis for the April
30th and June 10th dates but does not have any
statistical analysis, and as a result he doesn’t prove
economically that it’s more likely than not that the
entire drop was due to these regulatory actions. And
under his assumption that if you assume, as he did,
apparently that returns are normally distributed, in
fact you will never get there. You can’t come to that
conclusion. There is no way that a minus 9.27 percent
drop would be consistent with those data.

768
Q. Okay. Let’s go to Slide 22 and you have got the
heading: Event study and economic analysis
demonstrate price impact on three corrective
disclosure dates here; is that right?
A.

Yes.

Q. And what are you showing the Court with slide
22?
A. The first point is the defendants’ misstatements
and omissions on the first day of the class period
inflated Goldman’s stock price, that is, kept the stock
trading at a higher price than the price at which it
would have traded if Goldman had disclosed the
failure to manage its conflict of interest and its failure
to adhere to its business principles in connection with
the — particularly with the Hudson transaction.
So, the Goldman had made these statements many,
many times before so they’re not new statements. And
in contrast to [179] what Professor Gompers said
about my opinion, it is not that not making these
statements would have caused the stock price to fall.
The issue is the management of Goldman’s conflict
and failure of Goldman, as pled in the complaint, that
disclose that it had not managed its conflict of interest,
it has not in fact placed its clients’ interests first and
adhered to business principles, if Goldman had
disclosed that information which was omitted, it is my
opinion that the stock price would have dropped on
April 16th, 2010.
And my conclusion, in the next, second bullet: The
statistically significant stock price declines on the
three corrective disclosure dates does establish price
impact.

769
And, finally, when one looks at the market
commentary which is summarized in the next several
slides, one can see very clearly that the statistically
significant stock price declines are in fact related to
the alleged misrepresentations concerning the
conflicts of interest management, the business
principles, and Goldman’s reputation.
Q. Let’s look at slides 23 and 24. Is this a summary
of your event study and economic analysis on the three
corrective disclosure dates?
A.

Yes.

Q. Can you summarize for the Court what your
analysis found?
A. The decision of the April 16th date shows, first
of all, if you go to the right-hand side, I calculated an
abnormal return [180] of minus 9.27 percent which is
statistically significant at the 1 percent level which is
what the three asterisks indicate.
The information that was disclosed was contained in
a is detailed, 22 page complaint. I have already
testified about that. There was new information, again
which I have testified about, in that document. The
new information, in particular, revealed that Goldman
had misled ACA, that ACA and Paulson’s interests
were aligned.
The fraud charge also provided new information
regarding the severity of Goldman’s conduct. This
wasn’t just somebody out in the marketplace alleging
that Goldman had done something wrong. This is their
primary regulator putting together a 22-page
complaint in which it described, in detail, how
Goldman had structured transactions or helped
someone do that to favor the interests of one client over

770
another and the SEC was saying, as in the Stifel case
I worked on, the SEC was saying this is bad behavior
which we don’t want to see.
Q. And, could you talk about April 26, 2010,
Dr. Finnerty? What does your analysis of that date
show?
A. April 26 was originally pled as a corrective
disclosure. When I analyzed it, I found that in addition
to the four e-mails that were issued by the Senate
Subcommittee on Investigations on April 24th, there
was a 12-page Goldman memo that went up on its
website the same day that explained why it hadn’t
done anything wrong.
[181] When the market opened April 26 and traded,
one finds that an efficient market is going to take all
of that information into account and the price of
Goldman stock did in fact drop, it dropped by almost
three and a half percent.
The abnormal return was minus 1.68 percent so it is
consistent with what one would expect but it was not
statistically significant even at the 10 percent level.
So, if I were doing a damages analysis, I would exclude
the April 26th date.
Q. Does your analysis, of April 26, 2010, impact
your price impact analysis for the other dates?
A.

No.

Q. Why not?
A. I analyzed each date separately.
Q. Okay. And let’s quickly go to 24. Could you, very
briefly, explain your analysis for April 30th and June
10th, for the Court?

771
A. April 30th was the day that the market reacted
to the announcement of April 29th in the Wall Street
Journal that there was a DOJ investigation. That,
followed by that two days, the Senate investigation in
which four e-mails were highlighted — or e-mails
regarding four CDOs were highlighted very
prominently.
The Wall Street Journal article didn’t identify the
CDOs by name, but it did have a very memorable
quote by Tom [182] Montag, who was the head of fixedincome trading, I believe, at Goldman on the
Timberwolf I transaction: This Timberwolf was one —
blank — deal.
So, investors, in my opinion, could easily infer, since
the Journal article also talked about the SEC having
referred the case, the evidence was more expansive
than the SEC case, it was similar and it related to
mortgage trading. What the April 29th announcement
revealed was that the misbehavior by Goldman
extended beyond ABACUS, it extended to at least one
other deal and at least as many as three other deals,
and it also indicated the severity of the Goldman’s
conflicts of interest and violations of its business
principles because a DOJ investigation is a pretty
serious event.
Q. And what about June 10th?
A. June 10th, the market reacted to a Bloomberg
report on June 9th regarding the Hudson 2006-1 CDO.
What was new in that complaint was the revelation
that at the time that transaction was done, Goldman
had misrepresented to investors that it was long
because it bought the equity tranche. What it did not
disclose to investors who purchased the Hudson CDO
was that they had purchased protection, in other

772
words gone short on the entire $2 billion CDO and so
that was new news. And the other aspect of the new
news was the severity.
So, now you had not only a criminal investigation
regarding CDOs in general, you now had another SEC
[183] investigation and this one was focused on the
Hudson CDO which was different from the ABACUS
CDO and, again, it indicated, really, a broadening of
the range of misbehavior by Goldman in violation of
its conflicts of interest policies.
THE COURT: Mr. Henssler, do you want to bring
this to conclusion?
MR. HENSSLER: Two more questions if I could,
your Honor. We won’t do the rest of the slides.
BY MR. HENSSLER:
Q. Dr. Finnerty, are slides 25 through the end your
summary of relevant market commentary following
the corrective disclosures?
A.

Yes.

Q. And the Court has that.
Dr. Finnerty, after doing your study in economic
analysis, do you have an opinion about whether the
alleged misrepresentations in this case impacted
Goldman’s stock price?
A.

Yes.

Q. What’s that?
A. My opinion is that the three corrective
disclosures did adversely impact Goldman’s stock
price and it led directly to the statistically significant
drops that I have quantified in my reports and in this
presentation.

773
Q. Even considering defendants’ evidence and
their experts, is it your opinion that plaintiffs have
demonstrated price impact [184] in this case?
A.

Yes.

MR. HENSSLER:
Thanks, your Honor.
THE COURT:

Okay. No more questions.

Mr. Giuffra?

MR. GIUFFRA: Your Honor, just give me a second
to set up here?
THE COURT:

Yes. Certainly.

MR. GIUFFRA: Your Honor, to speed things up,
this is the document I will be using.
CROSS EXAMINATION
BY MR. GIUFFRA:
Q. Good afternoon, Dr. Finnerty.
Would you put up Exhibit A?
Dr. Finnerty, this is a list of challenged statements
from your expert report. Do you see that? These are 18
days when plaintiffs challenged the truthfulness of the
Goldman Sachs’ statement.
It is right there on the screen. Do you see it?
A. I find it easier to look at this screen but they’re
the same.
Q. Okay.
***
[187] Q. Pages 25 and 26.
A.

25 and 26? There you go.

774
MR. HENSSLER: Counsel, there is numbers at
the top and bottom. Are you on the top?
MR. GIUFFRA:
the K.

I am looking at pages 25 and 26 of

THE WITNESS:

I am now, too. Thank you.

THE COURT: Conflicts of interest are increasing
and the failure to deal with and so forth?
MR. GIUFFRA: Yes, that’s it, your Honor.
BY MR. GIUFFRA:
Q. So, you agree that this was not a guarantee that
Goldman Sachs would not have any client conflicts,
right?
A.

I agree.

Q. And you would agree that the investment
banking business inherently involves potential
conflicts with clients?
A.

Yes, I would agree.

Q. And you would agree that the Goldman Sachs
conflict warning was not limited to any business?
A.

Yes, I would agree.

Q.

And applies to all the firm’s businesses, right?

A. Potentially all the firm’s business, yes. There is
no limitation that I can see.
Q. And it didn’t reference CDOs in particular,
right?
A.

No, it did not.

[188] Q. And, in the course of your work, you didn’t
do any analysis to see whether Goldman Sachs made

775
any disclosures about the risk of conflicts with clients
before February 6, 2007, right?
A. I saw that they made these same statements
before. I didn’t specifically do a separate analysis
because that predated the class period. But, they
certainly made the statements before.
Q. You didn’t do any work to assess whether any
inflation entered Goldman Sachs’ stock price prior to
the start of the class period on February 6, 2007, right?
A. I did not. I was asked to assume the allegations
in the complaint, which is what I did, so I did not do
that analysis.
Q. Okay, then let’s turn back to your chart, your
Exhibit A. Am I correct that plaintiff’s -A. Hang on. Let me go back to Exhibit A. Okay,
now I am back to Exhibit A.
Q. Am I correct that plaintiff’s first claim that
Goldman Sachs did not truthfully disclose its business
principles in the firm’s annual report issued on
February 21st, 2007, right?
A. No, that’s not what’s in the complaint. It is not
about disclosing your principles.
Q. Well, if you look at the document Chart A from
your report, the first time you reference the business
principles is on February 21st, 2007, right?
[189] A. Yes. And my Exhibit 8 says this is the first
date there were false and misleading statements and
omissions. That's what it says, but the case isn't about
whether it talked about the principles or whether it
talks about conflicts of interest.

776
Q. Just bear with my questions. Yes or no; the first
time it gets raised as a claim in this case is as of
February 21, 2007, right?
A. The first false and misleading misstatement and
omission date is February 6, 2007.
Q. And then the first time that there is an alleged
false and misleading statement with respect to the
business principles, according to your document, is
February 21st, 2007, right?
A. With regard to the business principles -Q. Yes.
A. -- or conflicts of interest management, or the
value of its reputation. The first time that is alleged in
the complaint to have occurred is February 6, 2007.
Q. Okay.
And then would you agree that Goldman Sachs had
previously published these business principles, right?
A. There had been prior 10Ks that had contained
substantially similar or the same statements
regarding the conflicts of interest, management, and
the business principles.
Q. And your testimony is that the first time that the
business principles caused inflation in Goldman
Sachs' stock price was [190] on February 21st, 2007?
A.

No. That’s not what is pled in the complaint.

Q. But if you look at Exhibit A, am I not correct the
first time that the business principles get referenced
as a source for inflation of the stock price of Goldman
Sachs is February 21, 2007?
A. No. The first date is February 6th and you have
got the date -- well, you didn’t get the date right in the

777
last question, you got it right in the prior question.
February 6th is the first date but you got it wrong in
the complaint. This is an omissions case.
Q.

Even though we are trying to get basic --

A. It is an omissions case. And you are asking me
about -- it is an omissions case.
Q. Were the business principles limited to any line
of business?
A.

The business principles apply across the firm.

Q. Now, would you agree that the business
principles were not a guarantee that Goldman Sachs
would never experience conflicts with its clients?
A.

Yes, there is no guarantee.

Q. And there is not a guarantee of ethical behavior
by all 30,000 Goldman Sachs employees at all times,
right?
A. I don’t see it as a guarantee of ethical behavior
by everybody.
[191] Q. And, would you agree that other
companies in the securities business issued, publicized
similar business principles, correct?
A. I have seen something similar from Morgan
Stanley. I don’t know about anybody else.
Q. Are you aware of any academic research
indicating that investors relied on a company’s
publication of its business principles?
A. No, but I am aware of academic research
indicating that investors place a higher value in
companies that they believe behave ethically.

778
Q. Now, let’s take a look at Exhibit F, which is
from your merits expert report.
A.

I am sorry. Which one?

Q.

The piece of paper --

A.

Oh, the piece of paper.

Q. You would agree that there was no statistically
significant increase in Goldman Sachs’ stock price
when the conflict risk factor statement was first made
during the putative class period on February 6, 2007,
correct?
A.

That’s -- yes, I agree.

Q. And you agree that there was no statistically
significant increase in Goldman Sachs’ stock price
when the first business principle statement was made
during the putative class period on February 21st,
2007, right?
[192] A.

I agree.

Q. And you would agree there was no statistically
significant increase in Goldman Sachs’ stock price on
any of the 18 dates when the challenged statements
were made?
A. Yes, I agree. I say that in the report and I stand
by that.
Q. Okay. Now, Exhibit F, which I have on the
board in front of you, that reflects your calculation of
inflation in Goldman Sachs’ stock during the putative
class period, correct?
A.

Yes.

Q. And you would agree that the Hudson CDO
closed on December 5, 2006?

779
A. Somewhere around there. I’m not sure of the
exact date. It was certainly December 2006.
Q. And, you would agree with me that February 6,
2007, is the date of the Goldman Sachs 10K containing
the first conflict risk disclosure during the class
period, right?
A. It is the first one following -- yes. The first date
in the class period that had the challenge dates.
Q. And Goldman Sachs put out its risk statement
following the closing of the Hudson CDO, right?
A. Yes. It was the first time that statement
appeared following the closing of the Hudson CDO.
* * *
[196] A. I can’t see it. We are having continuing
technological difficulties. It is like my classroom, it
doesn’t work.
Q. I will represent to you that the statement that
plaintiffs challenge on June 14, 2007 is the statement
that, during the earnings call, that Mr. Viniar made
when he said: Most importantly, the basic reason for
our success is our extraordinary focus on our clients.
Do you see that?
A.

Yes.

Q. That’s a statement, at least according to Exhibit
8 which is up in front of you, caused, according to you,
a $25.38 increase in inflation in the stock price of
Goldman Sachs?
A. No. It was a failure to disclose the conflicts of
interest and the failure to manage those conflicts of
interest, the failure to adhere to the business

780
principles and the failure to disclose the risk to
Goldman’s reputation associated with not managing
its conflicts of interest. The first time it had a public
disclosure and it was this earnings call it was the
failure to disclose that information in the marketplace
and if that had been disclosed, it is my opinion that the
stock price would, in fact, have dropped by that
amount.
Q. So, your position is that by saying to the
marketplace that Goldman Sachs’ basic reason for our
success is our extraordinary focus on our clients and
not disclosing the supposed conflict in connection with
Timberwolf, Anderson, and [197] ABACUS, Goldman
Sachs added $25.38 of inflation to its stock price.
Is that your position?
A. No. No, that’s not my position. My position —
would you like me to answer your question or do you
just want to yell at me?
My position is I have just testified —
THE COURT: Doctor, let him ask the questions,
you answer the questions. Mr. Henssler will have an
opportunity to bring out other information.
THE WITNESS:
THE COURT:

Okay.

Just answer the question.

BY MR. GIUFFRA:
Q. Dr. Finnerty, if you look at your Exhibit 8,
which I think you have in front of you, it says: Inflation
due to ABACUS, Anderson and Timberwolf: $25.38.
Do you see that?
A.

Yes.

781
Q. And the date that inflation supposedly enters
the stock price, according to your analysis, is on
6/14/2007; right?
A.

Yes.

Q. And on 6/14/2007 the supposed misstatement
made by Goldman Sachs is Mr. Viniar’s statement
that the basic reason for our success is our
extraordinary focus on our clients; correct?
[198] A. Mr. Viniar made that statement. The
reason the stock price would have lost the inflation
was because of the omissions. It is not the
misstatement, it is omissions.
Q. Okay, but your position is that Mr. Viniar, once
he made the point that a basic reason for our success
is our extraordinary focus on our clients must have
had to have disclosed to the market that the company
had conflicts in connection with ABACUS, Anderson,
and Timberwolf.
Is that your position?
A.

No, that’s not my position.

Q. Is it your position, though, is that this
statement itself caused the infliction?
A. No, it is not.
Q. Okay, so it is your position that it is the failure
of Goldman Sachs, as of this date, to make a disclosure
about conflicts in connection with these three CDOs,
caused a $25.38 inflation in the stock price?
A. Yes. That’s correct.
Q. Okay.
Now, am I correct, if I just look at Exhibit 8, that the
$10.32 of inflation that you identify between February

782
6, 2007 and 6/14/2007, plus the additional inflation of
$25.38 which totals $35.70, that inflation lasts almost
three years until April 16, 2010 when the SEC files the
ABACUS complaint; is that correct?
[199] A. Yes. Under the constant dollar method,
that’s correct. It lasts that Long.
Q. You would agree that plaintiff alleges that
Goldman Sachs made 14 of the challenged statements
between June 14, 2007 and April 16, 2010, correct?
A. Correct.
Q. And it is your position that these 14 statements
maintained the $35.70 per share inflation in
Goldman’s stock price?
A.

Yes. They maintain the price inflation.

Q. And, if Goldman had not made these 14
statements, your position is that the firm’s stock price
would have fallen by $35.70?
A.

No.

Q. Well, your document here says that — this is
your own supposed inflation ribbon during the damage
period, has a constant amount of $35.70, and as I
understand your testimony, it’s that by making these
statements about business principles or the conflicts
risk factor, Goldman Sachs maintained this inflation
in the stock price.
Is that correct?
A. No. The misstatements are the omissions. It
was the omission of information which, if it had been
disclosed, would have caused the inflation to come out
of stock sooner than it did.
* * *

783
[202] So, let’s suppose if Goldman Sachs had not
made the statements that you claim maintained the
stock price between June 2007 and April 2007, would
the stock price have fallen?
A. I am assuming liability. Goldman made those
statements.
Q. If Goldman had not made the statements,
would the stock price have fallen?
A. I think that’s irrelevant. I don’t know. Goldman
made the statements. And in my opinion it had
nothing to do with affirmative misstatements. They
are misstatements because they contain omissions
and the opinion is the inflation came into the stock
because Goldman lied about its conflicts of interests
management and its business principles and the stock
would fall when that truth was revealed.
Q. Let’s now, I will represent to you that Goldman
Sachs’ stock price, on November 20, 2008, was $52 a
share. Is it your position that Goldman Sachs had
disclosed the fact that it had conflicts in connection
with these four CDOs, the stock price would have
fallen by 70 percent?
A.

Yes.

Q. Now, am I correct that April 16, 2010, we have
established that’s the date of the ABACUS complaint
and your claim that the filing of that ABACUS
complaint removed $17.09 of the $35.70 of inflation
that you find in the stock price, correct?
A.

Correct.

Q. And you would agree with me that the ABACUS
complaint [203] didn’t mention Goldman Sachs’
conflicts risk factor statements from its 10K, right?

784
A. It didn’t mention it by name but it described the
behavior that clearly -- that clearly violated it.
Q. There was no mention, yes or no, of the actual
10K disclosure, correct?
A.

It did not mention the 10-k disclosure.

Q. And there was no mention of the business
principles, correct?
A. Again, it didn’t mention the principles by name
but described the payor.
Q. As far as you know the SEC never charged
Goldman with making false statements about its
conflict risk disclosure, correct?
A.

Not that I’m aware of.

Q.

Or its business principles, correct?

A.

Not that I’m aware.

Q. And you would agree that, before April 16,
2010, the market knew that Paulson had assisted
Goldman in designing a CDO that Paulson intended to
short?
A.

Yes, I think that’s true.

Q. And you would agree that before April 16, 2010,
the market knew that Paulson intended to bet against
that CDO?
A. It knew that Paulson was betting against CDOs
in general and, yes, that probably that one too, but
certainly that [204] Paulson had taken a negative on
this.
Q. And the next corrective disclosure date
identified on your chart is April 26th -- let me restate
that. You would agree that, on April 26, the permanent

785
Senate subcommittee released a series of e-mails
about Goldman Sachs betting against CDOs, right?
A.

No. It was on the 24th.

Q. 24th; but there was no statistically significant
drop in the stock price of Goldman Sachs on that
Monday after the weekend e-mails had been released,
correct?
A. That’s correct. There was a drop but it was not
statistically significant.
Q. And you would agree that on April 29, after the
market closed, the Wall Street Journal and some other
publications recorded a criminal investigation of
Goldman Sachs, right?
A.

Yes.

Q. And that’s one of your -- and on the 30th, that’s
one of your corrective disclosure dates, right?
A.

Yes.

Q. And you would agree that no specific
transactions, as being under investigation, were
identified in that Wall Street Journal article, right?
A.

Yes.

Q. And there is no mention of CDOs in that article,
right?
A.

They mention mortgages but not CDOs.

[205] Q. And you would agree that your testimony
is that that article, that single article removed $12.43
of inflation from the stock price of Goldman Sachs,
right?
A.

Yes.

786
Q. And you basically went and, in your analysis,
you attributed that dissipation of $12.43 to investors
supposedly learning about conflicts in connection with
Hudson, Anderson, and Timberwolf, correct?
A.

Correct.

Q. And in a report you allocated one third of the
$12.43 drop to each of those CDO transactions, right?
A.

Yes.

Q. And you would agree that the press reports
about the supposed criminal investigation didn’t
reference any of those CDOs, right?
A. The press reports did not. The information had
been disclosed previously but it wasn’t in those
reports.
MR. HENSSLER: Your Honor, subject to the
agreement in your stipulation, it has been 30 minutes
for counsel’s cross.
MR. GIUFFRA: I don’t think we have. We have two
more minutes left.
THE COURT: I think with have to add some time
for the technical difficulties we had. Mr. Giuffra has
another five minutes.
MR. GIUFFRA: Thank you, your Honor.
* * *
[207] Q. Are you aware of any SEC enforcement
action with regards to the Hudson CDO?
A.

No.

Q. Are you aware of one with respect to the
Anderson CDO?
A.

No.

787
Q.

Timberwolf CDO?

A.

No.

Q. Now, would you agree with me that there is no
accepted test in financial economics for measuring
severity?
A.

I would agree with that.

Q. And would you agree that government
investigations may conclude without a finding of
wrongdoing?
A.

Yes.

Q. And you would agree with me that a company
stock price declines typically greater if an enforcement
complaint is filed with no concurrent resolution, as
opposed to filed with a settlement?
A.

Yes.

Q. And
you
would
agree
that
specific
characteristics of the government enforcement action,
whether it is a criminal or civil, can affect the impact
on the stock price, right?
A.

I’m sorry. Can you give me that one again?

Q. You
would
agree
that
the
specific
characteristics of a government enforcement action,
civil versus criminal, can [208] impact the stock price
reaction?
A.

Yes. I testified to that effect in my direct.

Q. Did you do an economic analysis of the impact
of the denials on the market reaction to the press
articles on conflicts that were set out in Dr. Gompers’
report?

788
A. I evaluated each of the denials. My conclusion
is the denials were strong enough -Q.

Did you do an economic analysis?

A.

Yes, I did. I looked at every single one of them.

Q.

Did you do an event study?

A.

I did an event study of each date. Yes, I did.

Q. Did you do an event study in analyzing the
denials?
A. The denials occurred simultaneously with the
supposed disclosure that Professor Gompers had cited,
so I analyzed the combined effect and my opinion is
that they were offsetting. So, I did use an event study
in my analysis to show that there was an offset.
Q. Are you aware of any economic analysis study
and the difference between effective and ineffective
denials?
A. That is just common English. I don’t know that
that is an economic term.
Q. You would agree that -- you didn’t identify any
analyst reports that specifically referenced the
Goldman Sachs risk factor from the 10K?
A. There were analyst reports that explained
conflicts of [209] interest management and business
principles and I believe I cited those in -- cited some of
those in my report.
Q. Okay. Are you aware of any analyst report
speaking specifically about the business principles?
A.

Yes. I am.

Q.

Okay, we will talk about that.

789
Your Honor, because I know I am out of time, I have
one more bit and I am done, I will take one minute.
Now, are you aware that Professor Gompers identified
-- let’s put up modified Exhibit F. Are you aware that
Professor Gompers identified 36 dates during the class
period with press reports of Goldman Sachs’ client
conflicts, right?
A.

Yes.

Q. And it is your testimony that the inflation in
Goldman Sachs’ stock price remained constant during
the two periods that are identified in your Exhibit 8,
that would be the period from February 2007 to June
2007, and then the second period is June 2007 up to
the filing of the ABACUS complaint?
A. Under the constant dollar method, yes, I do
have that opinion.
Q. And, it is your position that Goldman Sachs’
stock price did not respond to a single one of those
press reports that are identified by Dr. Gompers
showing Goldman Sachs’ conflicts?
A. There was no significant change with regard to
any of them. [210] He showed that and I showed that.
As a result of no significant change the inflation didn’t
change.
Q. You agree with Dr. Gompers that there was no
statistical impact from any of those press stories prior
to the ABACUS complaint on April 16, 2007, right?
A.

There was no impact from any of those 36.

MR. GIUFFRA: Thank you.
THE COURT: Mr. Henssler?
MR. HENSSLER: No further questions, your Honor.
Thanks, Dr. Finnerty.

790
THE COURT: Thank you, Doctor.
THE WITNESS: Thank you, your Honor.
THE COURT: You are excused. Thank you for your
help.
(witness excused)
* * *

791
[1] UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
10 Civ. 03461 PAC
————
IN RE: GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION,
Plaintiffs,
v.
GOLDMAN SACHS GROUP, INC.,
Defendants.
————
July 25, 2018
10:00 a.m.
————
Before:
HON. PAUL A. CROTTY,
District Judge
————
APPEARANCES
LABATON SUCHAROW, LLP
Attorneys for plaintiffs
BY:

THOMAS A. DUBBS, Esq.
JAMES W. JOHNSON, Esq.
LAWRENCE A. SUCHAROW, ESQ.
JEFFREY A. DUBBIN
- and –

792
ROBBINS GELLER RUDMAN & DOWD, LLP
(San Diego)
BY:

ROBERT R. HENSSLER, JR.
JONAH H. GOLDSTEIN
SPENCER A. BURKHOLZ, Esq.
Of counsel

SULLIVAN & CROMWELL, LLP (NYC)
Attorneys for defendants
BY:

ROBERT J. GIUFFRA, JR., Esq.
RICHARD H. KLAPPER, Esq.
DAVID MAXWELL REIN, Esq.
JACOB E. COHEN, Esq.
BENJAMIN R. WALKER, Esq.
JULIA A. MALKINA, Esq.

[79] But what I am saying, as well, is that it was
known, and a number of the articles that formed the
36 that I use in my event study analysis, include
discussions of [80] Goldman Sachs not telling its
investors of Paulson’s role in selecting the collateral
assets or the fact that Paulson was going to be shorting
them.
So, generally, it was known that investors had been
misled.
MR. BURKHOLZ: Can you bring up, Larry, clip 1?
Sir, I am going to show you your deposition.
(deposition played)
BY MR. BURKHOLZ:
Q. And you were being truthful in that deposition,
correct?
A.

Yes, I was.

793
Q. Okay.
Can we bring up paragraph 4 of the SEC complaint?
Sir, that’s tab 5 of your binder, if you want to look at
it, Plaintiff’s Exhibit 2.
THE COURT:

What paragraph?

MR. BURKHOLZ: Paragraph 4 of the SEC
complaint.
Q. Do you see where it says, Mr. Tourre was
principally responsible for ABACUS 2007 AC 1?
A.

Yes.

Q. And can we look at paragraph 18 on page 7, flip
to that? This is an e-mail from Mr. Tourre on
January 23rd, 2007, where he says: More and more
leverage in the system, the whole building is about to
collapse now.
Sir, this e-mail, Goldman e-mail from the person
[81] principally responsible for ABACUS, this was
never public until the SEC complaint; isn’t that true,
sir? This e-mail was never public? Simple yes or no.
A. I am unaware of this e-mail having been made
public prior to the April 16th complaint.
Q. Okay. Let’s look at the second e-mail in the
same paragraph. Similarly, it shows an e-mail on
February 11th to Mr. Tourre from the head of
Goldman structured product correlation trading desk
that stated in part, “the CDO business is dead, we
don’t have a lot of time left.”
Same question: This e-mail never out in the public
until the complaint. Isn’t that true, sir?
A. Again, I’m unaware of this e-mail being made
public prior to the SEC complaint.

794
Q. Let’s look at one more, because we don’t have a
lot of time here; paragraph 32. This is an e-mail that
Mr. Tourre sent to another Goldman employee
regarding a meeting that he was at with Mr. Paulson
and ACA in which he said: I am at this ACA/Paulson
meeting. This is surreal.
Again, same question, that e-mail, internal e-mail,
never out in the public until this SEC complaint; isn’t
that true, sir?
A. Again, I am unaware of this e-mail being public
before. I am not sure what the meeting being surreal
actually would mean, but I am unaware of this e-mail
being made public prior to the [82] ABACUS
complaint.
Q. Okay. In fact, none of the e-mails — you read
the SEC complaint, there was over a dozen e-mails in
that complaint — none of them were ever public until
the SEC Complaint was filed; isn’t that true, sir?
A. I am unaware of any of those e-mails being
public prior to the publication or the filing of the SEC
complaint.
Q. Right; and you actually read a lot of what was
out in the media and in your 38 articles, none of these
e-mails are in those articles, are they?
A. I think I have stated that I am unaware of these
e-mails being public prior to the SEC complaint.
Q. And in the book, “Greatest Trade Ever,” none of
these e-mails are in that book, are they, discussing the
ABACUS transaction?
A.

No.

Q. It is a simple question. Are the e-mails in the
book?

795
A. Again, it is my understanding that the e-mails
were not in the book having looked at the book, but the
general principle that Paulson was involved in
selecting the collateral assets and that investors had
been misled about Paulson shorting them was known.
So, these e-mails were not known but the conflicts that
were embedded in the ABACUS complaint were
known through a variety of news publications and the
book which you just mentioned.
[83] THE COURT: Doctor, you would do a lot
better if you would just answer his question.
MR. BURKHOLZ: Yes.
THE WITNESS:

Okay.

MR. BURKHOLZ: Thank you, your Honor.
BY MR. BURKHOLZ:
Q. You talk about the Goldman denial on
April 16th in your direct testimony. Do you remember
that?
A.

Yes.

Q. Okay. That occurred after the internal e-mails
in this complaint were released, right?
A.

Yes.

Q. Okay. And the denials before April 16th,
including the e-mail we just looked at, standing in the
middle of these monstrosities, and the CDO business
is dead; those e-mails weren’t out in the public when
Goldman was making its denials, were they?
A.

That’s my understanding.

Q. Thank you. Let’s talk a little bit about
Goldman’s denials. Sir, you agree with me, don’t you,

796
that positive news can blunt negative news when
information comes out about Goldman?
[84] A. Yes. As a theoretical matter, positive news
can offset negative news. Any day that you have
confounding news, you have to try an ascertain what
each component is doing to the stock price.
Q. In fact, positive news can cancel out negative
news, right?
A. It would be a knife edge situation in which the
positive news would exactly offset the negative news
but, hypothetically, if two identical pieces of news with
the identical but opposite cash flow implications came
to the market, they would exactly offset and you would
have no stock price movement.
Q. In the denials by Goldman throughout the class
period in the articles, they issued their own denials
and press releases after Mr. Blankfein’s testimony.
That was positive news, right? You are not saying it
was negative news, are you?
A. They denied wrongdoing. They denied what
they did was illegal. They didn’t deny the facts of the
conflict but that what they said was that what we did
was not illegal.
Q. It was positive news for Goldman shareholders.
They’re seeing this criticism and they have denials
about the company; that’s positive news for Goldman’s
stock price, right?
A. What they’re saying is that they believe what
they did was not illegal.
Q. Positive news, right? Is it positive or negative?

797
A. It is certainly not negative news. I am not sure
[85] necessarily whether it would be of a positive
magnitude but it is certainly not negative news.
Q. I want to take a look at your, it is Defendant’s
Exhibit B, I marked it as, I think it is tab — it is your
4/16 report, I think it is the second —
A. Tab 2.
Q. Yes, tab 2; that’s your April 16, 2015 report?
A.

It is, sir.

Q. Okay.
Can you turn to Exhibit 5? So, on Exhibit 5 I have
highlighted what you title: Public discussion of the
Goldman Sachs business conflict of interest during the
class period and prior to April 16, 2010. I have
highlighted one of the articles on March 9, 2007 and
this is from your Exhibit 5, correct?
A.

Yes.

Q. And in the description of the public discussion
of Goldman Sachs’ business conflict of interest let me
show you what you left out of that description. It is
tab 6 of your binder, it is the article, Plaintiff’s
Exhibit 3, this is what you left out: “‘There is no
conflict,’ snaps Lucas van Praag, Goldman Sachs’ chief
spokesman. ‘The suggestion that there might be a
conflict can only be described as an attempt at
mischief-making or a fundamental lack of
understanding about how this business is conducted.’”
[86] That denial is not in your Exhibit 5, is it? It is
not there? It is a simple question, is it there?
A. I don’t tabulate where Goldman Sachs alleged
no wrongdoing. So —

798
Q. When you gave the Judge the description of the
important information in the public discussion
regarding the conflict from the article you left out the
denial, didn’t you? It is not in there.
A. The denial — this portion of the article is not
there. Certainly the article, in its entirety, speaks for
itself.
Q. Right, but you didn’t include the denial in the
provision in your report that you gave to the Judge,
did you?
A. I did not include this section in the excerpt in
my Exhibit 5.
Q. Okay. Let’s move on to Exhibit 6.
So, Exhibit 6, if you can turn to page 4. So, on this
day you have the article regarding the book and the
next day the book comes out, and you also included an
article that came out at the same time McClatchy, and
in that description of the public discussion of Goldman
Sachs’ mortgage and CDO conflicts of interest during
the class period prior to April 16, 2010, you provided
this excerpt for the Judge about Goldman had only
$40 billion in securities. Let me show you what you left
out for the Judge. From the article it is Plaintiff’s
Exhibit 23, tab 26 to your binder, it is on the sixth
page, this is what [87] you left out. DuVally said that
investors were fully informed of all known risks.
A. What tab was that again, sir?
Q. I believe it is tab 26.
A. Okay.
THE COURT:

What page?

MR. BURKHOLZ: Page 6 of the article.

799
THE COURT: DuVally said that investors were
fully informed of all known risks?
MR. BURKHOLZ: Yes.
Q. You left that out of your description in exhibit 6,
didn’t you?
A. This is not included in what I excerpted in
Exhibit 6.
Q. Let’s move on to — I only have two more to do,
so let’s look at same exhibit, no. 15. This is the
December 24, 2009 article, New York Times article,
that you say had a public discussion of Goldman’s
mortgage and CDO conflicts of interest.
A.

Excuse me, sir. Which one? No. 15 on page 5?

Q. No. 15, page 5.
A.

Thank you.

Q. So, you have a description of what you say is the
public discussion of their conflicts. Let me show you
what you left out, and the article is at tab 30,
Plaintiff’s Exhibit 27, and let me show you all four, go
through them.
So, let me show you a few of the denials in the [88]
article. On your direct you didn’t point out — it is
actually on Defendant’s slide 10 in your direct had
some of the information but it didn’t have the denials
and neither did your Exhibit 6 so let me show them to
you. Here is one of them: Goldman and other Wall
Street firms maintain there is nothing improper about
synthetic CDOs.
Let’s go to page 5. This is when they’re having a
discussion of Hudson: The Goldman salesman said
that CDO buyers were not misled.

800
Let’s go to the next two, and on page 2 carrying on
to 3: Mr. DuVally, the Goldman spokesman, says
products were created satisfy client demand and, in
addition, he said that everyone knew they were
betting against the mortgages.
None of those denials that I show you are in your
Exhibit 6, are they? They’re not in there?
A. The portions which you just highlighted are not
in what I excerpted in Exhibit 6.
Q. Right.
Let me show you, take a look at tab 48, it is
Plaintiff’s Exhibit 45. So, on the same date you are
aware on the same day the New York Times article
came out that Goldman issued a denial, right?
A.

Yes.

Q. Right. And back in Exhibit 6 you have the New
York Times article but you didn’t include Goldman’s
denial in Exhibit 6, [89] did you, of the public
discussion of their conflicts?
A. I’m not sure that Business Insider is included in
the Factiva major publications database so it wouldn’t
have come up.
Q. Right, but the fact that Goldman issued a denial
that same day, I am sure you were looking for those
kinds of information when you were doing your search,
weren’t you?
A. No. What I was looking for and the way I
employed the search, sir, was to do exactly what people
do when they do event studies. I wanted to find days
upon which there was discussion of conflicts of interest
at Goldman Sachs, both conflicts in other areas of
Goldman Sachs, as well as conflicts in the mortgage

801
and the CDO business. That’s the search, and I did it
in the Factiva major publications database, and what
I got out is exactly what I put in my report.
Q. So, the fact that Goldman had a denial on that
day, you weren’t aware of that when you issued your
report?
A. I certainly looked, and in the articles there is
often a discussion of Goldman’s denials. When there is
a discussion of the Goldman’s denials in the articles
which are the product of that objective replicable
search, I saw that Goldman had denied in those
articles.
Q. Let’s look at no. 20 of your Exhibit 6. Do you see
here you have two articles regarding Mr. Blankfein’s
testimony in front of the FCIC? It is on page 6.
[90] A.

No, it is on page 8.

Q. Okay. Do you see it in your Exhibit 6?
A.

Yes.

Q. The two articles?
Let me show you what you left out on that day for
the Judge regarding the public discussion. It’s
Goldman’s response that day, to Mr. Blankfein’s
testimony; it is tab 50 to your binder, Plaintiff’s
Exhibit 47. It says — this is a Goldman Sachs press
release saying that Mr. Blankfein’s statements had
been erroneously reported by the media and about him
saying that, he made an admission that there were
practices with respect to mortgage-related securities
that were improper. Here is Goldman saying they did
no such thing and Mr. Blankfein believes that they
behaved or didn’t say that they behaved improperly in
any way.

802
This denial is not in your Exhibit 6, is it?
A. This press release wouldn’t have been picked up
by that Factiva search.
Q. When you issued your report in this case were
you aware that Goldman had issued denials on the day
of the New York Times article and on the day after
Mr. Blankfein testified?
A. So, if it’s discussed in the articles which get
picked up by the search that I do in the Factiva
database, then I will see in those that there is a
mention of a denial by Goldman Sachs. If it is not
picked up, then I wouldn’t have [91] looked at it.
THE COURT: Do you recall on this particular
document whether it is so?
THE WITNESS: I would have to go back and read
the entire article or any of the articles that came out
of that search, sir, to know whether or not there was a
mention of this particular denial, but the press release
wouldn’t be picked up by that search.
THE COURT:

Okay.

BY MR. BURKHOLZ:
Q. You agree with me, don’t you, that the two
denials I just showed you, that was relevant
information to investors regarding Goldman’s denial
of accusations being made against them?
A. So, it is relevant about whether or not the
investors thought that the actions were legal but the
nature of the conflict itself was not denied. The fact
that Goldman Sachs had put together these CDOs and
shorted them, that was known and it wasn’t denied
that they had actually shorted those securities.

803
Q. What about Mr. van Praag’s statement there is
no conflict, that I showed you earlier? Not relevant?
Not a denial?
A. Again, I mean to the extent that is in the article
it’s in one of the 13 as opposed to the other 23.
* * *

804

This page intentionally left blank.

